<html>
<title> - EMERGENCY SUPPLEMENTAL APPROPRIATIONS FOR FISCAL YEAR 2005</title>
<body><pre>[Senate Hearing 109-123]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-123

       EMERGENCY SUPPLEMENTAL APPROPRIATIONS FOR FISCAL YEAR 2005

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON APPROPRIATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                            SPECIAL HEARINGS

                   FEBRUARY 16, 2005--WASHINGTON, DC
                   FEBRUARY 17, 2005--WASHINGTON, DC

                               __________

         Printed for the use of the Committee on Appropriations



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________
                    U.S. GOVERNMENT PRINTING OFFICE
20-448                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                      COMMITTEE ON APPROPRIATIONS

                  THAD COCHRAN, Mississippi, Chairman
TED STEVENS, Alaska                  ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         PATRICK J. LEAHY, Vermont
CHRISTOPHER S. BOND, Missouri        TOM HARKIN, Iowa
MITCH McCONNELL, Kentucky            BARBARA A. MIKULSKI, Maryland
CONRAD BURNS, Montana                HARRY REID, Nevada
RICHARD C. SHELBY, Alabama           HERB KOHL, Wisconsin
JUDD GREGG, New Hampshire            PATTY MURRAY, Washington
ROBERT F. BENNETT, Utah              BYRON L. DORGAN, North Dakota
LARRY CRAIG, Idaho                   DIANNE FEINSTEIN, California
KAY BAILEY HUTCHISON, Texas          RICHARD J. DURBIN, Illinois
MIKE DeWINE, Ohio                    TIM JOHNSON, South Dakota
SAM BROWNBACK, Kansas                MARY L. LANDRIEU, Louisiana
WAYNE ALLARD, Colorado
                    J. Keith Kennedy, Staff Director
              Terrence E. Sauvain, Minority Staff Director


                            C O N T E N T S

                              ----------                              

                      WEDNESDAY, FEBRUARY 16, 2005

                                                                   Page
Opening Statement of Senator Thad Cochran........................     1
Statement of Senator Robert C. Byrd..............................     2
Statement of Hon. Donald H. Rumsfeld, Secretary of Defense, 
  Department of Defense..........................................     3
General Richard B. Myers, Chief, Joint Chiefs of Staff, 
  Department of Defense..........................................     3
Tina W. Jonas, Under Secretary of Defense (Comptroller), 
  Department of Defense..........................................     3
Dr. David Chu, Under Secretary of Defense for Personnel and 
  Readiness, Department of Defense...............................     3
Iraqi Security Forces............................................     4
Afghan Security Forces...........................................     5
Repairing and Replacing Equipment................................     5
Force Restructuring..............................................     6
Force Protection.................................................     7
Military Personnel...............................................     8
Military Construction............................................     9
Healthcare.......................................................    10
Survivor Benefits................................................    10
Prepared Statement of Donald H. Rumsfeld.........................    10
Growing and Sustaining an Army at War............................    12
Funding Operation Iraqi..........................................    13
Combating Improvised Explosive Devices...........................    15
Funding for Iraqi and Afghan Security Forces.....................    16
Increasing Survivor Benefits.....................................    17
Why is Army Restructuring in the Supplemental?...................    18
Increased Force Protection.......................................    19
Timing of Force Protection Improvements..........................    20
Possible Expanded Role for NATO..................................    21
Military Recruiting and Retention................................    22
What was Included in the Supplemental............................    23
Funding Guard and Reserve Equipment..............................    24
Modularity Schedule for the Guard and Reserve....................    25
Permanent Bases in Iraq..........................................    25
Assaults on Women Detainees......................................    26
NATO's Level of Support..........................................    27
How Much Flexibility Needed in Supplemental?.....................    28
Refurbishing and Replacing Equipment.............................    29
Sufficiency of Fiscal Year 2005 Supplemental Request.............    29
Accounting for $8.8 Billion in Iraqi Funds.......................    29
Funding for Care of Veterans.....................................    31
Data on Iraqi Security Forces....................................    34
Iraqi Contributions to Their Training............................    36
Quality of U.S. Military People..................................    37
Paying for Transformation........................................    38
Allegations of Abuse Against Female Detainees....................    38
Military Construction at Guantanamo..............................    39
Dealing With Iraqi Ammunition Sites..............................    40
Status of Iraqi Security Forces..................................    41
Working With India...............................................    43
Election in Iraq.................................................    43
Role of Syria....................................................    44
Covert and Clandestine Activities................................    45
Development Fund for Iraq and Contracting Abuses in Iraq.........    48
Accountability for $5.7 Billion for Security Forces..............    51
Calling Back to Service Former Iraqi Military....................    51
Allegations of Abuse Against Female Detainees....................    51
Funding for Veterans Needs.......................................    52
Increased Death Benefit Retroactive and Tax Free?................    52
Tax Deductibility of Increased Benefits..........................    53
Use of Supplemental Funding......................................    56
Accountability for Large Contracts...............................    57
Making up for Pay Differences for Activated Guard and Reserve....    59
Is Torture Ever Permissible?.....................................    61
Decreasing Activation Times......................................    62
How Long Will Restructuring Take?................................    63
Guard and Reserve Equipment Shortfalls...........................    64
When Will Fiscal Year 2005 Funds Run Out Without the 
  Supplemental?..................................................    65
Prepared Statement of Senator Larry Craig........................    66
Additional Committee Questions...................................    66
Questions Submitted by Senator Ted Stevens.......................    66
Vehicle Armoring.................................................    66
Questions Submitted by Senator Pete V. Domenici..................    69
Use of Supplementals to Cover War Costs..........................    69
Iraqi Security Forces/U.S. Troop Withdrawal......................    70
National Guard Equipment Needs...................................    71
Questions Submitted by Senator Christopher S. Bond...............    71
Questions Submitted by Senator Richard C. Shelby.................    72
Stryker Armor....................................................    72
Questions Submitted by Senator Kay Bailey Hutchison..............    72
Fort Bliss.......................................................    72
Overseas Basing Commission.......................................    73
Death Gratuity...................................................    73
Transformation...................................................    73
Military Construction in CENTCOM.................................    73
Army Restructuring...............................................    74
Marine Corps Restructuring.......................................    74
Questions Submitted by Senator Mike DeWine.......................    74
Questions Submitted by Senator Sam Brownback.....................    75
Iraq: Troop Rotations/Returns from Duty..........................    75
Iraq: Relationship with the Ukraine..............................    77
Russia: War on Terror............................................    77
Central Asia.....................................................    78
Questions Submitted by Senator Robert C. Byrd....................    78
Rendition of Prisoners...........................................    78
Guantanamo Prison................................................    79
Budgeting for the War............................................    80
Standards for Success............................................    81
Plan Afghanistan.................................................    82
Questions Submitted by Senator Patrick J. Leahy..................    83
Iraqi Forces.....................................................    83
Ahmed Chalabi....................................................    83
Abuse of Iraqi Women Detainees...................................    83
Rendition........................................................    86
Guantanamo.......................................................    87
Torture Memo.....................................................    87
Question Submitted by Senator Dianne Feinstein...................    88
Questions Submitted to General Richard B. Myers..................    88
Question Submitted by Senator Thad Cochran.......................    88
Questions Submitted by Senator Ted Stevens.......................    88

                      THURSDAY, FEBRUARY 17, 2005

Opening Statement of Senator Thad Cochran........................    91
Statement of Senator Robert C. Byrd..............................    92
Statement of Hon. Condoleezza Rice, Secretary, Department of 
  State..........................................................    93
Prepared Statement of Condoleezza Rice...........................    93
Iraq.............................................................    99
Afghanistan......................................................    99
Tsunami Relief...................................................   100
Syria............................................................   101
Iraq/Syria/Iran..................................................   101
Iran and Syria...................................................   102
Iraq.............................................................   102
Global War on Terror.............................................   104
Iraq Global War on Terror........................................   106
Iran.............................................................   108
Sudan............................................................   109
Afghanistan......................................................   110
Chemical Weapons Convention Treaty...............................   110
Indonesia........................................................   111
Iraq.............................................................   112
Tsunami Relief...................................................   112
Iraq.............................................................   113
Israel/Palestine.................................................   114
Tsunami Relief...................................................   115
Iraq.............................................................   117
Poland...........................................................   117
Tsunami Relief...................................................   118
Palestine........................................................   119
Haiti............................................................   121
Afghanistan......................................................   122
Iraq.............................................................   124
Tsunami Relief...................................................   126
Iran.............................................................   127
Iraq.............................................................   127
Russia and Nuclear Nonproliferation..............................   128
Iraq.............................................................   130
Food Aid.........................................................   131
United States Agency for International Development...............   132
Programmatic Activities for the Disabled in Iraq.................   132
Indonesia........................................................   141
Saudi Arabia.....................................................   142
Prepared Statement of Senator Mitch McConnell....................   143
Prepared Statement of Senator Larry Craig........................   144
Additional Committee Questions...................................   145
Questions Submitted by Senator Pete V. Domenici..................   145
Questions Submitted by Senator Christopher S. Bond...............   148
Questions Submitted by Senator Mitch McConnell...................   148
Ukraine/Belarus..................................................   149
Iraq.............................................................   154
Questions Submitted by Senator Richard C. Shelby.................   155
Question Submitted by Senator Robert F. Bennett..................   157
Questions Submitted by Senator Sam Brownback.....................   157
Questions Submitted by Senator Robert C. Byrd....................   161
North Korea......................................................   162
Questions Submitted by Senator Patrick J. Leahy..................   165
Colombia Demobilization..........................................   166
Questions Submitted by Senator Tom Harkin........................   169
Questions Submitted by Senator Herb Kohl.........................   169
Questions Submitted by Senator Dianne Feinstein..................   171
Questions Submitted by Senator Mary L. Landrieu..................   178

 
       EMERGENCY SUPPLEMENTAL APPROPRIATIONS FOR FISCAL YEAR 2005

                              ----------                              


                      WEDNESDAY, FEBRUARY 16, 2005

                                       U.S. Senate,
                               Committee on Appropriations,
                                                    Washington, DC.
    The committee met at 2:02 p.m., in room SD-106, Dirksen 
Senate Office Building, Hon. Thad Cochran (chairman) presiding.
    Present: Senators Cochran, Stevens, Domenici, Bond, Burns, 
Shelby, Bennett, Craig, Hutchison, Brownback, Allard, Byrd, 
Inouye, Leahy, Harkin, Mikulski, Kohl, Murray, Dorgan, 
Feinstein, Durbin, and Landrieu.


               opening statement of senator thad cochran


    Chairman Cochran. The committee will please come to order. 
I want to welcome everybody to our hearing on the President's 
emergency supplemental budget request.
    We will have two hearings--this is the first of two 
hearings on the President's emergency supplemental request for 
appropriations in the amount of $81.9 billion. Approximately 
$75 billion is for the Department of Defense, and over $5 
billion is for international functions of the Department of 
State. Appropriations in the amount of $949.6 million are 
requested for a multiagency tsunami relief effort, and $400 
million for other agencies to support the war on terrorism.
    Our witness this afternoon is Secretary of Defense Donald 
Rumsfeld. He's accompanied by General Richard Meyers, the 
Chairman of the Joint Chiefs of Staff, and by the Comptroller 
of the Department of Defense, Ms. Tina Jonas. Tomorrow morning, 
we will hear from Secretary of State Condoleezza Rice.
    It's my understanding that the House of Representatives 
hopes to pass their bill prior to the March recess. I expect we 
will have a markup of their bill shortly after we return from 
that recess so that we may have final action on the request 
before the end of April.
    I'm pleased to recognize my friend and colleague, the 
distinguished Senator from West Virginia, Senator Byrd, for an 
opening statement, and then we will hear from Secretary 
Rumsfeld and others for opening statement, if you have opening 
statements. Members will then have 10 minutes each for an 
initial round of questions, and I will recognize members in the 
order of their arrival at the hearing.
    Senator Byrd.


                  statement of senator robert c. byrd


    Senator Byrd. Mr. Chairman, I am greatly pleased that you 
are now serving as the chairman of the Senate Appropriations 
Committee. Your predecessor in this Chair, my friend, Senator 
Ted Stevens, was an extraordinarily good chairman, but he has 
moved on to the chairmanship of another Senate committee 
because of the term-limit rules of the Republican Caucus. I 
know that he will bring much wisdom and vigor and initiative to 
this new assignment.
    Mr. Chairman, we have known each other for a long time, and 
have traveled abroad on Senate business together. I remember 
our trip to Turkey a few years ago, on the eve of the first 
Persian Gulf war. How history repeats itself. We were working 
together during the first Persian Gulf war, and we are working 
together now, once again, in a second Persian Gulf conflict.
    Our new chairman has a healthy respect for the Senate's 
rules and for proceeding according to what is spoken of as the 
regular order. He and I share these views. While I may not be 
able to agree with the chairman on every issue, he can count on 
my strong support for proceeding according to the rules of the 
committee and the Senate. He can also count on me to continue 
to appreciate the bipartisanship that has been repeatedly 
demonstrated by this committee over the years as the committee 
proceeds to process this supplemental and the annual individual 
fiscally responsible appropriations bills.
    So my best to you, Mr. Chairman, and thank you for calling 
this very important hearing. We are reminded every day, by the 
grim statistics reported in the press, of the perils that our 
troops continue to face in the war in Iraq and the war in 
Afghanistan. Like you, I am committed to doing everything in my 
power to provide our military personnel with the resources they 
need to do their jobs, and I look forward to working with you 
to provide those needed resources.
    My admiration for our servicemen and -women, and my 
heartfelt gratitude for the great sacrifices they are making 
for our country, knows no bounds. Our men and women in uniform 
are, indeed, among the best and the brightest of our country's 
citizens. I salute them for their valor, and I thank them for 
their service.
    But, Mr. Chairman, we owe our troops more than mere 
gratitude for a job well done. We owe them the confidence of a 
clearly defined military mission, one that has measurable goals 
and benchmarks, and, most importantly, one that has an 
identifiable endpoint. In short, we owe our troops in Iraq not 
only the resources with which to fight the war, but also a 
strategy to end that war.
    Unfortunately, this supplemental budget request fails to 
deliver what our troops need most. The President is asking 
Congress to continue to shovel out money into United States 
(U.S.) military operations in Iraq with no further clarity as 
to what goals the military is expected to achieve, no hint of a 
possible timetable, no end to the occupation in sight.
    The recent elections in Iraq gave the United States a 
unique window of opportunity to change course to lower the 
profile of the American military presence and open the door to 
greater international cooperation. I fear that the 
administration, despite all of its conciliatory gestures to our 
European allies, has effectively squandered that opportunity 
with this supplemental request.
    This request sends a clear and strident message that the 
United States is not winding down its military operations in 
Iraq. To the contrary, the United States appears to be gearing 
up either to accommodate a permanent military presence in Iraq 
or to establish a launching pad for other military operations 
in the region. Either way, we are sending the wrong signal to 
the people of Iraq, to its neighbors in the region, and to the 
larger international community. Instead of taking this 
opportunity to temper anti-American sentiment among nervous 
Iraqis and their neighbors, the administration has effectively 
decided to turn up the heat.
    Mr. Chairman, I am exceedingly troubled by many aspects of 
this request. I want, and I fully intend to support our troops, 
but I am unwilling to give the executive branch carte blanche 
to run roughshod over the Congress. This request is fraught 
with ambiguous flexibilities and ambitious political 
initiatives, including the construction of a permanent 
detention facility at Guantanamo, Cuba, and a host of seemingly 
enduring military facilities in Iraq and in Afghanistan. These 
are policy decisions, not simply pocketbook issues.
    I worry that the President is using this supplemental to 
tunnel deeper and deeper into Iraq with no definitive exit 
strategy in sight and no light on the horizon. This request 
encompasses serious and far-reaching policy questions. I hope 
that we will give them the scrutiny they deserve.
    I thank you.
    Chairman Cochran. Mr. Secretary, you may proceed.

STATEMENT OF HON. DONALD H. RUMSFELD, SECRETARY OF 
            DEFENSE, DEPARTMENT OF DEFENSE
ACCOMPANIED BY:
        GENERAL RICHARD B. MYERS, CHIEF, JOINT CHIEFS OF STAFF, 
            DEPARTMENT OF DEFENSE
        TINA W. JONAS, UNDER SECRETARY OF DEFENSE (COMPTROLLER), 
            DEPARTMENT OF DEFENSE
        DR. DAVID CHU, UNDER SECRETARY OF DEFENSE FOR PERSONNEL AND 
            READINESS, DEPARTMENT OF DEFENSE

    Secretary Rumsfeld. Good afternoon. I certainly appreciate 
this opportunity to discuss the President's supplemental 
request for operations in Iraq and Afghanistan.
    A few days ago, I returned to Iraq for the first time since 
the elections on January 30. The Iraqi people are, 
understandably, very proud of their accomplishment. They chose 
to defy the extremists and cast their lot with the forces of 
freedom, as did the people of Afghanistan only a few months 
before.
    The great sweep of history is for freedom, and it is 
finding its way to some of the world's most violent regions, 
giving those most susceptible to extremist recruitment an 
opportunity to choose a different way of life. None of this 
would have been possible were it not for the valor and the grit 
of the American men and women in uniform. And I know you share 
my gratitude to them and to their families for their service 
and sacrifice.
    I thank the members of the committee and the American 
people for providing the resources and support they need to 
complete their missions.
    The President's supplemental appropriation request of $74.9 
billion for the Department of Defense will sustain ongoing U.S. 
military operations, provide assistance to important allies, 
help bring greater stability to Iraq and to Afghanistan, and 
ensure that, after returning from combat, America's Armed 
Forces are fully reset and repaired and restructured for the 
future.
    The increase in this supplemental from 2004 can be 
attributed to three war-related priorities: training and 
equipping Iraqi and Afghanistan security forces, resetting the 
Army for the future, and repairing and procuring equipment that 
is essential to warfighting. I'd like to spend a few moments 
talking about each of those items.


                         IRAQI SECURITY FORCES


    First, the Iraqi security forces. This supplemental allots 
$5.7 billion to assist in the training of the Iraqi security 
forces. We're making progress toward that goal.
    The military is frequently reassessing the performance and 
progress of the various Iraqi units. We've gone from no newly 
trained and equipped Iraqi security personnel, in 2003--we're 
talking about police, border officials, military forces, 
special commando teams, protection of dignitaries, and the 
like--we've gone from zero to 136,000 today.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The chart on the right indicates the historical 
perspective. We started from zero, in the beginning of 2003. 
We've had four assessment teams go in--one in January 2003, 
another in January 2004--the Eikenberry one--and then another 
one in August 2004, and, most recently, General Luck went in.
    The original assessment we made just listed the numbers of 
them. We then decided we had better visibility and more 
information, and we could list the ones that were trained. And 
so, you see the drop-down to the ones that are on duty. And 
then, where it says ``trained,'' it's a lower number.
    As we got more visibility, in terms of their equipment, we 
then looked at training and equipping. And so, the figures you 
now see are the ones that are trained and equipped. The other 
anomaly there is, we took 73,000--74,000 Iraqi site-protection 
people out of the numbers, because they no longer report to the 
Ministry of Interior. So the 136,000 are Iraqis that are 
trained and equipped, and it does not include the site-
protection people.
    The numbers are interesting, but capability is also 
important. No one should expect that Iraqi security forces are 
going to come out of their training periods and be battle-
hardened veterans, like the fine men and women in the U.S. 
military. And, ultimately, it will be the Iraqi people, not the 
coalition, who will defeat the Iraqi extremists. And the 
bravery of the Iraqi security forces in safeguarding the 
January 30 elections demonstrates their growing commitment and 
capability to do just that.
    The inner perimeter and the outer perimeter of 5,000 
polling places on January 30 were protected by Iraqis. They 
have lost something like 1,392 Iraqi security people killed in 
action. So these people are increasing their capability, 
getting more experience as they go along, improving their 
access to intelligence, developing better leadership and 
greater strength in the ministries. And so, it's not just 
numbers, but it's also their capability that really is 
important.


                         AFGHAN SECURITY FORCES


    The Afghan security forces, next. The President is 
requesting $1.3 billion for the Department to assist Afghan 
security forces in their development. The Afghan army continues 
to grow in both size and capability, working closely with 
United States and International Security Assistance Force 
troops to secure the country and to deal with the Taliban and 
al Qaeda remnants.
    Here again, the Afghan security forces did an excellent job 
when their elections took place. The Afghans have elections 
coming up for parliament again this summer, and the Afghan 
Ministry of Defense forces will be even further developed by 
then.
    Supplemental funding will continue to strengthen the Afghan 
forces with new training and equipment that will move them 
toward a larger role in defending their own country. It's worth 
noting that last week the Afghan National Military Academy 
accepted its first class of cadets, soldiers that represent 
that country's next generation of professional military 
officers.
    The Department of Defense (DOD) portion of the supplemental 
request also includes $1.4 billion for payments to Pakistan and 
Jordan and other key cooperating countries for logistic and 
other support to the U.S. military in their efforts against al 
Qaeda and the Taliban, and in their efforts in Iraq.


                   REPAIRING AND REPLACING EQUIPMENT


    As one would expect in war, the high pace of operations is 
causing military hardware to wear out at a faster rate than 
would be the case during peacetime operations where basically 
all they're engaged in is training and preparing for conflict. 
On average, combat vehicles in war are experiencing 4\1/2\ 
years of peacetime wear in a single year. For example, the 
Bradley fighting vehicle, that usually runs about 800 miles a 
year in peacetime--that's in peacetime training--now sometimes 
is being driven in the range of 4,000 miles in Iraq.
    This supplemental request provides $5.4 billion to replace 
military items destroyed or expended during combat, and $3.2 
billion for depot maintenance to overhaul and repair equipment 
to restore it to mission-capable standards.


                          FORCE RESTRUCTURING


    The President is requesting $5 billion to help the Army 
provide more deployable combat power by reconfiguring its 
forces to be more agile, more flexible and responsive. The new 
modular brigade combat teams can deploy quickly to trouble 
spots, but, unlike today's light airborne or air-assault units, 
they will have greater fire power, armor, and administrative 
and logistics support built in so that they can operate over a 
sustained period.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    In the next 2 years, the Army will increase its deployable 
combat power by expanding from 33 maneuver brigades to 43, much 
more capable modular brigade combat teams. That's by the end of 
2007. That's nearly a 30 percent increase in available combat 
power. The plan also provides the Army with modern weapons, 
equipment, and communications.
    In fiscal years 2005 and 2006, the Department proposes to 
fund Army restructuring primarily through supplemental 
appropriations, as this program has been accelerated as a 
result of Operation Iraqi Freedom. Beginning in 2007, we will 
have had enough information before-the-fact, and the plan is 
for the modularization program to be funded in the base budget, 
which is my understanding of the understanding that's been 
arranged between Congress and the executive branch. This 
request also includes approximately $300 million to support 
restructuring of Marine Corps to add more combat and support 
units.
    I would also like to touch briefly on other funding 
priorities that reflect the military's commitment to ensuring 
that U.S. troops deployed in the field are given the support 
they need to complete their missions.


                            FORCE PROTECTION


    The President is requesting $3.3 billion for force-
protection equipment to assist the military in ensuring that 
our forces have the latest equipment to fight and protect 
themselves from roadside bombs, rocket attacks, including armor 
plating for vehicles, improved night-vision equipment, and new 
systems that help helicopters evade and survive attacks.
    Our enemies, as you know, have brains. They watch what we 
do, they look for our vulnerabilities, they adapt their tactics 
frequently. And we must do the same. For example, since U.S. 
forces first began to face the improvised-explosive-device 
(IED) threat in Iraqi, the Army has ramped-up production of 
armored Humvees by more than 1,000 percent. As you can see on 
this chart--and I believe copies of the charts have been passed 
out--there has been a very dramatic ramp-up since the beginning 
of the IED threats.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    At that time, according to Army Chief of Staff, General 
Pete Schoomaker, there were some 500 tactical wheeled vehicles 
with armor in the Army inventory. Today there are about 26,000. 
So they've gone from 500 to 26,000. I think this shows the 
level of effort and the skill with which they have worked the 
problem.
    This funding and previous funding from Congress should keep 
the Army on track to meet Central Command's current fiscal year 
request of 8,275 up-armor Humvees by next month. The Army is 
also working toward a further increase in production to 550 per 
month, from 450 at present, which it expects to achieve next 
month.
    In addition, since March 2003, the military has produced in 
excess of 400,000 sets of body armor. They were originally at a 
rate of 1,200 sets per month, and they're currently at a rate 
of over 25,000 per month.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    I'm told that by this week, with a few exceptions, U.S. 
military vehicles in Iraq that are carrying American troops 
outside of a protected compound will have an appropriate level 
of armor to protect against the most likely threats. Note that 
not every vehicle requires armor at all times, such as those 
that are confined to military bases.
    Further, U.S. forces are finding and destroying bomb-making 
production facilities, developing technical countermeasures 
which either reveal IEDs or disable them, and changing their 
tactics to minimize the effectiveness of such bombs, including 
the fielding of robots and a technology developed in a matter 
of weeks to counter cellphone activation of these bombs. U.S. 
forces are now discovering and destroying more than one-third 
of IEDs before they can detonate. They have every reason to 
believe that that rate will improve still further. 
Additionally, the U.S. military has made force protection 
institutionalized across the services as part of its core 
capabilities.


                           MILITARY PERSONNEL


    The President is requesting $16.9 billion to aid military 
personnel, including salaries for mobilized reservists and 
guardsmen, and special pay for combat and separation. This 
number includes the added cost of $1.7 billion for paying 
salaries for the additional 29,400 Army soldiers and about 
2,600 marines. These are additional troops needed for ongoing 
operations above those services' nominal end strength.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Even with these increased troop levels, ground forces are 
stressed. That has produced some calls for increases in so-
called permanent end strength, the force strength that's 
required by law on one day each year, that's what the statutory 
end strength is--on September 30, you have to be at a certain 
number. The Army has undertaken a range of initiatives and 
reforms to stabilize the force and to increase the pool of 
available troops in high-demand specialties. The chart here 
indicates that we have been well above the statutory end 
strength using the emergency powers provided by Congress to the 
President. And so, with these important steps now well 
underway, it would be a mistake, in my view--in the 
Department's view--to arbitrarily increase statutory end 
strength. For the present, we have all the flexibility that's 
needed under the emergency provisions. In the event the 
efficiencies now underway prove to be insufficient, or in the 
event that emergency powers were no longer available, it would 
be then time to discuss the legal end-strength issue.


                         MILITARY CONSTRUCTION


    General Abizaid and his commanders in the field have 
requested--this supplemental request supports--military 
construction projects to improve living and working conditions 
in the U.S. Central Command area of operation. This 
construction is primarily to move U.S. service members out of 
tents and trailers and field latrines and into somewhat more 
comfortable and safer barracks and billeting facilities. The 
supplemental request includes $1.1 billion for military 
construction unrelated to force restructuring.


                               HEALTHCARE


    The supplemental provides for quality medical care, as is 
appropriate for U.S. service members both in theater and back 
home. The request for healthcare in the supplemental is $176 
million to cover patient transportation and other medical-
related activities.


                           SURVIVOR BENEFITS


    The President requests about $400 million to fund enhanced 
benefits of the survivors of service members killed while 
serving our country in the global war on terror. As this 
committee knows well, we've entered an era of great challenge 
and of great opportunity. We're responding to serious threats 
and also working to reshape our military to be better able to 
combat them.
    Consider the challenge our country faces, not only to 
reorganize the Army to fit the 21st century, but to better 
organize all of the military services plus transform the 
Department of Defense's bureaucracy to fight the war on terror. 
And, if that were not enough, to be fighting a war, for the 
first time in history, in an era where we have 24-hour 
worldwide satellite news coverage, including terrorist attacks, 
disasters, and combat operations, cell phones, digital cameras, 
global Internet, e-mails, embedded reporters, a casual regard 
for the protection of classified documents and information, and 
a U.S. Government still organized for the Industrial Age, not 
for the Information Age. And all of this not in a conventional 
conflict for which the U.S. military had been organized, 
trained, and equipped for decades, but in an unconventional war 
against asymmetric threats from enemies that are unburdened by 
bureaucracies or legal constraints. The task is daunting.
    But consider what's taking place. Across the world, brave 
men and women, wearing America's uniform, are doing the hard 
work of history. And I know you share my desire to see that 
they have all the support they need to complete their important 
missions. They're bringing the hope of freedom to some of the 
darkest corners of the Earth, and that will render a powerful 
blow to the forces of extremism that have killed thousands of 
our innocent people and in countries across the globe.


                           PREPARED STATEMENT


    I thank you for all you have done on behalf of our troops, 
and I look forward to responding to your questions after 
General Myers has had an opportunity to make some remarks.
    Thank you, Mr. Chairman.
    Chairman Cochran. Thank you, Mr. Secretary.
    [The statement follows:]

                Prepared Statement of Donald H. Rumsfeld

    Mr. Chairman, Members of the Committee, good afternoon. I'm here 
today to discuss the President's supplemental request for ongoing 
operations in Iraq and Afghanistan.
    A few days ago, I returned to Iraq for the first time since the 
elections on January 30th. The Iraqi people are understandably proud of 
their accomplishment.
    They chose to defy the extremists and cast their lot with the 
forces of freedom--as did the people of Afghanistan a few months 
before.
    The great sweep of history is for freedom and it is finding its way 
to some of the world's most violent regions, giving those most 
susceptible to extremist recruitment an opportunity to choose a 
different way of life.
    None of this would have been possible were it not for the valor and 
grit of America's men and women in uniform.
    I know you share my gratitude to them and to their families for 
their service and sacrifices. And I thank the members of this Committee 
and the American people for providing the resources and support they 
need to complete their missions.
    The President's supplemental appropriations request of $74.9 
billion for the Department of Defense will: Sustain ongoing U.S. 
military operations; provide assistance to important allies; help bring 
greater stability to Iraq and Afghanistan; and ensure that after 
returning from combat America's armed forces are fully re-set, repaired 
and re-structured for the future.
    The increase in this supplemental from 2004 can be attributed to 
three war-related priorities added this year: Training and equipping 
Iraqi and Afghan security forces; resetting the Army for the future; 
and repairing and procuring equipment essential to warfighting.
    I would like to spend a few moments talking about each.
First, the Iraqi Security Forces
    This supplemental allots $5.7 billion to assist in the training and 
equipping of the Iraqi security forces. We are making progress toward 
that goal.
    The military is frequently re-assessing the performance and 
progress of Iraqi units.
    We have gone from no newly trained and equipped Iraqi security 
personnel in 2003 (police, border officers, military forces, etc.) to 
136,000 today.
    There are an additional 74,000 site protection forces that are on 
duty, but not considered part of the 136,000, since they do not report 
to the Ministers of Defense or Interior.
    But capability is every bit as important as numbers. No one should 
expect that Iraqi security forces are going to come out of their 
training pipelines and be battle-hardened veterans like the fine men 
and women of the U.S. military.
    Ultimately, it is the Iraqi people--not the Coalition--who will 
defeat Iraqi extremists. And the bravery of Iraqi security forces in 
safeguarding the January 30th elections demonstrates their growing 
commitment and capability to do just that.
Afghan Security Forces
    The President is requesting $1.3 billion for the Department of 
Defense to assist Afghan security forces.
    The Afghan army continues to grow in both size and capability, 
working closely with United States and International Security 
Assistance Force troops to secure the country and battle Taliban and Al 
Qaeda remnants. The Afghan Ministry of Defense forces now number some 
19,000 soldiers, and the Ministry of Interior forces number 
approximately 33,000.
    Supplemental funding will continue to strengthen Afghan forces with 
new training and equipment that will move them toward a larger role in 
defending their own country. It is worth noting that last week the 
Afghan National Military Academy accepted its first class of cadets--
soldiers who represent that country's next generation of professional 
military officers.
    The DOD portion of the supplemental request also includes $1.4 
billion for payments to Pakistan, Jordan and other key cooperating 
countries for logistical and other support for the U.S. military.
Repairing and Replacing Equipment
    As one would expect in war, the high pace of operations is causing 
military hardware to wear out at a faster rate.
    On average, combat vehicles in war are experiencing 4\1/2\ years of 
peacetime wear in a single year. For example, Bradley Fighting Vehicles 
that usually run about 800 miles per year in peacetime training are now 
sometimes driven over 4,000 miles in Iraq.
    This supplemental request provides $5.4 billion to replace military 
items destroyed or expended during combat, and $3.2 billion for depot 
maintenance, to overhaul and repair equipment to restore it to mission 
capable standards.
Force Re-Structuring
    The President is requesting $5 billion to help the Army provide 
more deployable combat power by reconfiguring its forces to be more 
agile, flexible and responsive. The new ``modular'' Brigade Combat 
Teams can deploy quickly to trouble spots, but, unlike today's light 
Airborne, or Air Assault units, will have greater firepower, armor and 
administrative and logistics support ``built in'' to operate over a 
sustained period of time.
    In the next two years, the active duty Army will increase its 
deployable combat power by expanding from 33 maneuver brigades to 43 
more capable modular Brigade Combat Teams by the end of fiscal year 
2007, a nearly 30 percent increase in available combat power. The plan 
also provides the Army with modern weapons, equipment, and 
communications.
    In fiscal year 2005 and fiscal year 2006, the Department proposes 
to fund Army restructuring primarily through supplemental 
appropriations, as this program has been accelerated as a result of 
Operation Iraqi Freedom. Beginning in fiscal year 2007, the plan is for 
the modularization program to be funded in the base budget. This 
request also includes approximately $300 million to support 
restructuring of Marine Corps to add more combat and support units.

                 GROWING AND SUSTAINING AN ARMY AT WAR

    I would also like to touch briefly on other funding priorities that 
reflect the military's commitment to ensuring that U.S. troops deployed 
in the field are given the support they need to complete their 
missions.

Force Protection
    The President is requesting $3.3 billion for force protection 
equipment to assist the military in ensuring that our forces have the 
latest equipment to fight and protect themselves from roadside bombs 
and rocket attacks, including armor plating for vehicles, improved 
night vision equipment, and new systems that help helicopters evade and 
survive insurgent attacks.
    Our enemies have brains. They watch what we do, they look for our 
vulnerabilities, and they adapt their tactics frequently. And we must.
    For example, since U.S. forces first began to face the improvised 
explosive device threat in Iraq, the Army has ramped up production of 
armored Humvees by more than 1,000 percent.
    At that time, according to Army Chief of Staff General Pete 
Schoomaker, there were some 500 tactical wheeled vehicles with armor in 
the Army inventory. Today, there are about 26,000.
    This funding and previous funding from Congress should keep the 
Army on track to meet Central Command's current fiscal year request of 
8,275 up-armored Humvees by next month.
    The Army also is working towards a further increase in production 
to 550 per month (from 450 at present), which it expects to achieve 
next month.
    In addition, since March 2003, the military has produced in excess 
of 400,000 sets of body armor--from a rate of 1,200 sets per month to a 
rate of over 25,000 per month.
    I am told that by this week, with few exceptions, U.S. military 
vehicles in Iraq carrying American troops outside of protected areas 
will have an appropriate level of armor to protect against the most 
likely threats.
    Note that not every vehicle requires armor at all times, such as 
those confined to military bases.
    Further, U.S. forces are finding and destroying bomb-making 
production facilities, developing technical counter-measures which 
either reveal IEDs or disable them, and changing their tactics to 
minimize the effectiveness of such bombs--including the fielding of 
robots and a technology developed in a matter of weeks to counter cell-
phone activation of these bombs.
    U.S. forces are now discovering and destroying more that one-third 
of IEDs before they can detonate. They have every reason to believe 
that this rate will improve.
    Additionally, the U.S. military has made force protection 
institutionalized across the Services as part of its core capabilities.

Military Personnel
    The President is requesting $16.8 billion to aid military 
personnel, including salaries for mobilized reservists and guardsmen 
and special pay for combat and separation. This number includes the 
added cost of $1.7 billion for paying salaries for the additional 
29,400 Army soldiers and about 2,600 Marines--additional troops needed 
for ongoing operations above those services' normal end strength.
    Even with these increased troop levels, ground forces are stressed. 
That has produced some calls for increases in so-called ``permanent 
statutory end strength''--the force strength required by law on one day 
each year. The Army has undertaken a range of initiatives and reforms 
to stabilize the force and to increase the pool of available troops in 
high demand specialties.
    With these important steps well underway, it would be a mistake to 
arbitrarily increase our statutory end strength. For the present, we 
have all the flexibility that is needed under the emergency provisions. 
In the event the efficiencies now underway prove to be insufficient, or 
the emergency powers were no longer available, it would be time to 
discuss the legal end strength issue.

Military Construction
    General Abizaid and his commanders in the field have requested and 
this supplemental request supports, military construction projects to 
improve living and working conditions in the U.S. Central Command area 
of operations. This construction is primarily to move U.S. service 
members out of tents, trailers and field latrines, and into somewhat 
more comfortable--and safer--barracks and billeting facilities. The 
supplemental request includes $1.1 billion for military construction 
unrelated to force restructuring.

Health Care
    The supplemental provides for quality medical care as is 
appropriate for U.S. service members both in theater and back home. The 
request for health care in the supplemental is $176 million, to cover 
patient transportation and other medical related activities.

Enhanced Survivor Benefits
    The President requests nearly $400 million to fund enhanced 
benefits for the survivors of service members killed while serving our 
country in the War on Terror.
    As this committee knows well, we have entered an era of great 
challenge and great opportunity. We are responding to serious threats 
and also working to reshape our military to better combat them.
    Consider the challenge our country faces to not only reorganize the 
Army, but to better organize all of the military services, plus 
transform the enormous Defense bureaucracy, and fight two wars at the 
same time. And, if that were not enough, to be fighting a war for the 
first time in history in an era with: 24 hour worldwide satellite news 
coverage, including terrorist attacks, disasters and combat operations; 
cell phones; digital cameras; global internet; emails; embedded 
reporters; an increasingly casual regard for the protection of 
classified documents and information; and a U.S. government still 
organized for the industrial age, not the information age.
    And, all of this, not in a conventional conflict for which the U.S. 
military had organized, trained and equipped over the decades, but in 
an unconventional war, against asymmetric threats from enemies 
unburdened by bureaucracies or legal constraints. The task is daunting. 
But consider what is being accomplished.
    Across the world, brave men and women wearing America's uniform are 
doing the hard work of history. I know you share my desire to see that 
they have all the support they need to complete their missions. We are 
bringing the hope of freedom to some of the darkest corners of the 
Earth, and that will render a powerful blow to the forces of extremism 
who have killed thousands of innocent people in our country and in 
countries across the globe.
    I thank you for all you have done on behalf of our troops, and I 
look forward to responding to your questions.

                        FUNDING OPERATION IRAQI

    Chairman Cochran. General Myers, you may proceed.
    General Myers. Thank you, Mr. Chairman and Senator Byrd, 
members of the committee.
    Once again, thank you for your unwavering support of our 
Armed Forces, and, more specifically, our men and women in 
uniform, as they fight this all-important global war on 
terrorism and extremism. The U.S. soldiers, sailors, airmen, 
marines, Coast Guardsmen, and U.S. Government civilians who 
have been killed or wounded sacrificed to make the world safer 
and provide hope to millions. We grieve with their families and 
their friends, and with the families of all coalition forces 
and civilians who made the ultimate sacrifice in these noble 
endeavors.
    This supplemental request provides funding for Operation 
Iraqi Freedom, Operation Enduring Freedom, Operation Unified 
Assistance, and emerging requirements. It sustains our force 
rotations in Iraq and Afghanistan, funds operational accounts, 
and helps restore the readiness of the force. These funds are 
vital to ensuring our troops are trained and resourced for the 
missions they're assigned, and to avoid any decrease in 
readiness or capability while they're deployed.
    Building democracy and hope in areas long ruled by terror 
and oppression is a long, hard task, as we know. Our 
significant progress in Iraq, Afghanistan, and other places 
around the world is a tribute to the hard work and sacrifice of 
our dedicated American service members and our coalition 
partners, and to the continuing dedication of the American 
people and the Congress.
    I can assure you that we remain committed to helping the 
Iraqis build a secure and peaceful future with a representative 
government based on the rule of law, and we are committed to 
supporting the Iraqis on their road to self-reliance.
    The list of accomplishments in Iraq, in every sector, is 
long and growing. The January 30 elections are just one example 
of the determination of the Iraqi people to create a peaceful, 
democratic, and prosperous future.
    We are making tremendous progress in Afghanistan, as well. 
Congress' firm commitment is leading the international effort 
to fund and equip Iraqi reconstruction. The coalition and the 
North Atlantic Treaty Organization (NATO) will continue to help 
build the commands and institutions the Afghans need to sustain 
and manage their military.
    Even as operations in Iraq and Afghanistan continue, we 
have responded to a number of other challenges and demands for 
military capabilities. During Operation Unified Assistance in 
South and Southeast Asia, the U.S. military led the 
international relief effort to aid the victims of the tsunami 
disaster. Our service members flew over 3,300 sorties and 
delivered over 5,000 tons of supplies, including over 400,000 
gallons of water, to many remote locations.
    All of these operations come at a cost, and the current 
stresses on the force are significant, and will remain so in 
the near future. I am particularly concerned with the 
operational demands on our people, both Active and Reserve 
component. They are so tremendously dedicated. They understand 
their mission very, very well. They understand what a huge 
difference they are making, and their morale is good.
    Our Reserve components are serving critical roles around 
the world, as you know. This supplemental request includes 
funds to support our Reserve and National Guard forces and 
their resources. We must ensure we properly compensate both our 
Active and Reserve component service members, and provide them 
with the best resources possible to succeed in these 
operations.
    I am also concerned with the wear and tear on our 
equipment, as the Secretary said, especially our vehicles. This 
supplemental is essential to restoring and reconstituting our 
forces. The current operational tempo is challenging, and harsh 
environmental conditions are accelerating the aging of our 
equipment, placing a huge demand on our maintenance, supply, 
depot repair, and production. Readiness challenges exist, but, 
thanks to the continued support of Congress, we have trained 
personnel and resources to accomplish our national defense 
strategy.
    We are now in the fourth year of sustained combat 
operations, and we are still a nation at war. Our servicemen 
and -women continue to perform superbly under very challenging 
conditions. I am tremendously proud of them, as I know you are.
    In my view, this is a pivotal moment in our Nation's 
history and in world history. We must stay committed if we are 
to win the global war on terrorism and extremism. With 
Congress' continued strong support, our military is unwavering 
in our focus, our resolve, and our dedication to peace and 
freedom.
    Thank you, Mr. Chairman. We look forward to your questions.
    Chairman Cochran. Thank you, General Myers. We appreciate 
your being here.
    Mr. Secretary, thank you very much for your cooperation 
with our committee.
    I'm going to yield, for the first questions, to the 
distinguished chairman of the Subcommittee on Defense 
Appropriations, Senator Ted Stevens, of Alaska.
    Senator Stevens. Well, thank you very much, Mr. Chairman. I 
do appreciate it. Some of us are going to the Negroponte 
meeting, and I did have a couple of questions.
    Mr. Secretary and General Myers, I want to join in 
congratulating you for what you are doing and the presentations 
you just made, and to tell you, Mr. Secretary, in the meetings 
we've had over the past months with you and the Chiefs, I've 
never seen such a great working team, in terms of the ambience 
and the friendship between you. So that's a great thing to see, 
because it means a great deal to our men and women in the armed 
services, I think, to know that the civilian and military 
portions of the Department of Defense are working together very 
amicably.

                 COMBATING IMPROVISED EXPLOSIVE DEVICES

    So I do want to ask a couple of questions. So, one pertains 
to this comment concerning the IED that you mentioned. It's my 
understanding there's $200 million for this Improvised 
Explosive Device Task Force. Can you describe what that's 
about? And can you tell us, Mr. Secretary, or maybe General 
Myers, how much money is really included in this bill for 
fielding this equipment?
    General Myers. Well, first of all, as I think people 
understand, perhaps the biggest threat to, not only coalition 
troops in Iraq, but also Iraqi civilians--and, as we saw 
yesterday, we think it was a vehicle-borne explosive device 
that killed the former prime minister of Lebanon. And I think 
people now have seen the crater that that device left. So this 
is a very serious threat. Our most serious injuries, for the 
most part, come from this kind of threat.
    And the Secretary put together a team, in Defense, to look 
broadly at whatever technologies we might bring to the problem 
to solve the issue of improvised explosive devices. My 
understanding is there's $267 million in the supplemental 
request for this, and it's to do research and development to 
field systems that show promise. We know, in the end, that it's 
primarily, probably, going to be tactics, techniques, and 
procedures that solve this problem, but a lot of it will yield 
to technology, and we're trying to leave no stone unturned as 
we look for technology that will protect our service members, 
not only in Iraq, but in Afghanistan and perhaps other places 
in the world, as this horrific device, this improvised 
explosive device--vehicle-borne being one method to employ it--
to defeat these devices.
    Senator Stevens. Well, how does this equipment work?--is 
what I'm interested in. Is this a task force developing 
equipment that enables us to locate them in advance of being 
exploded----
    General Myers. We're looking at----
    Senator Stevens [continuing]. And to explode them?
    General Myers [continuing]. We're looking at several 
different types of equipment. And I probably have to be careful 
how much I get into here, because, for every effective counter 
we have, there's a counter to the counter. But let me just say 
that there is a surveillance piece, where we try to see them 
while they're being emplaced, or after they've been emplaced, 
to detect them. Other detection methods that we're looking at--
and I'd be happy to discuss any of this, offline--there's the 
issue of jamming equipment and technologies like that.
    So it's--but it's the full gamut, and we're--I mean, what 
we'd like to equate it to--and it's not that yet--but almost to 
a Manhattan Project, in terms of the level of effort this 
Government is putting toward this effort. So it spans the 
spectrum. And we'll go down and test items that turn out to be 
feasible for fielding, in hopes that we can come across, you 
know, something that might help our troops. But we can get 
offline with a few other specifics on that.
    Senator Stevens. Thank you.

              FUNDING FOR IRAQI AND AFGHAN SECURITY FORCES

    Mr. Secretary, the supplemental has $5.7 billion, and $1.3 
billion for training and equipping Iraqi and Afghan security 
forces. You mentioned that. But I'm interested to know, How did 
you develop the amount that's in this supplemental? Aren't 
there also funds in the fiscal year 2005 budget for the same 
function?
    Secretary Rumsfeld. There are. And there were some--yes, 
there were some in last year's budget, and there is some in the 
supplemental.
    Of course, you know the Department of State has programs, 
the Government has programs, that are managed through the 
Department of State in various types of assistance to other 
countries for these types of things, training, and equipping. 
Those tend to be long-term relationships--5, 10, 15 years. The 
things that these funds will address are the things that come 
up more rapidly, like the fact that we were not able to fund 
the Afghan army in the early days, because we didn't have any 
authority to do train and equip of that type. We've since 
gotten some money, in the last budget.
    These funds reflect the reality that, by helping an Afghan 
or an Iraqi to provide security for his own country, we can 
achieve about a 19- or 20-to-1 ratio advantage, as opposed to 
having an American military person there. And our first choice 
is not to have American military people in these countries. Our 
goal is to assist those countries to get on a democratic path, 
and the funds that are in there are to assist the Iraqi and the 
Afghan governments in getting their security forces up to speed 
to take over the responsibility for the security for their own 
country.
    Senator Stevens. Thank you.

                      INCREASING SURVIVOR BENEFITS

    One last question. I note, from the request, that we now 
have a request to increase the death gratuity for the military 
from $12,420 to $100,000, and the maximum serviceman's life 
insurance payment from $250,000 to $400,000. Now, I have two 
questions. Is this a permanent change in the law you're 
seeking? It's my understanding there is nothing in the proposal 
to request additional funding for this, that this money will 
have to come out of the available sources to the Department. 
This is going to be quite substantial, probably $1.5 to $2 
billion a year. That's a pretty big bite to have to swallow. 
What is the policy? Is this a permanent change? And can you 
tell us how you determine that? I think we may face amendments 
to increase it further, but I do think we have to understand 
where we're going in this regard. Is this for these 
emergencies, or is this a permanent change?
    Secretary Rumsfeld. My impression is that if we were to do 
it for those that are killed and fall in the Operation Iraqi 
Freedom or Operation Enduring Freedom, that it very likely 
would be a permanent change, and you would end up in the 
future--if there were to be future conflicts--working at that 
same level of death benefit.
    My further recollection is that there is about $400 million 
in this request, for that benefit, in this supplemental.
    Senator Stevens. I did not note that.
    Secretary Rumsfeld. Pardon me?
    Senator Stevens. I did not note that.
    Secretary Rumsfeld. I think----
    Senator Stevens. My estimate was $1.5 to $2 billion 
annually for this expense.
    Secretary Rumsfeld. I have never heard that number.
    Senator Stevens. That is if it becomes permanent.
    Secretary Rumsfeld. Well, I suppose that depends on what 
the terms of the benefit are.
    Senator Stevens. Yes.
    Secretary Rumsfeld. And those are, I think, under 
negotiation and discussion with the House, the Senate, and the 
White House.
    Senator Stevens. You're really, then, just asking for the 
money now to be governed by the law that comes forth from the 
Congress, from the Armed Services Committee, this year?
    Secretary Rumsfeld. My understanding is that the $400 
million that's in the supplemental was an estimate based on the 
discussions that are taking place at the present time between 
the White House and the Senate and the House.
    Senator Stevens. Well, during Desert Storm we temporarily 
raised death benefits, and after that time they went back down.
    Secretary Rumsfeld. I didn't know that.
    Senator Stevens. Thank you very much.
    Chairman Cochran. Senator Byrd, you may proceed.
    Senator Byrd. Thank you, Mr. Chairman. Thank you, Mr. 
Secretary.

             WHY IS ARMY RESTRUCTURING IN THE SUPPLEMENTAL?

    Mr. Secretary, why are you asking for billions in multiyear 
funds to change the structure of the Army in an emergency 
supplemental bill?
    Secretary Rumsfeld. Senator Byrd, that's a tough question 
that we were wrestling with, and it's a good question. The 
answer is this. The Army came to us and said, ``We simply have 
got to reorganize the Army. The Army is not organized properly. 
We have too big of an institutional Army and too small of a 
combat Army. We have to increase from 33 to 43 brigades. We 
have to bring down capabilities from the divisions into the 
brigades. We have to make them more sustainable and more 
capable.''
    And I said, ``Well, for Pete's sake, the last thing we want 
to do is, when you bring forces back from Iraq or Afghanistan, 
is to reset them the way they used to be. They have to be reset 
the way we want them for the 21st century.'' So the question is 
where should that be funded?
    Now, the problem is that the budget cycle, as you know 
better than anyone in the room, it takes us 1 year to develop 
the budget, it takes the Congress 8, 10 months to pass the 
budget, and it takes 1 year after that to expend the budget. 
You're talking about 32 months.
    Now, these people are already coming back. So these are 
needs that are immediate, and that's why we believe they're 
appropriate, for the first 2 years, to fit into the 
supplemental. After that, I quite agree, anything that has to 
do with reforming the Army probably ought to be in the baseline 
budget, and that's the way we've proposed it, sir.
    Senator Byrd. Why did you choose to ask for $5 billion in 
Army modularity funds in a supplemental? It seems to me that 
this is the kind of program that ought to be funded and 
budgeted through the normal appropriations process. Here, we're 
hit with this request in a supplemental bill.
    Secretary Rumsfeld. Well, Senator, it would cost so much 
more if we did it the other way. We have the opportunity, right 
now, when these forces come back from wherever they are--
Germany, Korea, Afghanistan, Iraq--and they come back to the 
United States, that's the time to recast them.
    Let me give you an example. If we go over to Iraq and we 
expend 100 ``dumb bombs,'' and we know we're using up inventory 
we really don't want to replace, and we come back, and we want 
to buy ``smart bombs,'' precision instruments. Now, is that a 
replacement, in the reset of what you had, or is that an 
enhancement and an improvement? It's both.
    And so, this issue of what goes in a supplemental is 
something that really is beyond my pay grade. It's something 
that the Congress and the Office of Management and Budget (OMB) 
work on together, and they end up making judgments, and this is 
the way the judgments came down. I think it's the right 
judgment. I think we have to reset the force to fit the 21st 
century instead of recasting it the way it was. And, therefore, 
the supplemental for this year and next, we don't have a 3-year 
cycle to wait--correction--a 32-month cycle to wait for a 
normal budget cycle.
    Senator Byrd. When will these funds be built into the 
regular appropriations request?
    Secretary Rumsfeld. After 2 years. My recollection is 2007. 
We've--in 2005 and 2006, they're in the supplemental. And I 
think in 2007 or 2008, and thereafter, any modularity money 
would be in the regular budget.
    Senator Byrd. Well, I have to tell you, Mr. Secretary, this 
seems to me to be an abuse, a serious abuse, of supplemental 
appropriations requests. I haven't seen anything like this.
    Secretary Rumsfeld. Well, of course, the Army hasn't been 
reset in a way that fits the future in a whale of a long time, 
so it's not surprising we haven't seen it. It has to be done. 
The Army needs to be substantially changed to be more 
effective.
    Senator Byrd. I may agree, but, I just tell you, to start--
in an appropriations supplemental, a multiyear appropriations 
request, strikes me to be very, very strange.

                       INCREASED FORCE PROTECTION

    Mr. Secretary, the President's supplemental request 
includes $3.3 billion for increased force protection, including 
adding armor onto supply vehicles in Iraq. These funds are now 
2 years overdue. I cannot understand why the administration 
chose to begin a major war knowing that our troops did not have 
enough body and vehicle armor. Will these funds provide armor 
for every vehicle in Iraq that needs it? Will the funds be 
sufficient to address the complaints that we have heard that 
our troops are scrounging for armor in trash dumps?
    Secretary Rumsfeld. Senator, first let me just make this 
point. This, as you know, is the amount of time--30 to 33 
months--that it takes for a regular budget cycle. And just to 
punctuate the point, because it's a terribly important one, 
when the divisions come back from Iraq, they either come back 
and are left like they are as they refit to the old way, or 
they're adjusted. There is no way to go back 32 months and get 
ready to do it in the regular budget. It has to be done--it's 
urgently needed--in the supplemental for the first year or two. 
After that, we quite agree with you.
    Senator Byrd. Shouldn't we have seen this thing coming so 
that we could have given some attention to it earlier, rather 
than waiting and hitting us with a request like this in a 
supplemental? That's what I'm asking.
    Secretary Rumsfeld. Well, I--there are a lot of things that 
should have been done years ago. I quite agree with you.
    Senator Byrd. No, we're not talking about a lot of things; 
we're talking about this particular request for modularity.
    Secretary Rumsfeld. Absolutely. It would have been 
wonderful if, 5, 10 years ago, the Army had decided that they 
were going to adjust how they were organized and arranged, 
improved their teeth-to-tail ratio. And it didn't happen, and 
it needs to be done now. So I really feel very strongly that I 
hope you'll consider it carefully, because it's terribly 
important.
    On the armor--do you want to put up the armor chart? Do you 
want to comment on this, Dick?
    General Myers. You bet. The supplemental would contain all 
the funding that we know about, in terms of armoring. But let 
me just--there's the production--leave the first one up--these 
are the protective inserts that go into the vest to protect 
against small arms. And you can see how production has been 
ramped up, with the help of Congress. And we'll continue to 
need to produce and improve those sets against newer threats.
    And--if you'll put up the other chart--and this, of course, 
is the up-armored Humvee monthly production rate. And, again, 
we've had good funds for that. We'll continue to need good 
funds.
    It's interesting to note, on up-armored Humvees, Senator 
Byrd, that there was no requirement in-theater when we went in, 
and that requirement developed over time. In fact, for the 
whole Army there was only a handful of up-armored Humvees 
deemed necessary, early on. And you can see what we've built 
to.
    And if you'll put up the chart on totaled armored vehicles 
in Iraq, please. Maybe it's on this side. But of the 35,000 
vehicles that we have in Iraq--I'll wait until the chart goes 
up--it should be--28,900-and-some are armored, trying to meet 
the commanders'--28,907 that have been armored--to meet the 
requirements.
    So, yes, the supplemental contains the funds we know about, 
in terms of current requirements. Requirements can always 
change.
    Secretary Rumsfeld. Senator, the one thing I'd add on the 
brigades--to go from 33 to 43 brigades, which is what 
modularity does--it is going to change the active duty 
personnel's time at home. It'll go from 1.2 years at home per 
year deployed to 1.8 years at home per year deployed. It'll be 
a 50 percent increase in that time not deployed, which is a 
significant reduction in the stress on the force. And to delay 
achieving that reduction in the stress on the force, I think, 
would be unfortunate.
    You asked one other question, sir, and it had to do with, 
When will we have the proper armor on the vehicles in Iraq? And 
the answer is that General Casey assures us that, as of 
yesterday, February 15, with very few exceptions, all U.S. 
vehicles in Iraq that are operating outside of a protected 
compound will--with U.S. personnel in them--will have an 
appropriate level of armor.

                TIMING OF FORCE PROTECTION IMPROVEMENTS

    Senator Byrd. Will these funds be sufficient to address the 
complaints that we have heard, and that you heard also, Mr. 
Secretary, when you were visiting there, that our troops are 
scrounging for armor in trash dumps?
    General Myers. Let me start with that, Senator Byrd. Let me 
start with that question.
    Would you put up the chart with the Humvees, showing the 
various levels of armament?
    I don't know where the comment that troops are scrounging 
in trash dumps for armor comes from, because to the best of my 
knowledge, it's simply not true. Now, what happens sometimes, 
and what they--how they refer to things, when units leave Iraq 
they take off the add-on armor on some of the Humvees, and they 
leave it in a specific place. And I think the lingo goes, and 
the jargon is, they refer to that as the ``trash dump.'' But 
the armor is specifically designed with specific metal and 
steel to fit on these vehicles. And there, across the top, are 
the Humvees, as they're armored--some from the factory, some 
that are added on at the factory, some that are added on in the 
field, on the far right. And none of that is done with junk. 
Those are all very specifically designed pieces of equipment. 
So I don't know of the junk heap----
    Senator Byrd. Why has it taken nearly 2 years of fighting 
in Iraq before the Pentagon asked for armor for all of these 
supply vehicles?
    General Myers. Because the threat situation on the ground 
changed, Senator Byrd, and we were responding to the request 
from the theater. And the request went through several levels. 
And it's up to, now, I think a little--almost 9,000 units--a 
little over 9,000 units, they want, of the up-armored Humvee. 
But we also have the trucks and the other vehicles in the 
theater----
    Secretary Rumsfeld. And, in fact, it did not take that 
period of time, Senator. If you look at this chart you can see 
that the ramp-up was very steep, going from 55 total armored 
Humvees up to 450. And the time that question was posed was in 
December 2004, and we were already up over 450 up-armor Humvees 
a month, and the numbers were soaring, as you can see from the 
left.
    Senator Byrd. Thank you, Mr. Chairman. You've been very 
liberal with my time.
    Chairman Cochran. Thank you, Senator.
    In recognition of Senators, it's the intention of the Chair 
to go from the Republican side to the Democrat's side. Senator 
Leahy was the first Democrat here at the hearing. Senator Burns 
was the first Republican. I will move from Senator----
    Senator Burns. Thank you, Mr. Chairman. I----
    Chairman Cochran [continuing]. Byrd to Senator Burns. 
You're recognized, Senator.
    Senator Burns. Thank you, Mr. Chairman.
    I have one question and short comment as you look at this 
supplemental request and the other requests, I'd just like some 
information and answers for the committee. Now, it's my 
understanding that last week, at a meeting in France, NATO 
Defense Ministers discussed the possibility of an expanded role 
for the alliance in Iraq and Afghanistan. As we see the numbers 
for training security forces in both areas, I would ask, What 
is the status of the possible expanded role of NATO in 
Afghanistan?

                    POSSIBLE EXPANDED ROLE FOR NATO

    Secretary Rumsfeld. It is----
    Senator Burns. Additionally, if NATO is moving forward with 
an expanded role, exactly what will it be, on what sort of 
timeframe, and is there funding in the supplemental request for 
its support?
    Secretary Rumsfeld. The NATO organization took over the 
International Security Assistance Force as the various 
Provincial Reconstruction Teams were formed--first in the 
north, then moving west, then south, and then east--the 
International Security Assistance Force, under NATO, agreed to 
take over responsibility for those sectors in the country of 
Afghanistan. They currently have the Kabul area and the north, 
and I believe they're getting ready to take over the Herat 
area, and the next step would be to move down toward Kandahar. 
The last area would be along the Pakistan border, which is 
obviously the most difficult area, and that's where our forces 
have tended to operate.
    With respect to Iraq, the North Atlantic Treaty 
Organization agreed, at the summit in Istanbul, to assist with 
training and equipping the Iraqi security forces. That is quite 
apart from what the individual NATO countries are doing in 
Afghanistan and in Iraq. We have something like 25 or 30 in one 
or the other of the two countries.
    With respect to train and equip, the Secretary General of 
NATO announced publicly that his hope is that, by the 
President's visit to Brussels, coming up in 1 week or so, that 
every one of the 26 NATO countries will have done one of the 
following four things with respect to the train and equip in 
Iraq: either put forces into Iraq to assist in the training in 
the country, agree to train Iraqi security forces outside the 
country--and we're currently training some of them in Jordan 
and various other places--third, give money to the trust funds 
to help pay for these activities, or, fourth, actually provide 
equipment. And a number of the Eastern European countries are 
providing fairly sizable chunks of equipment--tanks, AK-47s, 
and what have you. And that's the Secretary General's goal. I 
think at the moment he's got all but 3 or 4 out of the 26 
committed.
    Senator Burns. Are there funds in this supplemental request 
to pick up those shortcomings? Are you aware?
    Secretary Rumsfeld. The supplemental is designed to--I'm 
sorry, I can't read that--the answer to the question is that 
the funds that are being requested are the funds that the 
Government believes are the appropriate portion of U.S. 
contribution to helping to develop the Afghan and Iraqi 
security forces. The Iraqis, of course, have oil money, and 
they have their own budget, and they're contributing money to 
this activity, as well. The Afghans, less so; they don't have 
oil, and they don't have water. They have a much more difficult 
situation.

                   MILITARY RECRUITING AND RETENTION

    Senator Burns. My second question more pertains to the 
domestic situation here in the United States. Tell me about 
recent retention and recruitment, and your success or 
shortcomings, whichever they may be.
    Secretary Rumsfeld. General Myers, do you want to do that?
    General Myers. Senator Burns, across all the components 
it's uneven. For the Active component, generally, recruiting 
and retention are basically meeting standards, and are not of 
concern right now. On the Reserve component, where you focus 
very quickly is to the Army Reserves and Army National Guard. 
And to meet that challenge, we've beefed up the number of 
recruiters and the re-enlistment bonuses and other things we 
can do to attract people to stay or to sign up.
    Part of this is exacerbated by the fact that the Army is, 
in fact, increasing its forces; therefore, there aren't as many 
people that--leaving the active duty Army that would join up 
with--available to join up with the Reserves or the National 
Guard, which is an issue. But we think we can overcome that.
    One of our problems is trying to predict what it's going to 
be next month and the month after. So this is something that 
the Secretary, the Joint Chiefs of Staff, the Secretary's 
staff--Dr. Chu--we try to look around corners and try to 
predict this. We're going to have to watch this very carefully 
this year. It'll be a challenge.
    But it turns out that retention is highest in those units 
that have been called up, mobilized, and have served, which is 
interesting, and not all that surprising to those of us in 
uniform.
    So we're not in a crisis mode at all yet. We are in a mode 
of watching very carefully, particularly the Army Reserve 
components.
    Secretary Rumsfeld. And the other interesting thing is, 
this fact that the pool that the Guard and Reserve draw from is 
from the active force, but the people who have gone to 
Afghanistan and Iraq on active duty are wanting to stay in. 
Their retention rate is higher than the ones who have not been 
deployed to Afghanistan and Iraq; and, therefore, the pool that 
the Guard and the Reserve would normally draw from is reduced 
because of the higher retention rate by those people.
    Senator Burns. Thank you, Mr. Chairman. In light of time 
and the fact that there's a lot of questions and a lot of 
members--I thank the chairman, and yield to the next Senator.
    Chairman Cochran. Thank you very much, Senator.
    Senator Leahy.
    Senator Leahy. Thank you very much, Mr. Chairman. And thank 
you to the committee. You and I have served on this committee 
for over a quarter of a century. It's good to see the white-
haired guys make it.

                 WHAT WAS INCLUDED IN THE SUPPLEMENTAL

    I was interested, Mr. Secretary, in your conversation with 
Senator Byrd. It made sense when Senator Byrd asked, Why are 
some of these things that are basically supplemental--doing in 
here? You said it's beyond your pay grade. Well, unless you 
exclude the Commander in Chief, there's nothing beyond your pay 
grade in the Department of Defense; you're the Secretary of 
Defense, you're the one who's supposed to make that decision.
    Secretary Rumsfeld. Senator, I thought----
    Senator Leahy. It was----
    Secretary Rumsfeld [continuing]. The Congress was Article I 
of the Constitution.
    Senator Leahy. Well, if I could finish--at least in this--
at least in what is submitted to us. This is the point. We were 
asked about the up-armoring. And it was said here today that we 
didn't anticipate the problems. Didn't anticipate? I wonder if 
some of the planners were simply listening to some of the rosy 
scenarios coming out of the administration that somehow we're 
going to be greeted as liberators when we came in there, it 
would be like Paris after World War II. Of course these weren't 
anticipated. People like General Shinseki were pushed aside 
when they were told you needed more, and that's why they were 
not anticipated. But it has taken a very long time to get where 
we are.
    Now, the White House has put tens of billions of dollars 
for continuing the wars in Iraq and Afghanistan off budget. 
It's not in the budget that the President submitted last week.
    Now, this is an emergency supplemental. I realize the aid 
for tsunami victims, that was an unforeseen disaster of 
biblical proportions. And, incidentally, I compliment you and 
the Joint Chiefs of Staff and the military for the way you 
surged to get water and equipment and everything in to these 
victims, something no other country on Earth could do, and I 
compliment you for that.
    But we're talking, here, about wars that have been going on 
for years. You knew they were going to have to have money to 
fund ongoing military operations. You knew the war's going to 
go on a lot longer. I mean, the administration testified before 
this committee 2 or 3 years ago, ``The most we'd spend would be 
about $1.5 billion,'' or something like that. We're into 
hundreds of billions of dollars. Aren't we adding more billions 
to the deficit? More than the White House wants the American 
people to know about? I mean, how much is this going to add to 
the deficit before we start being straight-talk about it?
    Secretary Rumsfeld. Senator, you used the term ``before we 
use straight talk.'' This is straight talk. There's nothing 
other than straight talk. Everyone knows the size of the 
supplemental, everyone knows the size of the budget. There's no 
mystery.
    I'll let General Myers respond. He's the one that used the 
phrase ``not anticipated,'' not I.
    General Myers. My comment referred to the up-armored 
Humvees, I think, specifically, when I said ``unanticipated.'' 
We were building an Army for a different purpose than we find 
ourselves--for circumstances different than we find ourselves 
in today, Senator Leahy, as you know. And so, we have tried to 
adapt to that and meet the commanders' needs to provide the 
appropriate armor so that our forces, when out and about, in an 
insurgency like we face, that they are protected.
    When we went into Iraq, when we did our initial planning, 
there were lots of things that were planned for. Some came 
true. Some did not come true. Some of the things that did not 
come true are very good that they didn't come true. And some of 
the things that we thought wouldn't happen, happened. And the 
insurgency has intensified over time, but--I believe that's 
coming to an end, by the way--but, I mean, it has intensified 
over time.
    And there are clearly things in this supplemental that were 
not predictable, in lead-time away, to put in the 2006 budget. 
And I would offer examples, in terms of helping the Iraqis----
    Senator Leahy. General--and I--you know I have enormous 
respect for you, and I would ask that that--those examples be 
included in the record, because of the time constraints.
    [The information follows:]

    Although the question was directed at CJCS, the Joint Staff 
was not involved in the process that determined what elements 
would be placed in the baseline fiscal year 2005 budget and 
what would be placed in the Supplemental. These were decisions 
made by OSD Comptroller and OMB.

    Senator Leahy. My point was that this--the hundreds of 
billions of dollars spent on these wars in Afghanistan and Iraq 
are not in our budgets when we talk about the size of the 
budget. That's more of a editorial comment.

                  FUNDING GUARD AND RESERVE EQUIPMENT

    I'll give you something more specific, though. We know how 
the Guard and Reserve has been performing very well. And you 
have all been very good in saying that. But the deployments 
reveal there are significant equipment deficiencies within the 
Guard. I understand there's supposed to be, included in the 
Army's modularity concept for the Guard, but as I go through 
the budget, I can't find any specifics about funding levels for 
these National Guard brigades. I don't know if it's in a 
supplement or a further budget--could somebody provide that to 
me for the record, please?
    Secretary Rumsfeld. General Myers points out that the 
Army's plan, he believes, is to do the active brigades first, 
and that the Guard and Reserve funds would probably be more in 
the out-years, as opposed to in this supplemental.
    Senator Leahy. Can somebody give me a specific time----
    Secretary Rumsfeld. Sure.
    Senator Leahy [continuing]. Timeline on that?
    Secretary Rumsfeld. Yes, sir.
    [The information follows:]

             Modularity Schedule for the Guard and Reserve

    Funding for the Army modular force is prioritized based on 
the needs of the unit scheduled for deployment. Resources to 
convert Guard brigades and to establish the Army Reserve 
Expeditionary Forces are included within the overall Army 
resources identified for the Army modular force. As the Army 
determines deployment schedules and analyzes equipment needs of 
the individual brigades, resources for the Army modular force 
could shift between the Army components. The fiscal year 2005 
supplemental request includes $787 million for National Guard 
and Army Reserve modularity equipment needs.

                        PERMANENT BASES IN IRAQ

    Senator Leahy. Now, does the Pentagon--Mr. Secretary, does 
the Pentagon plan to maintain any permanent military bases or 
combat troops in Iraq?
    Secretary Rumsfeld. Not to my knowledge.
    Senator Leahy. So have you ruled out the establishment of 
permanent U.S. military bases in Iraq?
    Secretary Rumsfeld. It's not for me to rule them out. It's 
a matter for the U.S. Government and the Iraqi Government to 
make a judgment, and we have no--it would be an incorrect 
impression to suggest that anything in this budget, or in any 
budget that I'm aware of, has any implication for any permanent 
activity of the U.S. Government in Iraq.
    Senator Leahy. You've said, and all have said, that we want 
the Iraqis to be able to take over----
    Secretary Rumsfeld. Absolutely.
    Senator Leahy. Are there any plans, tentative or otherwise, 
when that day comes, for us to stay in Iraq?
    Secretary Rumsfeld. Not to my knowledge.
    Senator Leahy. Not to your knowledge.
    Secretary Rumsfeld. Not to my knowledge. I have no 
knowledge of----
    Senator Leahy. Okay.
    Secretary Rumsfeld [continuing]. Anything like that.
    Senator Leahy. There have been reports.
    Secretary Rumsfeld. I would certainly think so, except it's 
in--you know, who knows? The Iraqi people are----
    Senator Leahy. Well, if you don't know, who does?
    Secretary Rumsfeld. Well, I'll give you an example of what 
you can't know. Let me put it that way. If such plans existed 
in the Pentagon, I would know. They do not exist.
    Senator Leahy. Okay.
    Secretary Rumsfeld. They did not exist for Afghanistan 
either, and yet you had President Karzai run on a platform 
asking the United States to maintain some sort of a presence in 
that country for some period into the future. And that then is 
something that I don't decide. It's something that would then 
be for discussion between President Karzai, the Iraqi 
Government, and the President of the United States and the 
Secretary of State, and eventually the Congress, to make a 
decision as to whether or not it's appropriate for the United 
States--useful to us--to have a presence there. I don't mean a 
permanent base, but some assistance to them, or some training 
and equipping like we're doing in the country of Georgia. I 
don't know what those relationships will be and how they'll 
evolve. In fact, I would say, no one can know, because until a 
permanent Iraqi Government is selected, after a constitution is 
drafted, nobody in Iraq could be in a position to discuss with 
the United States something like that.
    So there should be no thought in this committee of anything 
permanent in Iraq.
    Senator Leahy. Okay. You know, the Guard funding, I know 
there's been agreements between the Army and the Guard, and I 
think we're going to want a very full answer on that one. And 
I--because I am concerned--the Coalition Provisional Authority 
(CPA) Inspector General said $8.8 billion development fund for 
Iraq monies--$8.8 billion--can't be accounted for, and I'd like 
a report on just where that is. We're asking for--we toss 
billions around here somewhat easily, but in my little State of 
Vermont $8.8 billion is a lot of money, and I'd kind of like to 
know how it got lost. And I would like a detailed report, and 
perhaps a briefing, of where that is.

                      ASSAULTS ON WOMEN DETAINEES

    And my last question, though, is from the Taguba report. 
That comment on the video--talking about the abuse of Iraqi 
women in U.S. custody--the comment on the videotaping and 
photographing of naked male and female detainees--the Fay-Jones 
report describes similar incidences; there's other information 
that there may be much worse, including rape--insurgents in 
Iraq have cited the abuse of female detainees as a motivation 
for their violent acts. Whether it's an excuse or not, they've 
cited it. Are you aware--are you, Mr. Secretary--aware of 
reports that Iraqi women detainees in U.S. custody were 
assaulted or raped? And, if so, who's investigating that?
    Secretary Rumsfeld. There have been nine reports on 
detainee investigations. There's two that are still open. There 
have been over 15,000 pages of--plus another 16,000 pages--
delivered to Congress; 950 interviews have been completed. 
There have been 33 court-martials, 55 non-judicial punishments, 
17 reprimands----
    Senator Leahy. That's not my question.
    Secretary Rumsfeld [continuing]. And----
    Senator Leahy. The question was, Are Iraqi women being--
detained by the United States--have they been assaulted or 
raped?
    Chairman Cochran. Senator----
    Senator Leahy. Yes or no?
    Chairman Cochran [continuing]. Senator, he heard your 
question. Let him have a chance to answer.
    Senator Leahy. Okay.
    Secretary Rumsfeld. Contained in----
    Senator Leahy. Well, I'd like an answer.
    Secretary Rumsfeld [continuing]. Contained in all of these 
pages are various allegations. And the question is, have any of 
them been validated? And that, I don't know. We can go back and 
get that answer for the record.
    But there have been, as I say, any number of people who 
have been court-martialed and received various other types of 
punishment, and whether, buried in there, there is that 
particular allegation that you've cited, I'll be happy to try 
to find out for you.
    [The information follows:]

    The Department investigates every allegation of abuse, sexual or 
otherwise.
    There have been five allegations of sexual misconduct by U.S. 
personnel against Muslim women, including three sexual assault 
allegations and two cases of sexually abusive behavior. Two allegations 
have resulted in punishment, one remains under investigation and two 
have been closed for lack of evidence.
  --Private Graner, now serving 10 years for multiple offenses against 
        detainees, induced an Iraqi woman to expose her breasts and 
        photographed her. That offense was included in his court 
        martial. He also was alleged to have engaged in consensual 
        sexual misconduct with U.S. personnel.
  --Three soldiers were demoted and fined for taking a female detainee 
        to an unsupervised area of the Abu Ghraib prison where one 
        kissed her and she was threatened.
  --There is a case involving allegations of sexual assault and other 
        misconduct against a 75 year old Iraqi woman. It is under 
        investigation.
  --A rape allegation, reported in the Los Angeles Times, was 
        investigated but closed for lack of evidence.
  --A rape allegation, reported in Playboy Magazine, was investigated 
        but closed for lack of evidence.

    Senator Leahy. I appreciate that.
    Thank you, Mr. Chairman.
    Chairman Cochran. Thank you, Senator.
    Senator Allard.
    Senator Allard. Thank you, Mr. Chairman.
    And I, for one, would like to thank both General Myers and 
the Secretary of Defense, Don Rumsfeld, for his good work in 
trying to keep us on track in dealing with the problems that 
have emerged. I think they have done a reasonable job in trying 
to anticipate what would happen on the war against terrorism in 
Iraq and also to respond to the current-day crisis.

                        NATO'S LEVEL OF SUPPORT

    I'm somewhat disappointed in what some of our allies have 
done in responding to the needs that we have there. NATO has 
promised to give us some support, and currently haven't lived 
up to what they promised, in a couple of areas. And I wondered 
if you might anticipate any further participation from our 
friends and allies out of NATO, above the level at which--or 
anywhere near meeting the promises that they were making? I 
think at one point they had promised that they would help train 
1,000 Iraqi officers. They only sent out somewhere around 300 
military trainers to Iraq. I think this is an issue that I'd 
like to hear you respond to.
    Secretary Rumsfeld. Any organization of 26 countries does 
not move as rapidly as an organization that involves one or two 
or three. It's just the nature of things. It's the difference 
between an executive and legislative branch. It takes 
discussion and time, and that's the nature of it. That doesn't 
make it wrong or bad; it's just a fact.
    NATO tends, over time, to find its way to the right 
decision and to do the right thing. It's doing some amazing 
things right now. It is in Afghanistan, and it's got activities 
in Iraq. Historically, they've never been outside of the 
European area. Kosovo and Bosnia was a big step. The airborne 
warning and control system (AWACS) for the United States, after 
9/11, was a big step. This is an organization that, in its 
whole history, stayed inside the NATO Treaty area. Second, 
they're developing a NATO Response Force.
    So they're doing some things. They're doing some things 
that are important. And we've been working with them, and 
initiating these things. And I think that progress is being 
made. I think, over time, you'll find--we have found, in 
Afghanistan--every 6 months, they increase their contribution 
and their activity. I think you'll find the same thing in Iraq 
over a period of time.
    Do you want to comment on that?
    General Myers. I would just add, you know, in Afghanistan, 
of course, they are really stepping up. And, as the Secretary 
mentioned earlier, it's not hard to envision a total NATO 
operation in the next year and a half inside Afghanistan, which 
I think is a big commitment on NATO's part. And they are moving 
toward that at a pretty good clip.
    In Iraq, they're just getting started with the training 
mission. You were right, they have about 80-some people in Iraq 
right now. They're going to build to 400, here in the near 
term, a little over 400, of which we'll be a piece of that. 
We'll have about 25 percent--20, 25 percent of that force. But 
that's the first stage. There could be other stages later on. 
And, as the Secretary said, NATO countries are encouraged to 
help in four other areas besides the one I just mentioned--
three other areas besides the one I just mentioned.
    And I just made a trip to France. I know the French are 
looking at training the Iraqi police on the gendarmerie model, 
which is not a bad model for Iraq. It's a negotiation and 
discussions are going on between the Iraqi Government and the 
French Government right now as to where and how many and so 
forth. But things like that are really, really important, so--
it's improving every day.

              HOW MUCH FLEXIBILITY NEEDED IN SUPPLEMENTAL?

    Senator Allard. Well, I know that both of you need to have 
some flexibility in the money that we send you, and I think 
past history, trying to deal with the unexpected with what has 
happened in both Iraq and Afghanistan, has documented the fact 
that you need to have some flexibility. How much flexibility is 
in this supplemental, and how much do you think you're going to 
need?
    Secretary Rumsfeld. Well, I guess I'd say two things. I 
think having the ability to provide some funds to help develop 
the Afghan and Iraqi security forces, having the funds to 
assist other countries--for example, a country that wants to 
put some forces into Iraq, which is good for us, and doesn't 
have the lift to bring them in, having the funds to do that, 
having the funds to work with Pakistan--is important, because 
they're doing such a good job on that side of the border. And, 
heretofore, we didn't have that flexibility, and the 
flexibility that Congress has provided to enable us to do that, 
I believe, saves the use of U.S. forces, saves the lives of 
U.S. forces, and is vastly cheaper than trying to do it 
ourselves. So I appreciate the flexibility we've got.

                  REFURBISHING AND REPLACING EQUIPMENT

    Senator Allard. I understand the supplemental request 
includes $5.4 billion to refurbish and replace some worn and 
damaged equipment. It's a rough environment over there. Can you 
clarify whether this money is going to be used to reset units 
returning from Iraq and Afghanistan, or to purchase brand-new 
equipment to replace equipment being used in these theaters?
    Secretary Rumsfeld. I'm told it varies, and they make a 
calculation, when they look at the equipment, on several bases. 
One, is that the piece of equipment they want? And, if not, 
they don't replace that, they replace it, as I indicated, with 
something that's appropriate, like a precision weapon instead 
of a ``dumb bomb.'' Second, if it's a truck or a vehicle like 
that, I'm told they take a look at it and they decide the cost-
benefit ratio of either repairing it or replacing it.

          SUFFICIENCY OF FISCAL YEAR 2005 SUPPLEMENTAL REQUEST

    Senator Allard. In your supplemental, you've addressed many 
issues that are relevant to the men and women on the field. 
There's support in Congress that helps keep them able to do 
their job. Are you pretty satisfied with where you are right 
now, or are going to have to come back later for more money in 
the future.
    Secretary Rumsfeld. The supplemental was put together in 
the hope that it would carry us through the period. You know, 
life being what it is, there have been times that you're 
surprised and things are needed that you had not anticipated. I 
mean, we had no idea the country was going to get hit on 
September 11 and we were going to have to go into Afghanistan. 
And so, things can happen. But my impression is that the 
supplemental was designed and fashioned to be very 
straightforward as to what's needed.
    Senator Allard. Thank you, Mr. Chairman.
    Secretary Rumsfeld. Mr. Chairman, could I ask----
    Chairman Cochran. Thank you, Senator.

               ACCOUNTING FOR $8.8 BILLION IN IRAQI FUNDS

    Secretary Rumsfeld [continuing]. Ask a personal favor? I'm 
sorry Senator Leahy left, but he asked a question that I did 
not answer, and I apologize. He asked about the $8.8 billion, 
that there's some audit report. I think it's important to point 
out that this was not U.S. money, this was Iraqi money. The CPA 
immediately put in a good many auditors and inspector generals 
and the like, and that money was, in large measure, used to pay 
Iraqis who had been on the payroll. And the goal was to get 
them off the streets. The goal was to try to reduce the 
insurgency. And so, they paid teachers, and they paid retired 
military people, and they paid various other people. I'll be 
happy to get the report, for the record, that the CPA prepared.
    [The information follows:]

    The CPA-IG Audit Report is attached. Responses to the Audit 
by Ambassador Bremer and Office of the Secretary of Defense are 
included at page 33 of the attached report. The report can be 
found on the web at the following address: http://www.cpa-
ig.org/pdf/dfi_ministry_report.pdf.

    Secretary Rumsfeld. But I noticed that Ambassador Bremer 
had explained that to somebody, and I was just given the paper.
    Thank you.
    Chairman Cochran. Thank you for clarifying the record.
    Senator Murray.
    Senator Murray. Well, Mr. Secretary, thank you so much for 
being here today.
    First, I do want to applaud you for including an increase 
to the military death benefit and the service members group 
life insurance program. Many of us have encouraged the 
administration to increase those programs. My home State of 
Washington has lost nearly 100 soldiers since the war began, 
and I really agree that it is an emergency situation for those 
families, and they paid the ultimate price for our country, and 
it's the right thing to do. So I appreciate that.
    I'm also pleased to see the additional funding has been 
added for equipment, including the armored security vehicles. 
That is going to really help our soldiers complete their 
mission more safely and successfully. And my State, that has 
thousands of soldiers on the ground in Iraq and in 
Afghanistan--and I just know their families are really going to 
appreciate that so that they know their loved ones are 
protected. So I thank you for that.
    As you can imagine, I do share some of the concerns of my 
colleagues, but rather than take my time to rehash why some of 
these items have not been included in the President's budget, 
but, rather, came to us as supplemental, I want to focus my 
time on one glaring omission that I do see from this 
supplemental request.
    Mr. Secretary, just a few weeks ago we listened to 
President Bush outline his priorities for the Nation during his 
State of the Union Address, and he told us that that document 
reflected his priorities, and he said, and I quote, his budget 
``substantially reduces or eliminates more than 150 Government 
programs that are not getting results, that are duplicate 
current efforts, or do not fulfill essential priorities.''
    Now, just last week, as a member of the Budget Committee, I 
listened to the OMB Director repeat that mantra about these so-
called nonessential priorities. But the President's essential 
priorities had the same glaring omission.
    According to the President's letter to Congress, this 
request, this supplemental request, reflects urgent and 
essential requirements. The President said that the majority of 
this emergency request, and I quote, ``will ensure that our 
troops continue to get what they need to protect themselves and 
complete their mission.'' He said--and I agree with him--that 
we have to move quickly so that our troops and diplomats have 
the tools they need to succeed.

                      FUNDING FOR CARE OF VETERANS

    That is why I'm very troubled by this request. There is no 
mention in here of our responsibility to pay for the continued 
emotional and physical cost of war. It's as if once these brave 
men and women leave the service, they're no longer considered 
an essential priority for the administration.
    Mr. Secretary, my father was a World War II veteran. He 
came home disabled. During the Vietnam war, I interned in a 
Seattle VA hospital, and I know firsthand the scars and the 
wounds that our veterans carry. And as I look at this request, 
I see money for everything from reorganization to training to 
armor to bullets, but I do not see one dollar, not one dime, to 
take care of our troops and ensure that they have the tools 
they need to succeed when they become veterans. This 
administration decided to fund this war and all of its 
implications through supplemental requests, yet this request in 
front of us does not provide even one dollar for a very 
important cost of war, and that is the care of our heroes when 
they return home.
    Mr. Secretary, can you share with this committee why we are 
not--why, when we are creating more veterans who need 
healthcare, who are coming home with tremendous costs that we 
have a responsibility to pay for, that they are not considered 
part of the cost of war?
    Secretary Rumsfeld. I'll have to supply for the record 
details of all the places where those funds are.
    [The information follows:]

    The fiscal year 2005 supplemental includes funding to 
support severely injured members and their families as well as 
the active and reserve Service members and their families 
deployed in support of Operation Enduring Freedom and Operation 
Iraqi Freedom. Funding for veterans health care is included in 
the fiscal year 2006 budget request for the Department of 
Veterans Affairs. The request can be found at the following web 
site: www.va.gov/budget/summary/index.htm.

    Senator Murray. For veterans' services?
    Secretary Rumsfeld. Well, of course, the veterans' budget 
is in the Veterans budgets. I'm here testifying----
    Senator Murray. Well----
    Secretary Rumsfeld [continuing]. On the Defense Department.
    Senator Murray [continuing]. Well, we're looking at a 
supplemental request to take care of the costs of war. Would 
you not agree with me that taking care of our veterans when 
they return home is not a cost of war?
    Secretary Rumsfeld. Absolutely. And----
    Senator Murray. But we do not see one dime in this budget. 
In this supplemental cost-of-war emergency funding, we do not 
see one dime for veterans.
    Secretary Rumsfeld. Could I take a minute and try to 
respond? I am here testifying on the Department of Defense 
portion of the supplemental, not the entire supplemental. I 
don't know--I'm sure you're correct, but I just don't happen to 
know how much is in the Veterans Administration. I know the 
Veterans Administration budget is about $30 billion----
    Senator Murray. Well----
    Secretary Rumsfeld [continuing]. And it--I think that's 
right----
    Senator Murray. Well, Mr. Secretary, let me just share with 
you----
    Secretary Rumsfeld. Could I just finish, please? And I'm 
told that mental health is in the regular budget. And I want to 
add that the Department of Defense works with the Veterans 
Administration, and we just opened a military Severely Injured 
Joint Support Operation Center, which provides 24/7 family 
support, it augments the military services' efforts. We have a 
totally different family support effort, which is called 
Military One Source, which is available 24 hours a day.
    You're absolutely right, when a person is injured, and he 
gets wonderful care, medical care, while they're in active 
duty, and, at some moment, they transfer over, and they leave 
the base and the support group that fits around their unit, and 
they're home, and they're still severely wounded, and they 
still get excellent medical care, but they need a variety of 
other things. And we have--and maybe General Myers wants to 
respond--but we have put a great deal of time and effort in it, 
because, we agree with you, it's terribly important.
    Senator Murray. And it is part of costs of the war, I think 
you would agree. The cost of caring----
    Secretary Rumsfeld. Absolutely.
    Senator Murray [continuing]. For our veterans is----
    Secretary Rumsfeld. Absolutely.
    Senator Murray [continuing]. A cost of the war. The 
supplemental that is in front of us is to cover the costs of 
war. And I will tell you, there's not one dime in it.
    Now, I have to tell you, I'm a member of the Veterans 
Committee. The VA Secretary was in front of us yesterday. I 
asked him these questions. He couldn't provide me with an 
answer. When I ask you, you tell me--you're Secretary of 
Defense--you can't answer me. Well, I want to know who I'm 
supposed to ask.
    We do not have the services available to take care of our 
soldiers once they come home and come out of service and are--
become veterans. In Washington State, we have 3,000 soldiers 
who are going to be coming home in a couple of weeks--Guard and 
Reserve folks--who are going to go into the veterans services. 
I met with all of our service personnel and with the veterans 
services. They know that they do not have the services to take 
care of this. They told me that 20 percent of these soldiers, 
at least, will need help for posttraumatic stress syndrome. And 
we have lines today. We do not have the services for these 
folks.
    So, Mr. Chairman, I just have to say, if this is a cost of 
war, then we should have money in the supplemental, in the 
emergency supplemental, to take care of these veterans. And I 
am deeply disappointed by this request, that it does not take 
care of those soldiers when they return home. I think all of us 
agree that they are a part of the cost of war, and we have a 
responsibility to make sure they get cared for. But we also 
have to recognize it is part of our recruitment and retention, 
and if we are not taking care of these veterans when we return 
home, it is going to be very hard in the future to take care of 
them.
    So, Mr. Secretary, I will let you respond. But, Mr. 
Chairman, I want you to know that I will be offering an 
amendment on this supplemental when it comes before this 
committee for $2 billion to care for our veterans, because I do 
believe it's a cost of war, I do believe it's the 
responsibility of the U.S. Senate and Congress, and I think we 
have an obligation to those who serve us to make sure we're 
there for them.
    Secretary Rumsfeld. We will get you a written response.
    [The information follows:]

    The fiscal year 2005 supplemental includes funding to 
support severely injured members and their families as well as 
the active and reserve Service members and their families 
deployed in support of Operation Enduring Freedom and Operation 
Iraqi Freedom. Funding for veterans health care is included in 
the budget for the Department of Veterans Affairs. This request 
can be found at the following web site: www.va.gov/budget/
summary/index.htm.

    Secretary Rumsfeld. I am just passed a note saying that the 
Severely Wounded Operations Center is in the supplemental.
    Senator Murray. That's--how many soldiers does that cover?
    Secretary Rumsfeld. It covers severely wounded----
    Senator Murray. Do you have a number for me on how many----
    General Myers. It's unlimited. It's anybody who wants to 
avail themselves of service.
    Senator Murray. Well----
    General Myers. It's set up for severely----
    Senator Murray. Well, we're----
    General Myers [continuing]. Wounded, but it can handle----
    Senator Murray. You----
    General Myers [continuing]. Any number of----
    Senator Murray. Well, in the President's budget request on 
veterans, we'll be cutting more than 3,000 people out of the VA 
system who are covering healthcare, at a time when we have 
thousands of veterans who are coming home. I don't have time 
this morning to outline for this committee the inadequacy we 
have, but I will tell any of you go home next week and visit 
your veterans facilities, talk to the service people who are 
responsible for reintegration for your Guard and Reserve and 
veterans who are coming home, and you will know, as I do, that 
we have an emergency in front of us in not being there to take 
care of these soldiers. It is a crisis.
    Thank you, Mr. Chairman.
    Chairman Cochran. Senator Domenici.
    Senator Domenici. Thank you very much, Mr. Chairman.
    Senator Murray, first of all, might I say to you, with 
reference to this concern, I think we all share it. I think 
there is a difference between being a veteran that is injured 
or mentally ill or in need of posttraumatic care, and a member 
of the military, that's still in the military, that needs 
hospitalization and care and the like.
    Senator Murray. Well, I would just say to you, with all due 
respect, if we don't care for these soldiers when they come 
home, recruitment or----
    Senator Domenici. Oh, I'm agreeing----
    Senator Murray [continuing]. Retention is very----
    Senator Domenici [continuing]. I'm agreeing with you.
    Senator Murray [continuing]. Difficult. And it is part of 
the cost of the war, to take care of these soldiers when they 
return.
    Senator Domenici. Senator, I wasn't arguing with you. I 
just said there is a difference between the costs of taking 
care of a military person who is injured and taking care of a 
veteran who is injured because he was in war. We still have to 
cover it. It is just two different items. Perhaps in this 
budget----
    Senator Murray. But there is--but there is no money there 
to do it. It's a--this is a supplemental----
    Senator Domenici. I understand.
    Senator Murray. Right.
    Senator Domenici. I hope we get the information. I'm not 
arguing. I hope we get it. I thank you very much for asking the 
question.
    General Myers. Senator Domenici, can I----
    Senator Domenici. Yes. Yes.
    General Myers [continuing]. Stop you for just a second? I 
wanted to address this earlier, and I----
    Senator Murray, you probably know that the services have--
this doesn't directly address your issue. Your issue is more 
with the VA piece of it. And my understanding there is that the 
VA has set up centers to address the stress and--posttraumatic 
stress syndrome of returning warriors and our heroes. So I'm 
told they have set up centers. And I don't----
    Senator Murray. There's a plan. There is not the personnel.
    General Myers. Well, that's--like I said, that's--the VA is 
going to have to work that. And we'll help them.
    The other thing I would say, though, that all the services 
have reacted very proactively to deal with those folks that are 
turning from the battlefield, much different than we have, I 
think, in previous conflicts. And I think that's a really good 
sign. We have learned from our past experiences. So, in terms 
of those that are returning, we work that very, very hard in 
the services.

                     DATA ON IRAQI SECURITY FORCES

    Senator Domenici. Mr. Secretary, first, excuse my voice. I 
have a cold. I hope it goes away before I go back to New 
Mexico, to that beautiful country that you share sometimes.
    I would like very much, in the few minutes that I have, to 
focus on what I think is currently the most important thing for 
us to try to understand and for you to tell us about, and that 
has to do with the training of Iraqis.
    As I understand it, the more the Iraqis are trained to 
occupy positions in the military and as policemen and all of 
those areas, and the sooner they are ready to do their job, the 
sooner we are probably going to be leaving, in groups, and, 
ultimately, en mass. I am somewhat confused, because I have now 
seen all kinds of numbers. Today, you give us the last one, 
which I assume is your authentic number, which is the one that 
came back with the last general that went over there. What was 
his name?
    Secretary Rumsfeld. General Luck.
    Senator Domenici. What?
    Secretary Rumsfeld. General Luck.
    Senator Domenici. General Luck?
    Secretary Rumsfeld. These numbers are not General Luck's. 
These numbers are the Department of Defense, from the ground--
--
    Senator Domenici. Okay.
    Secretary Rumsfeld [continuing]. General Casey, General 
Petraeus.
    Senator Domenici. Okay. What does the number that you gave 
us, one-hundred-and-thirty-----
    Secretary Rumsfeld [continuing]. Six thousand.
    Senator Domenici. What does that mean?
    Secretary Rumsfeld. That means that--in the Ministry of 
Interior, there are police, civil intervention, emergency 
response forces, border enforcement, highway patrols, dignitary 
protection, special police commandos----
    Senator Domenici. Right.
    Secretary Rumsfeld [continuing]. And 79,000 of them have 
been trained and equipped and are on duty. It means that, in 
the Ministry of Defense forces, which are army, national guard, 
intervention forces, special operations, air force, and navy, 
there's 57,000. And that comes to a total of 136,000. It does 
not include 74,000 site-protection people. So all Iraqi 
security forces, excluding the site protection, are 136,000. 
Today.
    Senator Domenici. Now, Mr. Secretary, you know I hold you 
in great respect, but I want to know, which of these are 
directly related to us getting out of there? The whole 136,000 
or are there some special ones that are more related to how we 
can get out and when we can get out? Do you understand my 
question?
    Secretary Rumsfeld. Oh, I sure do. I sure do.
    It is a tough question to answer. It's like saying which is 
more important to the security of the United States, the police 
in Chicago or the special forces or the Federal Bureau of 
Investigation (FBI)? You need them all.
    Senator Domenici. No, it isn't.
    Secretary Rumsfeld. You need them all.
    Senator Domenici. No, it isn't.
    Secretary Rumsfeld. I think so.
    Senator Domenici. I mean, if they have established a 
country, and they can defend themselves from outside forces and 
from bombers inside, we don't need to be their police force. 
Their police force will take care of a lot of other things. We 
don't have to wait around until policemen----
    Secretary Rumsfeld. Oh, I see your point. Okay.
    Senator Domenici. My point is, it's very hard for us, and 
for Americans, to understand. If the end of this war is when 
they no longer need us, how close are we to having them trained 
so that we will not be needed anymore? I don't want months, I 
want to know about training.
    Secretary Rumsfeld. Sure. I think----
    Senator Domenici. Will they be ready in 2 years? In 1\1/2\ 
years? When will they have enough trained?
    Secretary Rumsfeld. Well, it may--it could be before that.
    Senator Domenici. Yes.
    Secretary Rumsfeld. I mean, it depends on the level of the 
insurgency, how much force it takes to subdue the insurgency.
    Senator Domenici. Okay.
    Secretary Rumsfeld. But--in my view--and I think you could 
get different answers from different people on this in the 
Pentagon--but my personal view is that the forces that are 
going to have the greatest leverage on suppressing and 
eliminating the insurgency are the special police commandos, 
the intervention forces, the special operation forces, the 
forces that are mobile. And to the extent the insurgents go 
around and intimidate public officials or intimidate security 
forces, they need people--the Iraqis need people that can go 
around and intimidate them and stop them from intimidating. 
They need counterintimidators. And I think those people are 
going to be the ones that, in a period of time, will probably 
do the most to weaken the insurgency and dissuade them from 
getting new recruits. You do need the police, you do need the 
border patrol, you do need the dignitary protection and these 
other elements of it, highway patrols, but my personal view is 
that those are going to be the most important.
    I would say one other thing. You mentioned protecting, 
externally. I don't think we need to hang around in Iraq until 
they have a military capable of defending against their 
neighbors. That's the kind of thing that would take a good deal 
of time. I think we need to help them subdue the insurgency and 
take charge of their own country, and then we can go about our 
business.
    Senator Domenici. Now, Mr. Secretary, some questions have 
been asked about whether we plan to be there permanently. I 
think you tried to answer that--an American plan. I think the 
answer that you've given, if I might paraphrase it, is that you 
will be there, as some have said, as long as we're needed; some 
have said, as long as they want us.

                 IRAQI CONTRIBUTIONS TO THEIR TRAINING

    Now, let me ask, first, are the Iraqis contributing 
significant amounts of money to training themselves now?
    Secretary Rumsfeld. They do. They have a budget, and they 
are contributing to it. And I would have to get, for the 
record, what the precise amounts are.
    Senator Domenici. Could you give us that?
    Secretary Rumsfeld. You bet.
    Senator Domenici. Could you give us that portion of their 
budget that is going to train them, men and women, for the 
military?
    Secretary Rumsfeld. We will do that, sir.
    Senator Domenici. Could you give us what they plan in the 
future, if they have a budget--if it's 20, 30, 40 percent of 
what they get in for their defense? Because we need to make 
sure that we aren't staying there because they don't spend 
enough of their money on defense. I think it ought to be that 
they are spending plenty, and doing it right, because we can't 
pay forever. It's already a very, very expensive war. Those 
worried about the deficit, you understand--we can't have very 
many wars like this, Mr. Secretary. I hope you know that.
    Secretary Rumsfeld. I agree.
    [The information follows:]

    The Iraq budget for 2005 is approximately $24 billion. Of 
this amount, $2.8 billion is budgeted to support all Iraq 
Security Forces. However, most of this money is spent on 
salaries, sustainment, and other non-training costs. A portion 
of the Iraq Relief and Reconstruction Fund as well as funds 
requested for the Iraq Security Forces Fund, will be used to 
train and equip all Iraq Security Forces.
    While we do not have the specific numbers for future Iraqi 
budgets, we anticipate the Iraqi government will continue to 
adequately support their Security Forces to at least a level 
commensurate with their current efforts.

    Senator Domenici. You're not going be around here forever, 
but we can't do very many more, at least at the cost of this 
one, for sure.

                    QUALITY OF U.S. MILITARY PEOPLE

    Now, with reference to the performance of the men and women 
of the military, somebody asked something very specific here 
about malfeasance. You said you'd look through all these 
records, right? I want to ask you both about our men and women 
over there, that we continue to say are the best we've ever 
had, the brightest we've ever had--how about the way they 
behave? Do they behave as well as our men and women in the 
military have in other wars, or are they worse? Could you give 
us your ideas? Europe, wherever else we've been?
    General Myers. I'll give you my view, Senator. I think they 
behave a lot better than we have in the past. I think they are 
our models. I think one of the reasons we're successful in 
Afghanistan and Iraq is because our servicemen and -women take 
America's values with them into those countries.
    And, yes, there's always a few bad apples. If you would 
calculate out the percentage, my guess is that you'd find that 
99.99999--run that out for a while--percent of our Armed Forces 
behave admirably at all times. And it's--but it's like the rest 
of society--in fact, it's better than the rest of society--
there will be a few bad apples that will conduct themselves in 
ways that we're not proud of. But it's such a small percentage.
    So they are in some of the toughest conditions I've ever 
seen. Their comforts are minimal. They do have, in most cases, 
pretty good contact, electronically, information technology, 
back to the home front. But, other than that, they have very 
few comforts. There are still folks over there that are lucky 
to get a shower day. And they're making all the difference. I 
think they are terrific.
    Senator Domenici. That's enough. I want to ask a couple of 
additional questions.
    General Myers. Okay.
    Secretary Rumsfeld. I agree with the chairman.
    Senator Domenici. All right. You understand my question. I 
don't think the General answers it when he says they take their 
culture over there, because, frankly, I think they're behaving 
better than our culture here. I mean, there probably is more 
malfeasance on the part of men, versus women, per units of 
adults, here than there are over there. So, I don't think it's 
American culture.
    General Myers. That's generally been true in the military, 
Senator, as you know.
    Senator Domenici. I was comparing military to military. 
You're saying this is probably a better-behaved group of 
military people than past militaries.
    General Myers. Than I've ever seen before--certainly my 
personal experience when I was a young captain fighting a war.
    Senator Domenici. Okay. Now, let me ask the Secretary----
    Chairman Cochran. The Senator's time has expired.
    Senator Domenici. Oh, I thought I had 20 seconds.
    Chairman Cochran. That's the amount that you've gone over.
    Senator Domenici. Oh, oh, oh, oh.
    Chairman Cochran. After it turns red.
    Senator Domenici. Oh, I see. I'm sorry.
    Chairman Cochran. These are newfangled machines. We have a 
new sound system, and it's--we're all learning how to use it 
and what the signals mean when the time is expired.
    But thank you very much.

                       PAYING FOR TRANSFORMATION

    Senator Domenici. Could I just follow on, on the way out?
    Chairman Cochran. Go ahead and complete your question.
    Senator Domenici. Mr. Secretary, you've explained to 
Senator Byrd why the modality and the other transformational 
costs are in here. Let me ask you. If you don't put them in 
here, and you don't implement it, you bring those people home, 
then you have a military that is not what you want it to be. 
You have to pay for it anyway.
    Secretary Rumsfeld. Eventually, you'll pay for it, and 
you'll pay more, and we will not have the benefit of the 
modernized force.
    Senator Domenici. Right.
    Secretary Rumsfeld. And the young men and women will have 
to spend less time home before being redeployed.
    Senator Domenici. Thank you, Mr. Chairman.
    Chairman Cochran. Thank you, Senator.
    Senator Feinstein.

             ALLEGATIONS OF ABUSE AGAINST FEMALE DETAINEES

    Senator Feinstein. Mr. Secretary, I was puzzled by your 
answer to Senator Leahy's question. Let me just ask it bluntly. 
Do you have reports--does the Pentagon have reports of rapes 
carried out on female Muslim detainees?
    Secretary Rumsfeld. I can't understand why you could be 
confused by the response. I said I simply do not know. We've 
got allegations, complaints, that are numerous.
    Senator Feinstein. Well, let me----
    Secretary Rumsfeld. And we will be happy to get the answer 
for the record.
    Senator Feinstein. All right.
    Secretary Rumsfeld. And I--I mean, I saw the photographs 
from Abu Ghraib, like everybody else did, and they're just 
terribly disturbing.
    Senator Feinstein. Well, let me ask General Myers.
    General Myers, are there allegations of rape, by our 
personnel, of Muslim women who are detainees?
    General Myers. I don't recall specifically seeing those, 
but it's possible.
    Senator Feinstein. Well--I mean, it would seem to me, when 
that's in the press, that both of you ought to move very fast 
to see if it's true or not. It's a terrible indictment.
    Secretary Rumsfeld. We have moved very fast on every 
allegation. We have set up procedures and systems and 
investigations and have spent hundreds and thousands of hours 
with people dedicated to doing nothing but investigating every 
single complaint that's been made. We've set up procedures so 
that the training of military police has been changed, the 
doctrine's been changed, the reporting responsibilities have 
been altered. There have been so many adjustments made in the 
Department of Defense, for the first time in history, to try to 
avoid it, because we agree with you how terrible----
    General Myers. And when we train Iraqis----
    Secretary Rumsfeld [continuing]. The charges have been.
    General Myers [continuing]. When we train Iraqis, as we do, 
we train them in human rights, as well. That's part of their 
training. In fact, it's--I think it's 40 hours out of their 
total training, we talk about human rights.
    Senator Feinstein. Well, because these things have 
surfaced, you know, I really wish that both of you would make 
very strong public comments about how reprehensible this is. 
You know, you now have a Government issued (GI) reporting--I 
guess it was in the New York Times--about the use of sex in 
Guantanamo interrogations. I mean, it seems to me that there 
needs to be a strong, firm response, and I--these things just 
keep going on and on and on, which leads me to believe there's 
some credibility to it. I just wanted to say that.

                  MILITARY CONSTRUCTION AT GUANTANAMO

    Let me put on my Milcon hat for a minute. And, Mr. 
Secretary, Senator Hutchison and I were with you in Guantanamo 
early on, so we know the general layout. I note the $42 million 
request to build a permanent detention facility at Guantanamo, 
and I also note that recent decisions by the Federal courts, 
including the U.S. Supreme Court, have called into question the 
legal validity of whether detainees are, in fact, you know, 
beyond the legal due-process system of this country. In view of 
that, is it not premature to be building a permanent detention 
facility at Guantanamo?
    Secretary Rumsfeld. First, let me respond to the rest of 
your previous question. There are 2.2--something like 2.2 
million men and women in the Guard and the Reserve and the 
Active Force. In any given year, there are literally hundreds 
and hundreds and hundreds of court-martials for things that 
have been done wrong. It's like a city of 2.2 million people. 
Think San Francisco or any other city in the world. People are 
raped, people are murdered, charges are made, and court-
martials take place, and the Uniform Code of Military Justice 
handles that.
    Some prove to be valid, some prove not to be valid. And 
there are hundreds and hundreds of them going on as we sit here 
today. There is no way in the world anyone can keep track of 
all of them, except the people who are charged with doing that.
    Second, General Myers and I have both made very strong 
public statements before congressional committees, before the 
press, about how deeply we feel about the behavior that 
resulted in abuse of detainees. We have done it publicly, we 
have done it internally in the Department of Defense. There is, 
I do not believe, any doubt about what our views are on those 
subjects. And we feel very strongly about it.
    General Myers. On Guantanamo, we have about 550 detainees 
there now. What you said about the courts is absolutely right, 
so we have to wait and see, in terms of some of the rights. But 
what we're doing is transitioning from a--to a long-term 
detention mission, because there are some there that are bad 
enough that you do not want to release them. And so, they're 
going to have to be detained in some location. And no matter 
how the courts come out, that's probably going to be the 
location. There are still some there that are yielding 
intelligence results and have the ability to inform us so we 
can protect the United States or our allies and our partners. 
So that's what this is about.
    We have--as you know when you first went down there, what 
we did on Guantanamo is, we brute-forced it. We went to an 
inadequate facility, and we covered the inadequacy with 
manpower. What we'd like to get to is Federal standards, in 
terms of the detainee accommodations and the rest of it, so we 
can go to more efficient operations, for sure. Because some of 
those will probably be a long-term effort. So that's what it's 
all about.
    Secretary Rumsfeld. Let me add this. The Department of 
Defense would prefer not to have the responsibility for any 
detainees. I'm working with the Iraqi Government to take over 
the Iraqi prisoners of war. We're trying to get them to take 
the prisons, and them to train the guards, so that they can 
manage that. The same thing with Afghanistan. The Department of 
Defense does not want to be in that business.
    The detention facility upgrades, I am told, that you see in 
the budget for Guantanamo, are to meet Geneva Convention 
standards, and as the General says, it's not knowable how long 
they'll be there.
    What we're doing is carrying out a U.S. Government policy 
that exists, and trying to do it to the best extent it can be 
done.

                  DEALING WITH IRAQI AMMUNITION SITES

    Senator Feinstein. I'd like to ask this question, and we've 
talked about it, last year, on Defense appropriations, and that 
is, the ammunition dumps throughout Iraq, particularly the 
unsecured one. And I think, thanks to Senator Stevens and 
Senator Byrd at the time, we added $100 million to the last 
supplemental to secure and also destroy munitions in those 
dumps. What is the status of securing munitions sites? And is 
that $100 million that was appropriated now obligated and used? 
Do you need more money? I view that as an extraordinary--a high 
priority.
    General Myers. I think, to date, it's now over 10,000 
weapons caches that have been found, over 300,000 tons of 
ammunition that's been destroyed, more to be destroyed. We'll 
get you the obligation rates. I don't have that on the top of 
my head. We'll have to get that to you for the record.
    [The information follows:]

    As of the end of January, the Army has obligated $12.8 
million of the funds provided. The munitions sites that we have 
identified are secured and work is proceeding, along with work 
on identifying and disposing of unexploded ordnance. I think 
the funding we have will get us through the fiscal year. Our 
biggest challenge right now is the general security situation 
in Iraq. We are using both Iraqi and U.S. Soldiers, so you can 
understand how the work is affected when there are insurgent 
threats or attacks aimed at the local nationals.

    General Myers. We appreciate that assistance, because, it's 
true, we've got to try our best to rid that country of these--
this tremendous weapons stockpile.
    It turns out that--intelligence has told us lately that the 
price of weapons on the market there, the black market, has 
gone up, indicating that we may be getting--may be having some 
effect on the availability of these weapons. And so, supply and 
demand are taking over and driving the prices up. That's a 
good-news story.
    But we continue to find large caches there, as we do in 
Afghanistan; and, for that matter, as we do in Bosnia, and 
we've been there now 9 years. So it's going to be a continuing 
effort. It's one that, as you know--we've talked about this 
before----
    Senator Feinstein. Right.
    General Myers [continuing]. Senator Feinstein----
    Senator Feinstein. Right.
    General Myers [continuing]. That we take very seriously.

                    STATUS OF IRAQI SECURITY FORCES

    Senator Feinstein. Last question. Because I was, in 
December, in Baghdad with Senator Biden, and then in Jordan at 
the training program with Senator Biden, who has very specific 
ideas on the number of security and police that have been 
trained--does that chart say that today there are 136,000 
trained, and that training is vetted--Iraqi army and domestic 
police that have been trained are in the field and are vetted 
as trained?
    Secretary Rumsfeld. What it means is that--General Petraeus 
and General Casey report every week, and their report says--
this week, dated February 14--that the Ministry of Interior 
forces have trained and equipped and deployed--they're on 
duty--79,039 forces, and the Ministry of Defense has trained 
and equipped and put on duty 57,303, for a total of 136,342. 
That is a fact.
    Senator Feinstein. See, the problem is, when we were in 
Jordan, and the head of the police training program sat down 
with us, they didn't know how many were actually in the field, 
because this was never vetted. They never knew----
    Secretary Rumsfeld. What does ``vetted'' mean in----
    Senator Feinstein [continuing]. That they showed up.
    Secretary Rumsfeld [continuing]. What's ``vetted'' mean in 
this context?
    Senator Feinstein. In this--that they actually were on 
duty----
    Secretary Rumsfeld. Oh, on duty.
    Senator Feinstein [continuing]. In Mosul or Baghdad, that 
they ever showed up for service. That's, I think, a point----
    Secretary Rumsfeld. I see.
    General Myers. We have pretty good visibility into the 
reporting for the Ministry of Defense forces. As the chart 
indicates, on the Ministry of Interior forces, since we're not 
out there with them, like we're with their national guard and 
some of the--and the regular army, we're not as confident about 
those numbers.
    In the end, this becomes a Ministry of Interior issue. They 
need to track these people as they go to the field. So those 
numbers--there may be absences there that we're counting as 
present for duty that aren't present for duty. In the Ministry 
of Defense numbers, that's all included. Those are present for 
duty, for sure. And, over time, as the Iraqi ministries and 
their bureaucracies get better, they'll be able to track those 
better. But we have a lot more visibility into the Ministry of 
Defense than we do the Ministry of Interior.
    Secretary Rumsfeld. And I should add, these ministries are 
very weak. They are understaffed. The personnel, in some 
instances, have been appointed because they were friends or 
same tribe or same group. And one of the serious problems both 
Afghanistan and Iraq have is seeing that they get strength in 
ministries so that they can manage these things better.
    There are also cultural differences. In Iraq, there's no 
banking system to speak of. So when a soldier gets paid, and he 
has a wife and kids at home, he may just leave and go give the 
money to his wife and children, and then come back. I mean, we 
had people in the Revolutionary War in the United States doing 
things like that. They'd go home for harvest and then come 
back.
    So each of these countries do it somewhat differently, and 
it's perfectly possible for anyone to put on a green eyeshade 
and look at the numbers and say, ``Well, the Ministry of 
Defense does not include unauthorized absences and the Ministry 
of Interior does. So, therefore, the numbers aren't any good.'' 
The numbers are what they are. We're dealing in a country 
that's gone through a war, that's refiguring itself for a 
democratic system, and they're doing a pretty good job. They 
just had a very successful election.
    Senator Feinstein. My time is----
    Chairman Cochran. The time of the Senator----
    Senator Feinstein. Thank you very much.
    Chairman Cochran [continuing]. Has expired.
    Senator Feinstein. Thank you.
    Chairman Cochran. Senator Brownback.
    Senator Brownback. Thanks, Mr. Chairman. And, gentlemen, 
thank you for being here.
    First, I want to say, I apologize for slipping out for 
another meeting for a little while, but--and a couple of things 
I say may have already been covered, but I would like to catch 
your thoughts.
    One, the elections were certainly very encouraging to all 
of us. I know you've heard that time and again. But, you know, 
so much of the American public, I think, was getting weakened 
in the resolve and support, because they kept wondering: Is 
this doing any good? Is it moving anything forward? And with 
that election, I think the Iraqis' resolve and standing up and 
willing to show up in face of danger really did encourage us 
that it's worth the cost. The American people will pay a high 
cost for freedom. They'll pay a high cost for somebody else's 
freedom. And they have been paying that, and the soldiers have 
been paying. But they want to know that somebody else believes 
that they're actually getting freedom in this. And that really 
did bolster the support here. And I congratulate you and, via 
you, the soldiers of the United States that have done that.
    Second, I was in the tsunami region a couple of weeks after 
the tsunami, and I want to report one thing to you. I met with 
the Prime Minister of India, several of the top people there. 
The cooperation between the United States and the Indian 
Government right after that tsunami was outstanding. It was 
unprecedented. We've never had that level of military-to-
military cooperation, I don't--in the history between the two 
countries. And they were very excited about that, of what that 
would hold for the future, and that the planning that you have 
done, and the work that you've done on a military-to-military 
basis, paid off in a very tangible way of lives saved and 
people helped, and just bolstered a feeling in that region, of, 
``Okay, now the United States, we can work with, and need to 
work with.'' And we share democratic traditions and a lot of 
things. Their economy's growing now, strong, at about 9 percent 
rate, they're getting some real growth taking place, and 
confidence in this relationship. And that was one where it was 
a terrible tragedy that occurred, but because of your prior 
working of that relationship back and forth, that you could hit 
immediately and help--and, as I understand, the Indian forces 
were there ahead of ours--but working cooperatively, it saved 
lives, and I think it really has helped strengthen that 
relationship, which I'm very supportive and excited to see.
    The problem area--and I keep hearing this coming up on 
Syria, and perhaps you've addressed it tangentially or a little 
earlier--but about the level of support coming across from 
Syria that's attacking our troops, or the inability--or the 
unwillingness of the Syrian Government to stop transitting 
Saddamists, of weaponry, of planning. What is taking place now 
to really try to target that issue? I presume there's some that 
you'll be using in this budget to do that because of the 
support that's coming across here. And so do you need any more 
authority from the Congress? Does the administration need any 
more authority from the Congress to try to bring additional 
pressure on the Syrian Government to stop this?

                           WORKING WITH INDIA

    Secretary Rumsfeld. Senator, first, thank you very much for 
your observation on India. The Department of Defense started, 4 
years ago, to work with the Indian Government, and the 
military-to-military relationship has been growing every single 
year. And it is impressive. And it, fortunately, to my great 
pleasure, has succeeded in the new government. That is to say, 
the new government feels exactly the same way, and they have 
applied themselves with the same attentiveness to that 
relationship. And, I quite agree with you, here's the world's 
largest democracy, they've got the second largest Muslim 
population on the face of the Earth, and it's important that we 
have a good relationship with India. It's a very important 
country.

                            ELECTION IN IRAQ

    Second, your comment about the election. We've talked about 
the fine work of the men and women in uniform in Iraq that 
helped facilitate that election. But I have to add, the courage 
of the Iraqi people going out there, putting their lives at 
risk, when the signs on the wall, graffiti, said, ``You vote, 
you die,'' and they went and voted. And the Iraqi security 
forces went out there and did a wonderful job. And the people 
in the polling places were told, if they did it, they would get 
killed, and they went right ahead and worked in the polling 
places, 5,000 of them.
    And people were skeptical. They said the Iraqis weren't 
ready for democracy. ``It's too violent. You can't have it.'' 
And, quite frankly, thanks to the determination of the 
President of the United States--he had individual organization 
after organization come and tell him we should delay the 
election, and he said, ``Not on your life. We're going to go 
forward with it.'' And it worked.

                             ROLE OF SYRIA

    Syria. They are harmful to what we're trying to do. They 
are holding Iraqi assets and refuse to release them. They have 
harbored Ba'athists in their country. They are occupying 
Lebanon. They are facilitating, with Iran, the Hezbollah into 
Lebanon and Israel. They, during the war, facilitated and 
permitted the transit of jihadists, busloads of them, coming 
into Iraq to attempt to defeat U.S. forces. And they've been 
unhelpful. They're not a country that is cooperating, and it's 
harmful to what we're trying to do.
    Senator Brownback. Is there anything further that we can do 
from here to try to bring pressure? You've stated this, you've 
stated it previously. We've been confronting Syria for some 
period of time. Is there anything that we can bring in the 
international bodies, particularly in light of what just took 
place in Lebanon yesterday in that enormous bombing, that's 
getting some international pressure and focus on Syria?
    Secretary Rumsfeld. It's a matter that we've been working. 
The President of the United States and successive Secretaries 
of State have been attempting to persuade Syria that it's not 
in their interest to continue on the path they're on, and that 
the interest of the region, from an economic standpoint and 
from a political standpoint, would be vastly advantaged if they 
would behave in a way that was consistent with other civilized 
nations. And they, thus far, have been unwilling to do it.
    Senator Brownback. How much of our problem in Mosul is 
related directly to the Syrians?
    Secretary Rumsfeld. That's awfully hard. I wouldn't want to 
pretend I could come up with a percentage. I just can't. 
There's just no way for me to know. They've got a long border 
with Iraq. They're also a Ba'athist regime. They're 
undemocratic. Obviously, the thought of a democracy flourishing 
in Iraq, a country with that wealth and that oil and that water 
and the educated population and that size, would be just 
enormously harmful to Syria's dictatorial regime. It just is--
it's the last thing in the world people like that would want to 
happen. They wouldn't want success in Iraq.
    Senator Brownback. Thank you. Thank you for your service.
    Secretary Rumsfeld. Thank you.
    Chairman Cochran. Thank you, Senator.
    Senator Inouye.
    Senator Inouye. Thank you very much, Mr. Chairman.
    It's been a long day, Mr. Secretary.
    Current law requires that any covert action by any 
component of our Government requires an approval by the 
President and a report to the Congress in the formal procedure 
called ``Findings.'' Traditional clandestine military 
activities, on the other hand, are excluded from the covert-
action definition. But I believe Congress made it clear that 
recruiting agents was not a traditional military activity. I 
also believe that it made it very clear that military elements 
could not carry out an operation to achieve a military or 
political objective where there is no intent to acknowledge the 
involvement of the United States. Finally, I believe Congress 
limited clandestine activity in preparing for hostilities to 
those countries already approved by the National Command 
Authority.
    I've cited this because, Mr. Secretary, I've been disturbed 
by several recent press reports and meetings between the 
administration and the Congress regarding clandestine 
activities of the Defense Department. I realize that what was 
discussed is classified, and I'm not going to ask you about 
that. But I just wanted to know how you interpret your 
authority to conduct clandestine activities, if such were done, 
which are not subject to the laws and regulations regarding and 
governing covert action.
    I believe most scholars would agree that the President of 
the United States has wide latitude under the Constitution to 
conduct military operations during a war. However, do you feel 
that the Secretary of Defense also has an authority to conduct 
military activities, clandestine ones, against countries that 
we have not declared war, outside the laws governing covert 
action?

                   COVERT AND CLANDESTINE ACTIVITIES

    Secretary Rumsfeld. Senator, that is a complicated subject, 
an important subject, and I can say a number of things about 
it, and some other things that I probably can't, in this 
circumstance.
    As you know, the Department of Defense does not do covert 
operations. Covert operations are done by other Government 
agencies. The Department of Defense does do clandestine 
operations; that is to say, operations that support military 
missions. And yet we do attempt to keep some things secret, 
some aspects of things, which is why the word ``clandestine'' 
is used.
    A clandestine activity of that type, in support of a 
military mission, is done to safeguard the activity and our 
people from exposure so that an adversary will not know what we 
have learned about them or know our preparations.
    You asked, can you do that with respect to a country that 
you have not declared war on? And the answer is, yes. Prior to 
the Iraq invasion, while we were still in the process of 
negotiating, the U.S. military did engage in some clandestine 
activities inside of Iraq to prepare in the event that the 
invasion were to take place. It was basically to gain 
information and knowledge and awareness, situational awareness, 
preparation for forces, were they needed to be used at some 
future time.
    These activities are authorized generally by the President. 
People have asked, is the Department of Defense building a spy 
agency? And the answer is, no. The articles in the paper 
suggesting that the Department of Defense has--it was a front 
page story in the Washington Post--was just plain wrong. The 
idea that we bypassed the Central Intelligence Agency (CIA) and 
created a separate spy network is just not correct.
    George Tenet and I talked about the need for additional 
human intelligence. We went to the President. The idea that we 
bypassed the Congress or the Appropriations Committee is false. 
The justifications are there in the record for people to see. 
We went to the President, got approval, came to the Congress, 
got approval for additional human intelligence resources, the 
overwhelming portion of which went to the Central Intelligence 
Agency, and some portion of which went to the Department of 
Defense.
    Department of Defense has had human intelligence activities 
for decades, and there's nothing new about it, there's nothing 
surprising about it, there was nothing magic from the Congress, 
or there was nothing hidden from the Congress at all. It was an 
article that was just unfortunate.
    They then called up some congressmen, apparently, and 
asked, ``Have you ever heard of this?'' And they said, no, of 
course they hadn't heard of it, because it hadn't happened the 
way they said it happened. The idea that I'm managing spies is 
nonsensical. I think it said they reported to me, or something, 
which is mythical.
    And the word ``strategic support branch'' was just simply 
what they named the way they were going to manage these human-
intelligence assets, people.
    I guess the only other thing I'd say is that, also prior to 
going into Iraq, when the United Nations (U.N.) process was 
still in play--there are times when the Department of Defense 
is asked by other Government agencies to provide some 
assistance of various types. It may be medical, it may be 
intelligence gathering, it may be whatever, things we do. And 
we might become part of a team that's led by someone else. But 
not for the purpose of this Department doing covert activities. 
The Department of Defense does, as I say, clandestine, but not 
covert, activities.
    Do you want to calibrate me on that at all?
    General Myers. No, I think it's exactly right. It was 
interesting to me, Senator, how much activity an article that 
tried to link events together in a way that was fictitious 
created so much issue. I mean, they built an article that was 
absolutely wrong in almost every respect.
    Secretary Rumsfeld. And we brief the Congress on these 
things on an annual basis, on a quarterly basis. The staffs of 
the appropriate committees that have oversight responsibilities 
for these things get briefed. The Congress approved the budget 
that included the funds that were described in that article. 
Someone asked, Do we use secret funds? Some of the funds for 
human intelligence, which the Department has responsibility for 
come from the national foreign intelligence program (NFIP), 
which is classified, so the intelligence community approves 
that. And, as I say, Congress gets notified on a regular basis.
    Senator Inouye. If I may ask another question, sir. In 
response to one of the questions asked by my colleagues, on 
modularity, you responded by using three words, ``stress on 
forces,'' and suggested that if nothing is done, our forces 
would have to fight, go home for 1.2 years, and go back again; 
but if you carry out this new program, they can stay home for 
1.8 years before they go back again for deployment.
    Secretary Rumsfeld. At this current level of activity.
    Senator Inouye. Yes.
    Secretary Rumsfeld. Yes, sir.
    Senator Inouye. Now, to come up with those statistics, I 
would believe, mathematically, you'll have to make an 
assumption that we're going to be there for about 4 years. Is 
that correct?
    Secretary Rumsfeld. No. It would be a mistake, Senator, to 
connect anything to that. All I was using is the math. If we 
stayed at the current level of activity, whether there or 
someplace else, we would end up improving the situation by 
going from 33 modular brigades to 43. We'd go from 1.2 to 1.8, 
versus 1 year deployed. If we aren't there, which is 
everybody's first choice, then the numbers would get higher, 
obviously, because you'd be functioning at a lower level. You'd 
be having some forces in Afghanistan, you'd have some forces in 
the Philippines, some people training and equipping in Georgia, 
maybe, you're going to be doing what we're doing in Bosnia or 
Kosovo. We're going to have--or the tsunami--we're going to 
have things going on, presumably, but those numbers would 
improve.
    Senator Inouye. Mr. Chairman, may I submit questions?
    Chairman Cochran. Yes, certainly, Senator, you may submit 
questions for the record if you'd like.
    Senator Inouye. I'd just like to make a closing statement.
    I was just thinking about my life, listening to you, Mr. 
Secretary, that I was involved in a very easy war, where I 
could identify the enemy. He had a uniform on. He had an 
insignia on. He had a command process. And I knew what I was 
shooting at.
    Today, you have no idea who you're shooting at. The rules 
of war do not apply. In my time, if the German troops came out 
with a Red Cross flag, we stopped firing and let them fix up 
their patients; they did the same thing with us.
    So I can understand that this is a new war, that you have a 
real burden on your shoulders. We'll do our best.
    Chairman Cochran. Thank you, Senator.
    Senator Harkin.
    Secretary Rumsfeld. Thank you very much.
    Senator Harkin. Thank you, Mr. Chairman.
    Before I get to the essence of my question, I just wanted 
to comment on something that General Myers said a little bit 
ago that caught my ear. He said that the French would be 
training the Iraqi police. Are they putting Inspector Clouseau 
in charge?
    It's time for a little levity around here.
    General Myers. That doesn't require a response.
    Senator Harkin. I couldn't resist the image of that, 
anyway.
    Secretary Rumsfeld. General Myers has a Legion d'Honneur on 
his lapel. I just thought I would mention that.
    Senator Harkin. I don't think I'll follow up on that one.
    Mr. Secretary, again, we appreciate your coming today, and 
your extreme patience here.
    Harry Truman is one of those special Presidents, who, in 
retrospect at least, is much admired and respected by folks 
from both parties. Senator Harry Truman first gained national 
attention during World War II by using a Senate oversight 
committee to root out waste and corruption in defense 
contracting. Here was a Democratic Senator holding a Democratic 
administration accountable, doing his duty under the 
Constitution. And he was not considered unpatriotic, nor was he 
ever considered to be undermining the morale of our troops.
    Regrettably, in the wars in Afghanistan and Iraq, we have 
not had meaningful accountability or congressional oversight of 
defense contracting, despite reports of rampant waste and 
fraud. Now, I'm talking about Congress, not you.
    Mr. Secretary, when you came before this committee last 
May, I read excerpts from an article about the Pentagon's 
inability to even identify the contract under which certain 
civilians working for private companies were engaged. We had a 
colloquy. I've got it right here in front of me.

        DEVELOPMENT FUND FOR IRAQ AND CONTRACTING ABUSES IN IRAQ

    Just yesterday in the Washington Post there was a story 
about contractor abuse in Iraq. As it turns out, this article 
concerned a matter that I, along with Senators Dorgan and 
Senator Wyden, had written you about last August. In light of 
reports that some $8.8 billion in development funds for Iraq 
could not be accounted for, we asked you for an explanation. We 
wrote you in August.
    In October, we received a response from one of your 
assistant secretaries that I frankly think failed to give an 
adequate account of what happened to the $8.8 billion.
    Now, earlier, you responded, when Senator Leahy was gone, 
by reading something, and you said that $8.8 billion was Iraqi 
money.
    Secretary Rumsfeld. That's my understanding.
    Senator Harkin. Well, that's my understanding, too.
    Secretary Rumsfeld. Good.
    Senator Harkin. I agree with you on that.
    Senator Leahy. That was my question.
    Secretary Rumsfeld. Yeah.
    Senator Leahy. That was in my question.
    Senator Harkin. Yeah, it was.
    Secretary Rumsfeld. Yes.
    Senator Harkin. But you had left, and he responded to you, 
and I----
    Secretary Rumsfeld. Yes.
    Senator Harkin [continuing]. Picked up on that. So you had 
said that that was Iraqi money. Okay.
    Secretary Rumsfeld. That's what I've been told.
    Senator Harkin. Well, that's what I've been told, too.
    Secretary Rumsfeld. Okay.
    Senator Harkin. How do I know?
    Secretary Rumsfeld. Yeah, okay.
    Senator Harkin. That's what I'm being told, too.
    But my point is that the Assistant Secretary, Powell Moore, 
who wrote back to us, had said, quote, ``Iraqi ministries used 
Development Fund for Iraq (DFI) funds for purposes that 
directly benefitted the people of Iraq,'' end quote.
    Now, that's not what the Inspector General (IG) concluded. 
According to the final draft of the IG report, the answer seems 
to be that much of that $8.8 billion was pilfered by officials 
in those ministries. For example, there is the infamous case of 
one Iraqi ministry that padded its payroll with thousands of 
ghost employees. It listed more than 8,000 guards on its 
payroll, but could only account for 603 individuals during the 
audit.
    Yesterday's Washington Post reported that a security firm 
was paid $15 million to provide security at Baghdad 
International Airport for civilian flights, even though no 
civilian planes flew in or out of the airport during the 
contract term.
    Now, according to the article, at a hearing called Monday 
by Senator Dorgan on contracting abuse in Iraq, a former 
Coalition Provisional Authority official testified that he and 
others in the CPA realized early on that the firm was not 
carrying out its obligations, that the CPA contracting 
officials were stretched far too thin to police questionable 
contracts of this type.
    Now, why do I go on about this? The supplemental request 
now before us asks for $5.7 billion in emergency funding for 
the purpose of providing assistance to Iraqi security forces. I 
can't help but think that we would not need that much money if 
the $8.8 billion of Iraqi money had been accounted for. That's 
my point.
    Secretary Rumsfeld. Uh-huh.
    Senator Harkin. You responded, saying, ``Well, that $8.8 
billion was Iraqi money.'' Well, but----
    Secretary Rumsfeld. That's fair enough.
    Senator Harkin [continuing]. But we were managing it 
through the CPA. And a lot of that was run by the U.S. Army, 
according to your statement last May, I think.
    Secretary Rumsfeld. Yeah, I think the Army became a 
contracting officer for the Coalition Provisional Authority. 
You're quite right.
    Senator Harkin. And that's exactly what you told us last 
May.
    Secretary Rumsfeld. Yup. That's my understanding.
    Senator Harkin. So, again, my concern is, if we go ahead 
and fund this request at this level--and I'm not talking about 
the whole thing, I'm just talking about that $5.7 billion----
    Secretary Rumsfeld. Uh-huh.
    Senator Harkin [continuing]. I think we're still going to 
be reading news reports, like the Associated Press (AP) article 
that I asked about last May, like the articles that were in 
yesterday's Washington Post.
    I guess I would sum up by saying, it seems to me that 
there's a failure of contract oversight at the Pentagon. What I 
need to know, or what I'd like to, again, ask you, Mr. 
Secretary, is, What steps have been taken since we talked about 
this last year? What steps are being taken by the Department to 
address the inadequacies identified by the IG's audit that 
we've talked about. It's been in newspaper articles and other 
things like that. I mean, what steps are being taken? This is 
$5.7 billion. This is not chump change.
    Secretary Rumsfeld. You're quite right. And I don't 
disagree with you at all that if there were another $5.7 
billion available, that the Iraqis could spend on the security 
forces, it would be a good thing.
    Senator Harkin. Yeah, right.
    Secretary Rumsfeld. Now, how do I respond to that? I think 
that there have been something like nine Inspector General 
reports and audits agencies auditing and investigating and 
monitoring the funds and contracts. The Army is considered to 
be a pretty good contracting agency, and they are frequently 
asked by other organizations to do it, because they have people 
who can be deployed into a war zone and function. Very few 
other organizations exist that can be told, ``Go in there and 
monitor, in a hostile environment, at 120 degrees, in tents, 
and in an unhappy environment, a dangerous environment, where 
people get killed. You go in there and monitor those things.'' 
That's the first point I would make.
    Is it perfect? Apparently not.
    The second thing I'd say is that the ministries--there's a 
tension in a situation like that, where you're trying to get 
the Iraqis to do more. So the Iraqis have a governing council, 
25 members, and they have ministries. And the goal is to stand 
up the ministries and to strengthen them and to encourage them 
and to give them responsibilities. And the ministries come to 
you and say, ``We've got x number of people here, and we have 
to pay them.'' There's no way in the world, in a war zone, in 
that environment, where you can go into the ministry and do the 
kind of careful audit and check to see that they actually have 
those people. Then they came and said--I'm not talking facts, 
I'm talking generalities of the moment--they came and said, 
``Look, the Iraqi teachers need to get paid. The Iraqi security 
forces need to get paid. The oil pipelines need to be guarded. 
We've got people guarding them. Someone has to pay them.''
    So I'm told by the Coalition Provisional Authority that 
that is the environment that that happened in. And we'll know 
more, with all these audits and all these inspector generals, 
as to how bad it was or how good it was, and then, at some 
point, we'll have the benefit of 20-20 hindsight. We can look 
at it and say, ``Well, it wasn't good enough,'' or, ``It should 
have been better,'' or, ``These are the lessons learned, where 
we can do it better in the future.''
    I am just simply not knowledgeable enough to give you 
details, at the moment, but that is a general thought.
    Senator Harkin. Fair enough. Fair enough.
    General Myers. Can I add--could I add--Senator, just let me 
add a couple of words to that.
    The date of that report, I'm not sure of. There have been 
so many, so I'll just say I don't know, right off. But I do 
know what changed on the ground. One of the things that changed 
on the ground was that, at some point in this process, the 
Department of Defense was made responsible for the Ministry of 
Interior forces that were being trained, as well. And then 
General Petraeus went in as they transitioned to a sovereign 
government, in July--late June, early July last year, in 2004.
    I feel very confident that we equipped General Petraeus 
with the right wherewithal to monitor and account for his 
expenditures. And I know, in terms of equipment, he accounts 
for every gun and every bullet. He is meticulous. And I would 
be very surprised if it's carried on. I just have a lot of 
confidence in the system since the Department was made 
responsible for the entire security piece.
    Senator Harkin. One last thing, Mr. Secretary--my time is--
--

          ACCOUNTABILITY FOR $5.7 BILLION FOR SECURITY FORCES

    Secretary Rumsfeld. Senator, one last--excuse me--could she 
just make this comment?
    Ms. Jonas. Senator, I----
    Secretary Rumsfeld. It goes to your $5.7 billion.
    Senator Harkin. Oh, okay.
    Ms. Jonas [continuing]. I appreciate, sir, your concern. We 
do have fairly strict internal controls regarding U.S. 
appropriated funds, and we routinely audit funds. So our 
auditors will be taking a look at that. So should the Congress 
act to appropriate those funds, we would have sufficient 
internal controls.

             CALLING BACK TO SERVICE FORMER IRAQI MILITARY

    Senator Harkin. Well, I appreciate that. My time is over. I 
just had one last thing, if I might, Mr. Chairman.
    The size of the Iraqi army before the invasion was 350,000 
to 389,000, I'm told. You said, Mr. Secretary, that we have 
about 57,000 now that we're training in the Iraqi military. I 
believe you used that figure earlier. Has any thought ever been 
given. There are some who say that we never should have let the 
CPA dismiss the Iraqi military, anyway, and I know we've talked 
about that before. Has any thought ever been given to trying to 
find some of those 350,000 out there and, not only get them 
back, but pay them what they missed in the last couple of years 
and----
    Secretary Rumsfeld. Yes----
    Senator Harkin [continuing]. Get them back on our side?
    Secretary Rumsfeld [continuing]. Yes, sir, Senator. I'm 
going to guess a large fraction of the 136,000 you saw up on 
the board are former military people. They are being called 
back as fast as they can be called back.
    There was some thought, by some people, that it might be 
conceivable to call back whole units. Turned out not to be 
possible, I'm told.
    Senator Harkin. That's interesting.
    Secretary Rumsfeld. There are some instances where some 
leaders have called back small units. That is to say, a former 
Iraqi brigadier general or colonel has called back people he 
knew from a unit and formed a cohesive unit--there's one 
particular one that's operated rather effectively. But it 
wasn't like they just reestablished the same unit. It was 
handpicking, kind of.
    Senator Harkin. Thank you, Mr. Secretary.
    Secretary Rumsfeld. Thank you.
    Chairman Cochran. Thank you, Senator.
    Senator Mikulski.
    Senator Mikulski. Thank you very much, Mr. Chairman, and to 
Mr. Rumsfeld, General Myers, the Comptroller.
    I do have a question, and it's related to benefits, because 
we want to be sure that our troops have, not only the body 
armor and equipment, but the benefits to their health and other 
benefits.

             ALLEGATIONS OF ABUSE AGAINST FEMALE DETAINEES

    But I just want to make one comment about the issue of rape 
that was raised by Senators Leahy and Feinstein. The point of 
that was to ask a question. But, Mr. Rumsfeld, what I think 
bothered us about the response was that there was--you might 
not know the number, we don't need to hear about the 15,000 
pages, et cetera, but I think what we were looking for is to 
say, ``I don't know that, but I'm sure in hell going to go look 
and find out. I'm outraged at the possibility that my troops, 
the troops that wear the uniform of the U.S. military, would 
engage in brutal, savage tactics. I won't put up with it. We're 
going to scrub those documents, we're going to find out, 
because, not only is it wrong to do that to the Muslim, but God 
forbid if our female troops or our female contractors are taken 
into custody and they do that to us.'' Feel the outrage. 
Restore our national honor. That's what we're looking for.
    Secretary Rumsfeld. You can be sure----
    Senator Mikulski. We want----
    Secretary Rumsfeld [continuing]. I made a note, and I'll 
find out.
    Senator Mikulski. But you--this is beyond note taking. This 
is what we're looking at here. We want to know, number one, Do 
you know what's going on? And if you don't, at least to express 
some feeling about it. That's number one.

                       FUNDING FOR VETERANS NEEDS

    Number two, sure, we know about vets, we know it's a 
different item. But I can tell you, as hard as it works on the 
supplemental, I'm the ranking member on the VA. Senator Biden, 
my colleague, and I are $1.5 billion short every year for our 
veterans, and there is practically no money for the returning 
Iraq/Afghan soldiers when they return to their communities. God 
bless Senator Stevens in his amazing $20 million prosthetic 
initiative. It was fantastic. Senator Biden and I want to be 
able to do that in VA. We have to forage for funds to do it. We 
want--we'd love to be able to be in this supplemental. This is 
what we're talking about.

           INCREASED DEATH BENEFIT RETROACTIVE AND TAX FREE?

    Now, let me get to the death benefit here. At least now 
we're raising it from $12,000 to $100,000. Here is my question. 
Would this be retroactive to September 11?
    Secretary Rumsfeld. I think to October 7, which was the 
beginning of--first of all, you and the White House are going 
to decide when it will be retroactive to. The last thing I saw 
was that it--the current proposals by some people took it to 
the day that the war started in Afghanistan, which was October 
7, as opposed to September 11.
    Senator Mikulski. Will this be limited only to Iraq and 
Afghanistan?
    Secretary Rumsfeld. I don't know. It is----
    Senator Mikulski. Well, what is your recommendation? You're 
the Secretary of Defense. You go to the funerals. You give out 
the flags and say ``a grateful nation.'' What would you want it 
to be?
    Secretary Rumsfeld. I'm uncomfortable----
    Senator Mikulski. You're here for the supplemental.
    Secretary Rumsfeld. I know I am, and I am uncomfortable 
with the answer, but the reality is that I am told that the 
lawyers in the Government are looking at an issue as to--and 
I'm not a lawyer, so I'm not----
    Senator Mikulski. Say it again? Why don't you respond?
    General Myers. It's the Feres Doctrine, and the basis of 
the Feres Doctrine that all military personnel are treated the 
same. And there is some legal concern--I'm not a lawyer either, 
which will be obvious in a minute--some concern that if we 
don't treat all uniformed members the same, that it could 
jeopardize that particular doctrine. So they're looking at this 
in terms of who it should apply----
    Senator Mikulski. Well, let me just say this. Maybe we need 
tort reform in our own Government so that--maybe that's where 
we ought to have tort reform--and that when a soldier or a 
sailor or an airman is killed in the line of duty, we love to 
do the ``grateful nation never forgets,'' but this is one way 
we'll never forget.

                TAX DEDUCTIBILITY OF INCREASED BENEFITS

    Now, let me ask, then, about tax deductibility. Will this 
death benefit be tax free to the family, or will they have to 
pay taxes to reduce the debt caused by the war?
    Secretary Rumsfeld. Again, I am told there are three or 
four or five different proposals floating around, and I don't 
know whether some may or may not do that. I'm told that the one 
that is currently in play does not provide a tax benefit.
    Senator Mikulski. General Myers.
    General Myers. No different answer, Senator.
    Senator Mikulski. Well, when you're there with OMB and, you 
know, with the President and all, do you all speak up and say, 
``This is what we think ought to be the way?'' Or are we bogged 
down in lawyers and OMBs and Internal Revenue Servicing, or 
what? I've got----
    Secretary Rumsfeld. Well, you bet we're----
    Senator Mikulski [continuing]. 30 people in Maryland who--
--
    Secretary Rumsfeld [continuing]. Bogged down with lawyers 
and OMBs and IRS----
    Senator Mikulski. Well, it sure sounds like it.
    Secretary Rumsfeld. Well, we are. The whole Government of 
the United States is.
    Senator Mikulski. Now, let's not go globalize, Secretary. 
Let's not do those kind of global answers with me. This is a 
death benefit.
    Secretary Rumsfeld. It's fact.
    Senator Mikulski. I've got 30 Marylanders dead. There are 
more nationwide. What is their benefit? I read these 
obituaries. Corporal So-and-So, 27 years old, two children. 
Captain So-and-So, 35 years old, three children--10, 8, and 6. 
This is what I'm talking about here. I'm talking about human 
beings. I'm talking about their families. I don't want their 
families to end up in poverty. I don't want their families 
ending up on food stamps, while the contractors that Senator 
Harkin talked about are drinking their Chablis and getting 
their kids in early admission to fancy Ivy League schools. I'm 
pretty hot about this.
    So can we have a death benefit for all of the soldiers? 
Could we make it tax free? Are you going to speak to the 
President about this so he could give some direction?
    Secretary Rumsfeld. Well, Senator, I don't know how I can 
respond, beyond what I've said. I give my advice to the 
President, and you dismiss the idea that lawyers don't have a 
role. They do. And----
    Senator Mikulski. I didn't dismiss you.
    Secretary Rumsfeld [continuing]. When I have the general 
counsel of the Department--when we are constantly--we've got so 
many lawsuits in that Department, we've got so many non-
intuitive things that people can do, and we have to go to 
lawyers, and we have to ask them those questions, and they have 
to comment to us, and we have to make judgments based on the 
best information available. It may not be appealing----
    Senator Mikulski. Are these the same lawyers that said the 
Geneva Convention was quaint?
    Secretary Rumsfeld. They were not Defense Department 
lawyers who said that.
    Senator Mikulski. Well----
    Secretary Rumsfeld. Obviously, they're not.
    Senator Mikulski [continuing]. My time is up, but I think, 
really--you know, I remember when this war began. First of all, 
I find this hearing to be really sad. One, that we have to have 
a supplemental at all. I remember your testimony that said, 
``This war isn't going to cost us anything.''
    Secretary Rumsfeld. I never----
    Senator Mikulski. ``It's going to be''----
    Secretary Rumsfeld [continuing]. Said anything----
    Senator Mikulski [continuing]. ``Paid for''----
    Secretary Rumsfeld [continuing]. Like that.
    Senator Mikulski [continuing]. ``By frozen assets''----
    Secretary Rumsfeld. Ever.
    Senator Mikulski [continuing]. ``Or by Iraqi oil money.'' 
Well, I haven't seen a frozen asset. I haven't even seen an ice 
cube asset. Then, I don't know where this Iraqi oil was coming 
from. When we debated it last time, Senator Dorgan at least 
wanted to make a loan. Well, we didn't go there. So that's 
that.
    Then we looked at this body-armor thing, and then saw that 
it didn't--we didn't start using plus-up-armor, as we called 
it, until well into the war. Now we're talking about death 
benefits. And I just find this--that we had to push to get a 
death benefit raised from $12,000 to $100,000. So can you see 
how--what we think about this?
    Secretary Rumsfeld. Senator, the Defense Department takes 
wonderful care of the men and women who are wounded, while 
they're in the military. You're involved with the Veterans 
Administration. I'm not. And we----
    Senator Mikulski. Well, maybe you ought to.
    Secretary Rumsfeld. Well, just a minute, now. Give me just 
a moment. I think your saying that I said that ``this war's not 
going to cost anything'' is just flat wrong. I never said that. 
And you must know that. And to lay that out----
    Senator Mikulski. Did you say that it would----
    Secretary Rumsfeld [continuing]. Imply that I----
    Senator Mikulski [continuing]. Did you say that it----
    Secretary Rumsfeld [continuing]. Said that is false.
    Senator Mikulski [continuing]. Didn't you say that a good 
part of the war was going to be paid for by frozen assets?
    Secretary Rumsfeld. Well, I'll go back and find my quote, 
and you can go back and find my quote, but it certainly wasn't 
what you said.
    [The information follows:]

    The Department's staff has searched extensively and can 
find no indication that the Secretary ever said that ``this war 
isn't going to cost us anything'' or ``it's going to be paid 
for by frozen assets.'' In fact, on February 27, 2003, in a 
public media availability, he emphasized that it was ``not 
useful'' to try and give even a range of cost estimates.
    The Department urges the Senator to produce any specific 
reference to the Secretary having made any comment that would 
support her assertion, and we could be better able to 
understand what she may have been referring to. Absent that, 
the Senator should be aware that we have found no indication 
the Secretary said what the Senator said he said.

    Senator Mikulski. Well, we're back into ``you said, we 
said,'' but I think I know what you said, because I remember 
what we said when we had to vote on this.
    My time's up.
    Chairman Cochran. Senator Dorgan.
    Senator Dorgan. Mr. Chairman, first of all, thank you for 
your patience, Mr. Chairman. It's been a long hearing.
    And, Mr. Secretary and General Myers, thank you for being 
here, and thanks for spending the time with us.
    You can see there is a great deal of passion about a range 
of these issues. And I want to make just a couple of quick 
comments.
    First, I think all of us on this committee are going to 
support all the funds that are needed to support the troops. 
Our troops are fighting, and I don't think any member of this 
committee is ever going to short the funds that you request as 
necessary to support those troops.
    Second, it is, as I said 1 year ago, Mr. Secretary--you 
heard me say it--it is a budget game, regrettably, to be asking 
for emergency supplemental money, and then have zero money to 
fight the war in the regular budget. The Congress passed a 
piece of legislation that asked you to put in the budget your 
best guess of what the costs would be for Iraq and Afghanistan, 
and this really ought to be a part of the regular budget, to 
the extent that we can determine it. But we know that zero is 
wrong. That's--it's just a game to be doing this with emergency 
supplementals of $82 billion.
    And, third, taking care of those who have served, whether 
active or retired, is also a cost of war. But those needs are 
very seldom fully met. You've heard from a couple of my 
colleagues, and the concern and the angst about that. A soldier 
doesn't stop being a soldier one day from the next, and we need 
to do better with respect to these veterans issues.
    On May 13, 2003, Mr. Secretary, you wrote the letter 
designating the administrator of the Coalition Provisional 
Authority, the head of the CPA--this was Ambassador Bremer--
with the title of administrator, responsible for the CPA. And 
you're quite correct, the Inspector General's report, with 
respect to the $8.8 billion, that was not American money. That 
was Iraqi money, but under control of the CPA, under control of 
the agency that was our responsibility, that you were 
responsible for. And so, when we see these examples of 
inspector generals saying the money wasn't accounted for, 
whether it's Iraqi money in our charge, or our taxpayers' own 
money, still it raises questions about, do we have 
accountability here? And then you go from that point to the 
point of the money that is taxpayers' dollars being spent in 
Iraq.
    And I know--and, Mr. Chairman, let me also say--I know, 
when I raise the name Halliburton, immediately people think of 
politics. It's not politics for me. I don't care if Jimmy 
Carter would have been president of Halliburton. I'm talking 
about the last 4 years.
    Let me just read a couple of headlines, because this is, I 
think, the biggest contractor that we've spent taxpayers' money 
for in Iraq, and most of it's sole-source contracts. 
Halliburton overcharged $27.4 million for meals. Halliburton 
overcharged $61 million for oil delivery. Pentagon auditors 
recommend withholding 15 percent of payments to Halliburton. 
Whistleblowers have documented Halliburton waste, fraud, and 
abuse. The list goes on and on.
    And, in fact--I'll get to a question--but the retired 
director of the Defense Energy Support Center, the person that 
just retired, testified before the Congress that the gasoline 
that was being sent into Iraq by Halliburton was costing about 
$1 more per gallon than it should have. He said, ``We've moved 
gasoline into virtually every war area and never paid that 
much.'' And at the same time that Halliburton was charging--I 
think it was $2.65 a gallon through their subcontractor, the 
Defense Department was moving it in for $1 less, and the 
Defense Department had always done that.
    So my question is this, Mr. Secretary, and that's--this is 
not a political question. There's no political inference in it. 
It's just that we're going to spend massive, massive amounts of 
money in Iraq, and there is substantial evidence that there is 
a great deal of fraud and abuse and waste, and I certainly hope 
that there is much more aggressiveness in trying to get to the 
bottom of all of that and deal with it, because I worry that 
not much is happening in that area. And let me ask you if you 
can respond.

                      USE OF SUPPLEMENTAL FUNDING

    Secretary Rumsfeld. Let me say several things. First, if my 
memory serves me correctly--and it's not perfect--I think that 
we tried to put money in for the Afghan war 2 years ago, and 
the Congress refused to appropriate it and told us it should be 
done in a supplemental.
    Senator Dorgan. We could check that, but if that's the 
case, Congress was wrong, and I would think----
    Secretary Rumsfeld. That's my recommendation. I can 
remember trying to do it, and I--I could be wrong, but that's 
my--do you--you were at the FBI then.
    Ms. Jonas. I was at the FBI, sir.
    Secretary Rumsfeld. We'll check that.
    [The information follows:]

    In the fiscal year 2003 budget the Department requested 
$20.1 billion in the Defense Emergency Response Fund (DERF). 
$10.1 billion was for specific, identified requirements and $10 
billion was for variable costs associated with the cost of 
global war on terrorism operations. The Congress decided not to 
appropriate the $10 billion in the Fiscal Year 2003 Defense 
Appropriations Act.

    Secretary Rumsfeld. But I was dissuaded, either in the 
executive branch or in the Congress--and I think here--the 
first year.

                   ACCOUNTABILITY FOR LARGE CONTRACTS

    Next, large amounts of money, large contracts--public-
private sector, this country, any country on the face of the 
Earth--tend to be argued about after the fact. They tend to--
pluses, minuses, this has to go over, and they make agreements, 
and they say, ``Well, you didn't do this, you should have,'' 
and they said, ``You didn't do that, you should have,'' and, 
``The reason we didn't do this is because you didn't tell us in 
time.'' In big, complicated contracts, that's the nature of 
them.
    Now, third, you mentioned that a lot of the dollars are not 
spent from the reconstruction funds in----
    Senator Dorgan. About $15 billion is, as of yet, unspent.
    Secretary Rumsfeld. Right.
    Senator Dorgan. So that will be still moving to Iraq.
    Secretary Rumsfeld. Exactly.
    Senator Dorgan. The question is, Is there accountability?
    Secretary Rumsfeld. Yeah. One of the reasons a lot of that 
hasn't been spent is because the Government of the United 
States made a conscious decision to try to spend the Iraqi 
money first and to use more of their oil money and to flow--and 
we had many more checks and balances on the $18 billion. I 
think it was $18 billion. A good portion of that is obligated, 
but not expended and not paid out.
    I am told that the Defense Department Contract Audit Agency 
is the place where the problems that you're citing were all 
pointed up. These weren't discovered by people--by the press or 
by Congress or by some outsider. We had an audit agency 
assigned to go in there and to look at all of that and report 
on all of that. And everything's public. So every time there's 
a big contract and the audit agency that the taxpayers pay for 
go in and look at these things, and then they announce to the 
world what's happened, and then they get worked on, and that's 
part of the process. That's why they have the auditors.
    Senator Dorgan. Mr. Secretary, some, over the course, has 
come from whistleblowers----
    Secretary Rumsfeld. Sure.
    Senator Dorgan [continuing]. And----
    Secretary Rumsfeld. Which is a good system.
    Senator Dorgan [continuing]. But which is not the 
contracting agency, it's a different system--some of whom have 
been threatened, and some have lost their jobs, and so on.
    But my point is this. When you are reading the morning 
paper, as I am, and you see report after report after report of 
one or two companies, allegations of waste or fraud or abuse--
$85,000 new trucks that have a flat tire, and they leave it on 
the road and abandon it to be torched; 25 tons of nails that 
are ordered, and it's the wrong size, so they're laying on the 
ground in Iraq; you know, those kinds of things--when you see 
those reports, do you feel, like I do, ``What on Earth is going 
on here? Can we get to the bottom of it? Is this a bad 
contractor?'' Is that--what's your impression of that?
    Secretary Rumsfeld. You bet I do. I'm a taxpayer, just like 
you are. There isn't anybody who sees waste anywhere, in the 
Government or out of the Government, that isn't concerned about 
it. And it's just--frankly, during a war, the thought that 
there's waste or mismanagement when you've got a war going on 
and you've got people out there that are giving their lives and 
they're making all kinds of sacrifices to serve their country, 
it just breaks your heart to see it.
    Senator Dorgan. I come from a town of 300 people. And in my 
hometown you only got a chance to cheat somebody once. That was 
it. You didn't do business with them after that. Because they 
wouldn't do business with you.
    Secretary Rumsfeld. Uh-huh.
    Senator Dorgan. Here, it's just a Byzantine circumstance. 
The reason I raise these questions about contracting abuse is 
that I just think we have to be much, much, much more 
aggressive. Massive amounts of money are going to continue to 
move through this pipeline, and the American taxpayers need to 
feel that there's accountability here, and aggressive 
accountability, and that somebody has to pay the price for 
cheating the taxpayer. Somebody has to pay the price for it.
    So I just--I raise the questions because they must be 
raised when we're talking about----
    Secretary Rumsfeld. Sure.
    Senator Dorgan [continuing]. This quantity of money.
    Secretary Rumsfeld. Well, there are laws under which we 
operate, and we have to live within them, and they provide for 
audits, they provide for accountability if somebody doesn't 
manage something properly, in terms of a contractor, and there 
are penalties for it. And to the extent that there's criminal 
violations, people are put in jail.
    Senator Dorgan. Mr. Secretary, you have a tough job, and I 
would just observe this. Too often, my sense is the penalty for 
these abuses is to get another contract for the same company.
    I hope you understand the angst, at least among some of us, 
about the amount of money that's going and the contracting and 
so on. In the end, we're going to support what's necessary to 
support our troops. But the American people want accountability 
for all the other things that are being spent in this war zone. 
And waste is waste, whether it's in Iraq or in a war zone or in 
the United States. And that money ought to be invested in 
things that do support our troops, instead of being wasted.
    Mr. Secretary----
    Chairman Cochran. The time of----
    Senator Dorgan [continuing]. Thank you very much.
    Chairman Cochran [continuing]. The Senator's time has 
expired.
    Senator Dorgan. General, thank you very much.
    Secretary Rumsfeld. I sure agree.
    Chairman Cochran. Senator Durbin.
    Senator Durbin. Thank you, Mr. Chairman.
    And thank you, Mr. Secretary, General Myers, and the staff 
that joined you.
    Mr. Secretary, we all owe a great debt of gratitude to the 
men and women in service to our country. And I think we owe a 
special debt, in this war, to the men and women in the Guard 
and Reserve, who have been called up in extraordinarily large 
numbers for deployments that are not traditional. Those who 
serve in the Guard and Reserve expect to be called, but these 
deployments now are longer than most ever anticipated, which 
has created some hardship.
    I think you feel, as I do, that the employers, the private 
employers and others, that stand by these Guard and Reserve--
activated Guard and Reserve--deserve special credit. There's a 
website in the Department of Defense which acknowledges some of 
these employers. Some are public entities, some are private. 
They range from very small employers to large. They include 
General Motors and Toyota, a lot of towns, a lot of cities.

     MAKING UP FOR PAY DIFFERENCES FOR ACTIVATED GUARD AND RESERVE

    The thing that troubles me is this, Mr. Secretary. As we 
praise these employers for doing the right thing for the Guard 
and Reserve, there is one major employer in America that is not 
standing behind its troops, that is not making up the 
difference in pay, that really is creating some hardship. It's 
estimated that about 40 percent of the activated Guard and 
Reserve have a reduction in pay when they are activated. Ten 
percent of all of the Guard and Reserve in active duty today 
are employees of the Federal Government. Our Government. Our 
Government does not provide a pay differential, does not make 
up the difference in pay, for activated guardsmen and reserves.
    Does it strike you as troubling that we are, on one 
website, sponsored by the Federal Government, praising 
employees who stand by the activated Guard and Reserve, and yet 
we, as a Government, will not do the same? Twice I have passed 
this proposal in the Senate, twice it's been killed in 
conference committee. Do you think it's time that the Federal 
Government meets the same responsibility as these private 
employers and makes up the difference in pay for activated 
Guard and Reserve?
    Secretary Rumsfeld. That is something that I'd be happy to 
take a look at and see what the cost is and where the expense 
for that might come from and what the implications of it would 
be. I haven't looked at it in quite the way you've described. I 
suppose the Guard also gets called up by States, and the States 
then would have that question, as well.
    There's two ways to look at it. One is the way you're 
characterizing it, which is fair, to say we're asking employers 
to take care of these folks, and we've got a website, 
americasupportsyou.mil, which--I've got my pin on--and if 
people look at it, they can find all kinds of ways to support 
it. We appreciate and express our gratitude to the employers 
who step up and pay that differential.
    The other way to look at it is that--the way to look at a 
personnel force, a management--the U.S. military and the 
civilians in the Department of Defense is to look at it in 
total, and to see that you have arranged yourself so that 
you're paying the retirees an appropriate amount that sees 
that--people look at that and say they'd like to serve in that 
service because they take care of their people. The Guard and 
Reserve, who have a different circumstance than the Active 
Force, and see that they're available periodically, when 
needed--and they volunteer, they know what they're getting into 
when they volunteer, just like the Active Force does--and that 
you pay the Active Force in a way that is balanced among all of 
those. And that--reaching into the middle of it and saying, 
``Gee, shouldn't we pay that differential?'' is appealing and 
desirable, just like the death benefit is. You want to do it. 
As a human being, you want to do it.
    In the last analysis, our job is to look at the totality of 
it and see how it balances out. What are the tensions between 
the Active Force benefits and the Reserve? What do people look 
for who are coming in? What do people look for who are in the 
decision point of being retained or not being retained and 
leaving? And it's the broader picture that I feel compelled to 
try to look at.
    Senator Durbin. I'm sure we should, and I hope you will. 
But it is not fair, on one hand, to praise an employer who 
stands behind the Guard and Reserve----
    Secretary Rumsfeld. I see it.
    Senator Durbin [continuing]. Activated person, and then for 
the Federal Government to say, ``We're not going to do the same 
thing.''
    Secretary Rumsfeld. Uh-huh.
    Senator Durbin. Forty-one percent of them take cuts in pay. 
We're now going to enact a new bankruptcy bill, which will make 
it tougher for those who lose their businesses and have to file 
bankruptcy because they've been deployed for 1 year or 2 years. 
Those things are literally happening to these men and women. So 
I hope you will look at it.
    Secretary Rumsfeld. I don't think----
    Senator Durbin. Second----
    Secretary Rumsfeld [continuing]. I don't think folks have 
been involuntarily deployed for 2 years yet, have they, Dick?
    Senator Durbin. I can only give you one illustration of a 
Guard unit in Illinois, from Litchfield, a military police unit 
that has been deployed now for 19 months. There will be 
training--there will be movement, training, and deployment--
total period of time gone from home, 19 months. Now, that is 
what they face.
    Secretary Rumsfeld. Yeah, 18 is frequent.
    Senator Durbin. I don't know if there are others that face 
more----
    Secretary Rumsfeld. Yes.
    Senator Durbin [continuing]. But that is a reality. Did 
they know, signing up for the Guard, that they might be called 
out for 1 week, 2 weeks, 1 month, 2 months, 6 months? Probably 
they suspected it. This deployment is extraordinary, I think we 
would agree. So I hope that we can do something extraordinary 
to stand with them.
    May I ask you, when it comes to the survivor benefits, have 
you considered the other elements? For example, there is a 
provision for the children of those who have fallen in battle 
or lost their lives in service to our country to receive health 
insurance. Have you considered, as part of the benefit package, 
covering these children with TRICARE health insurance for a 
longer period of time, or additional educational assistance for 
the spouse and children of that fallen soldier, as part of what 
you're proposing?
    Secretary Rumsfeld. I do not believe that's been part of 
the debate with respect to the death benefit.
    Senator Durbin. I would hope you'd look at it, because I 
think the death benefit, as well as monthly benefits, health 
insurance, and educational assistance----
    General Myers. Senator, the----
    Senator Durbin. General.
    General Myers [continuing]. Survivors of somebody that is 
killed on active duty, combat or not, the children are covered 
like they--I mean, it's like they retired from active duty, so 
the dependents are covered--the children, until age 23, like my 
children were--already. That's already a current benefit.
    Senator Durbin. There's a 3-year under TRICARE Prime, and 
then they move into the retiree dependent premium rate, which 
I'm going to have to explore to see what the difference is, but 
they change their classification of healthcare for the 
children.
    Secretary Rumsfeld. Do you want to have--Dr. Chu knows the 
answer, and he's sitting right here, Senator.
    Dr. Chu. Sir, we cover the surviving spouse for her or his 
lifetime, unless there is remarriage. As you say, the first 
coverage is under--as if they were still on active duty. They 
then are treated as if they're a military retiree. So there's a 
highly--there is premium--highly subsidized premium rate. The 
children are covered, in essence, to about age 23.
    Senator Durbin. All right.
    Dr. Chu. Now, on educational benefits, the spouse's rights 
to the educational assistance go on for 20 years, a change made 
recently, to allow for the fact that many--most of the spouses 
are women, they often want to spend the first years finishing 
the raising of the children and then go back to school. And so, 
the Federal Government has made that change. It took statutory 
action to do it, and the Congress supported that change several 
years ago, and that's there.
    So I think we have a pretty good program on both healthcare 
coverage for the family and educational support for the 
spouses. Also, VA educational is paid through the VA, both the 
spouse and children's education. There's also educational 
support for the children.
    Senator Durbin. I'd like to get back to you. Some of the 
figures that I have are a little different, and I just want to 
make sure that I understand the law as it currently applies.

                      IS TORTURE EVER PERMISSIBLE?

    I only have a minute left, and I'd like to give you, Mr. 
Secretary, an opportunity to respond, because there have been 
many references to this already, but can you tell me, for the 
record, on this issue of torture, is it ever permissible for 
any American personnel to engage in torture, cruel, inhumane, 
or degrading treatment of any detainee, regardless of that 
detainee's legal status?
    Secretary Rumsfeld. I cannot answer the question legally. I 
can tell you that it's prohibited by the President of the 
United States. The President of the United States, at the 
outset of the conflict in Afghanistan, advised that all 
detainees, prisoners, unlawful combatants, regardless of what 
you call them, will be treated humanely. And you know the legal 
distinctions between the Afghan terrorists that were picked up 
on the battlefield, relative, for example, to the Iraqis, who 
were prisoners of war under the Geneva Convention. But the 
President specifically said that.
    So no one can assert that there has been any policy, 
tolerance, approval of any kind of torture as part of U.S. 
Government policy.
    Senator Durbin. My time is expired. The difficulty, of 
course, is the Bibey memo, which says the Commander in Chief 
can create an exception to this policy, and that is what 
troubles us.
    Secretary Rumsfeld. I see.
    Senator Durbin. What you have said is, I believe, 
unequivocal, and that is the right answer, as far as I'm 
concerned. And I hope that that is the standard, as understood 
through the ranks and----
    Secretary Rumsfeld. Well, I can----
    Senator Durbin [continuing]. Among others.
    Secretary Rumsfeld [continuing]. Sure tell you that those 
were the orders that were given the Department of Defense, and 
that the orders that I repeated, on behalf of the President, to 
the Department, and the chairman repeated on behalf of the 
President to the Department. As far as the Department of 
Defense goes, that's the policy.
    Senator Durbin. Thank you very much.
    Secretary Rumsfeld. Thank you, sir.
    Senator Durbin. Thanks, Mr. Chairman.
    Chairman Cochran. Thank you, Senator.
    Senator Kohl.
    Senator Kohl. I thank you very much, Mr. Chairman.

                      DECREASING ACTIVATION TIMES

    Mr. Secretary, Army National Guard forces in my State, as 
well as across the country, as you know, are under a lot of 
pressure. Currently, they're facing tours of duty between 15 
and 17 months, on average, with 12 of those months, as you 
know, served in Iraq or elsewhere in the Middle East. 
Obviously, this much time away from home is very hard on 
families, and you know it's hurting the Guard's ability to 
recruit and to retain. Is there a plan underway to reduce these 
long activation times?
    Secretary Rumsfeld. Senator, there is stress on the force. 
The up-to-18 months is a long time for a person who's in the 
Guard or Reserve. The current deployment pattern for the 
Marines is 7 months. The current deployment pattern for the 
Army, the Reserve, and the Guard is up to 1 year in the area of 
responsibility, into the U.S. Central Command (CENTCOM) area.
    General Myers and I have talked to the Army about that 
practice. I think they would like to reduce that number by some 
amount. Don't you, Chairman? And what they're trying to do is, 
by increasing the number of active combat brigades and re-
balancing the Active Force with the Guard and Reserve so they 
can have more of the needed skill sets on active duty and fewer 
of them in the Guard and Reserve, where we have to overuse 
those people--and the Army is, I think, in the process of 
expanding their combat capability, going to probably come back 
to us at some point with some kind of a plan where they might 
be able to reduce the deployment period from the 12 months that 
it currently is. Now, I don't know if they'll make it or when 
that would happen, but I think that's accurate.
    Do you want to----
    General Myers. The only thing I would add to that, Senator, 
is that, as the Secretary said, we're going to try to re-
balance our force, and it's going to take us several years to 
do that. We are not properly arranged for the 21st century 
security environment which we find ourselves in. We're also a 
Nation at war. And so, we've had to rely heavily on the Reserve 
component, as the Nation does when it's at war, when a lot of 
your capabilities are perhaps mal-distributed. A lot of them 
are in the Reserve component; and, in a perfect world, they 
would not be.
    And so, we are asking a lot of our Reserve--as you said, of 
your Reserve component. And I think the good news is that the 
morale is high, they performed extremely well, and that, as we 
look particularly at the Army National Guard, they're pretty 
optimistic about meeting their end-year end strength. They 
think they're going to make their end strength. Now, we'll 
have--time will tell, and we know they're stressed, but they're 
going to wind up in this year in pretty good shape, which----
    Senator Kohl. Do you think----
    General Myers [continuing]. Which I think tells us how the 
people are responding to the tasking.
    It is a long time, and we've talked about some of the 
issues. We have tried--the Secretary has tried very hard to put 
great predictability into their deployment schedule, which 
helps a little--helps the families a little, helps the 
businesses that support them a little. We get better at that as 
we find better tools to manage that whole force.
    So we're very sensitive to all this, trying to work it very 
hard. But they have performed magnificently.

                   HOW LONG WILL RESTRUCTURING TAKE?

    Senator Kohl. I get--what I think you're saying is that you 
are very sensitive and you intend to do everything you can as 
quickly as you can, which is much appreciated, but you're 
looking at several years before you will be able to bring their 
tour of duty down to where it was--it is supposed to be?
    Secretary Rumsfeld. I don't know how long it'll take. The 
Army will have to come back with its assessment. I've had two 
or three meetings, where I've said, ``Why does it make sense 
for the Marines to have a 7-month rotation, and why does it 
make sense for the Army to have a 12-month rotation? Is there 
something that's different for ground forces?'' And it's 
basically because of the way they're organized. And so, the 
Army, I think, wants to reduce that by some extent, but they're 
just going to have to come back to me when they can.
    I would say another thing. General Myers pointed out that 
we're not properly organized. We're not even properly organized 
within the Reserves. I mean, we've only called up about half 
the Reserves, less than half of the Reserves, during this 
entire period, for the deployments that we've had. This is 
individuals. It's different for units. It means that something 
over 50 percent are not mobilized yet, which means that we've 
got too many of certain skill sets, and not enough of other 
skill sets.
    So the task is complex. We are hard at it. We live with 
what we've got, and that's how this country was arranged. And 
it isn't the way it should be arranged. And we're fixing it. 
And we're fixing it as fast as we can.
    Senator Kohl. I hope so.

                 GUARD AND RESERVE EQUIPMENT SHORTFALLS

    Mr. Secretary, another concern I'm hearing from Guard units 
is that they are facing, as I'm sure you know, significant 
equipment shortages. Two engineering units from my State of 
Wisconsin were told to leave their equipment in Iraq for the 
units that were replacing them. Now that they're back from 
Iraq, they don't have the equipment that they need to do their 
training and stay ready for future deployment.
    In another case, a 32nd Brigade in my State had to lend 
their M-4 rifles to a Tennessee National Guard unit that was 
deploying to Iraq, and now the 32nd Brigade are training to be 
sent to Iraq with old M-16 rifles that the brigade will not be 
able to use when they get to Iraq. So this, I'm sure, is a very 
difficult situation, as you can recognize, not to be training 
with the equipment that they will be using when they get to 
Iraq.
    My question is: Will the supplemental address the 
requirements of these units so that they can have the equipment 
they need to do their job?
    Secretary Rumsfeld. Let me just start by saying that we can 
save a lot of money by having people who are being deployed 
into the theater fall in on equipment that's already there. 
That is a big saving in expense. And it's rather than shipping 
the people home, and the equipment home, and the equipment has 
to go by sea, and it takes a long time. So to the extent we can 
have the units coming in fall in on equipment that's there, 
it's to our advantage. Furthermore, the equipment that's there 
tends to be the up-armored and the body armor is up to snuff; 
whereas, we don't have a lot of that back in the States.
    The second thing is that, because we're re-balancing these 
forces, both within the Reserve and the Guard, and between the 
Active Force and the Guard and Reserve, they may not get the 
same equipment. They may come back and get trained up as a 
military police unit or some skill set that's needed. There are 
so many moving parts to this, trying to refashion the U.S. Army 
to fit the 21st century in a relatively short period of time.
    Dick, do you want to comment?
    General Myers. Senator Kohl, I think that the answer to 
this question is embodied in your last question and my answer 
to that, is that our Reserve forces, particularly in the Army, 
were not at proper readiness levels that many of us thought 
they should be at. So they start in this formation; and we go 
to war, and they start behind. And that's what we're seeing, is 
in catch up.
    To your specific question, Is it contained in the 
supplemental? Absolutely. There is just shy of $16 billion in 
the supplemental for procurement and refurbishment of 
equipment, and that's not just active duty, that's the Reserve 
component, as well. And as we march down the road to Army 
modularity, that's just not the active duty Army, that's the 
Army Reserve component, as well there, too, so we can avoid 
these situations. Because when we send them over there--what 
I'm concerned about is that they train as they're going to 
fight, with the equipment they're going to fight with. So I'm 
going to personally look into the issue that you brought up.
    Senator Kohl. The 32nd----
    General Myers. Because that would be----
    Senator Kohl [continuing]. Brigade, in Wisconsin, yes.
    General Myers. I'll do it. It'll be easy to find.
    Senator Kohl. Would you?
    General Myers. Yes, sir.
    Senator Kohl. I'm sure they would appreciate it----
    General Myers. Oh, absolutely. It's important.
    Senator Kohl [continuing]. And so would I.
    General Myers. Yes, sir.
    Senator Kohl. I do appreciate it.
    Thank you very much, Mr. Chairman.
    Chairman Cochran. Thank you, Senator.
    Mr. Secretary, thank you very much for your patient and 
deliberate way of answering the questions, responding to our 
request that we have this hearing today.
    General Myers, we appreciate your cooperation with the 
committee.

   WHEN WILL FISCAL YEAR 2005 FUNDS RUN OUT WITHOUT THE SUPPLEMENTAL?

    Ms. Jonas, thank you very much, and, Dr. Chu, for your 
participation and your help in answering questions, as well.
    It's our information that, if congressional action on this 
supplemental is delayed, the Army could run out of money in 
April, the Air Force has indicated it could run out of money in 
July. And I want to ask, for the record, for you to confirm 
that, if that's true, or if there has been a change since we 
received that information. Let us know whether or not this is 
something that's--where time is of the essence and we would 
actually suffer shortfalls in our ability to bring these 
operations to a successful conclusion if the appropriation 
isn't approved.
    [The information follows:]

    It is critical that the Services get supplemental 
appropriations by early May to avoid harmful impacts to 
readiness. The Army's operating funds will be exhausted by 
early May and it has already had to take action to stretch 
available funds, such as restraining supply orders.

                     ADDITIONAL SUBMITTED STATEMENT

    Chairman Cochran. Senator Craig has asked that his 
submitted statement be made a part of the record.
    [The statement follows:]
               Prepared Statement of Senator Larry Craig
    Mr. Chairman thank you for holding this hearing, and thank you 
Secretary Rumsfeld for appearing today regarding the Supplemental 
request geared toward fighting the Global War on Terror.
    Let me first say that I am proud of the two-thousand Idaho National 
Guard soldiers serving in the 116th Cavalry Brigade. My State is paying 
a great cost in this war, but let me say that the men and women of the 
116th are proud to be serving their nation in this effort.
    That being said, I would like to commend the efforts taken to 
provide our soldiers with the equipment they need. Not too long ago, 
many questions were being asked about the lack of necessary equipment 
for our troops. I am happy to report that I have not heard one 
complaint from my Idaho troops regarding the lack of military 
equipment--and I think that is in large part because of the response 
and steps taken by the DOD, and Congress, to ensure our troops are 
receiving what they deserve.
    In addition to fully funding our troops, it is my hope that the DOD 
and Congress will continue to provide ample oversight in the rewarding 
of contracts for military, security and reconstruction activities in 
Iraq and Afghanistan. On behalf of the American troops and the American 
taxpayer we have a sincere obligation to make certain that these 
contracts are in good faith, fair, and that any abuse in these 
contracts will be made public and those abusing the U.S. taxpayer money 
will be punished.
    I only say this because it is obvious the opportunity, a world 
away, presents itself. Any abuse can and will take away the confidence 
of the American people--and more importantly it deprives our troops of 
potential and necessary funding.
    Let me close by saying that we have embarked on a noble path--but 
the path to freedom must be assured with the support of the American 
people and our troops. To carry on our success of defeating terrorism 
we must stand side by side with our soldiers and comfort our American 
taxpayer by demonstrating that this money is being spent wisely and in 
good faith.
    Again, thank you for testifying today. I look forward to hearing 
about our past, present and future achievements in the war on terror.

                     ADDITIONAL COMMITTEE QUESTIONS

    Ms. Jonas. Mr. Chairman, thank you very much. I think we'll 
be fine through the second quarter, but we would appreciate 
your speedy action regarding this legislation.
    Chairman Cochran. Well, I thank you very much for your 
cooperation with the committee.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

               Questions Submitted by Senator Ted Stevens

                            VEHICLE ARMORING

    Question. You recently indicated that all vehicles operating 
outside of protected compounds in Iraq will have ``appropriate armor.'' 
How close are you to meeting the objective of providing armor 
protection for all vehicles operating outside of protected areas in 
Iraq?
    Answer. We met the goal of armoring all vehicles operating outside 
protected compounds. As of February 15, 2005, all vehicles operating 
outside of protected compounds in Iraq, with certain classified 
exceptions, had either Level I (armor integrated at vehicle 
production), Level II (Department of the Army approved add on armor 
kits) or Level III armor (locally fabricated kits comparable to Level 
II armor without ballistic glass).
    Question. How much money has been spent so far on vehicle armoring 
and how many vehicles have you armored? In addition, what is included 
in the supplement request to continue this effort?
    Answer. As of February 2005, a total of $1.6 billion has been spent 
on vehicle armoring. These funds procured armor for a total of 27,079 
Add-on-Armor (AoA) kits. In addition, as of February 12, 2005 the 
following quantities of armored vehicles/armor kitted wheeled vehicles 
have been provided to the theater commanders: 10,557 HMMWVs, 700 FMTV, 
839 HEMTTs, 432 PLS, 176 M915 Trucks, 4 900 series 5-ton trucks, and 93 
HETs.
    Additionally, the following quantities have been provided the 
appropriate steel for local fabrication of hardened vehicle kits: 1,951 
HMMWVs, 1,359 FMTV, 608 HEMTT, 274 PLS, 1,601 M915 trucks, 1,867 900 
series 5-ton trucks, and 849 HETs for a grand total of 27,597 armored/
hardened vehicles.
    A total of $608 million is included in the fiscal year 2005 
Supplemental for add-on-armor. A total of $64 million will be used to 
procure add-on-armor for the M113, with the balance procuring add-on-
armor for the light, medium, and heavy tactical vehicles.
    Question. The supplemental request includes $5 billion for Army 
modularity. Why are you requesting funding to re-design the Army in 
this supplemental request? Do you intend to follow this funding 
practice in the future?
    Answer. The $5 billion is in the supplemental because it is a 
wartime requirement. It will allow us to increase the number of ground 
force units available for deployment, which is vital to our war effort. 
It will enable Army divisions returning to Iraq to have more 
capabilities than they would without the supplemental. Beginning in 
fiscal year 2007, restructuring will be funded in the baseline Army 
budget.
    Question. Are there sufficient controls placed on the use of CERP 
funds to ensure they are being used in the most effective manner? Are 
Commanders coordinating these efforts with the reconstruction efforts 
being administered by the State Department?
    Answer. Yes, there are sufficient controls placed on the use of 
CERP funds. The Assistant Secretary of Defense, Comptroller, recently 
provided additional guidance defining broad limits for which CERP could 
be used, which will be incorporated into the Financial Management 
Regulation. This guidance is in addition to the original guidance 
provided by the Comptroller in the November 2003 policy statement and 
is based upon findings and recommendations from the Coalition 
Provisional Authority Inspector General and other audits. Commander, 
USCENTCOM, and the commanders for forces in Iraq and Afghanistan have 
issued more detailed guidance to all subordinate commanders to ensure 
funds are used in the most effective manner. The Department intends to 
provide as much flexibility in program management to the commanders as 
possible while maintaining adequate financial management internal 
controls.
    The dissolution of the Coalition Provisional Authority and the 
establishment of the Iraq Reconstruction Management Office, under the 
control of the Chief of Mission, enables commanders to synchronize 
their CERP expenditures with the overall distribution of Iraqi Relief 
and Reconstruction Fund resources. This helps to ensure that CERP 
projects do not duplicate or negate national level efforts. A similar 
approach is being used in Afghanistan, referred to as the Interagency 
Resources Cell.
    Question. I understand that the Department is spending about $5.1 
billion per month for combat operations in Iraq and Afghanistan. Based 
on that spending rate, how soon do you need the supplemental funds 
before you run out of cash in your operating accounts?
    Answer. During the first three months of fiscal year 2005, the 
Department has experienced an average monthly obligation rate of 
approximately $5.7 billion. The first quarter is normally somewhat 
higher than later quarters because some annual contracts are obligated 
early in a fiscal year.
    To meet the near-term financial needs, the Services have brought 
forward the apportionment of funds in the Military Personnel 
appropriations that had been planned for use in the 3rd and 4th 
quarters and are using these funds in the first half of fiscal year 
2005. This realignment has left a funding shortfall in the 3rd and 4th 
quarters that will have to be replenished in order to avoid disrupting 
readiness and other vital military activities later this fiscal year.
    The Department plans to release the balance of the remaining 
Operation and Maintenance (O&M) Title IX funds ($3.1 billion) to the 
Components in early April (at the start of the 3rd quarter). This 
action will keep the Services solvent through April. After that, if 
supplemental funds have not been appropriated, the Department will be 
forced to begin curtailing planned non-global war on terror 3rd quarter 
activity. Based on current obligation trends, our most critical funding 
risk will be in the Army's Operation & Maintenance appropriation, which 
will be out of funds by May.
    Question. What actions have the Services taken or operations have 
they deferred in order to ``cash flow'' current operations, and what 
effect is it having on the readiness of our troops?
    Answer. Through the first half of fiscal year 2005, the Services 
have not had to defer any significant peacetime spending due to the 
global war on terror operations. The Services have instead used a 
combination of Title IX funds appropriated by the Congress in the 
fiscal year 2005 Appropriation Act, and Military Personnel and 
Operation and Maintenance baseline funds budgeted for the 3rd and 4th 
quarter of fiscal year 2005 to finance operations. Because these 
baseline funds were not scheduled to be obligated until the second half 
of the fiscal year, military peacetime readiness has not be affected by 
the operations in Iraq and Afghanistan.
    The Department anticipates that the supplemental request will be 
approved by the Congress shortly after the start of the 3rd quarter 
(April). If this happens, the Department believes there will be no 
adverse impact of having ``cash flowed'' 1st and 2nd quarter operations 
in Iraq and Afghanistan from funds budgeted for the second half of the 
fiscal year.
    Question. The supplemental request includes $5.7 billion and $1.3 
billion for training and equipping Iraqi and Afghan security forces, 
respectively. How did you develop the requirements for this mission, 
and will the requested funds be executed in fiscal year 2005?
    Answer. The Iraqi Interim Government, in close consultation with 
LTG Petraeus and his staff, derived the requirements for Iraqi Security 
Forces. The original sets of requirements were derived from an August 
2004 analysis. As conditions within Iraq changed, the Iraqis developed 
additional forces and requirements designed to meet the emerging 
challenges. Examples include the Special Police Commando Battalions, 
the Highway Patrol, the Emergency Response Unit, and the Army's 
mechanized forces. Current expenditure estimates show an obligation of 
funds through the second quarter of fiscal year 2006. This approach 
precludes potential funding gaps and disruption of Iraqi security force 
development. It also accounts for extended contracting lead times and 
provides flexibility to meet rapidly changing conditions on the ground.
    The Afghan funding plan for fiscal year 2005 is a subset of a 5-
year funding plan through fiscal year 2009 that achieves USG objectives 
in building a professional, multi-ethnic, and capable force based on 
our best estimate of security threats at that time. The Afghanistan 
Security Forces supplemental was developed in close consultation with 
Major General Weston (Office of Military Cooperation--Afghanistan) and 
the Afghan Ministry of Defense. The requirements provide for the 
purchase of long lead-time items such as vehicles and communications 
equipment as well as the construction of three brigade headquarters and 
battalion garrisons. This approach ensures the Afghan National Army 
training programs will continue with no gaps in funding. All funds will 
be obligated in fiscal year 2005, but may not be fully executed in 
fiscal year 2005 to ensure equipment arrivals are coordinated with 
units completing training.
    Question. How much of the requested funding will be used to train 
and equip non military entities, like police units?
    Answer. Approximately $1.5 billion will be dedicated to training 
and equipping non-military forces in Iraq. In Afghanistan, all of the 
funds will be used for training and equipping military forces.
    Question. Can you tell us what these funds will buy us in terms of 
number of troops trained and the types of equipment that will be 
purchased?
    Answer. For Iraqi Forces, the fiscal year 2005 supplemental will 
fund all known institutional training, equipment and infrastructure 
requirements for the Iraqi security forces, about 270,000 by August 
2006. Types of infrastructure and equipment that will be purchased 
include:
  --Basing facilities for several National Guard battalions;
  --Construction of Intervention Force and Regular Army facilities in 
        Al Anbar and Ninewa provinces;
  --Infrastructure for 15 Special Police battalions and the remainder 
        of the Iraqi Special Operations Forces;
  --Stations and outposts for the Department of Border Enforcement and 
        Highway Patrol;
  --Equipment required for expanding training capacity and capability;
  --Secure communications equipment;
  --Vehicles, weapons, body armor, radios and individual uniforms and 
        equipment for the Highway Patrol, Special Police Commando 
        Battalions, Public Order Battalions, Reconnaissance Companies 
        and conventional police forces;
  --Forensics equipment and vehicles for three police forensics 
        laboratories;
  --Local area network communications equipment;
  --Night vision devices;
  --Low Level Voice Intercept (LLVI) equipment for intelligence 
        collection;
  --Tactical counterintelligence equipment;
  --Maintenance tools and test equipment;
  --Trucks and command and control equipment for eight transportation 
        battalions;
  --Aircraft survivability equipment;
  --Vehicles, weapons, body armor, radios and individual uniforms and 
        equipment for the National Guard battalions being integrated 
        into the regular Army; and
  --Tanks and armored vehicles for up to two mechanized divisions.
    For Afghan forces, the fiscal year 2005 supplemental will fund:
  --Three Brigade garrison headquarters at Paktika, Farah and Konduz;
  --National Maintenance Depot to repair and sustain vehicles, 
        communications equipment and weapons;
  --Communications links to Regional Corps;
  --Afghan National Army Air Corps Infrastructure at Kabul 
        International Airport;
  --Ministry of Defense/General Staff Headquarters infrastructure to 
        accommodate staffing;
  --Corps and below organizational clothing and individual equipment, 
        vehicles, communications and weapons;
  --Fixed wing and rotary wing aircraft and ground support equipment;
  --Communications equipment to link regional commands to each other 
        and to the Ministry of Defense and General Staff;
  --Design and development of Defense Sector information technology 
        architecture;
  --Initial vehicles to equip the Logistics Command;
  --Mentors for senior Ministry of Defense/General Staff leadership;
  --Contract mentors for leadership of Logistics, Communications, 
        Installation Management and Education, Training and Doctrine 
        Commands;
  --Contract Embedded Training Teams for Afghan National Army;
  --Train presidential airlift aircrews;
  --Logistics Capability contract at multiple compounds for OMC-A and 
        Afghan National Army trainers;
  --Land leases to provide force protection buffers, safe house leases, 
        interpreter contracts and OMC-A compound expansion;
  --Supplies Defense Sector with fuel, ammunition, construction 
        materials, major end items and medical items;
  --Repair and maintenance of Defense Sector (Academies, recruiting 
        centers, hospitals, and garrison) infrastructure;
  --Agency unique equipment for Medical and Installation Management 
        Commands;
  --Facility engineering agency infrastructure at 13 garrison 
        locations;
  --Repair and maintenance of Ministry of Defense, Afghan National Army 
        and Intermediate Command equipment;
  --Ammo and Medical Depots; logistic site for fuel and ranges; and
  --Continued construction/renovation of central hospital and 
        construction of six regional medical clinics.

                                 ______
                                 
            Questions Submitted by Senator Pete V. Domenici

                USE OF SUPPLEMENTALS TO COVER WAR COSTS

    Question. Would you explain why the Department of Defense views 
these costs associated with new equipment, Army modularity, and 
increased end-strength as a justifiable part of an emergency spending 
measure?
    Answer. All three of costs you cite are a justifiable part of an 
emergency spending measure because they are war-related requirements.
    First, equipment. The supplemental includes funding for restoring 
or replacing equipment damaged or destroyed in war-time operations. 
This funding is crucial because the restored or new equipment must be 
available for our forces for future operations. It includes $3.2 
billion for depot maintenance, $5.4 billion to replace military items 
destroyed or expended during combat operations, and $3.3 billion to 
improve protection of our forces. Without this supplemental funding, 
our forces would be delayed in getting the equipment they need to be 
fully prepared for future operations.
    Second, Army modularity. The $5 billion is requested in the 
supplemental because it is a wartime requirement. It will allow us to 
increase the number of ground force units available for deployment, 
which is vital to our war effort. It will enable Army divisions 
returning to Iraq to have more capabilities than they would without the 
supplemental.
    Third, increased end-strength. Again, this is a war-time 
requirement. The increase enables us to have the added people and units 
needed to support the war.
    Question. Could you also discuss how the difficulty of making 
assumptions about military operations, makes these supplemental 
requests necessary?
    Answer. The intensity and requirements of military operations, 
especially against an elusive enemy like terrorists, are difficult to 
predict. This difficulty is magnified by political uncertainty, which 
we faced in Iraq with its election at the end of January. Consider the 
detailed funding in the fiscal year 2005 supplemental released in 
February 2005. To be included in the regular fiscal year 2005 
President's budget, we would have had the impossible task of estimating 
those detailed costs back in November 2003.

              IRAQI SECURITY FORCES/U.S. TROOP WITHDRAWAL

    Question. Mr. Secretary, as we all know, the key to bringing our 
troops home from Iraq is creating a viable Iraqi security force. Only 
then can the elected government of Iraq capably face the insurgents on 
its own. And it seems to me we should do this right and not set 
artificial deadlines for withdrawal and give the insurgents hope that 
they can ``wait us out'' and then attack unprepared Iraqi security 
forces.
    In light of your recent visit to Iraq, what is your view of the 
progress we are making training Iraqi forces?
    Answer. Iraqi security forces successfully secured polling sites 
for democratic elections on January 30. The specialized police units, 
including eight Police Commando Battalions, six Public Order Battalions 
and two Mechanized Battalions are emerging as relatively effective 
fighters and are serving well as interim forces between regular police 
and Army units.
    While we see these trends as encouraging, most forces still lack 
the capacity to conduct and sustain independent counterinsurgency 
operations. Progression of the Iraqi security forces is occurring at 
different rates depending on their geographic location, the level of 
insurgency, and the mentoring provided by coalition forces. The pace of 
development is faster in the southern and northern most provinces than 
in the Sunni dominated areas. For example, forces in the Kurdish 
province of As Sulaymaniyah are performing very well while forces in 
Sunni Al Anbar province are almost completely ineffective.
    The key elements that need to be addressed are: leadership, 
establishing properly manned, trained and capable headquarters, 
reversing absenteeism, the development of effective ministries 
(especially the Ministries of Interior and Defense), and revitalizing a 
ethos where the ISF committed to service to the nation.
    Likewise, efforts to develop a capable national intelligence 
organization are a key element in the counterinsurgency. These efforts 
are at an early stage, and the development of police and military 
intelligence remains a key focus for MNF-I.
    Question. What commitments has NATO made to training Iraqi officers 
and do you expect them to keep their commitments?
    Answer. NATO is training and mentoring middle and senior level 
personnel from the Iraqi security forces at NATO schools and training 
centers in and outside of Iraq. The alliance also plays a role in 
coordinating offers of equipment and training from individual NATO and 
partner countries.
    The NATO Training Mission aims to provide training to about 1,000 
Iraqi officers in the country, and about 500 outside of Iraq per year, 
as well as a significant amount of military equipment.
    Since August 2004, about 50 NATO officers have been working on the 
ground in Baghdad to train and mentor senior-level personnel from the 
Iraqi security forces. At the February 22, 2005 summit, NATO's heads of 
state agreed to fully fund and staff the NATO training mission in Iraq 
with up to 360 personnel.
    The next stage of expansion, which would lead to a further increase 
in personnel, will be to help establish an Iraqi Training Education and 
Doctrine Centre in 2005, designed to provide leadership and management 
training for the middle and senior level of the Iraqi forces.
    Given the pledges made by the heads of state at the February 22 
summit, we are hopeful that each of the member states will meet its 
commitments.
    Question. Has the success of the Iraqi elections changed the 
attitudes of some NATO allies concerning their role in building a free 
Iraq?
    Answer. Yes. Since the NATO Summit on February 22, 2005, every NATO 
ally has committed to supporting the NATO Training Mission in Iraq 
(NTM-I) by either training Iraqi Security Forces (ISF), donating 
military equipment to the ISF, or providing financial resources to 
implement the NTM-I mission.
    Question. Do you agree setting artificial deadlines for our 
withdrawal is a mistake?
    Answer. Yes. Setting a specific date for withdrawal would undermine 
confidence in our commitment to defeating the terrorists in Iraq. To 
create such doubts about American resolve would only lead to increased 
attacks against U.S. forces in Iraq, and would likely lead to more 
attacks against Americans throughout the world. I think it is far more 
important, therefore, to focus on the objectives we are trying to 
achieve rather than set arbitrary deadlines.

                     NATIONAL GUARD EQUIPMENT NEEDS

    Question. It is also my understanding that some of the equipment 
brought into the OIF theater by Army National Guard units stays behind 
for use by active component units and is not replaced when the Guard 
units come home.
    Are you aware of this situation and will any of the funds in this 
supplemental go toward replacing Army National Guard equipment for 
those stateside units that have missions to perform at home as well?
    Answer. Yes, we are aware of this situation. The Army and ARNG are 
addressing the near term issue by cross leveling equipment staying 
behind in CONUS. We will also be using resources from the fiscal year 
2005 Supplemental request to manage additional ARNG equipment 
shortfalls.
                                 ______
                                 
           Questions Submitted by Senator Christopher S. Bond

    Question. Is this enough so that Indonesia can be effective in a 
counter-terrorism mission? Are our restrictions on full IMET hurting 
our ability to address the security issue fully?
    Answer. The emergency supplemental requests for the war on terror 
and for tsunami relief contain no funding for counter-terrorism in 
Indonesia. The Department of Defense supports counter-terrorism in 
Indonesia through the provision of training under the Regional Defense 
Counter Terrorism Fellowship Program.
    Under the International Military Education and Training (IMET) 
program funded by the Department of State, Indonesia has been limited 
to training under the category of Expanded IMET, (i.e., defense 
resource management, civil-military relations, military justice and 
human rights). Secretary of State Rice on February 25, 2005 determined 
and reported to the Congress that the Indonesian Government and armed 
forces are cooperating with the FBI investigation into the August 31, 
2002 murders of two American citizens and one Indonesian citizen in 
Timika, Indonesia. This determination means that Indonesia will no 
longer be limited to Expanded-IMET training. I believe this will 
contribute to our ability to work more closely with the Government of 
Indonesia to support continued reform of the Indonesian military (TNI) 
and to foster the further development of democracy there.
    Question. Otherwise, do we have the means to collect information 
throughout the archipelago absent a better relationship with the TNI?
    Answer. The Government of Indonesia has made the police the primary 
agency responsible for addressing terrorism with the military assigned 
a supporting role. Indonesia has been successful in capturing and 
prosecuting over 100 terrorists involved in the Bali and Jakarta 
terrorist attacks. I would refer you to the Department of State for 
information on assistance the U.S. is providing to Indonesian law 
enforcement agencies.
    Question. Where do we go from here to put ourselves in the best 
position to deal with this potential threat?
    Answer. The threat of terrorism in Indonesia is best addressed by 
supporting the development of democracy in Indonesia and the 
elimination of corruption. I believe that the provision of IMET 
training to Indonesia and expanding military-to-military contacts with 
the military (TNI) will allow us to positively influence the reform of 
the TNI, which in turn will support and nurture the establishment of 
democratic institutions in Indonesia. This will serve the twin purposes 
of reinforcing democracy and defeating corruption.
    Question. Because of PBD 753 the Army is getting help for funding 
modularity but does the PBD and the current supplemental provide 
sufficient funding for modularity and current operations while also 
addressing the significant recapitalization, transformation and 
modernization costs for our returning Guard and reserve units?
    Answer. Yes, we believe that the fiscal year 2005 supplemental plus 
our baseline budget will address the requirements of our Guard and 
reserve units returning from deployment. The supplemental includes 
nearly $12 billion for restoring or replacing equipment damaged or 
destroyed in combat operations, for addressing other equipment needs--
for both our Active and Reserve Components.

                                 ______
                                 
            Questions Submitted by Senator Richard C. Shelby

                             STRYKER ARMOR

    Question. With over $5 billion available for various up-armoring 
initiatives, why is there no research or procurement money specifically 
identified for armor protection for the Stryker?
    Answer. The Stryker program is currently working three different 
force protection initiatives for the Stryker Family of vehicles. First, 
the SLAT armor initiative was worked in an accelerated 4-month 
concurrent development & procurement process between Army Test and 
Evaluation Command & Program Manager Stryker Brigade Combat Team (PM 
SBCT) in order to provide an enhanced level of rocket propelled grenade 
(RPG) protection to the 1st Stryker Brigade Combat Team's deployment to 
Operation Iraqi Freedom. SLAT armor is evenly spaced high-hard steel 
strips surrounding the vehicle designed to disable the RPG fuse devise 
prior to impact. The second initiative is the Stryker Add-on Armor 
(AoA, Reactive Armor) program that has been fully funded since 
inception and has completed all of its live fire testing. Add-on Armor 
was approved by Mr. Bolton, Army Acquisition Executive for Low Rate 
Initial Production on February 23, 2005. The delivery of the first SBCT 
set of Stryker Add-on Armor is projected to be complete for possible 
contingency operation usage in the May-June 2006 timeframe. Stryker 
Reactive Armor works like Bradley Reactive Armor, by explosively 
deflecting the RPG warheads effects upon impact. Finally, the PM SBCT 
is working a third initiative with the Army Research Development 
Engineering Command (ARDEC) on the integration and testing of an Active 
Protection System (APS) for possible use on the Stryker Family of 
Vehicles. This effort thus far has been funded ($10 million) within the 
PM SBCT program. This system, if proven as a reliable & viable 
alternative to SLAT armor and AoA, would provide enhanced protection 
against a wider array of potential threats, greatly reduce the combat 
weights of each Stryker and provide another opportunity to spiral 
Future Combat System technologies into the current force. APS is a 
system that engages incoming direct fire threat munitions (RPG) at a 
stand-off distance from the vehicle.
    Question. Can you explain the discrepancy between Army Personnel 
and Operations & Maintenance funds for the Guard and Reserve? Why are 
the Army Reserves so significantly underfunded compared to their Guard 
counterparts?
    Answer. There are several reasons for the differences between Guard 
and Reserve supplemental requests. The Army Reserve requirements 
submission was approximately 60 percent less than the Guard, due to 
modular conversion and differences in the impact of mobilization on the 
Full Time Support force. The Guard is converting four Brigade Combat 
Teams to a modular design in fiscal year 2005. The Army Reserve will 
begin unit conversions for Sustainment Brigades in fiscal year 2006. 
The Guard requested additional Military Pay for AGRs in order to back-
fill Soldiers in deploying units in fiscal year 2005. The Army Reserve 
did not request additional Full-Time support but rather additional 
funding to support pre-mobilization training. The Guard emphasized 
Recruiting Retention NCOs to expand their recruiting missions and the 
Reserve focused on Military Pay incentives for their recruiting 
efforts.
    Question. Why does the Supplemental not include more funding for 
Military Construction for the Global War on Terrorism? Specifically, it 
is my understanding that Marines in the Horn of Africa and Djibouti 
have inadequate housing facilities and submitted a request for funding 
in the Supplemental. Why was it not included?
    Answer. In response to the first question, the Supplemental only 
includes items that are emergency in nature, are directly related to 
Operation Iraqi Freedom, Operation Enduring Freedom, or the Global War 
on Terrorism and are executable in fiscal year 2005. In response to the 
second question, the supplemental does include the $27.7 million the 
Marine Corps requested for billeting at Camp Lemonier, Djibouti.

                                 ______
                                 
          Questions Submitted by Senator Kay Bailey Hutchison

                               FORT BLISS

    Question. Mr. Secretary, in the Military Construction Army account 
you have funded site preparation for a variety of installations 
including Fort Bliss, Texas. Is this in preparation for the modularized 
Brigades that are coming to these installations? With the tremendous 
geographic advantages at Fort Bliss in terms of maneuver and air space, 
are you actively looking at Fort Bliss to be the home for more of our 
troops being brought home from abroad?
    Answer. In July 2004, the Army announced that in fiscal year 2006, 
pending permanent stationing consistent with Base Realignment and 
Closure (BRAC) analysis in 2005, it would form and temporarily station 
a Brigade Combat Team (BCT) Unit of Action (UA) at Fort Bliss, Texas. 
The site preparation at Fort Bliss is for temporary facilities to house 
the previously announced BCT(UA). Fort Bliss was selected as a 
temporary location based on existing capacities, available training 
space, and current locations of similar units. The capabilities 
resident at Fort Bliss will be fully considered during the development 
of permanent basing recommendations during the 2005 BRAC process.

                       OVERSEAS BASING COMMISSION

    Question. I am proud of our servicemen and women who are serving 
with distinction in combat, and want to ensure the Department of 
Defense has what it needs to swiftly win this war. As the Department of 
Defense begins a shift in where we station our soldiers overseas and we 
see more of our troops coming home, how does this supplemental take 
this movement into account?
    Answer. The President's fiscal year 2006 budget, not his 
supplemental request, takes this into account. Over the next several 
months, the 2005 Base Realignment and Closure (BRAC) Commission will 
need to take into account this return from overseas as it decides how 
best to streamline and restructure the Department's stateside 
installations. Funding to implement 2005 BRAC Commission decisions will 
begin in fiscal year 2006 and is included in the President's fiscal 
year 2006 budget.

                             DEATH GRATUITY

    Question. The supplemental provides over $92 million to increase 
the death benefit (gratuity) from $12,000 to $100,000 for men and women 
who have died in combat. The legislation additionally provides over 
$158 million to increase coverage from $250,000 to $400,000 under 
Serviceman's Group Life Insurance (SGLI) for combat deaths. Both of 
these benefits are for combat zone duty only and are inclusive of the 
following dates: October 2001 to January 2005.
    Do you have plans to increase coverage to service members who are 
serving in non-combat zones? Will these increased benefits be extended 
to future casualties?
    Answer. The Administration's proposal is to increase SGLI by 
$150,000 (to $400,000), provide $150,000 of SGLI at no cost to the 
member in an area, operation, or circumstance designated by the 
Secretary of Defense, and increase the death gratuity from $12,420 to 
$100,000 for deaths in an area, operation, or circumstance designated 
by the Secretary of Defense. The $400,000 SGLI would be automatic for 
all Service members. A member would have to opt out of the automatic 
maximum amount, and if married, would be required to have spousal 
consent. A recently submitted report to Congress confirms the need for 
enhanced death benefits based upon two separate, independent studies. 
Based on the Department's assessment, the Department submitted 
legislation for death benefits program enhancements with the 
Administration's fiscal year 2005 supplemental request, retroactive to 
October 7, 2001.

                             TRANSFORMATION

    Question. Many have questioned the wisdom of not budgeting for the 
modularity of the of the Army's combat units in the President's base 
budget. It is my understanding that modularity allows the Army to 
increase the number of combat brigades on the ground which enhances our 
ability to fight the Global War on Terrorism, so funding this 
transformation is critical to effectively fielding units in Iraq. Is 
that how you see it?
    Answer. Yes.

                    MILITARY CONSTRUCTION IN CENTCOM

    Question. Mr. Secretary, you have requested nearly $200 million for 
permanent Air Force facilities in the Central Command area of 
operations. These are outside Iraq and Afghanistan and are clearly 
establishing permanent infrastructure in the region. I'm not 
necessarily opposed to such investments but we need to have an 
understanding of the Department's long term plan for the region in 
order to evaluate these requests. When do you intend to present the 
report on your master plan which Congress requested in last year's 
supplemental?
    Answer. The plan was submitted to Congress on March 7, 2005.

                           ARMY RESTRUCTURING

    Question. Can you assure us that, if the Army does intend to create 
these additional BCTs, you'll go ahead and get these facilities into 
the normal construction cycle so we don't have to build them twice?
    Answer. Until the BRAC 2005 announcements are approved, all Brigade 
Combat Team (BCT) stationing actions are temporary. As such, the Army 
is not programming nor constructing permanent facilities at this time. 
However, the Army has programmed site preparation and utility 
infrastructure work to support interim relocatable buildings in the 
fiscal year 2005 Supplemental request. These relocatable complexes will 
provide temporary facilities to meet BCT operational dates. Meeting 
these activation dates supports operational and deployment 
requirements, which cannot be met if we waited for the normal Military 
Construction (MILCON) cycle.
    If final stationing decisions determine that the new BCTs should 
stay at their current locations, the Army will maximize use of MILCON 
infrastructure installed for the temporary sites when constructing 
permanent facilities.

                       MARINE CORPS RESTRUCTURING

    Question. Why is it that permanent basing decisions can't be made 
before BRAC for Army restructuring but can be for Marine restructuring?
    Answer. The Army decided as part of its BRAC strategy to take a 
holistic approach to these and a host of other issues. Rather than 
solve the permanent basing of overseas forces as one problem, and then 
make decisions on the stand up of new Units of Action (UAs) as another 
challenge, and then use BRAC to transform the rest of the Army, the 
Army decided that we should use the power and opportunity afforded by 
BRAC to address all these decisions at once and seek an integrated, 
optimal solution.
    To that end, the Army announced the stationing of several Units of 
Action based on operational necessity but made it clear that these were 
temporary decisions pending further review under BRAC. We agreed to use 
BRAC to resolve the stationing of overseas forces. Moreover, we 
continue with OSD's help to complete our BRAC analyses so that these, 
and other BRAC issues can be examined and resolved as part of a single 
analytical package.

                                 ______
                                 
               Questions Submitted by Senator Mike DeWine

    Question. Isn't it true that the Emergency Supplemental only 
includes a death gratuity increase in the event of the death of service 
members in Iraq/Afghanistan or future combat zones and does not account 
for those in training incidents or in transit to combat zones? What 
about the Ohio sailor that died of injuries sustained when his 
submarine ran aground near Guam? This sailor was involved in a training 
accident. Should the death of a service member in a combat zone be 
compensated differently from the death of a service member training for 
combat or in transit to a combat zone?
    Answer. The principal source of death benefits for military members 
is the Servicemembers Group Life Insurance (SGLI), now and in the 
future. Whereas the purpose of the death gratuity is to provide 
survivors immediate cash for expenses incurred, such as burial costs 
and/or transportation of family members to funeral locations, SGLI is 
an insurance program that enables Service members to increase 
substantially the amount available to their beneficiaries in the event 
of their death.
    The Department's proposal for the additional payment of a death 
gratuity includes a member in an area, operation, or circumstance 
designated by the Secretary of Defense; no specific decision has been 
made by the Secretary on the limits he would set. The Department 
contracted with the SAG Corporation in 2004 to conduct an independent 
study on the DOD death benefits program. The study found the system of 
benefits provided to survivors of members who die on active duty to be 
adequate, substantial and comprehensive. However, it identified a lack 
of recognition for direct sacrifice of life, as is provided by the 
Public Safety Officers' Benefit Act (pays over $267,000 to survivors in 
recognition of deaths while performing the hazardous law-enforcement or 
firefighting duties). Additionally, a 2004 GAO report, ``Survivor 
Benefits for Servicemembers and Federal, State, and City Government 
Employees'' found the survivors of civilian government employees in 
some high-risk occupations may receive supplemental benefits for deaths 
while performing dangerous duties. DOD's proposed death benefits 
program enhancements recognize the direct sacrifice of life in service 
to the Nation while serving in harm's way.
    Question. Adequate and reliable healthcare is essential to the 
growth and development of children. The cost of this healthcare can put 
a tremendous strain on family budgets for general care, as well as 
create dire budget situations if a child has special needs. Isn't it 
true that during the life of the service member, dependents have cost-
free access to the military health system, including many services for 
special needs children?
    Answer. Dependents of active duty members have cost-free access to 
the Military Health System only if enrolled in TRICARE Prime or TRICARE 
Prime Remote for Active Duty Family Members, and all (except the active 
duty member) have pharmacy cost shares unless they get their drugs at 
the military treatment facility. By statute, the Program for Persons 
With Disabilities (PFPWD) and the successor program, the Extended Care 
Health Option (ECHO), are supplemental programs to the TRICARE Program 
designed to provide additional services exclusively for active duty 
family members with disabilities. By law, there is a monthly cost share 
based on the rank of the member (between $25 for an E-1 and $250 for an 
O-10).
    Question. Isn't it further true that following the death of a 
service member, the surviving dependents continue to receive military 
healthcare cost free for three years and then are subject to yearly 
enrollment fees and co-payments?
    Answer. Yes. Under current law, the dependent spouse and children 
of a member of the uniformed services who dies while on active duty are 
entitled to TRICARE benefits under the same terms and conditions as 
active duty family members during the three-year period beginning on 
the date of the death of the member. However, they are not eligible for 
TRICARE Prime Remote for Active Duty Family Members. Thereafter, they 
are entitled to TRICARE benefits under the same terms and conditions as 
dependents of a former member entitled to retired or retainer pay or 
equivalent pay.
    If enrolled in the TRICARE Dental Program at the time of death, the 
government pays 100 percent of the premium for three years, whereafter, 
they are entitled to enroll in the TRICARE Retiree Dental Program. 
Pharmacy cost shares (unless drugs are obtained at the military 
treatment facility) are applicable, and the PFPWD (ECHO) program has a 
monthly cost share. By statute, the Program for Persons With 
Disabilities (PFPWD) and the successor program, the Extended Care 
Health Option (ECHO), is a supplemental program to the TRICARE Program 
designed to provide additional services exclusively for active duty 
family members with disabilities. By law, there is a monthly cost share 
based on the rank of the member (between $25 for an E-1 and $250 for an 
O-10).
    Question. Wouldn't it be helpful to the families of deceased 
service members if we could remove the unnecessary burden and worry of 
enrollment fees and co-payments that can become substantial in the case 
of a special needs child?
    Answer. There is no enrollment fee for TRICARE Prime for active 
duty family member survivors during the three year survivor period. 
Certain co-payments apply for certain programs. For example, dependents 
of active duty members have cost-free access to the Military Health 
System only if enrolled in TRICARE Prime or TRICARE Prime Remote for 
Active Duty Family Members, and all (except the active duty member) 
have pharmacy cost shares unless they get their drugs at the military 
treatment facility. By statute, the Program for Persons With 
Disabilities (PFPWD) and successor program, the Extended Care Health 
Option (ECHO), is a supplemental program to the TRICARE Program 
designed to provide additional services exclusively for active duty 
family members with disabilities. By law, there is a monthly cost share 
based on the rank of the member (between $25 for an E-1 and $250 for an 
O-10).

                                 ______
                                 
              Questions Submitted by Senator Sam Brownback

                IRAQ: TROOP ROTATIONS/RETURNS FROM DUTY

    Question. How are our commitments in Iraq, Afghanistan, and 
elsewhere going to affect near-term troop rotations and troop 
realignment plans further down the road?
    Answer. Force deployment commitments in Iraq and Afghanistan have 
sufficiently stabilized to allow the Services to predict and plan for 
future rotations. This predictability has also allowed the Services to 
continue their transformation and modernization efforts.
    Question. I understand that there is growing discussion of how to 
help soldiers coming back home from combat zones who are in need of 
mental health assistance. I have seen evidence of this need while 
visiting with my constituents in Kansas. What plans do you have for 
aiding these returning troops and how do you intend to implement a 
program to help them? Will DOD be working with the Veterans Affairs 
Administration on this issue?
    Answer. We share your concern for Service members coming back from 
combat zones who may be in need of mental health assistance. We offer a 
full continuum of care to address issues ranging from prevention 
through rehabilitation and case management for the whole person, 
including mental health as an integral part of overall health of our 
Service members. We continuously improve and refine that system of care 
as new information comes to light and as additional needs are 
identified.
    The continuum begins with prevention and education in garrison 
before and after deployments. All the Services have a system 
established to provide Service members with information about potential 
medical threats, including mental health threats, ranging from stress 
management to suicide prevention.
    We conduct pre-deployment health assessments, post-deployment 
health assessments, and are in the process of implementing a post-
deployment reassessment to identify health concerns that emerge months 
after the Service member returns. We are working to establish an annual 
preventive health assessment that will incorporate mental health 
screening as part of the annual health risk assessment process for all 
Service members, including the Reserve component.
    We have implemented the Post-deployment Health Clinical Practice 
Guideline as a mandatory practice in all military medical facility 
primary care clinics. When a patient enters the system, whether they 
are active duty, family member, or retiree, they are asked whether 
their visit is related to a deployment. They are provided health risk 
communication during those visits and are actively encouraged to 
present their deployment-related health concerns to their primary care 
manager. Additional clinical practice guidelines support this post-
deployment health guideline, including guidelines for depression, post-
deployment stress disorder, and medically unexplained symptoms. These 
guidelines were developed jointly by DOD and VA and have been fielded 
in both systems to provide evaluation and standard of care to our 
Service members and their families. Army installations have also 
bolstered their care provision and case management by adding care 
managers to medical facilities at high-deployment platforms. These 
social workers facilitate access and coordination of care for those who 
report health concerns, especially behavioral or mental health concerns 
related to deployment.
    To further increase access to mental health services, we have begun 
embedding mental health providers into line units for prevention, 
education, and early intervention, such as with the new Marine Corps 
OSCAR (Operational Stress Control and Readiness) program. Increased 
access in the military medical facilities is accomplished through 
positioning behavioral health providers into primary care clinics, such 
as in the Air Force Behavioral Health Optimization Program. These 
programs are offered in addition to our traditional mental health 
specialty care service. TRICARE benefits are available for family 
members and have been extended for 6 months post-deployment for reserve 
and guard members returning from combat. These benefits provide for 
direct, self-referral to mental health care without the need to get a 
referral or authorization from a primary care manager for up to 8 
treatment sessions. This benefit can be extended beyond 8 sessions with 
TRICARE authorization.
    When a Service member returns from a deployment, they receive a 
briefing and a handout of the health care services available to them. 
The VA joins with DOD to provide these education and outreach services 
to ensure that troops are aware of the services offered to them both in 
the military healthcare, TRICARE, and the VA healthcare system.
    For those seriously ill, wounded, or injured Service members 
returning from combat, we offer comprehensive case management. The Army 
and Marine Corps have case management programs and the DOD has recently 
implemented a broad-reaching Military Severely Injured Joint Support 
Operations Center. This center brings together the individual Service 
programs into a comprehensive program that follows, supports, and 
facilitates care for the Service member and their family members from 
the time the individual leaves theater to ensure there are no gaps in 
care or problems in access to support services.
    Finally, we have rehabilitative care programs for treatment of 
those who are unsuccessfully treated in either primary care or 
specialty care. This Specialized Care Program is operated by the DOD 
Deployment Health Clinical Center at Walter Reed Army Medical Center. 
It provides 3-week programs of treatment for medically unexplained 
symptoms as well as specific programs for PTSD (Post Traumatic Stress 
Disorder) treatment. This Center also provides staff assistance and 
training to military and VA clinicians around the world in deployment-
related clinical care and partners closely with the VA War Related 
Illness and Injury Centers.
    To improve strategic planning and seamless integration of services 
across disciplines, across Service branches, and with the VA, we have 
established cross-functional working groups, including a Deployment 
Mental Health Sub-group within the DOD/VA Deployment Health Working 
Group. This sub-group will add to the integration of mental health 
services across the military and VA healthcare systems. Within the DOD, 
we have established a Joint Operational Stress and Deployment Mental 
Health Working Group to bring together the individual Services as well 
as different disciplines, such as the family and community support 
providers, chaplains, and line representation with health care 
providers to develop integrated strategic plans. Continuous quality 
improvement, ready access, and consistent seamless care provision 
remains at the forefront of the work of these councils.
    Question. I noted that this supplemental request proposes two new 
accounts to support the effort to build Iraqi and Afghan security 
forces: the Iraq Security Forces Fund at $5.7 billion and the Afghan 
Security Forces Fund at $1.3 billion. How will this money be used for 
the respective national forces? Also, what affect will this money have 
on the timeline to return American troops home from the field?
    Answer. For Iraqi security forces, the request of $5.7 billion 
supports:
  --Training, equipment, spare parts and infrastructure for Iraq's 
        mechanized forces;
  --Training, equipment and initial support for Iraqi Army units to 
        include transportation and logistical battalions;
  --Infrastructure and support for Special Operations Forces;
  --Development of sustainment, training and communications 
        capabilities within Iraqi security forces;
  --The addition of 400 Iraqi Police Liaison Officers;
  --Equipment and infrastructure for Iraqi Special Police Battalions; 
        and
  --The operation and maintenance of police academies.
    For Afghan security forces, the request of $1.3 billion supports:
  --The continued development, support, and training of the Afghan 
        National Army at a simultaneous training rate of five Kandaks; 
        and
  --The development of training institutions, sustainment capacity, 
        command and control capabilities and quick-response 
        improvements for all the security forces.
    Without the funds requested in the fiscal year 2005 supplemental, 
it will be impossible to bring the Iraq and Afghan security forces up 
to a level of capability that will enable U.S. forces to begin 
returning home.

                  IRAQ: RELATIONSHIP WITH THE UKRAINE

    Question. In the lead up to the war in Iraq there were indications 
that the Kuchma regime in Ukraine and others had supplied Sadam Hussain 
with sophisticated radars and other equipment. Presumably we have 
gained access to materials Iraq that document such links. Does such 
documentation indeed exist, and if so, is there any follow up with the 
governments concerned?
    Answer. The Coalition in Iraq has found no physical or documentary 
evidence to confirm allegations made in the lead-up to the war that 
Ukraine sold sophisticated radars (Kolchuga-M) to Iraq, either 
officially or through intermediaries. Following extensive documentary 
and physical searches in Iraq, it is my understanding that the 
Intelligence Community believes that no version of the Kolchuga-M was 
delivered to Iraq. I would refer you to the Intelligence Community for 
their analysis.

                         RUSSIA: WAR ON TERROR

    Question. Russia has maintained a longstanding relationship with 
Syria, a destabilizing influence in the Middle East. What is your 
assessment of the Syrian factor in the region? Is the issue being 
raised with the Russians, if so, are they being helpful? How does 
comport with Russia's status as a partner in the war against 
international terrorism?
    Answer. Syria is a charter member of the State Department's list of 
State Sponsors of Terrorism, and is actively developing WMD and 
delivery systems. Syria also has a long and sordid history of 
attempting to undermine all of its neighbors: Iraq, Lebanon, Turkey, 
Jordan, and Israel. These factors--and the authoritarian nature of the 
Syrian regime--paint a truly unflattering picture of this country. We 
see daily pictures of the Lebanese people trying to throw off the yolk 
of repressive Syrian occupation. In Iraq, too, the Syrians have been 
extremely unhelpful by supporting the insurgency. So Syria continues to 
be a destabilizing factor in the Middle East. Syria is a topic we 
discuss with our allies in the Global War on Terrorism.
    I have met frequently with Minister of Defense Sergey Ivanov and 
have raised U.S. concerns regarding Syria and the potentially 
destabilizing effect of new arms transfers. Typically, Minister Ivanov 
notes U.S. concerns, responds that he will look into certain matters, 
and then follows-up with me. The ability to have open and frank 
discussions on issues of concern supports U.S.-Russia cooperation in 
the Global War on Terror.
    Question. Next week the President will meet with his Russian 
counterpart, Vladimir Putin. We often hear that Russia is a partner in 
the war on terrorism. While this sounds good, are there any specific 
actions that Moscow has taken to merit this claim?
    Answer. Russia has granted overflight rights and allowed the 
transshipment of non-lethal goods in support of the Global War on 
Terrorism. The United States and Russia share information on terrorist 
threats, and our two militaries participate in regular discussions on 
countering terrorist activity. In October 2004, the United States and 
Russia held a joint Naval exercise in the North Atlantic that was 
focused on maritime interdiction and search and rescue. In April 2005, 
Russian forces will participate in a U.S. exercise on nuclear weapons 
convoy security in Wyoming.

                              CENTRAL ASIA

    Question. Much was made of cooperation by governments in Central 
Asia in connection with the war in Afghanistan. At the same time, some 
may have been left with the impression that this cooperation was 
somehow one-way to the exclusive benefit to the United States. How 
would you respond? What is your assessment of the relationships, and 
how they have changed over the last couple of years?
    Answer. Security assistance and military to military activities 
with the countries of Central Asia has increased since operations in 
Afghanistan began. Prior to Operation Enduring Freedom, security 
assistance (FMF & IMET) to the region for fiscal year 2001 was 
approximately $8.61 million \1\. Since then it has increased to over 
$13 million in fiscal year 2004. Assistance has been focused on defense 
reform and counterrorism cooperation. FMF and IMET is used to make 
these militaries more interoperable with U.S. and NATO forces by giving 
them the opportunity to train alongside western forces and equip 
themselves with western standard equipment.
---------------------------------------------------------------------------
    \1\ This figure does not include the fiscal year 2001 supplemental.
---------------------------------------------------------------------------
    We are working with all countries in the region and the 
relationships we have cultivated have given us important access in 
support of operations in Afghanistan. The countries of Central Asia 
agree that the U.S. presence in the region is a stabilizing factor.
    Question. Kyrgyzstan has refused a U.S. request to base AWACs on 
Kyrgyz territory, where we already have a base. Could you explain what 
was behind our request and why Kyrgyzstan decided not to comply?
    Answer. The request was made to support operations in Afghanistan.
    Question. Do we have any plans for long-term military bases in the 
Caucasus or Central Asia?
    Answer. No. Our plans center on access and building relationships 
in these regions. Our partners in the Caucasus and Central Asia have 
provided valuable staging, overflight, and logistical support during of 
the Global War on Terrorism. As one part of our broad, long-term 
security relationships with these partners, we will continue to seek 
access to their host-nation facilities in pursuit of our common 
objective of maintaining the offensive against terrorist networks.

                                 ______
                                 
             Questions Submitted by Senator Robert C. Byrd

                         RENDITION OF PRISONERS

    Question. Secretary Rumsfeld, new information is coming to light 
about Administration policies on transferring prisoners to third 
countries where they might face torture. There is now a lawsuit pending 
in Federal court about an American who has been imprisoned on secret 
charges in a Saudi prison, and news articles have described a CIA-owned 
executive jet that transports prisoners around the world.
    What is Defense Department policy on rendition of prisoners? Have 
our armed forces ever participated, directly or indirectly, with the 
rendition of detainees to countries in which they were likely to be 
subjected to torture? Wouldn't this practice violate the U.N. 
Convention Against Torture and U.S. law?
    Answer. The United States transfers detainees, under appropriate 
conditions, to the control of other governments for investigation and 
possible prosecution and continued detention when those governments are 
willing to accept responsibility for ensuring, consistent with their 
laws, that the detainees will not continue to pose a threat to the 
United States and its allies. Such governments can include the 
government of a detainee's home country or the government of a country 
other than the detainee's home country that may have law enforcement or 
prosecution interest in the detainee.
    When DOD transfers detainees to the control of other governments, 
DOD does not ask or direct the receiving government to detain the 
individual on behalf of the United States. Accordingly, the detainees 
are no longer subject to the control of the United States once they are 
transferred.
    It is the policy of the United States that an individual may not be 
transferred to the control of another country where the United States 
believes the individual will be tortured. The Department of Defense 
adheres to this policy.
    Decisions on transfer are made on a case-by-case basis, taking into 
account the particular circumstances of the transfer, the country, and 
the detainee concerned, as well as any assurances received from the 
country. If a case were to arise in which the assurances obtained from 
the receiving government were insufficient, the United States would not 
transfer a detainee. Circumstances have arisen in the past where DOD 
elected not to transfer detainees to their country of origin because of 
torture concerns.
    Question. What is Defense Department policy on ``ghost detainees?'' 
Are our armed forces assisting the CIA in any way with keeping secret 
prisoners?
    Answer. The Department of Defense (DOD) maintains accountability 
and oversight of detainees under its control. It is DOD policy to 
register all detainees under DOD control promptly, normally within 14 
days of capture. The ICRC is provided information on all DOD detainees 
(including ``capture card'' information and Internment Serial Numbers). 
We are aware that the ICRC compiles and tracks this information, as it 
deems appropriate.
    ICRC representatives have access to DOD theater internment 
facilities. DOD provides ICRC the opportunity to have access to all DOD 
detainees. In certain instances, ICRC access to detainees may be 
temporarily limited for reasons of imperative military necessity.
    If other government agencies use DOD facilities they are required 
to follow DOD policies.
    Question. How many detention facilities does the Department of 
Defense now operate in relation to the war on terrorism? Does the 
International Committee of the Red Cross have full access to every DOD 
detention facility?
    Answer. The Department of Defense (DOD) operates three theater 
internment facilities for the War on Terrorism. These facilities are 
located in Afghanistan at Bagram and Kandahar, and at Guantanamo Bay, 
Cuba. In Iraq, we operate theater internment facilities at Camp 
Cropper, Camp Bucca and Abu Ghraib. We also hold detainees at the Navy 
Brig in Charleston, South Carolina.
    DOD periodically holds individuals for short periods of time at 
locations in the vicinity or near the area of capture. These are not 
internment facilities, but short-term field site locations within the 
area of operations used for staging and awaiting transportation of 
detainees to theater internment facilities. They have been established 
to ensure the safety of both U.S. personnel and detainees during the 
often difficult operations involved with the movement of detainees 
after capture. As soon as practicable, subject to military necessity, 
detainees in Afghanistan are transferred from the forward field sites 
to the theater internment facilities.
    The Department of Defense maintains accountability and oversight of 
detainees under its control. It is DOD policy to register all detainees 
under DOD control promptly, normally within 14 days of capture. The 
ICRC is provided information on all DOD detainees (including ``capture 
card'' information and Internment Serial Numbers). We are aware that 
the ICRC compiles and tracks this information, as it deems appropriate.
    ICRC representatives have access to DOD theater internment 
facilities. DOD provides ICRC the opportunity to have access to all DOD 
detainees. In certain instances, ICRC access to detainees may be 
temporarily limited for reasons of imperative military necessity.

                           GUANTANAMO PRISON

    Question. The President's request includes $41.8 million to build a 
permanent detention facility at Guantanamo Bay, Cuba.
    Secretary Rumsfeld, does this mean that the Administration intends 
to keep prisoners at Guantanamo permanently?
    Answer. Construction of the new facility is important to our 
efforts to maintain this commitment to humane treatment, and to wage 
the war on terrorism effectively. The current facilities are temporary 
structures and are not well-suited for long term detention; the new 
facility will be based on U.S. prison standards and will allow 
detainees to eat and exercise together more safely.
    This does not imply that the Administration intends to keep 
detainees at this facility permanently. The DOD does not want to hold 
anyone any longer than necessary, but this effort recognizes that many 
detainees at GTMO will remain a threat for the foreseeable future.
    Question. Isn't building a permanent prison putting the cart before 
the horse? Major portions of the Administration's detention policies 
have been struck down by Federal courts. Why should Congress fund a 
permanent detention facility if we don't even know if the courts will 
strike down even more parts of the President's detention policies?
    Answer. DOD remains committed to treating GTMO detainees humanely, 
and, to the extent appropriate and consistent with military necessity, 
in a manner consistent with the principles of Geneva.
    Construction of the new facility is important to our efforts to 
maintain this commitment to humane treatment, and to wage the war on 
terrorism effectively. The current facilities are temporary structures 
and are not well-suited for long term detention; the new facility will 
be based on U.S. prison standards and will allow detainees to eat and 
exercise together more safely.
    With respect to waging the war on terrorism, this construction will 
free up personnel, who are needed elsewhere. DOD does not want to hold 
anyone any longer than necessary, but this effort recognizes that many 
detainees at GTMO will remain a threat for the foreseeable future.
    Question. New allegations of abuse of prisoners at Guantanamo are 
now coming to light. Won't this request for a permanent prison simply 
make the world more outraged at the Administration's detention 
policies? Why not make a clean break with these policies tainted by 
scandal, forego the permanent prison, and develop a new detention 
policy that passes legal and international scrutiny?
    Answer. DOD remains committed to treating GTMO detainees humanely 
and, to the extent appropriate and consistent with military necessity, 
in a manner consistent with the principles of Geneva.
    Construction of the new facility is important to our efforts to 
maintain this commitment to humane treatment, and to wage the war on 
terrorism effectively. The current facilities are temporary structures 
and are not well-suited for long term detention; the new facility will 
be based on U.S. prison standards and will allow detainees to eat and 
exercise together more safely.
    With respect to waging the war on terrorism, this construction will 
free up personnel, who are needed elsewhere. DOD does not want to hold 
anyone any longer than necessary, but this effort recognizes that many 
detainees at GTMO will remain a threat for the foreseeable future.
    Moreover, the Deputy Secretary of Defense's memorandum of January 
27, 2005, requested a review of all relevant directives, regulations, 
policies, and procedures relating to detention operations including 
interrogation operations, transfer of detainees, medical care of 
detainees and involvement of medical personnel, reporting potential 
violations of the Geneva conventions and other relevant obligations, 
and training of military and civilian interrogators, guards and 
contractors.

                         BUDGETING FOR THE WAR

    Question. Secretary Rumsfeld, when you came into office in 2001, 
one of your first changes to the Pentagon's budget was to move the 
funding for operations in the Balkans out of supplementals and build it 
into the regular defense budget. I supported that move because it was 
the fiscally responsible thing to do.
    If the United States and NATO are going to be in Afghanistan for 
the long term, why are those costs excluded from the regular budget 
request? Why is there such fierce resistance to making the same move 
for the cost of operations in Afghanistan? Why not also budget for the 
war in Iraq?
    Answer. DOD costs for operations in Afghanistan could not be 
estimated far enough ahead or precisely enough to be included in the 
President's regular annual budget for fiscal year 2005 nor for fiscal 
year 2006. The same is true for DOD costs for operations in Iraq.
    Question. In 2003, I offered an amendment to the defense 
appropriations bill that urged the President to budget for ongoing 
military operations in his fiscal year 2005 budget. That amendment got 
81 votes in the Senate. In 2004, I offered the same amendment for the 
fiscal year 2006 budget, and it received 89 votes. Why does the 
Administration continue to dismiss this commonsense advice to budget 
for the war, which is supported by such a large number of Senators on 
both sides of the aisle?
    Answer. DOD costs for these ongoing war-time operations could not 
be estimated far enough ahead or precisely enough to be included in the 
President's regular annual budget for fiscal year 2005 nor for fiscal 
year 2006.

                         STANDARDS FOR SUCCESS

    Question. For weeks, questions have been raised about how many 
Iraqi security forces are ready to take over for U.S. troops. Based 
upon the answers from Administration officials, the only thing I can 
gather is that the number is somewhere between zero and 136,000.
    What are the benchmarks or standards for success for training Iraqi 
security forces to take over for U.S. troops? How will you know when 
Iraqi police and soldiers are ready to take full responsibility for 
security in a particular city or region?
    Answer. There are three general categories of standards that Iraqi 
security forces must meet before they are considered ready to take over 
for U.S. forces. First, they must meet the institutional training 
standards for their respective basic and advanced training courses 
prior to graduation and assignment to operational forces. Essentially, 
they must demonstrate proficiency in the individual and low-level 
collective tasks one would find taught in any military basic training 
program or police academy: basic marksmanship squad-level tactics, 
basic law enforcement, etc. Secondly, they must demonstrate proficiency 
at the higher-level collective tasks required for the mission of their 
unit. For example, company and battalion-level maneuver, cordon and 
search of an urban area, citywide law enforcement, etc. Finally, the 
practical part of these standards is how well Iraqi forces fight. The 
pace of transition from U.S. forces to Iraqi security forces will be 
driven by the capability of the Iraqi forces, the level of insurgent 
activity, and the ability of the Iraqi government to provide essential 
services and infrastructure in the areas of security, governance, 
economic development, and communications. General Casey is developing a 
set of standards for these higher order collective tasks for each Iraqi 
security force component, as well as methods to regularly measure the 
Iraqi's progress in meeting those standards. Iraqi security forces are 
gaining valuable combat experience and continue to make progress toward 
taking the lead in the counterinsurgency fight. Our goal is to help 
this happen as soon as possible. Achievement of those higher level 
collective standards, combined with the level of insurgent activity and 
the effectiveness of the Iraqi security forces and local government are 
what will indicate whether other Iraqis are ready to assume full 
responsibility for security in a particular city or region, which is 
the ultimate standard.
    Question. How many Iraqi police and soldiers now meet those 
benchmarks or standards for success? How many more police and soldiers 
do you expect to meet that standard if the $5.7 billion you have 
requested for security training is appropriated?
    Answer. About 140,000 Iraqis have achieved the established 
standards for the institutional phase of their training and have 
graduated from their respective courses. Most forces, however, still 
lack the capacity to conduct and sustain independent counterinsurgency 
operations and therefore continue to develop their skills through on-
the-job training, mentoring and experience gained in actual operations. 
The key elements that need to be addressed with the ``post-graduate'' 
forces are: leadership, the establishment of properly manned, trained 
and capable headquarters, reversing absenteeism and revitalizing a 
warrior ethos committed to service to the nation.
    The additional $5.7 billion in this supplemental will allow LTG 
Petraeus and his command to complete the institutional training for an 
additional 130,000 Iraqis, but as with their predecessors, they will 
require additional mentoring and experience before they will be ready 
for sustained independent operations.
    Question. How close are we to turning over full responsibility for 
security in some cities, towns, or regions to Iraqis? Might that happen 
in a matter of weeks, of months, or is that goal still too far in the 
future? When is the Congress going to hear less about the acceleration 
of training, and more about the acceleration of responsibility?
    Answer. The Iraqi Security Forces continue to take on more 
responsibility for security within their country, especially since the 
January 2005 elections. MNF-I hopes to be able to turn full 
responsibility for security in some cites over to Iraqi security forces 
over the next several months. Cities in the far north and south will 
likely be the first to establish the conditions necessary for 
assumption of responsibility. MNF-I is developing ways to accelerate 
this transition to self-reliance, with getting the Iraqi Security 
Forces out in front as quickly as possible being General Casey's 
overarching strategy.
    Question. How many trained police and soldiers do you expect to 
have in the next six to twelve months if Congress appropriates the 
additional funds for Iraqi security forces?
    Answer. By August 1, 2005, we expect to have trained and equipped 
about 179,000 Iraqi security forces. The number of trained and equipped 
forces should grow to about 235,000 by March 1, 2006.
    Question. How many of the Iraqi police and troops that will be 
trained in the coming months be trained by the United States, and how 
many by NATO or other countries? Will the United States still be 
expected to pay for training carried out by NATO or other countries? If 
so, how much of the $5.7 billion request will be used to pay for 
training carried out by NATO or other countries?
    Answer. To date, the Jordan International Police Training Center, 
staffed with one-third United States and two-thirds non-U.S. trainers, 
has graduated over 12,500 police cadets. The Baghdad and regional 
police academies, predominately all U.S. staffed, have trained an 
additional 12,300. We expect that the percentage of U.S. trained to 
non-U.S. trained will grow slightly as additional regional academies 
open. A good planning figure for the future would be about 60 percent 
U.S. trained and 40 percent trained by international trainers in 
Jordan.
    Military training is being done largely by U.S. forces although 
some nations, such as Jordan, Egypt, Poland, UAE, the UK and Germany 
have conducted some small-scale training. There are no provisions in 
the Iraqi security forces portion of the fiscal year 2005 supplemental 
to cover costs associated with NATO's training mission in Iraq, 
although the United States is providing funds from other sources to 
NATO's Training Trust Fund as part of its member state requirements.

                            PLAN AFGHANISTAN

    Question. The President's budget request includes $773 million for 
expanding the current counter-drug program in Afghanistan. There is no 
doubt that drug production has become a very serious problem in 
Afghanistan, but Congress needs to know more about this program before 
signing off on a request for hundreds of millions of dollars.
    Right now, British forces are in charge of counter-drug operations 
in Afghanistan. Since the Administration is asking the U.S. taxpayer 
for $773 million for this new program, how much money will Britain, 
NATO, and other countries contribute for these expanded counter-drug 
programs?
    Answer. The Department of State/INL provided the following 
response.
    Although the United Kingdom plays the lead international role in 
delivering and coordinating counternarcotics assistance to Afghanistan, 
the Government of Afghanistan is in charge of counternarcotics 
operations in the country.
    The United States developed its current counternarcotics plan in 
close consultation with the United Kingdom. We have briefed and sought 
additional contributions to our efforts, especially in the area of 
alternative livelihoods from the G-8, European Union and many of 
Afghanistan's neighbors, among others. The U.S. government is in 
consultations with the British on next steps for increasing other 
donors' assistance on counternarcotics. The United Kingdom recently 
announced it would double its annual contribution to $100 million, with 
half of the contribution funding alternative development programs. The 
United Kingdom has also announced plans to assist the Afghans in 
establishing a counternarcotics trust fund into which other nations 
could pledge contributions, and hopes to raise $300 million through 
that fund this year. U.S. Department of State/INL has funded a U.N. 
Office of Drugs and Crime project to create and maintain a database of 
donor activities related to counternarcotics in order to better track 
contributions.
    The United States has led discussions on this issue in the North 
Atlantic Council, in the NATO-Russia Council, in NATO's Economic 
Committee, at the NATO Parliamentary Assembly, and in informal 
interactions with diplomats from Allied countries. We have also raised 
Afghan narcotics in multilateral fora, such as the G-8, the Paris Pact, 
the International Conference on Afghanistan, and the UNODC's Major 
Donors Meeting. These efforts are showing some success. A number of 
donors, including NATO Allies, have contributed to broader law 
enforcement, border security, criminal justice sector, alternative 
development, and demand-reduction programs. The proposed request, in 
fact, takes into account the contributions made by other donors for 
other aspects of a balanced counternarcotics/law enforcement effort.
    For example, G-8 countries other than the United Kingdom and United 
States, have pledged in excess of $350 million toward counternarcotics 
and related programs in Afghanistan. Specifically, Canada has pledged 
$84 million, France $32.5 million, Germany $37.6 million, Italy $36.8 
million, and Japan $70.7 million towards counternarcotics enforcement, 
alternative livelihoods, criminal justice, anti-corruption, as well as 
reconstruction, and vocational, drug-demand and capacity building 
training. Additionally, Russia reports that it has or will provide 
about $92.5 million in assistance for programs related to 
counternarcotics in Afghanistan, including donations to the Afghan 
National Army.
    Donor contributions to the UNODC for ongoing counternarcotics 
projects in Afghanistan, including alternative development, monitoring 
of opium production, drug demand reduction, verification of 
eradication, drug control and capacity building, interdiction, border 
control, and counternarcotics enforcement total $20 million from such 
contributors as Finland, Australia, Austria, Ireland, Netherlands, 
Norway, European Commission, Belgium, Germany, France, Italy, United 
Kingdom, Japan, and the U.N. Human Security Fund.
    The United States will continue to engage the NATO Allies regarding 
the narcotics problem in Afghanistan, stressing the need to increase 
and accelerate efforts to support the Afghan government in implementing 
its counternarcotics strategy. Also, like the United States, the United 
Kingdom, in its lead role, continues to press other donors, including 
NATO Allies, to contribute to the effort.
    Question. Will U.S. troops in Afghanistan be ordered to track down 
drug lords or to eradicate opium fields? Will any troops be taken off 
the hunt for Al Qaeda in order to carry out counter-drug missions? Will 
additional U.S. troops be sent to Afghanistan to carry out this 
mission?
    Answer. Our first priority in Afghanistan has been our combat 
mission to dismantle the terrorist organizations. The growing drug 
trade in Afghanistan poses a threat to our strategic interests in that 
country. CENTCOM knows drug production and trafficking is a grave 
threat to U.S. objectives in Afghanistan and the region. CENTCOM's role 
is critical in implementing and supporting a program put together by 
the Afghan government, our Allies, the State Department, DEA, and other 
U.S. agencies to effectively counter drug production and trafficking in 
that country. The centerpiece of that program is to develop an Afghan 
capacity to aggressively address the threat.
    In Afghanistan, U.S. troops are authorized to conduct military 
operations against drug trafficking targets when those military 
operations support our stability mission in Afghanistan. If our troops 
come across drugs or drug producing equipment during the conduct of 
other military operations, they are authorized to take action against 
these targets and report all drug related discoveries. There are no 
plans for U.S. troops to be involved in eradication.

                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy

                              IRAQI FORCES

    Question. The President and Secretary of State have said the 
training of Iraqi security forces is the key to bringing our troops 
home.
    What is the estimated total number of fully trained Iraqis needed 
in order for the Iraqi Security Forces to take over for our forces in 
Iraq, and how long will it take to get them trained?
    Answer. Current assessments indicate that the Iraqis will need 
about 180,000 conventional police and border officers, about 16,500 
specialized police officers, and a military force of about 100,000. 
Training of the border officers will take the longest, with 
institutional training not complete until August 2006. Training of the 
specialized police forces should be complete by August 2005, and most 
military forces will have completed their institutional training 
programs by November 2005. It is important to note, however, that 
completion of institutional training programs will not mean that forces 
have achieved full capability to accomplish their assigned missions. In 
all categories of forces, further mentoring as well as practical 
operational experience will be required before the forces can be 
considered fully capable.

                             AHMED CHALABI

    Question. According to press reports, Ahmed Chalabi may receive an 
important post in the new Iraqi Government. Does that concern you?
    Answer. No. The Iraqi political process is working itself out as 
established in the Transitional Administrative Law. It is now up to the 
Iraqis to choose their own leadership, and we are confident that we 
will be able to work with whomever they select.

                     ABUSE OF IRAQI WOMEN DETAINEES

    Question. During the hearing, I asked whether you were personally 
aware of, and whether the Pentagon is investigating, allegations of 
abuse of female detainees in Iraq, including at Abu Ghraib and other 
locations. You offered to follow-up on this question for me. As I 
mentioned, the Taguba report commented on the videotaping and 
photographing of naked male and female detainees. The Fay-Jones report 
described an incident in which a female detainee was shown lifting her 
shirt with both breasts exposed. But anecdotal evidence suggests that 
much worse has also occurred, including allegations of rape. The Army's 
response to one press inquiry, published in the American Prospect, 
seemed to suggest that investigators can only respond to the 
information volunteered to them by former detainees. This is not good 
enough. For cultural reasons and even for fear of honor killing, it is 
rare for Muslim women to report sexual assault. Meanwhile, insurgents 
in Iraq have cited the treatment of female detainees as a motivation 
for their abhorrent acts, including the kidnapping of CARE 
International's Margaret Hassan.
    Please inform me of any completed or ongoing investigation that 
will examine (a) any allegations of abuse, threats or assaults of a 
sexual nature, or rape by female prisoners; or (b) any such allegations 
reported by other individuals, such as soldiers or doctors.
    Answer. The Department of Defense investigates all allegations of 
abuse of detainees. There have been five investigations into 
allegations of sexual misconduct involving female detainees. The 
investigations are described below:
    (1) The Taguba Report included an incident where 3 soldiers took a 
female detainee to another area of Abu Ghraib. There was an allegation 
of sexual assault in which the detainee's blouse was removed and one 
soldier apparently kissed the detainee. An investigation concerning 
this incident was opened. The soldiers involved were assigned to the 
519th Military Intelligence Battalion, Fort Bragg, NC. Initially, the 
soldiers were charged with sexual assault, conspiracy, maltreatment of 
a prisoner and communicating a threat (for allegedly telling a female 
detainee that she would be left in the cell with a naked male 
detainee). The investigation was closed as a result of insufficient 
evidence to prove or disprove the allegations. However, the unit 
commander determined that the soldiers violated a unit policy that 
prohibits male soldiers from interviewing female detainees. The 
soldiers received non-judicial punishment under Article 15 of the 
Uniform Code of Military Justice (UCMJ) for violation of a lawful 
regulation or order, (Article 92, UCMJ). A Sergeant was reduced from 
the grade of E-5 to the grade of Specialist, E-4 and forfeited $500 of 
his pay and allowances for one month; a Specialist, was reduced from 
the grade of E-4 to the grade of Private First Class, E-3 (the 
reduction was suspended), and also forfeited $750 of his pay and 
allowances for one month; and a second Specialist was reduced from the 
grade of E-4 to the grade of Private First Class, E-3 and forfeited 
$500 of his pay and allowances for one month.
    (2) The Taguba Report includes a statement that a male MP Guard had 
sex with a female detainee. The witness statement references a video of 
Private Graner having sex with a female in the prison. After an 
extensive investigation into the allegations of abuse by Private Graner 
and others at the Abu Ghraib prison, there has been no evidence 
uncovered that establishes that Private Graner had sexual intercourse 
with female detainees.
    An allegation was substantiated against Private Graner, however, 
for photographing a female detainee exposing her breasts. On January 
10, 2005, Private Graner was convicted by a ten-member enlisted panel 
at a General Court-martial for numerous offenses stemming from his 
abuse of detainees while stationed as a guard at Abu Ghraib prison. 
Included in the charges was a multi-specification charge of Dereliction 
of Duty which included one specification alleging that ``[t]he accused 
photographed a female detainee exposing her breasts.'' Private Graner 
was found guilty of this specification. He was sentenced on all the 
charges to which he was found guilty and sentenced to reduction from 
the grade of Staff Sergeant, E-6, to the lowest enlisted grade, 
Private, E-1, to total forfeitures of pay and allowances, to 
confinement for 10 years, and to a Dishonorable Discharge.
    (3) A 75-year old Iraqi female alleged she was captured and 
detained for 10 days and claimed that she was robbed, sodomized, 
indecently assaulted and deprived of food and water at a remote 
location. The woman described her captors as American Coalition Forces 
but could not provide any further descriptions of the personnel 
allegedly involved. The investigation was initially closed for 
insufficient evidence, but has since been re-opened for further 
investigation after the identification of additional leads.
    (4) A female detainee alleged she was raped and knifed in the back 
by unknown U.S. personnel at the Baghdad Central Confinement Facility. 
These allegations were reported via a newspaper article in the Los 
Angeles Times. Following the publication of the article, CID opened an 
investigation and attempted to locate the alleged victim and her 
attorney. CID coordinated with the Iraqi Ministry of Justice and made 
numerous attempts to locate witnesses for information. After extensive 
efforts, CID closed the investigation as a result of insufficient 
evidence either to identify potential suspects or to prove or disprove 
the allegations.
    (5) There was an allegation of rape against unidentified members of 
an infantry battalion, reported in Playboy Magazine. The article 
claimed that soldiers admitted to various acts of violence against 
Iraqi civilian and captives including murder, rape, and assault. The 
CID investigated the incident and found the allegations to be 
unsubstantiated. The case closed.
    Question. Given the information contained in the Taguba and Fay-
Jones reports, and the anecdotal evidence of other, more aggressive 
sexual abuses, please describe any affirmative steps the Pentagon has 
taken to investigate allegations of rape and sexual assault of female 
detainees in Iraq.
    Answer. The Department of Defense investigates all allegations of 
abuse of detainees. There have been five investigations into 
allegations of sexual misconduct involving female detainees. The 
investigations are described below:
    (1) The Taguba Report included an incident where 3 soldiers took a 
female detainee to another area of Abu Ghraib. There was an allegation 
of sexual assault in which the detainee's blouse was removed and one 
soldier apparently kissed the detainee. An investigation concerning 
this incident was opened. The soldiers involved were assigned to the 
519th Military Intelligence Battalion, Fort Bragg, NC. Initially, the 
soldiers were charged with sexual assault, conspiracy, maltreatment of 
a prisoner and communicating a threat (for allegedly telling a female 
detainee that she would be left in the cell with a naked male 
detainee). The investigation was closed as a result of insufficient 
evidence to prove or disprove the allegations. However, the unit 
commander determined that the soldiers violated a unit policy that 
prohibits male soldiers from interviewing female detainees. The 
soldiers received non-judicial punishment under Article 15 of the 
Uniform Code of Military Justice (UCMJ) for violation of a lawful 
regulation or order, (Article 92, UCMJ). A Sergeant was reduced from 
the grade of E-5 to the grade of Specialist, E-4 and forfeited $500 of 
his pay and allowances for one month; a Specialist, was reduced from 
the grade of E-4 to the grade of Private First Class, E-3 (the 
reduction was suspended), and also forfeited $750 of his pay and 
allowances for one month; and a second Specialist was reduced from the 
grade of E-4 to the grade of Private First Class, E-3 and forfeited 
$500 of his pay and allowances for one month.
    (2) The Taguba Report includes a statement that a male MP Guard had 
sex with a female detainee. The witness statement references a video of 
Private Graner having sex with a female in the prison. After an 
extensive investigation into the allegations of abuse by Private Graner 
and others at the Abu Ghraib prison, there has been no evidence 
uncovered that establishes that Private Graner had sexual intercourse 
with female detainees.
    An allegation was substantiated against Private Graner, however, 
for photographing a female detainee exposing her breasts. On January 
10, 2005, Private Graner was convicted by a ten-member enlisted panel 
at a General Court-martial for numerous offenses stemming from his 
abuse of detainees while stationed as a guard at Abu Ghraib prison. 
Included in the charges was a multi-specification charge of Dereliction 
of Duty which included one specification alleging that ``[t]he accused 
photographed a female detainee exposing her breasts.'' Private Graner 
was found guilty of this specification. He was sentenced on all the 
charges to which he was found guilty and sentenced to reduction from 
the grade of Staff Sergeant, E-6, to the lowest enlisted grade, 
Private, E-1, to total forfeitures of pay and allowances, to 
confinement for 10 years, and to a Dishonorable Discharge.
    (3) A 75-year old Iraqi female alleged she was captured and 
detained for 10 days and claimed that she was robbed, sodomized, 
indecently assaulted and deprived of food and water at a remote 
location. The woman described her captors as American Coalition Forces 
but could not provide any further descriptions of the personnel 
allegedly involved. The investigation was initially closed for 
insufficient evidence, but has since been re-opened for further 
investigation after the identification of additional leads.
    (4) A female detainee alleged she was raped and knifed in the back 
by unknown U.S. personnel at the Baghdad Central Confinement Facility. 
These allegations were reported via a newspaper article in the Los 
Angeles Times. Following the publication of the article, CID opened an 
investigation and attempted to locate the alleged victim and her 
attorney. CID coordinated with the Iraqi Ministry of Justice and made 
numerous attempts to locate witnesses for information. After extensive 
efforts, CID closed the investigation as a result of insufficient 
evidence either to identify potential suspects or to prove or disprove 
the allegations.
    (5) There was an allegation of rape against unidentified members of 
an infantry battalion, reported in Playboy Magazine. The article 
claimed that soldiers admitted to various acts of violence against 
Iraqi civilian and captives including murder, rape, and assault. The 
CID investigated the incident and found the allegations to be 
unsubstantiated. The case closed.

                               RENDITION

    Question. What role does the Defense Department play in the 
extraordinary rendition process?
    Answer. It is appropriate for DOD to detain enemy combatants as 
long as hostilities are ongoing. Nonetheless, DOD has no interest in 
detaining enemy combatants longer than necessary. Accordingly, DOD 
conducts reviews of detainees to determine whether continued detention 
is warranted based on factors such as whether the detainee continues to 
pose a threat to the United States and its allies. Where continued 
detention is deemed no longer necessary, a detainee may be transferred 
to the control of another government for release. Furthermore, the 
United States also transfers detainees, under appropriate conditions, 
to the control of other governments for investigation and possible 
prosecution and continued detention when those governments are willing 
to accept responsibility for ensuring, consistent with their laws, that 
the detainees will not continue to pose a threat to the United States 
and its allies. Such governments can include the government of a 
detainee's home country or the government of a country other than the 
detainee?s home country that may have law enforcement or prosecution 
interest in the detainee.
    When DOD transfers detainees to the control of other governments, 
DOD does not ask or direct the receiving government to detain the 
individual on behalf of the United States. Accordingly, the detainees 
are no longer subject to the control of the United States once they are 
transferred.
    At the beginning of the Global War on Terrorism, DOD developed a 
policy for transfer of detainees to control of foreign governments. For 
the purposes of such a transfer, it is the policy of the United States, 
consistent with Article 3 of the Convention Against Torture and Other 
Cruel, Inhuman or Degrading Treatment or Punishment, not to repatriate 
or transfer individuals to other countries where it believes they will 
be tortured. Therefore, if a transfer is deemed appropriate, a process 
is undertaken, typically involving the Department of State, in which 
appropriate assurances regarding the detainee?s treatment are sought 
from the country to whom the transfer of the detainee is proposed.
    Decisions on transfer are made on a case-by-case basis, taking into 
account the particular circumstances of the transfer, the country, and 
the detainee concerned, as well as any assurances received from the 
country. If a case were to arise in which the assurances obtained from 
the receiving government were insufficient, the United States would not 
transfer the detainee. Circumstances have arisen in the past where DOD 
elected not to transfer detainees to their country of origin because of 
torture concerns.
    Question. Has the Defense Department transferred detainees to 
countries where they are likely to be tortured?
    Answer. For the purposes of such a transfer, it is the policy of 
the United States, consistent with Article 3 of the Convention Against 
Torture and Other Cruel, Inhumane or Degrading Treatment or Punishment, 
not to repatriate or transfer individuals to other countries where it 
believes they will be tortured. Therefore, if a transfer is deemed 
appropriate, a Government process is undertaken in which appropriate 
assurances regarding the detainee's treatment are sought from the 
country to which the transfer of the detainee is proposed.
    Decisions on transfer are made on a case-by-case basis, taking into 
account the particular circumstances of the transfer, the country, and 
the detainee concerned, as well as any assurances received from the 
country. If a case were to arise in which the assurances obtained from 
the receiving government were insufficient, the United States would not 
transfer the detainee. Circumstances have arisen in the past where the 
Department of Defense (DOD) elected not to transfer detainees to their 
country of origin because adequate assurances of humane treatment were 
not obtained.
    When DOD transfers detainees to the control of other governments, 
DOD does not ask or direct the receiving government to detain the 
individual on behalf of the United States. Accordingly, the detainees 
are no longer subject to the control of the United States once they are 
transferred.
    Question. Has the Defense Department assisted the CIA in 
extraordinary renditions of detainees to countries where they are 
likely to be tortured?
    Answer. It is the policy of the United States that an individual 
may not be transferred to the control of another country where the 
United States believes the individual will be tortured.
    The Department of Defense adheres to this policy. Should you have 
questions about Central Intelligence Agency actions, I respectfully 
request that you direct such questions to the Director of Central 
Intelligence.
    Question. Does the Defense Department have a policy on this issue?
    Answer. When DOD transfers detainees to the control of other 
governments, DOD does not ask or direct the receiving government to 
detain the individual on behalf of the United States. Accordingly, the 
detainees are no longer subject to the control of the United States 
once they are transferred.
    At the beginning of the Global War on Terrorism, DOD developed a 
policy for transfer of detainees to control of foreign governments. For 
the purposes of such a transfer, it is the policy of the United States, 
consistent with Article 3 of the Convention Against Torture and Other 
Cruel, Inhumane or Degrading Treatment or Punishment, not to repatriate 
or transfer individuals to other countries where it believes they will 
be tortured. Therefore, if a transfer is deemed appropriate, a process 
is undertaken, typically involving the Department of State, in which 
appropriate assurances regarding the detainee?s treatment are sought 
from the country to whom the transfer of the detainee is proposed.
    Decisions on transfer are made on a case-by-case basis, taking into 
account the particular circumstances of the transfer, the country, and 
the detainee concerned, as well as any assurances received from the 
country. If a case were to arise in which the assurances obtained from 
the receiving government were insufficient, the United States would not 
transfer the detainee. Circumstances have arisen in the past where DOD 
elected not to transfer detainees to their country of origin because of 
torture concerns.

                               GUANTANAMO

    Question. A February 13, 2005, article in the New York Daily News 
states that ``military lawyers at the Guantanamo Bay terrorist prison 
tried to stop inhumane interrogations, but were ignored by senior 
Pentagon officials.'' The article claims that JAG lawyers repeatedly 
objected to aggressive interrogations by an intelligence unit at Camp 
Delta, but their complaints went unanswered. Were you aware of JAG 
lawyers' complaints about inhumane interrogations at Guantanamo Bay, or 
any other facility conducting interrogations? If so, what action did 
you take?
    Answer. I do not recall being aware of objections by Judge Advocate 
Officers at Guantanamo Bay, Cuba.
    On December 29, 2004, the Commander, U.S. Southern Command 
appointed a General Officer to investigate the facts and circumstances 
surrounding allegations of detainee abuse contained in documents 
recently released under the Freedom of Information Act, including those 
released by the Federal Bureau of Investigation, and to conduct an 
inquiry into any credible allegation contained in those documents. This 
investigation will consider any such objections allegedly made by judge 
advocate officers at Guantanamo. This investigation is expected to be 
completed soon.

                              TORTURE MEMO

    Question. The April 4, 2003 Department of Defense Working Group 
Memo on interrogations quoted extensively from the infamous Office of 
Legal Counsel ``torture memo'' dated August 1, 2002. The Working Group 
memo adopted the legal argument that the President is not bound by the 
laws banning torture, and it presented a number of legal doctrines, 
including the principles of ``necessity'' and ``self-defense,'' for 
evading the prohibition on torture. After letting the torture memo 
stand as policy for two years, the Department of Justice issued a new 
memo interpreting the torture statute on December 30, 2004. In January, 
a Pentagon spokesman told the New York Daily News that the Department 
of Defense did not plan to revise the Working Group Memo. Please 
clarify for us all today: does the Working Group Memo represent current 
interrogation policy for the military?
    Answer. The Department of Justice (DOJ) released a memo in December 
2004 that defines U.S. legal standards under the Federal Torture 
statute. The DOJ memorandum of 2004 supersedes the August 2002 DOJ 
memorandum in its entirety.
    Interrogation practices used by the Department of Defense (DOD) 
comply with the DOJ memo, as well as with all U.S. laws and treaties.
    The Deputy Secretary of Defense's memorandum of January 27, 2005, 
requested a review of all relevant directives, regulations, policies 
and procedures to ensure current practice for treatment of detainees is 
consistent with the DOJ December 2004 memorandum.
    Simply stated, our policies regarding the treatment of detainees 
continue to require that all detainees will be treated humanely.

                                 ______
                                 
             Question Submitted by Senator Dianne Feinstein

    Question. It is impossible to determine the length of the conflict 
in which we are engaged, but, do we assume that we are expected to stay 
so long that we need to build permanent facilities? For example, in 
Afghanistan, the Department has requested $57 million to build a 
permanent fuel tank farm at Bagram Airfield. The current cost for 
temporary fuel baldders is approximately $2 million a year. Should I 
assume from this request that we intend to stay at Bagram over 28 
years?
    Answer. There are no plans at this time to establish permanent U.S. 
bases in Iraq. The infrastructure expenditures associated with the $5.7 
billion in this supplemental are tied to the establishment of 
facilities for the Iraqi military and police forces. USCENTCOM is, 
however, developing a Regional Basing plan that may include a base or 
bases in Afghanistan. Bagram is a potential long-term site for basing. 
The facilities at Bagram and the work already completed represent a 
significant up-front investment to leverage for possible long-term 
presence in Central Asia.
                                 ______
                                 
            Questions Submitted to General Richard B. Myers

               Question Submitted by Senator Thad Cochran

    Question. General Myers, the importance of a trained and viable 
Iraqi police force to support the progress made since the election 
cannot be overstated. One aspect of putting together a successful 
training program is the identification suitable candidates through 
effective screening. I understand that since October 2004, Lieutenant 
General Petraeus has been making use of the Civilian Police Assistance 
Training Team to screen Iraqi police candidates similar to how many of 
our police departments in the United States screen candidates. I have 
been informed this approach has reduced cadet training cost and reduced 
failure rates of Iraqi police cadets, however, there may be thought of 
not funding this program beyond February 2005. General Myers, would you 
provide this committee an update on this important function?
    Answer. MNSTC-I will continue to use the Civilian Police Assistance 
Training Team approach until the institutional training of Iraqi border 
enforcement forces is complete (about August 2006).

               Questions Submitted by Senator Ted Stevens

    Question. Does funding included in the supplemental request for 
Modularity include costs to re-design the Army National Guard?
    Answer. Yes, the supplemental includes $787 million to convert 
Guard brigades to the modular force.
    Question. Could you please explain how Commanders Emergency 
Response Program (CERP) funds are being used by the commanders in Iraq 
and Afghanistan?
    Answer. The CERP allows military commanders to respond to urgent 
humanitarian and reconstruction requirements, enhancing their ability 
to combat violent extremism and to support U.S. military operations. 
CERP builds trust and support at the local community level, provides 
needed jobs and continues to be an effective tool in Afghanistan and 
Iraq. Examples of projects include purchasing school supplies for 
students, providing electricity by connecting villages to the 
electrical grid, providing medical and dental supplies and equipment to 
local health clinics, and funding trash clean-up through local job 
programs.
    Question. Is industry able to keep pace with your needs for vehicle 
armoring? What are the major obstacles to continuing effort?
    Answer. Industry has been able to consistently adjust production to 
meet the Defense Department's armor requirements. The dynamic 
operational environment has impacted the Defense Department's 
requirements. The changing requirement has resulted in temporary lags 
while industry adjusts its production. We anticipate industry's 
capacity will continue to keep pace with future requirements and there 
are no major obstacles preventing the Defense Department from reaching 
its armor requirements.

                            COMMITTEE RECESS

    Chairman Cochran. We are going to have another hearing 
tomorrow morning at 10 o'clock, where we will hear from 
Secretary of State Condoleezza Rice. Also, the committee should 
be on notice that we should adopt our rules so they can be 
printed in the Congressional Record. And tomorrow, before the 
hearing--as the hearing begins, I'm going to ask that we 
approve our rules of procedure so Members will know the rules 
under which we are operating and we can be in compliance with 
the requirement that those rules be printed in the record.
    Until then, the committee will stand in recess.
    [Whereupon, at 5:05 p.m., Wednesday, February 16, the 
committee was recessed, to reconvene at 10 a.m., Thursday, 
February 17.]


       EMERGENCY SUPPLEMENTAL APPROPRIATIONS FOR FISCAL YEAR 2005

                              ----------                              


                      THURSDAY, FEBRUARY 17, 2005

                                       U.S. Senate,
                               Committee on Appropriations,
                                                    Washington, DC.
    The committee met at 10:05 a.m., in room SD-106, Dirksen 
Senate Office Building, Hon. Thad Cochran (chairman) presiding.
    Present: Senators Cochran, Stevens, Domenici, Bond, 
McConnell, Burns, Bennett, Craig, DeWine, Brownback, Allard, 
Byrd, Inouye, Leahy, Harkin, Mikulski, Kohl, Murray, Dorgan, 
and Feinstein.

               OPENING STATEMENT OF SENATOR THAD COCHRAN

    Chairman Cochran. The committee will please come to order.
    This morning our committee will continue full committee 
hearings on the President's fiscal year 2005 emergency 
supplemental budget request by hearing testimony from the 
distinguished Secretary of State, Condoleezza Rice.
    Slightly more than $5 billion of the President's request is 
for programs and accounts under the jurisdiction of the 
Department of State. I would like to follow the same procedure 
the committee followed yesterday and yield to Senator Byrd for 
an opening statement, and then recognize the Secretary for her 
testimony. We will then have a period for questions from 
members of the committee, with each Senator being recognized 
for 10 minutes. And I will recognize Senators in the order of 
their arrival, going from one side of the aisle to the other, 
alternating.
    But before proceeding, I would like to ask the committee to 
approve the committee rules for the 109th Congress so we may 
print those in the Record before March 1, in accordance with 
Senate Rule 26.2. The proposed rules are identical to those we 
have used for about 30 years. The Senate is a continuing body, 
we don't reorganize every 2 years, as the House does, but there 
is this requirement under the Senate Rules that rules of the 
committees be printed in the Congressional Record at the 
beginning of each Congress. And so, following the admonition of 
that rule, we need to adopt the rules.
    I've made available copies of the rules of the committee. 
The chairman and ranking minority member of the full committee 
are ex officio members of all subcommittees. And we have added 
one statement in connection with that custom. And in compliance 
with the Senate Rule 25.4, they may not vote in subcommittee, 
and their presence does not count toward constituting a quorum. 
Other than that, the rules are the same as they have been.
    Senator Byrd. Mr. Chairman, I so move that your proposal, 
as explained, be adopted.
    Chairman Cochran. Is there any objection or any discussion 
by members?
    [No response.]
    Chairman Cochran. All in favor, say aye.
    [A chorus of ayes.]
    Chairman Cochran. All opposed, no.
    [No response.]
    Chairman Cochran. The ayes have it, and the motion is 
agreed to. I thank the Senators and thank the distinguished 
Senator from West Virginia.
    Madam Secretary, we welcome you, and we appreciate your 
cooperation with our committee. We have some very important 
issues to resolve. We're trying to help control the growth of 
spending. We want to be sure that the funds being requested are 
those that are needed, that, consistent with the President's 
statement in the submission that this is to deal with 
emergencies, we would like to have the benefit of your advice 
about that issue and also the need for the funds that are being 
requested.
    Senator Byrd, I don't have anything further to say, but I 
recognize you for any comments you might have.

                  STATEMENT OF SENATOR ROBERT C. BYRD

    Senator Byrd. Thank you, Mr. Chairman. And thank you for 
the way that you are proceeding. Thank you for the 10-minute 
opening period.
    And thank you, Madam Secretary, and welcome. I look forward 
to hearing your testimony today.
    Let me say that I greatly admire you. I have watched you 
from afar, as it were, and this is the first time, I believe, 
that you will have appeared before this committee in this way. 
I just want to stress that I do have a genuine and very, very 
deep feeling of admiration for you. I think you're extremely 
well prepared, extremely able, and you have a kind of charm 
that disarms almost any adversary, perhaps, except this one.
    But we're in a position here where we have to ask 
adversarial questions. But I just want you to know that, 
although I did not vote for your confirmation, and for reasons 
that I stated on the floor; nevertheless, I have a very warm 
and high regard and great respect for you and for your 
background and for your accomplishments and your great 
achievements, and I look forward to working with you in the 
days and years ahead.
    I am very interested, Madam Secretary, in your thoughts, 
not only on the current situation in Iraq, but also on how you 
see events unfolding in other hotspots on the map, including 
Iran and Syria and North Korea. I won't mince words with you, I 
am profoundly worried that the President may have a hidden 
agenda for dealing with Iran and Syria. I am equally worried 
that the administration has no agenda to manage what appears to 
be a worsening nuclear crisis in North Korea.
    As I see it, Iraq is only one facet, albeit the bloodiest 
one, of a constellation of dangerous challenges facing the 
United States today. The ongoing strife in Iraq, and the 
billions of dollars that the President is seeking in this 
supplemental to continue the war in that country, give me 
little comfort that this administration has learned from its 
mistakes in Iraq. Today, we are hearing the same kind of tough 
talk from the administration on Iran and Syria that we heard on 
Iraq only a few years ago. Then the President and his advisors, 
including you, Secretary Rice, were carefully and deliberately 
building a case for war, a case, as we later learned, that was 
built on a house of cards.
    My concern is that the administration is leading us down 
the same path once again with respect to Iran and Syria, 
substituting saber-rattling for negotiations and, just maybe, 
allowing armed conflict to trump diplomacy.
    I noted with interest and a bit of concern that, during 
your first trip abroad as Secretary of State, you were quoted 
as saying that an attack on Iran was, quote, ``not on the 
agenda at this point,'' close quote. Well, the words, quote, 
``at this point,'' close quote, constitute a powerful caveat, 
particularly when coupled with the hard line that you and the 
President and the Vice President have espoused on Iran. Given 
the fact that the President has ruled out negotiations with 
Iran, but has not ruled out an attack, I must conclude that, 
when it comes to foreign policy, the only thing that the 
President is willing to take off the table is diplomacy. In the 
context of the war on Iraq, that is not a comforting thought.
    I raise these issues because the actions that the United 
States is taking in Iraq are being watched very carefully by 
Iraq's neighbors, including Iran and Syria, and by the larger 
international community, including North Korea. The State 
Department will play a key role in determining whether the 
United States is seen as a moderating influence in Iraq or as a 
growing irritant to the region.
    As I told Secretary Rumsfeld yesterday, I am absolutely 
committed to doing everything in my power to provide our troops 
with the resources that they need to do their jobs, but I'm 
also committed to making sure that the dollars we are 
allocating in this supplemental are being wisely spent for the 
purposes for which they are intended and not used to maneuver 
the United States into any further conflicts in the region.
    I thank you. Thank you, Mr. Chairman. I'll look forward to 
your testimony, Madam Secretary.
    Chairman Cochran. Madam Secretary, you may proceed.

STATEMENT OF HON. CONDOLEEZZA RICE, SECRETARY, 
            DEPARTMENT OF STATE
    Secretary Rice. Thank you very much.
    Mr. Chairman, I would like to enter my full statement for 
the record, but I will simply excerpt so that we might reserve 
as much time as possible for questions.
    Chairman Cochran. Without objection, your statement will be 
printed in full in the record.
    Secretary Rice. Thank you.
    [The statement follows:]

                 Prepared Statement of Condoleezza Rice

    Mr. Chairman and Members of the Committee, I welcome and appreciate 
this opportunity to support and describe the President's fiscal year 
2005 supplemental budget request as it relates to our diplomatic and 
assistance efforts.
    As you know, the bulk of the $82 billion supplemental request--some 
$75 billion--would go to the Department of Defense, and I know that you 
heard from Secretary Rumsfeld yesterday about this portion of the 
request. Today, I would like to address the $5.6 billion intended for 
urgent and essential international affairs activities and the $950 
million intended for multi-agency tsunami relief efforts. I wish to 
emphasize to the Committee that the entire request of $82 billion--for 
both military and international affairs activities--is for spending 
that we believe necessary to our national security.
    I also wish to underscore that the supplemental funds for 
international affairs activities that we are requesting are meant to 
cover costs we could not have anticipated in our fiscal year 2005 
budget request, or to help us seize new opportunities that have arisen 
to advance the cause of freedom and peace. This supplemental funding 
will ensure that we are able to respond speedily and effectively to the 
needs of our steadfast coalition partners in the War on Terror, to 
newly elected governments who seek our stabilizing assistance to move 
forward with reforms, and to the men, women and children swept up in 
humanitarian emergencies who turn to us in need.
    Mr. Chairman, during the grim decades of Cold War, there was strong 
bipartisan consensus behind our diplomatic efforts to win over the 
hearts and minds of men and women around the world and tip the great 
scales of power toward the forces of freedom.
    We and our partners in freedom are now engaged in another long-term 
struggle for hearts and minds against a new ideology of tyranny and 
terror, and it is a struggle that we must win. Defending and extending 
freedom in a post-September 11, 2001 world requires an equally 
energetic and effective application of our diplomatic assets, and 
equally broad-based and sustained congressional support.
    The funds we are requesting in the supplemental for our political, 
economic and humanitarian activities will help us rise to new 
challenges--and grasp new opportunities--to build a safer, better, 
freer world.
    Let me now highlight key elements of the supplemental request:
    The historic elections in Afghanistan and Iraq were dramatic 
victories for the human spirit. The Iraqi and Afghan peoples have 
bravely set their countries on a course to democracy. The supplemental 
funds we are seeking will help stabilize and accelerate their 
democratic progress.
    The $2.05 billion in international affairs funding we propose for 
Afghanistan would help widen the reach of the Karzai government, 
particularly in this critical time before the Spring parliamentary 
elections. The funds would go to high impact projects that could show 
results in the short term or complete programs funded in the prior 
supplemental request. The funds would also be used to address the 
serious narcotics situation, which threatens to undermine progress on 
democracy and security to date. And we are requesting funding for 
embassy operations and diplomatic security.
    We seek approximately $265 million for democracy and governance 
programs. These monies would assist the government in the upcoming 
parliamentary elections, train parliamentarians, and support activities 
to strengthen the rule of law, independent media, and civil society--
and we intend to put a special emphasis on efforts to increase the 
participation of women in public life.
    $796 million is for infrastructure rehabilitation and 
reconstruction to improve the lives of Afghan citizens. The monies 
would go to such activities as completing our commitment for roads, for 
building schools and health clinics and for expanding the work of our 
civil-military Provincial Reconstruction Teams.
    $509 million would be applied to a comprehensive counter narcotics 
effort, with initiatives in five areas: public information, law 
enforcement, alternative livelihoods, interdiction and eradication. 
About $233 million of this funding would be to replenish resources 
reprogrammed earlier in the fiscal year to fund urgent counter 
narcotics activity.
    $400 million is to accelerate efforts to provide assistance to the 
Afghan police so that they can increasingly assume responsibility for 
their nation's security.
    We must continue to build on the momentum of the October elections 
through our political engagement on the ground and so we also are 
seeking $60 million to fund increased operating and security costs of 
the U.S. embassy in Afghanistan.
    We are requesting $1.4 billion for Iraq in international operations 
funding.
    For our diplomatic efforts in Iraq, we are requesting $690 million 
to cover the extraordinary security and support costs of operating our 
embassy, and $658 million to construct a secure new embassy compound 
for our mission in Baghdad.
    The supplemental also would provide $24 million for security and 
other extraordinary operating costs for USAID, and $2.5 million would 
pay for the operating costs of USAID's office of Inspector General to 
audit relief and reconstruction expenditures.
    The supplemental request also would support key partners in 
freedom.
    We propose $150 million for Pakistan to improve its border security 
and increase interoperability with the United States and coalition 
forces. President Bush has made a 5-year, $3 billion assistance 
commitment to Pakistan, and the supplemental would help us meet the 
full $300 million pledged for fiscal year 2005 without having to gut 
other important ongoing programs.
    Jordan's political and material contributions remain critical to 
our efforts in Iraq. We seek $100 million in economic assistance to 
promote stabilizing growth in Jordan--through the expansion of job 
opportunities, support for educational reform and the improvement of 
government performance and services. We are also seeking $100 million 
in military assistance to bolster Jordan's counter-terrorism and border 
security efforts.
    All of our partners are critical to our success in Iraq and 
Afghanistan and to the prosecution of the global War on Terror. We seek 
$400 million for support and assistance to partners that face 
political, financial or military hardship as a result of having 
contributed to coalition efforts. Half of the funding would go to 
military and other security assistance for key partners with troops 
deployed in Iraq and Afghanistan to help them meet the extraordinary 
defense costs they have incurred as a result of coalition 
participation. The other half would go to a Global War on Terror 
Partners Fund for economic assistance, which we would apply on a 
discretionary basis to provide a timely infusion of aid that would 
strengthen the ability of our partners to contribute to democracy and 
security around the world.
    Mr. Chairman, we have seen how states where chaos, corruption and 
cruelty reign can pose threats to their neighbors, to their regions, 
and to the entire world. And so we are working to strengthen our 
capacity to address conditions in failed, failing and post-conflict 
states. President Bush has charged us at the State Department with 
coordinating our nation's post-conflict and stabilization efforts. We 
are asking for a little over $17 million in supplemental funding for 
start-up and personnel costs for the Department's new Office of the 
Coordinator for Reconstruction and Stabilization.
    Another objective of the supplemental is to help fund our 
compassionate response to humanitarian emergencies.
    We are proposing $701 million for tsunami relief and long-term 
recovery and reconstruction. This includes the initial $350 million 
pledge made by President Bush in December. $120 million would go to 
costs already incurred by USAID for its immediate response efforts. 
$581 million will be used to: rebuild critical infrastructure that re-
energizes economies and strengthens societies; accelerate the 
transition of victims back into their homes and communities; provide 
the option of debt deferral; promote good governance and political 
reconciliation, and; build disaster mitigation and early warning 
capabilities in the region.
    We also seek over $242 million to replenish funds spent and to meet 
emergency humanitarian needs, particularly those arising from the 
Darfur crisis in Sudan. The supplemental funds would provide clean 
water and sanitation, food, shelter and healthcare to some two million 
conflict-affected people in Darfur and Eastern Chad. In addition, we 
are seeking $100 million to support implementation of the North-South 
Comprehensive Peace Agreement in Sudan that was signed on January 9. 
When budget decisions were made for fiscal year 2005, the prospects for 
conclusion of the peace process were uncertain. Now, we must move 
quickly to help meet immediate unmet resource needs critical to 
ensuring that the peace agreement holds.
    Since we submitted our fiscal year 2005 budget request, the United 
States has strongly supported the establishment by the United Nations 
Security Council of peacekeeping missions for Sudan/Darfur, Cote 
d'Ivoire, Haiti and Burundi. The supplemental requests $780 million to 
pay assessed costs for these new missions. In addition, up to $55 
million of this request may be made available to support an assessed or 
voluntary U.S. contribution to a possible Sudan War Crimes tribunal.
    Supplemental funding not only can help us meet unanticipated needs 
in emergencies, it can also help us seize unexpected, and welcome, 
opportunities.
    The successful Palestinian elections of January 9, and the Israeli 
withdrawal plan for Gaza and parts of the West Bank, have created a new 
climate that is propitious for movement back to the Roadmap. Both Prime 
Minister Sharon and President Abbas called this a time of opportunity 
that must not be lost. President Bush has announced an additional $350 
million to help the Palestinians build infrastructure and sustain their 
reform process over the next two years, and $200 million is included in 
the supplemental.
    Supplemental funding can also help us seize opportunities to 
translate the recent victory for democracy in Ukraine into successful 
governance. The new pro-Western government has reached out to us and to 
others for assistance, and the $60 million in supplemental funds would 
go to helping Ukraine's new leaders demonstrate in advance of the March 
2006 parliamentary elections that their reform policies are improving 
the lives of ordinary citizens.
    Mr. Chairman, Members of the Committee, this time of global 
transformation calls for transformational diplomacy. More than ever in 
today's fast-evolving international environment, America's diplomats 
need to have the resources to act swiftly and effectively to avert 
dangers and seize opportunities to tip the global balance decisively 
toward freedom. The supplemental funds we are seeking will help us do 
just that.
    Thank you, Mr. Chairman. I would be pleased to answer any questions 
that you and the other distinguished Committee Members may have.

    Secretary Rice. Mr. Chairman, Senator Byrd, members of the 
committee, I welcome and appreciate this opportunity to support 
and describe the President's fiscal year 2005 supplemental 
budget request as it relates to our diplomatic efforts.
    Today, I would like to address the 4.6--five----
    The mike's not on? I think it's better. Thank you.
    Today, I would like to address the $5.6 billion intended 
for urgent and essential international affairs activities. This 
is spending that we believe is absolutely crucial to our 
national security. I also wish to underscore that the 
supplemental funds for international affairs activities that we 
are requesting are meant to cover costs we could not have 
anticipated in fiscal year 2005 in the budget request or to 
help us seize new opportunities that have arisen to advance the 
cause of freedom and peace since that time.
    This supplemental funding will ensure that we are able to 
respond speedily and effectively to the needs of our steadfast 
coalition partners in the war on terror, to newly elected 
governments who are seeking our stabilizing assistance to move 
forward with reforms, and to the men, women, and children, 
swept up in humanitarian emergencies, who have turned to us in 
need.
    Let me now highlight several key elements of the 
supplemental request.
    The historic elections in Afghanistan and Iraq were 
dramatic victories for the human spirit. The Iraqi and Afghan 
peoples have bravely set their countries on a course to 
democracy. The supplemental funds we are seeking will help 
stabilize and accelerate their democratic progress.
    The $2.2 billion in international affairs funding that we 
propose for Afghanistan would help to widen the reach of the 
Karzai government, particularly in this critical time before 
the spring parliamentary elections. The funds would go to high-
impact projects that could show results in the short term or 
complete programs funded in prior supplemental requests.
    We seek approximately $265 million for democracy and 
governance programs there. These monies would assist the 
government in the upcoming parliamentary elections, train 
parliamentarians, and support activities to strengthen the rule 
of law, independent media, and civil society. We intend to put 
a special emphasis on efforts to increase the participation of 
women in public life.
    $796 million is for infrastructure rehabilitation and 
reconstruction to improve the lives of Afghan citizens. This 
money would go to such activities as completing our commitment 
for roads, building schools and health clinics, and expanding 
the work of our civil/military provincial reconstruction teams 
as quickly as possible.
    $509 million would be applied to a comprehensive 
counternarcotics effort, with initiatives in five areas: public 
information, law enforcement, alternative livelihoods, 
interdiction, and eradication. About $233 million of this 
funding would be needed to replenish resources that were 
reprogrammed earlier so that we could begin to fund this urgent 
counternarcotics activity.
    And $400 million is to accelerate efforts to provide 
assistance to the Afghan police so that they can increasingly 
assume responsibility for their own nation's security.
    We are requesting also $60 million to fund increased 
operating and security costs of the U.S. Embassy in 
Afghanistan, given the security situation there.
    Members of the committee, we are also requesting $1.4 
billion for Iraq in international operations funding. For our 
diplomatic efforts in Iraq, we are requesting $690 million to 
cover the extraordinary security and support costs of our 
operating--of operating our Embassies, and $658 million to 
construct a secure new Embassy compound for our mission in 
Baghdad. These costs are directly related to the security and 
well-being of our men and women who are very much in danger's 
way in Baghdad.
    The supplemental request would also support key partners in 
freedom. We propose $150 million for Pakistan to improve its 
border security and increased interoperability with United 
States and coalition forces.
    Jordan, one of the front-line states in this war on 
terrorism, would receive $100 million in economic assistance to 
promote stabilizing growth there, and $100 million in military 
assistance to bolster Jordan's counterterrorism and border 
security efforts.
    All of our partners are critical to our success in Iraq and 
Afghanistan and to the prosecution of the global war on terror; 
therefore, we seek $400 million for support and assistance to 
partners that have faced financial and military hardship, as 
well as political hardship, as a result of having contributed 
to the coalition efforts. Half of that funding would go to 
military funding so that security assistance could be provided 
to key partners with troops deployed in Iraq and Afghanistan. 
The other half would go to the global war on terror partners 
funds for economic assistance, which could be applied in a 
timely way to strengthen our ability of our partners to 
contribute to democracy and security around the world.
    Mr. Chairman, we have seen how states where chaos and 
corruption and cruelty reign pose a threat to our neighbors, 
but also to us. President Bush has charged us, at the State 
Department, with coordinating our Nation's post-conflict and 
stabilization efforts. We are asking for a little over $17 
million in supplemental funding for startup and personnel costs 
for the Department's new Office of the Coordinator for 
Reconstruction and Stabilization.
    Another objective in this supplemental is to help our 
compassionate response to humanitarian emergencies. We are 
proposing $701 million for tsunami relief and long-term 
recovery and reconstruction programs in that devastated area.
    We seek, too, $242 million to replenish funds spent to meet 
the emergency humanitarian needs arising from the Darfur crisis 
in Sudan.
    Since we submitted our fiscal year 2005 budget request, the 
United States has strongly supported the establishment by the 
United Nations Security Council of peacekeeping missions for 
Sudan Darfur, Cote d'Ivoire, Haiti, and Burundi. This 
supplemental requests $780 million to pay the assessed costs 
for these new missions; these are missions that were not 
assessed at the time of the 2005 budget request. In addition, 
up to $55 million of this request may be available to support a 
voluntary contribution to a possible Sudan war crimes tribunal.
    Supplemental funding can help us not only to meet 
unanticipated needs in emergencies, but it can also help us to 
seize unexpected and welcome opportunities in a timely fashion. 
The successful Palestinian elections of January 9 and the 
Israeli withdrawal plan from the Gaza and parts of the West 
Bank have created a new climate that is propitious for movement 
back to the roadmap. Both Prime Minister Sharon and President 
Abbas have called this a time of opportunity. And President 
Bush has announced an additional $350 million to help the 
Palestinians build their infrastructure and sustain their 
reform process. $200 million of that is included in this 
supplemental.
    Supplemental funding can also help us to seize 
opportunities to translate the recent victory for democracy in 
Ukraine into successful governance. We seek $60 million in 
supplemental funding that would go to help Ukraine's new 
leaders, in advance of the March 2006 parliamentary elections, 
seize this opportunity to consolidate their gains.
    Mr. Chairman, members of the committee, this time of global 
transformation calls for transformational diplomacy. More than 
ever in today's fast-evolving international environment, 
America's diplomats need to have the resources to act swiftly 
and effectively to avert dangers and seize opportunities that 
allow us to tip the global balance of power toward freedom. The 
supplemental funding that we are seeking will help us to do 
just that.
    Thank you, Mr. Chairman, and I am pleased to answer any 
questions that you or the committee's members may have.
    Chairman Cochran. Thank you very much, Madam Secretary.
    We proceed with the assumption that the supplemental 
request is being submitted because accounts have been depleted 
that were unexpected, in terms of the pressure on those 
accounts and demands that could not have been known when the 
budget for this fiscal year was first submitted to the 
Congress. In that vein, because the war was already in 
progress, is the new global war on terror partners fund 
something that was created since the budget submission was made 
at the beginning of this fiscal year? And how will the $200 
million for peacekeeping operations be used in connection with 
the war on terror?
    Secretary Rice. Thank you, Mr. Chairman.
    Indeed, this is a fund that was envisioned and created 
after the 2005 budget supplemental request as we have seen the 
strain on partners, particularly, some of them, young 
democracies that, themselves, are just barely out of tyranny, 
who have put forces on the ground to try to support us, states 
that are trying to support our efforts, particularly in Iraq, 
but also in Afghanistan. The Poles, for instance, tell us that 
they have, in their efforts in Iraq, spent almost $500 million 
of their own resources. One might imagine that, for a country 
just barely out of the communist phase itself, this is an 
extraordinary expenditure of forces. They need help in terms of 
their own military sustainment and modernization, they need 
help in terms of their own economic sustainment.
    These are countries that came to the aid of democracy. They 
have taken some of the load off of our forces by being able to 
deploy to certain places. They have been an important part of 
the coalition. But we've noted that they operate under great 
strain, and these funds are meant to address that concern, and, 
in fact, was not even envisioned at the time of the 2005 budget 
submission.

                                  IRAQ

    Chairman Cochran. We also notice that some of the money 
that is being requested is for an Iraq security forces fund for 
training, equipping, and providing other forms of security 
assistance for Iraqi police, military, protective services, and 
border personnel. These are activities that sound like 
Department of Defense responsibilities. Why is it that the 
request is being made by the Department of State for funding 
for these activities?
    Secretary Rice. Well, most of the funding for security 
forces is, in fact, a part of the Defense Department 
supplemental under what Secretary--I believe that's correct--
yes--under what Secretary Rumsfeld will direct General Petreus 
to do.
    When it comes to Afghanistan, we have, still, the police 
training function in the State Department. Afghanistan and Iraq 
are a little bit different, in that in Iraq the security 
forces--there needs to be one plan for the use of police, 
border, army, all of security forces in rather urgent 
counterterrorism missions, and we felt that that needed to be 
an integrated plan under General Petreus. When it came to 
Afghan police functions, we're a little bit further along in 
the counterterrorism efforts there. Some of the training of the 
Afghan police is also associated with counternarcotics. So the 
Afghan police are associated with the State Department 
function, which has been the tradition, Senator. It's the Iraq 
case that is, in fact, different.

                              AFGHANISTAN

    Chairman Cochran. I see. And I also noticed that, in 
connection with international narcotics efforts in Afghanistan, 
you're asking for $89 million for leasing or purchasing 
aircraft and other equipment, vehicles, to carry out 
counternarcotics programs. Will the State Department actually 
be managing these activities? And to what extent do you foresee 
cooperation from local government officials to make that a 
successful program?
    Secretary Rice. We will, indeed, at the State Department, 
be managing these activities, Senator, and we have quite a lot 
of experience in that, having managed Plan Colombia and the 
Andean regional initiative on counternarcotics.
    The local government in Afghanistan has taken, now, I 
think, a very strong stand on counternarcotics. They've created 
a minister for the effort. President Karzai, actually, in his 
inaugural speech, devoted a whole section to the importance of 
dealing with the counternarcotics problem. The Afghans also are 
talking with us about the role of aerial spraying, versus hand 
eradication. There, we still have some work to do.
    But, on all elements of this program, we are in very close 
contact with them. They believe very strongly in this. And it 
has, Mr. Chairman, two important functions for us. One is, 
obviously one wants to get the product off the streets. It is 
principally going into Europe, and the Europeans are very 
interested in this. The British have just said that they will 
double their contribution on the counternarcotics section.
    But counternarcotics--or narcotics can also be an 
enormously destabilizing force to this young democracy. If you 
have drug lords who are occupying parts of territory, using 
their money to feed terrorism, using their money to put 
themselves in a good position politically--we do not want to 
repeat the situation that we had in Colombia a few years ago, 
where these drug lords, in effect, owned parts of the country. 
And so, the counternarcotics effort is directly related to 
stabilizing Afghanistan and permitting us to see this as a 
place that we've finished the job.

                             TSUNAMI RELIEF

    Chairman Cochran. My final question, before yielding to 
others for questions they may have, deals with the funds that 
are being requested for tsunami relief, reimbursement of 
accounts that were depleted in connection with our efforts to 
provide emergency relief for the victims of that horrible 
disaster. $700 million is being requested for a fund for 
recovery and reconstruction. Some of that would be rebuilding 
infrastructure--housing, roads, sanitation systems, and the 
like. And I assume this goes to the United States Agency for 
International Development (USAID) for response and relief 
efforts that they were providing. Is that correct? And what 
safeguards are we going to have in place to be sure that U.S. 
foreign assistance is free from local government mismanagement 
or corruption that might develop? I'm not suggesting that it 
will, but what safeguards do you see being put in place to make 
sure the funds are being spent for those purposes?
    Secretary Rice. The USAID, which will implement this, has a 
very extensive system--having operated in all kinds of parts of 
the world--a very extensive system of checks and of 
transparency mechanisms and of reporting--indeed, auditing--its 
activities. And I would expect that they would use that 
extensive system.
    We have good cooperation with the Indonesian Government, 
with the other governments in the region, where this money will 
be spent. And so, the combination of USAID's normal processes 
for doing this, which we really have to do in practically every 
part of the world, and the cooperation that we have with the 
government, I think, will help us to ensure that the money is 
well spent.
    And it is correct, Mr. Chairman, that this funding is both 
to reimburse some costs from accounts that were used so we 
could have an emergency response, as well as, now, this 
immediate need to start on the reconstruction effort.
    Chairman Cochran. Okay. Thank you.
    Senator Byrd.
    Senator Byrd. Thank you, Mr. Chairman.

                                 SYRIA

    Madam Secretary, what can you tell us about the suspicions 
of Syrian involvement in the assassination of the former 
Lebanese Prime Minister? Do you believe that the Syrians played 
an active role in the bombing?
    Secretary Rice. Thank you, Senator.
    I don't think we know who was responsible, directly, for 
the bombing. And we've been very careful not to accuse anyone 
of this bombing, but we have said that there needs to be a very 
thorough investigation of it.
    The Syrian link is that, because Syrian forces are deployed 
in Lebanon, because Syria has been, in a sense, a shield for 
terrorist activities in southern Lebanon, both against, by the 
way, the Israeli-Palestinian peace and against Lebanon itself, 
we believe that Damascus bears some responsibility for the 
overall conditions in Lebanon, and that it ought to respond to 
Resolution 1559, which calls for its withdrawal. The Syrians 
need to allow Lebanese elections to take place without foreign 
interference, and to stop interfering in a way that is 
destabilizing.
    But as to complicity in the bombing, I think we need to 
wait for the investigation.
    Senator Byrd. Madam Secretary, The Wall Street Journal 
yesterday ran an editorial calling for military strikes against 
Syria. Does the administration have any plans for attacks 
against Syria, either because of the assassination in Lebanon 
or for its supposed hand in the Iraqi insurgency?
    Secretary Rice. Senator Byrd, as I'm sure you will 
understand, the President always reserves his options. However, 
in this case of Syria, we believe that the concerted 
international pressure of the international community can and 
should move the Syrians to act, and to act in a way that is in 
accordance with the Resolution 1559 that has already been 
passed in the Security Council.
    We have also directly gone to the Syrians to say--Assistant 
Secretary Bill Burns was just there--to say to them that we do 
need Syria to deal with the insurgents, or the support for the 
insurgents, that is coming out of Damascus. But we believe we 
have many, many diplomatic tools at our disposal here. And, 
although the President always keeps his options open, we are 
employing those tools, and, I think, employing them very well. 
The recall of the Ambassador was one. The Syrian Accountability 
Act, which we appreciate being able to use as a tool, we've 
already employed part of that, and we may look at other such 
measures.

                            IRAQ/SYRIA/IRAN

    Senator Byrd. Madam Secretary, the Congress has passed two 
use-of-force resolutions, one almost immediately after the 
September 11 attacks, and one that foolishly handed to the 
President and to his successors, whether they be Democrats or 
Republicans, the open-ended authority to attack and occupy 
Iraq. Is it your opinion that the administration can use those 
resolutions to attack Syria or Iran?
    Secretary Rice. Senator, I would not want to get into a 
discussion of constitutional priorities and--or prerogatives, 
because you're an expert at that. And so, I'm not going to go 
down that road. But I believe it is very clear to us that the 
resolutions that were passed had a rather specific--the 
resolution on Iraq that was passed had a specific character, 
and it related to the regime of Saddam Hussein.
    Senator Byrd. Yes. I'm concerned, however, that the--I 
believe it was September 14, 2001, resolution might be used by 
the administration as a premise to attack Syria and/or Iran. Do 
you care to express your opinion on this?
    Secretary Rice. Senator, I do not want to express an 
opinion, but I do want the body to understand that the 
President understands the coequal role of the Senate in these 
decisions, and would do nothing to violate that understanding 
and that trust between the executive branch and the legislative 
branch.
    We are in the war on terror. I think we all understood that 
we entered a different kind of war when we entered the war on 
terror. But the President and all of us understand fully the 
responsibilities and the prerogatives of the Senate in these 
matters, and I am quite certain that the President would do 
nothing to violate that trust.

                             IRAN AND SYRIA

    Senator Byrd. Madam Secretary, I don't agree with you on 
everything you said with respect to the President, but let that 
be for some other time.
    Do you believe that the President would need additional 
authorization from the Congress in the event of a U.S. attack 
on Iran and/or on Syria?
    Secretary Rice. Senator Byrd, I don't want to speculate on 
what the President might or might not need, but I just want to 
repeat that we all understand fully the prerogatives of this 
body when it comes to matters of war and peace. The President 
sought, before the decision to take down the regime of Saddam 
Hussein, a resolution in this body, and I think that that 
speaks to the President's understanding of the relationship 
between the executive branch and the Senate on these matters.

                                  IRAQ

    Senator Byrd. Well, that relationship has as its source the 
Constitution of the United States, by which we are all bound, 
and under which, if this Nation goes to war, as it did with 
Iraq, there should be a declaration or authorization by the 
U.S. Congress. Now, I'm concerned that the same situation that 
obtained prior to the entry of the war with Iraq might, in some 
respects, lend itself to a repeat in the case of Syria and/or 
Iran. And we'll have to talk about that at another time.
    As to the $200 million, which Senator Cochran referred to, 
the administration has requested $200 million for a new account 
entitled global war on terror partners fund. Well, according to 
the President's request, this $200 million could be spent, 
notwithstanding any other provision of law, for any country on 
Earth, for any purpose under the sun, and it would not have to 
report to Congress before spending the money.
    What I would be particularly interested in would be--is to 
learn how the administration feels--in particular, how you 
might see it--that the Congress should turn over $200 million 
of the taxpayers' money with no constraints on how it might be 
used. Why does the administration believe that the 
Appropriations Committee, or Congress, should have no say in 
how this $200 million foreign aid program should be spent? Is 
this not an assault on the congressional power of the purse?
    Finally, what does it say about the state of our relations 
with all of these countries of the coalition of the willing, 
when, 2 years into the war against Iraq, the United States has 
to create a new foreign aid program to repay these countries 
for their support? When are we going to reach the point that 
our allies will spend their own money to join our troops in the 
field, instead of having the U.S. taxpayers subsidize these 
foreign troops?
    Would you react to what I've just said?
    Secretary Rice. Certainly, Senator Byrd.
    First of all, on the support funding for our coalition 
partners, there are many of our coalition partners who are, of 
course, footing the entire bill themselves--the British, the 
Australians, the Italians, and so on. And, in fact, these 
coalition partners that we propose to be able to help, now some 
2 years into their effort, have footed the bill on their own, 
as--for instance, the Poles, who, as I said, told me the other 
day, that they've spent almost $500 million on their efforts in 
Iraq. And $500 million is a lot money, particularly for a small 
economy, or a small country like Poland, just barely, itself, 
out of the clutches of communism. This----
    Senator Byrd. Madam Secretary, forgive me for interrupting. 
My time is up. But would you just answer this final question? 
Why should Congress not have some limitations on this? It is 
the taxpayers' money. Why should we just have a fund out there 
that the State Department or the administration can use, as it 
will, without any approval by Congress?
    Secretary Rice. I understand, Senator. We need to be able 
to respond in a way that goes directly to the problem at hand, 
at any given time, in a way that is quick and that is 
responsive to the needs. We know that these are places that 
have significant economic difficulty because of what they have 
been willing to help us and to do. And we would propose to use 
the funding simply to respond as quickly as possible, as 
flexibly as possible, to states that need this funding.
    I can say, without any fear of contradiction, Senator, we 
would consult fully with the Congress about how these funds 
were being used so that the Congress has a role to play in the 
way that this is being disbursed. I would expect that there 
would be consultation with the Congress on this. But this is to 
recognize that, in the time between now and the 2006 budget, 
there are unanticipated, unforeseen circumstances that are 
bound to arise. If we have learned anything over this last 
couple of years, 3 years, in fighting the war on terrorism, it 
is that you cannot predict what is needed at any given time. 
And that's what this is meant to respond to, not to try to get 
around congressional responsibility or oversight.
    Senator Byrd. Thank you, Madam Secretary.
    Mr. Chairman, my time is up, but I will simply say that I 
cannot support this item unless there are some limitations on 
it, unless Congress can exercise its power over the purse, as 
the Constitution provides.
    Chairman Cochran. Senator Stevens.
    Senator Stevens. Thank you.
    Secretary Rice, I think that your recent trip to Europe had 
fantastic results. And you are now, as you were in the academic 
community, a role model for young women, not only in this 
country, but throughout the world. We thank you very much for 
taking on that role, and I know you will carry it, as you have 
in the past, in just a great manner. We sincerely are proud of 
what you are doing, at least this Senator is.
    Now, I have some questions to follow up on what Senator 
Byrd was saying. Is there a list of these partners that these 
funds might go to? Do we know who are the global partners?
    Secretary Rice. Senator, we do not have a list, although I 
am quite certain that if you wanted me to give you some 
examples of countries that we might expect to be part of this 
partners list, I could do it. The real danger, of course, is 
then I create a list, and I'd rather not do that. I think 
there's----
    Senator Stevens. I realized that as I asked, but, at the 
same time, we have traveled, many of us, around the world, we 
have met with the partners, those who are really providing 
assistance, in one way or another, and, for many, in accordance 
with their annual budget, they are contributing considerably. I 
understand the need for the fund, but I'm not sure that the 
fund is in connection with their continued assistance or for 
their past assistance.
    Secretary Rice. In these cases, I think you're talking 
about people who intend to try to continue to assist us. It's 
no surprise to people on the committee that the strains on some 
of these countries have become such that it is hard for them to 
imagine a continuing presence, and we would like to be able to 
help. We have small allies in--just to mention some regions--in 
central Europe, in central Asia, in Central America--small 
states that have helped us enormously, and have done it on 
their own nickel. It would be terrific to be able to help them, 
going forward, so that they can continue that contribution.
    And I want to note, again, that it's not always foreseeable 
who will need a little help to be able to help us. When we look 
at the tremendous costs that we incur when our forces are on 
the ground or when we're using our own people, it is really 
considerably less expensive, in many cases, to use the forces 
or the personnel of some other country to do tasks that 
Americans then don't have to do. And we'd like to be able to 
use this funding in that way--again, in full consultation with 
Congress. But the reason that things are not named here is, 
it's sometimes hard to foresee them in advance.

                          GLOBAL WAR ON TERROR

    Senator Stevens. Well, we have financed, through the 
Department of Defense, considerable aid for some of them, in 
terms of transportation and equipment and supplies and 
uniforms. There's sort of a hope that you'll let us have some 
idea of what kind of help this is.
    I understand some of them. The former Soviet satellites--
they've sent assistance, they have been partners. And that's 
strained their economy. Now, maybe the need a foreign aid of a 
different type. But I think we're stepping into a new era here, 
and we should have some way to keep track of that type of 
assistance.
    There are two funds here--one is the peacekeeping 
operations, the other is the global war on terror partners 
funds--$200 million in the latter, $210 million in the former. 
Tell us the different between them, will you?
    Secretary Rice. The funding, Senator, that is related to 
global--or to peacekeeping relates, really, to people who have 
forces on the ground. And we would expect that these would be 
principally to support military and potentially police and 
other kinds of activities that are related to security.
    Senator Stevens. Why isn't that in the defense budget?
    Secretary Rice. Senator, there is some longer-term support. 
These would be rather quicker infusions of funding. The 
President, for instance, talked to the Poles about some help 
that they might need on modernization of their military forces 
in a rather rapid way. They've drawn down funds for that, and 
for rather rapid use of this funding to help them with those 
tasks.
    When it comes to the other fund, we envision that those 
would not have to be states that have troops on the ground, but 
might be--in Iraq or in Afghanistan--but might be helping us in 
other ways in the global war on terror, and might need--if 
they're using their own resources, might need help--for 
instance, let me give you an example--border support. We've 
heard from some small states that they're simply not capable of 
dealing with some of the things that we've asked them to do, in 
terms of security on their borders. We might be able to help 
them through this additional fund even if they don't have 
troops on the ground.
    So it's all directly related to helping others to help us 
in the global war on terror. It's not an issue of paying them 
back for what they've already done. It really is to enhance 
their capability to keep going in ways that take the pressure 
off of American forces, to take the pressure off of American 
personnel, that enhance their capabilities in a very timely 
fashion, sometimes within months--weeks or a month, rather than 
over a long budget cycle, to be able to help us.
    Senator Stevens. Well, there's $2 billion in the 
supplemental for the Department of Defense for the same purpose 
of the peacekeeping operations, and I think what some of us 
think that there may be a redundancy here. I can understand 
that the administration wants a fund to help, but this is $2.2 
billion at a time when we're trying to find money for other 
things. I really think that we have to, sort of, ask again how 
we're going to coordinate these funds to prevent assisting the 
same people for the same thing.
    Secretary Rice. I agree completely, Senator, and we are 
very coordinated on what we are doing for our various partners. 
It's something that is usually done at the level of at least 
deputies, but sometimes principals in the National Security 
Council (NSC) system. So I don't think you have to worry about 
redundancy.
    The ability to use certain kinds of funding out of State 
Department allows us to fund certain kinds of programs that we 
cannot fund under Defense authorization. And so, we do need 
funding in both places.
    Senator Stevens. Thank you.
    Just to comment upon what my good friend from West Virginia 
was talking about, about the presidential powers--we are good 
friends--I just want to state, for the record, that I believe 
the resolution we passed after the 9/11 tragedy gave the 
President the power to use our forces to go after the al Qaeda 
wherever they are found, and to use whatever force that's 
necessary to destroy them. I also am mindful of the Marine 
hymn, ``From the Halls of Montezuma to the Shores of Tripoli.''
    And I remember Lebanon, when President Eisenhower sent 
forces into Lebanon. And I remember Korea, when President 
Truman sent forces there. And I remember Vietnam, when 
President Johnson sent forces there. I want to state, for the 
record, if Presidents believe they have to take action, as 
Commander-in-Chief, to protect the interests of this Nation, 
the War Powers Act confirms that. Those Presidents were right 
in exercising that power. It does put into law some checks on 
the use of that power, an after-the-event category of checks.
    But I do hope that the President continues, and you 
continue, to let the world know we're still after the al Qaeda 
and we're still after terrorism on a global basis. And I would 
much prefer to see that terrorism put down abroad than to have 
us deal with its effects here.
    Thank you very much.
    Chairman Cochran. Thank you, Senator.
    Senator Leahy.
    Senator Leahy. Thank you very much.
    Senator Byrd is right, we gave unprecedented powers to the 
administration. I've been here 30 years. I've never known any 
administration, Republican or Democrat, when the Congress has 
just said, ``Here, here's a blank check, money urgently 
needed,'' and so forth. It turned out the money wasn't that 
urgently needed. A lot of it still hasn't been spent. And now 
we hear of money going missing or wasted.
    I think flexibility is one thing, but slush fund is 
another. The administration has the responsibility to say where 
the money went.

                       IRAQ GLOBAL WAR ON TERROR

    But let's talk about Iraq. We went to war in Iraq for a lot 
of reasons that turned out not to be valid. One reason we were 
given was we were doing this to stop terrorism. Al Qaeda was in 
Afghanistan, but we went to war in Iraq to stop terrorism. The 
Vice President repeatedly tried to link Saddam Hussein with 9/
11. The President, and I applaud him for finally saying no, it 
wasn't linked. Even after he said that, the Vice President 
continued to say it.
    I was reading, in the Washington Post today, an article 
entitled ``War Helps Recruit Terrorists, Hill Told.'' It quotes 
administration officials saying that Islamic extremists are 
using the Iraqi conflict to fuel Islamic resentment against the 
West and recruit new terrorists to attack Americans. Many 
people, on both sides of the aisle, predicted this might happen 
but they were ignored by top White House officials and Pentagon 
officials.
    The administration planned for a very different result. 
Again, we were told, by one of the highest ranking 
administration officials, that we'd be welcomed as liberators 
in Baghdad, this Paris after World War II scenario.
    If this is happening, does it surprise you that the 
administration keeps saying this war is helping to defeat 
terrorism, when we're finding this has become a recruiting and 
a training, and an operational base for al Qaeda and others?
    Secretary Rice. Senator, this is a matter of timeframe, I 
believe, and I do think we have to understand how we defeat 
terrorism in the short term and how we defeat it in the long 
run. It is not surprising to me that, since we finally decided 
to take on the terrorist threat, rather than to let it simply 
be there in an insidious fashion in the way that it was in the 
1990s, that----
    Senator Leahy. Well----
    Secretary Rice [continuing]. They are trying to mobilize 
themselves.
    Senator Leahy [continuing]. Madam Secretary, if I might, we 
were going after the terrorists in Afghanistan even before we 
announced the war plans in Iraq. As has now come out in the 
press, we were pulling some of our best troops, some of our 
best special operations people out of Afghanistan, moving them 
into Iraq even before there was congressional authorization to 
go there, and al Qaeda and Osama bin Laden were still in 
Afghanistan. Wouldn't have made more sense to go and clean up 
that mess first?
    Secretary Rice. Senator, I don't believe that that would 
have given us a long-term solution to the war on terror. I 
understand that people view this differently. But simply 
defeating al Qaeda, taking away their operating bases in 
Afghanistan, is not going to defeat Islamic extremism. The only 
thing that's going to defeat Islamic extremism is to improve 
the chances in the Middle East that a form of moderate Islam 
will emerge in countries like Iraq, in addition to places like 
Afghanistan; is to have allies in the war on terrorism in the 
heart of the Arab world and to have a fundamentally different 
kind of Middle East than we have. And we're not going to get a 
fundamentally different kind of Middle East with Saddam 
Hussein's Iraq in the middle of it who had an unbreakable link 
with weapons of mass destruction, a person who had attacked his 
neighbors in the past, who did harbor terrorists, and who did 
pay $25,000 to suicide bombers in the Palestinian territories.
    And so, I don't think that the answer to the war on 
terrorism, or to winning the war on terrorism, was to simply 
find Osama bin Laden, break up the al Qaeda network, and take 
them out of Afghanistan. This----
    Senator Leahy. Well----
    Secretary Rice [continuing]. Requires a much broader 
strategy. And the emergence of an Iraq that is moderate and 
eventually democratic will be a fundamental pillar in a 
different kind of Middle East, and that's the only way that you 
defeat terrorism over the----
    Senator Leahy. Well, we'll----
    Secretary Rice [continuing]. Long run.
    Senator Leahy [continuing]. We'll see how moderate and 
democratic it is. I mean, I agreed with the President's 
decision to go forward with the elections at the time he did. 
But we also have a whole lot of people who are closely allied 
with Iran now.

                                  IRAN

    Iran is part of the picture. And the administration's 
policy on that--it's a bit like that old Johnny Cash song, you 
know, ``I've Been Everywhere.'' The President says, and I'm 
quoting him, ``We're relying on others because we've sanctioned 
ourselves out of influence with Iran.'' Then the Vice President 
starts talking about the possibility of an Israeli attack. In 
Berlin, you declared that an attack in Iran is imply not on the 
agenda. Last, but not least, a senior administration official 
states, ``Sometimes a mixed message is the message you're 
trying to send.'' I think the only thing more dangerous than no 
message is a mixed message when you have a country that's 
developing nuclear weapons, when it's a state sponsor of 
terrorism, and involved in meddling in Iraq. Look how the world 
was on edge just yesterday when there was an explosion near an 
Iranian nuclear reactor.
    If we don't have a policy, doesn't that just strengthen the 
hands of the Iranian hardliners? I understand the 
administration has attempted, since 2001, to formulate a 
Presidential directive on Iran. If Iran is so important, and I 
believe it is, why can't we come to a decision on something as 
important as this?
    Secretary Rice. Senator, we have come to a decision about 
how to deal with Iran. We don't have Presidential directives on 
every country in the world. We don't have a Presidential 
directive on Russia, for instance.
    Senator Leahy. Do we have one on North Korea?
    Secretary Rice. I probably shouldn't----
    Senator Leahy. That was rhetorical. But when you put, in 
Presidential speeches, ``the axis of evil'' and all, and you 
raise them up to that level, and they are nuclear powers and 
were discussed as threats, I would think you would have 
Presidential directives. I don't care if we have one for 
Madagascar.
    Secretary Rice. Right.
    Senator Leahy. But I sure would think we would have one on 
Iran.
    Secretary Rice. We have a policy, Senator. My only point is 
that we don't have Presidential directives on every important 
relationship or country in the world. On Iran, we have a very 
clear view that the Iranian regime is out of step with the 
developments in the Middle East that we wish to see emerge. It 
is a regime that, both in terms of its internal and external 
behavior, is out of step. And so, what we have tried to do is 
to work with others to mitigate the effects of Iranian bad 
behavior, whether it is Iranian bad behavior on the nuclear 
side, where we are working with the IAEA, where we're working 
with the Russians, who have come to the decision now that they 
will demand a fuel take back in addition--or if they're going 
to go forward with civilian nuclear power development in Iran. 
That's a very big step from where the Russians were 2 years 
ago.
    We work with the Europeans. It is true that these are 
negotiations between the Europeans and Iran, but it should not 
be understood that we do not have close relationships with the 
Europeans on exactly what they're doing there. We do----
    Senator Leahy. No, we don't. And we should discuss this 
further.

                                 SUDAN

    Let me ask you one other question, because time is limited, 
and I will submit a number of questions, Mr. Chairman, for the 
record. But you've asked for authority to spend money on an ad 
hoc tribunal for Sudan. I sent you a letter on this a couple of 
weeks ago--you've been traveling, and you haven't had a chance 
to respond. But here's my understanding. Under current law, the 
United States is prohibited from spending any money on the 
International Criminal Court, which is perfectly capable of 
handling these cases. Instead, you want to set up a new 
tribunal, which will cost $530 million over the next 5 years. 
Here is what your Ambassador-at-large for War Crimes said about 
ad hoc tribunals in Rwanda, ``The professionalism of some of 
the personnel has been called into question''--lacked 
efficiencies, too slow, and all.
    Now, we've got a tribunal at The Hague already. Other than 
the fact that the Sudanese victims of violence haven't even 
been asked what they'd like. They would say, ``Let's go to the 
court that's already set up.'' Other than trying to make some 
geopolitical statement of undermining a court that's working, 
why, in heaven's name, not give these victims a chance to have 
cases heard against those who committed, basically, genocide 
against them in a court that's up and running?
    Secretary Rice. Well, we believe very strongly in the need 
for accountability of those who have committed these crimes. We 
do not believe that people who are not party--countries that 
are not party to the ICC should be held to an unaccountable, 
potentially politically motivated prosecution. That's the 
reason we are not a part of the----
    Senator Leahy. Yeah, but we're not doing anything.
    Chairman Cochran. The Senator's time has expired.
    Senator Leahy. I'll follow up later. And please answer my 
letter on that.
    Secretary Rice. I certainly will, Senator. I----
    Chairman Cochran. Senator----
    Secretary Rice [continuing]. Will go back and find it.
    Chairman Cochran [continuing]. Senator Allard.
    Senator Allard. Thank you, Mr. Chairman.
    I'd like to join you and the ranking member in welcoming 
Madam Secretary here to the committee. I've had an opportunity 
to hear her testimony and presentations in both open and closed 
sessions, and I would have to say that I don't believe that 
there was any hidden policy agenda in any of those 
presentations. I thought that--I think this administration, 
this President, certainly respects the role of Congress; in 
fact, has probably been--shown more respect, in some instances, 
than previous administrations I can think of. I don't think, in 
that area, can he be blamed for not being open and respecting 
the role of Congress.
    I'd also like to comment that your clarity and 
forthrightness in testifying before those sessions, I think 
added confidence to the members were attending that particular 
meeting. And I do applaud you on becoming the Secretary of 
State. I think our country is blessed with your skills.

                              AFGHANISTAN

    Having said that, I want to move on to Afghanistan. I had 
an opportunity to visit Afghanistan. I had an opportunity to 
visit with President Karzai. And one of the concerns he had was 
that we would become preoccupied with Iraq and that there would 
not be adequate support for his country as we progressed in 
time. So I was pleased to see that you did have some money in 
there where you did talk about the needs in Afghanistan.
    You used some terminology which I would like to have you 
clarify, in that you used the terminology ``high-impact 
programs.'' When you use that terminology, are you--and you 
used it not only in regard to Afghanistan, but other countries, 
too--when you talk about high-impact programs are you talking 
in terms of the emergency need of those funds or--because 
they--or some other parameter? I'd like to have you clarify 
that.
    Secretary Rice. Thank you.
    It's both in terms of the impact on the population and 
doing it quickly. And so, it's both. Because, for instance, you 
have parliamentary elections in Afghanistan that are coming up. 
We would like to be able to have projects that improve the 
chances for those parliamentary elections to take place in an 
environment in which moderate forces are understood to having a 
positive impact on the people. And so, a clinic or completing a 
road or a school is a very important way to show that these 
moderate forces are, indeed, having an effect on the lives of 
their people. And you want to be able to do it quickly, not 
over a long period of time.
    Afghanistan is an example of why the funding needs to be 
there both for our military and for these kinds of activities, 
because we made a mistake before, when we left Afghanistan 
after having helped to fund the opposition there that ended up 
in the Soviet withdrawal, and Afghanistan fell into chaos and 
became the territory that al Qaeda inhabited, and we paid the 
price in--tremendously, several--almost a decade later. We 
can't repeat that mistake again. This time, we have to finish 
the job. And finishing the job doesn't just mean using our 
military forces to root out al Qaeda and the Taliban, it means 
the emergence of a democratic state, strengthening that state, 
strengthening the Karzai administration, and, when we are then 
able to consider the job done in Afghanistan, not having to 
look back and see a place that falls into chaos again.

                   CHEMICAL WEAPONS CONVENTION TREATY

    Senator Allard. I thank you for your response. And I have 
talked with--many of my colleagues have had an opportunity to 
visit both Afghanistan and Iraq, post-election. They are very 
impressed with the change in attitude of the people in those 
countries, and how things seem to have jumped forward after 
those elections.
    I want to bring up an issue related to the Chemical Weapons 
Convention Treaty, which this Congress ratified in 1997, and 
then it was signed by President Clinton at the time. And there 
were some specific deadlines in that treaty as to compliance. 
And in looking--I have a schedule here of when some eight sites 
are supposed to be closed, and we have six of them that look 
like they're going to go beyond that time. There's one--in 
fact, there's one that goes out as far--the deadline is 2012--
one site in Colorado goes out to 2021. The one in Kentucky 
goes, it looks like, out to 2020, the cleanup of those sites. I 
know that Senator McConnell has been working extremely hard on 
these, and I've been supporting him in that effort.
    The question that I have, as far as U.S. policy is 
concerned, What happens when we don't comply with international 
treaties such as the Chemical Weapons Convention? Does that 
have an adverse impact when we negotiate future provisions? 
What kind of enforcement actions may we have to deal with if we 
don't comply?
    Secretary Rice. Well, Senator, I'll have to get back to you 
on whether or not they are actually enforcement actions 
contemplated in the CWC.
    [The information follows:]

    On April 29, 2012, if the United States has not completely 
destroyed its chemical weapons stockpile, the United States 
would then be in noncompliance with the CWC. U.S. 
noncompliance, or even expected future noncompliance, would 
undercut our ability to get other States Parties to comply with 
the Convention. International concern would be mitigated if the 
United States could demonstrate that it is doing everything it 
reasonably can to come into compliance as rapidly as possible.

    Secretary Rice. I don't remember. But I do know that if the 
United States of America is not complying with its obligations, 
then it's going to be hard to force anybody else to comply. I 
mean, we have been very much a country of laws that insisted on 
our own compliance. And so, we want to keep that record.

                               INDONESIA

    Senator Allard. Thank you.
    The other area I want to talk a little bit about is 
Indonesia. There is a supplemental request for disaster relief 
for Indonesia. And, for over 2 years, the Indonesian Government 
has not fully cooperated on the investigation into the murder 
of two Americans, including one from Colorado, and they have 
not arrested the individual the FBI believes was responsible 
for the killings. Shouldn't we be very careful about the type 
of aid that we provide with Indonesia? Shouldn't we make sure 
that we have pretty good transparency in doing that? And have 
you decided to certify to Congress that Indonesia has 
cooperated with the FBI and seeks--and seek the release of 
military education and training for Indonesia?
    Secretary Rice. Let me take the second question first, 
Senator. I am in the latter stages of consultations with 
Members of Congress about a decision to certify that Indonesia 
is in cooperation with the--or has met the cooperation 
requirements set forth in the law so that--on the Timika case--
so that it is possible to restore full IMET privileges to 
Indonesia. I think it's a good time to do that. They've just 
had a presidential election, a successful democratic exercise 
in a huge country with a huge Muslim population.
    We also do believe that they are cooperating. I've talked 
personally to Bob Mueller about this, Director of the FBI. They 
are cooperating well enough that we've been able to get an 
indictment in this case. And I am in the final stages of 
consultation. I would be more than happy to give you a call and 
hear anything that might be on your mind, Senator, but I do 
believe that the time may have come to do that, because we said 
they needed to cooperate, and I think the FBI believes that 
they are cooperating. And support for this democratic 
government there is important.
    In terms of the tsunami aid, there will, of course, be full 
transparency and checks used to make sure that the aid is being 
spent appropriately.
    Senator Allard. I will probably visit with you further on 
that particular issue. It's important, I notice, to both 
Senator Smith and myself. And so, you may hear further from 
either one of us.
    Secretary Rice. I'll call you, Senator.
    Senator Allard. Thank you very much.

                                  IRAQ

    My time's getting close to expiring here, but I wonder if 
you'd just give us some comments about, Where do we go from 
here, as far as what's happening in Iraq? You know, they've had 
a very successful election. And what are we going to do with 
things like the Sunni and getting them incorporated in? It 
seems to me like, in a democracy, if they participate, you've 
kind of excluded yourself. So the question is, How do you bring 
them back into the process?
    Secretary Rice. Yes. In fact, they have had a very 
successful election. And what has been impressive to me is the 
temperament of those who did very well, which seems to be a 
sense that they need to bring those in who did not do 
particularly well--most especially the Sunni, who, for a 
variety of reasons, some having to do with intimidation in 
large Sunni areas, where it was just difficult for people to 
vote, some having to do with people who decided to sit it out, 
but, whatever the reasons, the majority populations appear very 
intent on a government of national reconciliation, bringing 
people in.
    We need to remember that this is still an intermediate step 
for them. They are really trying to just produce a government 
that can write a constitution and hold elections for a 
permanent government in December. But we were--our counseling 
that, of course, it needs to be an inclusive government, and 
they seem very intent on trying to make it an inclusive 
government.
    The other thing that we will try to do is to be as 
supportive as we can of the new government, in terms of 
capacity building, getting the ministries really up and 
running, using our reconstruction assistance to help with the 
lives of the people, and to build their security forces as 
quickly as possible, because, as their security forces are more 
capable, that takes the pressure off of coalition forces. So 
that is the program, moving forward.
    Senator Allard. Mr. Chairman, my time is expired. Thank 
you.
    Chairman Cochran. Senator, thank you very much.
    Senator Kohl.

                             TSUNAMI RELIEF

    Senator Kohl. Thank you, Mr. Chairman.
    Madam Secretary, the supplemental request includes funds 
for reimbursement of certain programs that were tapped to meet 
emergency needs, such as the South Asia tsunami relief effort. 
Will this request fully reimburse all nonemergency food aid 
programs for fiscal year 2005?
    Secretary Rice. It is meant to replace that funding, 
Senator, yes.
    Senator Kohl. In full.
    Secretary Rice. I believe, in full. Yes, in full.
    Senator Kohl. All right.

                                  IRAQ

    Madam Secretary, the security situation in Iraq continues 
to plague us. I know you've been asked many times when we can 
realistically expect to turn over security to the Iraqis. I 
understand the difficulties of announcing a specific date, but 
I am concerned that we will never see a complete end to these 
insurgent attacks. At what point will we consider the situation 
secure enough to bring our troops home? What are the 
conditions, beyond, quote, ``democracy,'' end quote, and peace? 
Will we stay until there are no attacks? Will 10 a day or 20 a 
day be enough of a reduction to pull back our forces? Do we 
have a measure of when it will be appropriate to leave?
    Secretary Rice. Senator, I don't think that we have a 
number in mind of how many attacks a day are acceptable, but 
clearly this is a country that may experience insurgency for 
some time. And the issue is, Will the Iraqis themselves be 
capable of dealing with that insurgency in a way that it does 
not either destabilize or threaten the existence of a 
democratic government? It's not a matter that there wouldn't be 
any insurgency or any attacks--I think nobody really expects 
that that may be the case for some time to come--but that the 
Iraqis themselves would be capable of making certain that that 
insurgency is not a threat to the continued function and 
existence--the kinds of levels that now make it impossible or 
make it at least difficult to maintain a program of the 
production of oil and transfer of the ability to maintain an 
electrical supply to the population. Those are obviously events 
and circumstances that are very threatening to the very 
existence of a fragile government.
    So I would not think of this in absolute terms, by any 
means. This is not, ``There are no attacks, they're''--but that 
the Iraqis themselves are capable enough of dealing with that 
insurgency. I think that is really the issue.
    Senator Kohl. I agree with that. And it's not hard to 
imagine that this will be years and years before they will be 
capable of dealing with their own security. Isn't that true?
    Secretary Rice. I don't know, Senator. But I wouldn't say 
that it has to be years and years. If you look at the progress, 
even in the last several months, of Iraqi security forces--and 
I know that there have been questions about how many, and how 
many are trained, and I don't want to get into the numbers--I 
think it's really a question of, How effective have they been 
in performing? And there has been a steady improvement in their 
performance from the time, last April, I think, when we all 
were disappointed in how poorly they performed in large parts 
of the country, to their performance even in places like Najaf 
and Fallujah, more recently, to the performance that was really 
quite good in supporting their own elections, where General 
Casey says that he knows of few, if any, circumstances in which 
coalition forces had to step in for them.
    So I think you're seeing a steady evolution toward more 
capable forces. And insurgencies are defeated not just 
militarily, but politically. And the fact that you will now 
have an elected Iraqi Government, not an appointed one, as was 
the IIG, I think gives that government more legitimacy to deal 
with the insurgency. And I would hope that you'll see even 
steadier improvement. So I don't think this is necessarily a 
matter of years. I don't know, and I hate to put a timeframe on 
it. But we're seeing pretty steady improvement in their 
capacity.
    Senator Kohl. Madam Secretary, the supplemental request 
includes $658 million toward the construction of a new United 
States Embassy compound in Iraq, as you know. Clearly, we plan 
to have a longstanding presence in this country, but isn't it 
premature to begin construction of a new Embassy in the current 
security situation?
    Secretary Rice. Senator, this is one that I really hope 
that everyone will look at, and look at favorably, because if 
you look at where our people are functioning now, it just isn't 
adequate to the kind of security environment that we have 
there. We're doing our very best. We worry about the security 
every day. The Diplomatic Security is doing everything that 
they can. But the kinds of normal--even normal security 
measures that we would be able to take, in terms of setbacks on 
land, that we take even in places that are not high risk, it's 
difficult to do in these circumstances. And so, we need to get 
started, and we need to get this Embassy built, because I, 
myself, am not satisfied with the circumstances in which our 
people are having to operate. That's why we've put this on an 
accelerated schedule, 24 months for the building of this 
Embassy. We also told the Iraqi Government that we would get 
out of the presidential palace and other governmental buildings 
there. But we've put this on an accelerated schedule because we 
really think that this is a matter of the security of our 
people. We need to get this done.
    The money is in the supplemental because we really do now 
have a program to get this done in an extraordinary way, with 
extraordinary effort. And I think we will all be in much better 
shape when this Embassy is there for the protection of our 
people.

                            ISRAEL/PALESTINE

    Senator Kohl. Dr. Rice, the supplement request includes 
$200 million for assistance to help the Palestinians build 
democratic institutions and develop infrastructure, also for 
education, home construction, and basic social services. This 
is in addition to the $150 million in the fiscal year 2006 
budget request. The death of Arafat has created an opportunity, 
and the parties in the region have taken some positive steps 
toward a cease fire in the last few weeks. And we understand 
that Lieutenant General Ward, who will serve as U.S.-appointed 
security coordinator, will be traveling to the region soon for 
preliminary talks. Beyond General Ward's involvement in 
security coordination, what do you expect the United States 
role will be in helping the parties move forward? How 
extensively will we be participating in aspects of the peace 
process, beyond security?
    Secretary Rice. We will be very involved in all aspects of 
this, Senator. The money that the President is proposing is so 
that we might, as quickly as possible, begin to work with the 
Palestinians on, again, quick-acting, high-impact 
reconstruction activities, particularly when the Israelis 
withdraw from the Gaza. Anyone who has ever seen the Gaza, you 
know the conditions there. And if a quick effort is not made to 
improve the lives of the people there, I think we fear that the 
moderate forces that are represented by President Mahmoud 
Abbas, who, after all, has said that the armed intifada is 
over, are going to be supplanted by more radical forces who are 
able to meet the needs of the people. Hamas, for instance, did 
well, 9 out of 10 municipal elections, largely related to 
provision of basic services for the people.
    And so, we will be very involved in the reconstruction and 
development assistance for the Palestinians, which I think is 
very important to their political stability. We also will be 
involved with the Europeans in helping them to build 
institutions that can give rule-of-law anti-corruption 
initiatives with the Palestinians so that they have a governing 
structure that can be the basis for a state.
    And, of course, we are working with the Israelis, as well, 
to help the parties to move to a coordinated mechanism--or 
coordination of the withdrawal of Israeli forces from the Gaza 
and the four settlements in the West Bank.
    So we will be full spectrum in what we do. Eventually, when 
we're back on the roadmap, of course, the United States will be 
there to help the parties to move toward the recognition of the 
realization of two states living side by side.
    Senator Kohl. Thank you, Madam Secretary.
    And thank you, Mr. Chairman.
    Chairman Cochran. Thank you, Senator.
    Senator Burns.
    Senator Burns. Thank you, Mr. Chairman.

                             TSUNAMI RELIEF

    I want to state, from the outset, we can argue with policy, 
but I think it is the charge of this committee to take a look 
at the dollars that are being expended, and to make sure that 
those dollars are needed and that we have them. I also want to 
associate myself with the statements of the Senators from 
Alaska and West Virginia.
    My question is this: Yesterday we were asked to replace 
funds in the Defense Department request on their operations in 
Asia with regard to the tsunami relief there. We moved an 
aircraft carrier into those waters, and we flew many missions 
in life saving and these kinds of operations. We were asked to 
replace that money, to a tune of almost $1 billion. And now, 
here we come with monies from the State Department, which is 
requesting another billion. Almost. A freckle under it, maybe. 
And that's about it.
    Our initial pledge was around $350 million to that area of 
the world for relief and other activities. I'm seeing some 
redundancy here being requested by two different departments, 
despite what you stated awhile ago that you can do some things 
that the Department of Defense cannot. Nonetheless, when we 
look at the total effort in that part of the world, we're 
looking at almost $2 billion. Was there that much money spent 
or dispensed in that area? We're dealing in numbers here that 
just are beyond my comprehension. Can you, rather, would you 
want to respond to that?
    Secretary Rice. Certainly, Senator. The replacement costs 
are not the entire amount here. The $120 million is for costs 
that the USAID incurred for immediate response in relief, and 
those are accounts that have to be now replenished. But $581 
million that the State Department is requesting is for recovery 
and reconstruction efforts, going forward, that we can do this 
in a quick way.
    The effort here is to build on, I think, what was a highly 
successful effort to aid these people in what was a certainly 
once-in-a-lifetime kind of devastation, and it spoke volumes 
about the compassion of the American people to be able to do 
that. And I think it spoke volumes in a part of the world where 
we aren't often heard for our compassion.
    And so, I do believe that the efforts that we made have 
been enormously beneficial, not just to the people of the 
affected countries, but to our overall effort in the war on 
terrorism, to change the minds and hearts, as we often say, of 
people in the Muslim world, which we desperately need to do, in 
terms of the war on terror. And so, I think the money was well 
spent.
    This is not all replenishment costs. Replenishment costs 
are a portion of this, where we did, in order to be able to 
respond quickly, have to take money out of accounts that now 
need to be replenished for other means or for other purposes. 
But the bulk of this is not replenishment for us, at least. I 
can't speak to the Defense Department.
    Senator Burns. When you add this amount to the dollars that 
are being donated and accepted for relief from the private 
sector of this country, this figure is going to be 
astronomical. I don't know where all this money's going. And I 
think, to this committee, anyway, I think further explanation 
is going to have to be heard. Because whenever you deal with 
two different departments here, I just see maybe too big a 
slush fund. No wonder we've got some fraud and abuse in this 
thing. Whenever we start talking about the numbers that we're 
talking about here, and especially if some of us get the 
feeling that there's a redundant system--situation here that 
plays with the American taxpayer dollar.
    Secretary Rice. Senator, I think that what may be important 
here is to recognize that there's an overall number. A portion 
of that is for the Defense Department for things that they did 
to support efforts that were being undertaken by USAID and 
others. It's about $226 million to replace. For the State 
Department, the number is $701 million, and that is $120 
million to replace USAID accounts that were mobilized very 
quickly to be able to be used in this for the tsunami, and then 
money to begin very quickly in the reconstruction and recovery 
efforts.
    There really isn't any redundancy here, but I'm happy to 
give you a further report of this. We worked this out with the 
Defense Department. OMB is the place that makes certain that 
this is not a redundant effort. And I'm quite certain that 
we're not looking at redundancy here.

                                  IRAQ

    Senator Burns. Well, I don't have all the details on this, 
and I don't have the mentality, really, to deal with a lot of 
it. But I come at it from the standpoint of knowing it's 
taxpayer money. If there's some redundancy here, we need to 
know. So far, it doesn't make sense the way I've been adding up 
numbers. Now, maybe we add wrong on the ranch. I don't know. 
We've been pretty close before. It just seems like it to me.
    The Embassy in Iraq, right now, I would say, with the 
facilities that exist in Iraq today, is a little extravagant. 
How many people will this Embassy employ, specifically, how 
many American people and how many personnel total will be in 
this Embassy?
    Secretary Rice. It's about--a little over $750 million, 
Senator, that will be in this Embassy.
    But let me go back. The situation we're in today is not 
tolerable for the long run. It would not be responsible of me 
to say that the circumstances in which our people are operating 
now is tolerable for the long run. We need to build an Embassy 
that will have full security measures available to it. We're 
doing everything we can right now to protect these people--and 
I want to be very clear on that--everything we can--in a sense, 
by brute strength, by having a lot of force trying to protect 
it. But the fact is that we need to build an Embassy that 
really is in accordance with the circumstances of being in a 
high-risk area like Baghdad. And this is one that I really hope 
you will look on favorably, because we need to do it, we need 
to get started right away. We've designed a very ambitious 
program to try and get it done. But this is an Embassy that's 
going to have to operate in quite extraordinary circumstances, 
and it's about the security of our people.
    Senator Burns. I thank the Secretary for coming today. And 
I admire her work. And our only charge here is to protect the 
dollars of the American taxpayer. And right now I think in some 
areas we're a little extravagant, and in some areas I think 
we've got some redundancy that we should look at. Again, I 
thank you for coming today.
    Secretary Rice. Thank you. And, Senator, I'm very happy, if 
you have further questions, I will try to get back to you.
    Senator Burns. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Cochran. Thank you, Senator.
    Senator Mikulski.

                                 POLAND

    Senator Mikulski. Good morning, Madam Secretary. And, first 
of all, I want to congratulate you on your very successful trip 
to Europe. We were very proud of your diplomacy and your 
efforts to repair those tattered relationships.
    That brings me to a question not directly related to this 
supplemental, but it goes to Poland, a very able and willing 
ally in this war. And, as you know, they have a visa problem 
with us that has been rather prickly. We don't need to discuss 
it here, but Senator Santorum and I have got a legislative 
approach to this, and we would like to be able to discuss this 
with you either in person or in a conference call.
    Secretary Rice. Of course, Senator. I'd be very happy to 
discuss it with you. We made a little progress with the Poles 
in developing a roadmap for them to come into compliance with 
the numbers that are needed for the Visa Waiver Program, but I 
would be more than happy to talk with you about it.
    Senator Mikulski. Well, we know it's a big issue among the 
people of Poland. And, gosh, we were proud of the way they went 
to the Ukraine and even represented the European Union. Senator 
Feinstein, I know, has questions about it, because they have, 
kind of--I'll call it a denial rate. But I think if we could 
have a roadmap, look at our legislative solution to maintain 
not only the relationship with the governmental ally, but the 
support of the Polish people, who feel that countries who are 
less supportive of us have the Visa Waiver Program, and they 
don't. So this is kind of where I'm coming from and working 
with Senator Santorum.
    Secretary Rice. I look forward to talking about with you 
about it, Senator.

                             TSUNAMI RELIEF

    Senator Mikulski. The next question I want to get to is to 
the tsunami relief. First of all, we're so proud of the way our 
Government responded, our military responded. What I'm 
concerned about, and I know others, particularly the women of 
the Senate--we've discussed this--is about the vulnerable 
populations. And we're concerned, number one, on how the 
assistance will be used to also, in addition to livelihood and 
infrastructure, which are crucial--what we're going to do to 
protect the vulnerable populations. And we're concerned about 
compassion fatigue, that when CNN leaves, the TV cameras end, 
there's no more rock concerts, what will happen with 
orphanages, et cetera, and particularly the issues related to 
ongoing help to children that'll be really long, because these 
kids are orphans, and then also the despicable predatory 
practice of trafficking.
    Could you share with us where, not only in the 
supplemental, but as CEO of the State Department, where you see 
what we could do here using the terror of this--the terrible 
consequences, to stick with them over the long haul, protect 
the children, and also look out for the issue of trafficking.
    Secretary Rice. It's a very good point, Senator, because, 
you're right, often after the cameras leave then the most 
vulnerable people are the ones who are left, in a sense, to 
fend for themselves. And we've focused here principally on 
immediate needs in the supplemental, like getting the 
reconstruction started. But, for instance, there is work here 
on the displaced persons piece of this, which women and 
children tend to be terribly vulnerable in these displaced 
persons camps, and trying to get people returned to their 
villages and their homes in--away.
    We've been very active on the trafficking issue, running 
down the leads that were given, working with particularly, the 
Indonesia Government, but also the Thai Government, where there 
were concerns about what might be happening with these 
children.
    This is an infusion at the front end to try and deal with 
the immediate effects, but I think you rightly point out that 
we will want to look at our follow-on assistance programs to 
make sure that they are, indeed, through our various 
development assistance and child support programs, that they're 
dealing with vulnerable populations. But dealing with the IDP 
camps will certainly address part of that concern.
    Senator Mikulski. Well, we look forward to working with you 
on this, speaking for a wonderful man, like Senator Brownback, 
who's been a real leader on the trafficking issue, working with 
us. The women of the Senate are very concerned about the long-
range consequences on these children----
    Secretary Rice. Right.
    Senator Mikulski [continuing]. And they know, in a part of 
the world where we want to win friends--but that's not why 
we're doing it, but it could be a consequence--that we really 
stick with them as they go through, either finding new homes or 
whether they're going to be staying in some kind of orphanage 
educational camps.
    So when we meet again, in a future hearing--we're kind of 
in flux here--I hope we can deal with this, because we do feel 
that, in standing up for the vulnerable populations, it's a 
message to the world that we're on the side of the weak----
    Secretary Rice. I agree.
    Senator Mikulski [continuing]. And we can be counted on.
    Secretary Rice. I agree.

                               PALESTINE

    Senator Mikulski. Let me then go to another opportunity for 
building relationships. This is the aid to the Palestinians. 
And I absolutely want to support the President in this 
initiative. But there has been a long history of Arafat 
corruption. And I'm not saying this applies to the new 
leadership in the Palestinian Authority. But Mahmoud Abbas has 
got to not only dismantle the security forces, but he's got to 
dismantle a mindset where, as you know, Arafat skimmed money 
off for lavish subsidies for hotels in Paris, Swiss bank 
accounts. What can we do as we move forward to really move this 
incredible opportunity in the Israeli-Palestinian issue, to 
ensure that we help a process move ahead--concentrating exactly 
on what you said: public health, public infrastructure, et 
cetera--and yet not have it go to the usual corrupt practices, 
and work with Abbas, not in a schoolmarmish way--where America 
is a friend, not a nanny, but, nevertheless, ensure we have 
that accountability, and set the framework for future 
accountability.
    Secretary Rice. Absolutely. And I'd like to start with that 
last point, because what the Palestinians need to do is--not 
just for this assistance, but for the well-being of their 
future state--to have a set of accountability and transparency 
measures in their financial dealings that can give confidence 
to the international system and also confidence to the 
Palestinian people that this money is being spent well. 
Because, as you said, there has been a reputation there for 
corruption. They have made a lot of progress over the last 
couple of years, because they've had a very good Finance 
Minister in Salam Fayyad, who I think everybody in the 
international system has confidence in. He, himself, has put in 
place some transparency measures, including international 
transparency measures that we have helped with, Treasury 
Department officials who have gone over and set those up. We 
can use those as we put this aid forward.
    Some of this money would, in any case, go through 
nongovernmental organizations where we have some controls. But 
you make the key point that, in the functioning of the state, 
it has to be rule of law, it has to be transparent, it has to 
be non-corrupt. And when I talked with President Abbas during 
my recent trip, we talked about the need for anti-corruption 
measures, because the Palestinian people have to have that 
confidence. So it's very high on our agenda to make sure that 
American money is well spent, but also to make sure that the 
Palestinians are developing the kind of state--or the kind of 
institutions that will produce a state that can live in peace 
with a democratic Israel. So this is very high on our priority 
list.
    A lot of this will be project support, and we will 
definitely consult very widely with the Congress on that 
project support. To the degree that it is direct to the 
Palestinians, then we are going to insist on these transparency 
measures.
    Senator Mikulski. Well, first of all, I think that's very 
heartening to hear, and also the events that have unfolded are 
quite heartening. But in the words of someone we both admired, 
Ronald Reagan, ``Trust, but verify,'' both when we go forward 
now in the emergency supplemental, and again in the State 
Department appropriations. These things are long haul, and if 
we don't put in the measures now for both out of the State 
Department funds, foreign operations funds, and even investment 
from private sector or international institutions, like the 
World Bank--I mean, our $350 million will be a down payment. 
Things like water, which is a very challenging issue, water 
conservation, that will all be the topic of another hearing. So 
we want to make sure that they have the accountability so that 
if this really begins to move, that we're, again, in it for a 
period of time, because if we could bring stability here and 
have a successful conclusion of a peace process, I think it 
would be so satisfying----
    Secretary Rice. Thank you.
    Senator Mikulski [continuing]. And to ensure that our ally 
Israel is secure.
    So thank you. We look forward to working with you. And, 
again, good wishes----
    Thank you, Senator.
    Chairman Cochran. Thank you, Senator.
    Senator DeWine.
    Senator DeWine. Mr. Chairman, thank you very much.
    Madam Secretary, thank you very much for joining us.
    As you stated, the goal of this supplemental is to provide 
immediate funding for U.S. priorities that can't wait for the 
regular appropriations cycle, and, therefore, I was certainly 
glad to see increases for Sudan, and support of both the north-
south peace agreement, as well as the horrible crisis in 
Darfur, as well as increases for Afghanistan, where we face a 
war on drugs that we really simply cannot afford to lose. So I 
appreciate that. I commend you for that, and commend the 
administration.
    But I must say that I was disappointed in that the 
supplemental ignores the needs of this hemisphere. With the 
exception of the money for the peacekeepers in Haiti, which was 
the assessment--our assessment and our share of that--there's 
just nothing for this hemisphere. We've got a deteriorating 
situation in Bolivia. The situation in Colombia continues to 
need our assistance, and we could talk about that.

                                 HAITI

    But let me focus on, to me, the most glaring hole, and that 
is Haiti. You know, in the fiscal 2006 presidential request, 
Haiti was understandably recognized, and I quote, ``as a 
priority fragile state.'' I think that's an understatement. You 
know, the situation there continues to deteriorate. We have--
the Latortue government is a very, very fragile government. We 
have elections now that have been scheduled. How in the world 
those elections are going to be paid for, I don't know. I don't 
think your administration knows how they're going to be paid 
for or how that money is going to be found. This was a perfect 
case for money to be put in the supplemental. Haiti is an 
environmental disaster. We've got the peacekeepers trying to 
keep peace between the old Aristide people, the old ``Papa 
Doc'' people, to simplify it.
    Madam Secretary, if we're going to avoid sending U.S. 
troops down there for the third time in a decade, if we're 
going to avoid having ``boat people'' float in up toward 
Florida again, we're going to have to get serious about what's 
going on in Haiti. And to not have any money in this 
supplemental--this is a classic case of where there should have 
been money in a supplemental, because there were things that 
have occurred since the last 2005 request that simply could not 
have been anticipated--Aristide leaving, the Latortue 
government coming in, the scheduling of elections, the 
disasters that have occurred, that flooding that has occurred, 
landslides that have occurred. All of these things have 
occurred.
    Now, we did--the administration did set aside, and the 
Congress did set aside, some additional money when the 
disasters occurred, but Haiti's just a continuing disaster, and 
I don't really understand why there is no money in the 
supplemental at all. And I don't know how you're ever going to 
backfill this money in the regular appropriations process.
    Secretary Rice. Well----
    Senator DeWine. Would you like to comment on that?
    Secretary Rice. Thank you, Senator.
    I think we believed that we had accounted for Haiti in a 
number of ways. As you said, we had the supplemental on 
disaster relief after the floods, and that money--some of that 
went to Haiti. We did account here for the Haiti peacekeeping 
operation, which is very important to stabilization of that 
country.
    As you know, the principal concerns that we've had have 
been to deal with the police training in Haiti and to try to 
get Haiti a professional police force that can finally supplant 
some of the militias that have been really the problem in 
Haiti. And we have a program to do that, which is funded. And 
the funding in the 2006 budget is there for programs in Haiti 
through this new transitions initiative that we have under 
USAID. So I think we believed that we were able to deal with 
the unanticipated side of this. We were very quick on the 
ground, after Aristide left, with American forces to----
    Senator DeWine. And they did a great job, and it made----
    Secretary Rice. And they did a great job.
    Senator DeWine [continuing]. An unbelievable difference. I 
was down there when they were there. They just--they saved 
lives, and they did a phenomenal job.
    Secretary Rice. Right. And I think we feel that we had 
responded to the immediate need, that we were able to respond 
to the disaster, and that now we have a program with Haiti, 
over the next years, starting really with getting them ready 
for elections, that adequately addresses----
    Senator DeWine. Yeah, well----
    Secretary Rice [continuing]. This need.
    Senator DeWine [continuing]. Well, Madam Secretary, I 
appreciate your comments. We'll continue this dialogue. I just 
would say this very candidly, with all the great respect that I 
have for you--and it is tremendous respect--I don't think 
anyone seriously can look at this amount of money that we have 
set aside for Haiti and the amount of money that we're going to 
be able to pull out of next year's budget, Mr. Chairman, of the 
future amount of money for Haiti, and think that it's adequate 
or it's going to do the job. I mean, literally, we don't have 
the money for the elections. We do not have the money to begin 
with the infrastructure. We're going to have another failed 
state, and it will not be long until we're going to have to 
send U.S. troops down to Haiti again, unless we get serious 
about what's going on in Haiti.
    So, Mr. Chairman, I intend, when this supplemental comes to 
the floor, to offer an amendment to add money into this 
supplemental for Haiti. It is the perfect place to do it. We 
have to do it. It's put money in now, or put a lot of money in 
later. It is the right thing to do.

                              AFGHANISTAN

    Let me just, if I could, move to another area of the world. 
And this has been covered a little bit before, but I'd like to 
get back into it. I had the opportunity to travel with the 
Majority Leader and others to Afghanistan, a great success 
story. I commend you for your great work, and the 
administration. It's kind of the untold story of what's 
happened in the last few years. But one thing that--it troubles 
all of us, of course, is what's going on with drugs and the 
poppy, and we're getting, kind of, some mixed reports.
    But how do you, Madam Secretary, convince a farmer--
President Karzai does not want to do aerial spraying. We 
understand that. That's not a tool we're going to be able to 
use. But how do we get someone to do what we refer to as crop 
substitution? And how do we put enough resources into that to 
get the job done? And how do we combine that with getting 
enough helicopters in there and supplying the Afghan Government 
with enough resources? Some of us who have looked at it don't 
think that, frankly, we have given them enough helicopters. We 
hope that, from the military side, we'll be able to supply them 
with that to do, kind of, a carrot and stick, as well. I wonder 
if you can just, in the 2\1/2\ minutes I have left, comment----
    Secretary Rice. Sure.
    Senator DeWine [continuing]. On that.
    Secretary Rice. Of course. The narcotics problem, and our 
counternarcotics efforts, are really very central. As I said, 
this has the potential to destabilize this very fragile 
government.
    The Karzai government now, I think, takes it very 
seriously. I think that's why he has put such a public effort--
he said to us that he needed, after 25 years of civil war, to 
de-legitimize poppy growing with the Afghan population, which 
is, in part, the answer to the question of, How do you get 
people to substitute crop? If they don't believe that what 
they're doing is illegitimate, they're not going to substitute 
crop. If you can get it to be illegitimate in their minds, and 
enforceable in law that it is illegitimate--and really the 
Afghans have not had the capacity to do that--then I think 
you've got a chance at crop substitution, and the alternative 
livelihood programs actually do work.
    We're not in this alone. This is really something where I 
think we can mobilize a quite impressive international effort. 
The British have doubled their commitment to the 
counternarcotics effort. We're working to see what the Russians 
might be able to do. These are countries--the EU has expressed 
an interest in doing more here--because these are countries 
that are actually seeing the product show up on their streets. 
But we need an integrated effort on the Afghan side, and that 
means public education, it means alternative livelihoods, it 
means legal enforcement, which is training of police and having 
the right laws, it means interdiction, which we've been very 
involved with the Afghans in helping them do, and it means, 
finally, eradication.
    And we continue to discuss, with the Afghans, aerial 
spraying and the experience that we've had in Latin America 
with it. And we will see where that comes out. But it is a very 
intensive effort on our part. One reason that it's here in the 
supplemental is that we now, I think, have a more comprehensive 
strategy with the Afghans after their presidential election, 
and we want to get started moving this ahead.
    Senator DeWine. Well, I appreciate it. And I--you know, 
it's just vitally important. As you say, it really is the 
future of the state. It's a great success story, but this is 
the one area that is very, very troubling and poses the real 
risk, I think, to the future state of Afghanistan. So we will 
all be monitoring that and be willing, I think, to supply the 
funds that are needed to get the job done.
    Thank you, Mr. Chairman.
    Chairman Cochran. Thank you, Senator.
    Senator Murray.
    Senator Murray. Secretary Rice, thank you so much for being 
here today. I think this is your first appearance before the 
Appropriations Committee, and I do want to take this 
opportunity to congratulate you on your new responsibility as 
Secretary of State. I come from a State that is very 
internationally engaged in the country, and I appreciate the 
many challenges before you, and I look forward to working with 
you on many of those.

                                  IRAQ

    Let me just say, at the outset, you know I voted against 
President Bush's request for authority to take military action 
in Iraq, and one of the concerns that I expressed at the time 
was the costs associated with this effort and the 
administration's inability to tell Congress and the American 
people what the true costs associated were. So I, today, remain 
very concerned that we are adding the entire cost of this 
supplemental to the deficit, and that is, I think, something we 
all should continue to be concerned about.
    But let me ask you today about the issue of accountability. 
As you know, as with other requests from the administration, 
you've asked for very broad discretionary authority for the use 
of these supplemental funds. And the Pentagon Inspector General 
issued a report a couple of weeks ago describing how the 
Coalition Provisional Authority (CPA) failed to account for 
nearly $9 billion in funds handed over to the Iraqi ministries. 
We've all seen the press reports about other instances of 
potential financial mismanagement, and I wanted you to talk 
today about what assurances you can give this committee that 
the administration is taking this issue seriously and that you 
will be good stewards of the taxpayers' dollar.
    Secretary Rice. Thank you, Senator Murray.
    I can only say that I, personally, and, I think, we, 
collectively, as an administration, will do everything that we 
can and everything that we can to make sure that the dollars 
are well spent. Inspector generals are for exactly the purpose 
of determining when there are problems. And in light of 
inspector general reports, people will, I'm sure--within 
Defense, will seek to address the questions that have been 
raised there.
    In terms of accountability for the funds that are spent 
through the State Department programs, I recognize that in some 
cases there is more flexibility asked for here than in a normal 
appropriation. It's rather the nature of the enterprise that 
we're in that things come up really rather quickly. If you 
can't respond to them quickly, then you end up with a far worse 
problem within several months. And that's why some of this is 
built in. But it does not, to my mind, in any way obviate the 
need for consultation with the Congress, for oversight from the 
Congress, and, indeed, of accountability of the administration 
to the Congress for how those funds are used. And so, I can 
promise you that that will be very high priority for me.
    Senator Murray. Well, I appreciate your response. I would 
just caution you to take the issue of accountability very 
seriously, because if we fail to address it, it will undermine 
the confidence of the American public. So I just give you that 
caution.
    Let me ask you about reconstruction in Iraq. You know with 
the demise of the CPA our reconstruction efforts have now 
shifted to the U.S. Embassy. And we have seen a number of 
reports now that are very critical of our reconstruction 
efforts. Last September, the International Crisis Group cited 
the lack of a reconstruction plan, failure to adequately fund 
reconstruction, unrealistic application of U.S. views, and 
organization incompetency of the CPA as barriers to our 
reconstruction efforts in Iraq. Can you give this committee 
your frank assessment of where we are with reconstruction 
efforts and if that is still a U.S. priority?
    Secretary Rice. The reconstruction efforts, Senator, are 
very high priority, because--both in terms of security, because 
you defeated an insurgency politically and economically as much 
as you do militarily, but also for the long-term health of the 
Iraqi economy and the Iraqi state, we need to wisely use the 
reconstruction funds that are available to us.
    The office that runs the Baghdad Embassy is ably run by 
Ambassador Bill Taylor. And I have personally spent some time 
with him recently talking about our reconstruction efforts. 
Obviously, we've run into a security environment that was not 
foreseen at the time, that we sought the supplemental funding 
for reconstruction. The reconstruction funding was always 
intended to be multiyear, not to be spent in 1 year.
    The good news is that I believe that the funding that we 
have spent, we have spent very wisely, that $3 plus billion 
that has actually been spent. We've obligated funding for 
another set of projects, of almost $11 million. And we have 
reprogrammed, through Ambassador Negroponte's request, some of 
the funding that was anticipated to go to longer-term projects 
to more short-term, higher-impact, short-acting projects to 
help in areas where we are post-conflict, where--for instance, 
like Fallujah or Najaf, where a conflict is now no longer the 
problem, but you need rebuilding.
    So I think we've used the supplemental flexibly enough to 
deal with very changing circumstances on the ground, but still 
in mind to deal both with the short-term problems of Iraq and 
with its long-term----
    Senator Murray. But it----
    Secretary Rice [continuing]. Reconstruction efforts.
    Senator Murray [continuing]. It's still a U.S. high 
priority.
    Secretary Rice. It's a very high priority. And I believe 
that we are going to have to, with the new Iraqi Government, 
accelerate our efforts in this area.
    Senator Murray. Okay. Well, let me switch topics for a 
minute. We've all seen today's news, that Ambassador 
Negroponte's nomination to serve as the National Intelligence 
Director has gone forward. And, obviously, that's a really 
important job. And no one doubts his capable--that he's a 
capable public servant. My concern I just wanted to raise with 
you today is the message that we are sending now to Iraq by 
taking Ambassador Negroponte from that critical job at this 
time. We will now have had, as understand, three separate U.S. 
leaders of our Iraq presence since last June--of just last 
year. And I encourage you and the President to act quickly to 
place a senior respected new leader in Iraq. I think that we'd 
all feel better about this supplemental request and events on 
the ground in Iraq if we could show some continuity in 
leadership on the ground in Iraq.
    Secretary Rice. We'll act very quickly. Thank you very 
much, Senator.
    Senator Murray. Thank you.

                             TSUNAMI RELIEF

    I just have one more comment to make, Mr. Chairman. And I 
listened very carefully to my friend from Montana as he 
questioned our overall assistance to Southeast Asia and to the 
tsunami victims. And I have a very different view than he does. 
Dialogue by the administration and the Congress is good. 
Accountability on behalf of taxpayers is always critical. And 
as much as much as I appreciate the administration's increased 
request for tsunami assistance, I believe we should be taking 
an even larger leadership role in this region.
    I think we all know that the tsunami was one of the largest 
and most devastating natural disasters we've seen in recent 
history. On the humanitarian side alone, we have a moral 
obligation, I believe, to respond. And I'm really proud of this 
country, I'm proud of the American people in their efforts in 
this regard. And I think we have to also really recognize the 
importance of the Southeast Asian region to our Nation's 
economy and to our national security. And I hope that you, 
Madam Secretary, will be an aggressive defender of our 
obligations and interests in Southeast Asia at this time. It 
really is critically important to our region.
    I know the American people would question aid to this 
region when you're talking billions of dollars. It is a lot of 
money, but it, I think, falls to you to speak for our Nation's 
national interests in this case, and I really encourage you to 
be aggressive in defending and standing for our presence in 
Southeast Asia, now and for the long term, as well.
    Secretary Rice. Thank you, Senator.
    Thank you, Mr. Chairman.
    Chairman Cochran. Thank you, Senator.
    Senator Domenici.
    Senator Domenici. Thank you, Mr. Chairman. I'm going to try 
very hard, Mr. Chairman, from my own standpoint, not to be so 
late. It looks like I have nobody around to listen, except 
Senator Byrd, you, and a couple of people. I'm glad to be with 
the Secretary. Thank you so much for coming and for your 
wonderful testimony.
    First of all, I want to say, with a few exceptions as we 
proceed through discussions on the committee, I intend to 
support this supplemental request. Before I get to a couple of 
specifics, I want to tell you that, I'm beginning to worry very 
much about the deficit and the debt of the United States. It 
represents--we call it debt--the deficit--but it really means, 
how much can we afford the things we're trying to do, not only 
here, in that area that you're talking about, but everywhere? 
We promise more medical care than we can afford. We promise 
more military preparedness than we can afford over time. That 
worries me greatly as we look at this area. So I would hope, as 
you consider options, that you would also have in mind 
America's future. We're not going to help this world if we 
don't have anything going for us here at home. This is a huge 
expenditure of money. If we've got some options, we surely 
ought to take a few of them that cost less, even if they're a 
little more risky. I don't expect you to comment, but I believe 
I'm right, in the sense we can't afford too many more Iraqs. I 
guess that's what I'd like to say.

                                  IRAN

    I want to also say that I'm very discouraged by the press 
and their analysis of what's going on in post-election Iraq. 
One day you read that the person that's a frontrunner to become 
the prime minister has close ties to Iran. That leaves a lot of 
Americans and the other media the impression that we did all 
this work, we spent all this money, we risked all our lives, 
and now we're going to get an Iranian running Iraq. It turns 
out that isn't true at all.
    So I'd like to ask you, just quickly, this man--I guess 
it's J-a-a-f-a-r-i--would you tell me how you say that?
    Secretary Rice. Mr. Jaafari.
    Senator Domenici. Yes. What about him? Is he going to be 
okay? Does he have a good head on his shoulders? Is he going to 
work with us, or is he an Iranian?
    Secretary Rice. Well, I was fortunate to spend some time 
with him just a few months ago, and I found him very 
intelligent, very committed to his country, and very committed 
to principles that I think we would find ourselves associated 
with. And I don't--you know, Iran is a neighbor. A lot of 
people have relations with Iran. But----
    Senator Domenici. Sure, if you----
    Secretary Rice [continuing]. But I believe this is a now 
democratically elected government that we're going to be able 
to work with, and work with very well, because he worked with 
us before, and I think he will continue to work with us.
    Senator Domenici. So if Saddam Hussein kicked you out, you 
might go to Iran for awhile. That's what happened to him, 
right?
    Secretary Rice. Some of them did. Some of them did.
    Senator Domenici. Well, he did, too.
    Secretary Rice. He did, yes. That's right.

                                  IRAQ

    Senator Domenici. Now, let me ask you, with reference to 
something that's been asked over and over--we don't really 
intend to stay in Iraq forever, do we?
    Secretary Rice. We intend to be there only as long as we're 
needed, and not a day longer.
    Senator Domenici. So whenever people comment about the fact 
that the United States intends to be there and be the guiding 
force for Iraq, be in there as possessors of that country, that 
isn't why we're there, are we?
    Secretary Rice. Everything we've tried to do, Senator, is 
to turn this over to the Iraqi people, and that continues to be 
our goal in every sector.
    Senator Domenici. Now, when we go for military, and even 
now while the military is doing things, you have a role of 
doing some other things that are not military, right?
    Secretary Rice. That's right, Senator. And I think we would 
be mistaken if we think about either the war on terror or what 
we're trying to do in Iraq as just a military matter. In fact, 
we've learned that you have to have economic and political and 
other measures in order to make this work. And I hope that 
people will understand that the State Department part of this 
is a critical part of our national security effort. This is not 
foreign assistance. I think of this as critical national 
security funding to those who are helping us.
    Senator Domenici. Well, I want to suggest to you, as one 
Senator who's been around here a little while, that I'm 
thrilled with the President's declarations that ``we are for 
freedom in the world.'' Freedom brings peace. Freedom is apt 
to, much less, have warring partners. I also think freedom and 
democracy are short lived under one simple proposition. Freedom 
without bread--without bread--is an invitation to revolution. 
No doubt about it.
    Now, don't you think it's just as important, having gone to 
all this trouble, spent all our money, lost all our young men 
and women--I'm not saying this is a Vietnam--don't you think we 
ought to apply as much brain power and intelligence to helping 
them work toward an economically strong country, as we do 
toward getting rid of the terrorists and those rabble-rousers 
in that country?
    Secretary Rice. Senator, that's the only way we're going to 
finish this job. We learned in Afghanistan that we left early, 
we learned in Pakistan that we didn't maintain support, and we 
lived to pay for it. And I think if we don't do these things 
and----
    Senator Domenici. Well----
    Secretary Rice [continuing]. Help these countries become 
stable, we're going to pay for it later.
    Senator Domenici [continuing]. Well, my impression--again, 
this is just my impression--if we look at everything we're 
spending--and I don't say we ought to go over there and give 
them everything so they'll have a subsistence, but we'll be 
there giving them their subsistence. They have oil. They are a 
country that might be able to do their own things. I see far 
less emphasis on helping them with this basic economic 
development than I do on the military. I assume that's the way 
it's got to be. But I tell you, if we don't have a formidable 
plan, not just a little plan that you have to administer, or we 
say ``USAID, you go over there for a little bit.'' That isn't 
going to work. Same with Afghanistan. Mark my words, it won't 
be too long--maybe I won't be here, but this guy'll be here, 
the chairman will--but you're going to see Afghanistan fall 
apart, too, if we don't provide a better underpinning for 
economic prosperity. There's no way you're going to talk them 
out of poppies if they're hungry. No way. You don't have 
poppies, you don't have food and you can't feed the people. 
Poppy's a good money making crop, I think.
    So I'm trying to leave you with my impression of what 
worries me. I hope you know that. I hope that wherever you can 
share your views, you will, because it's pretty easy in history 
to see this. We've done it over and over, too, where we've gone 
on and helped and encouraged democracy, and then everything 
falls apart.

                  RUSSIA AND NUCLEAR NONPROLIFERATION

    My last questions go to a completely different subject, and 
it has to do with trying to get plutonium and other matter out 
of the hands of those who might use it, and get it into some 
kind of storage or change it so it won't or can't be used for 
weapons of mass destruction.
    First, I thank you for the letter of February 14 that you 
sent to me acknowledging that the very maximum and large 
program for plutonium disposition by way of exchanging efforts 
between Russia and us, where a huge amount of plutonium, 38 
tons on each side--if we get rid of that, it's enough for 6,000 
or 8,000 weapons, Senator Byrd, just that plutonium. We put up 
the money to pay for that. It's been languishing for 5 years.
    I want to ask you, Madam Secretary, do you agree with me 
that it's a rare opportunity to have one of the largest 
decommissioning nonproliferation abatement events in history if 
we make this concrete and get it done?
    Secretary Rice. It's a very--absolutely, Senator, it is a 
rare opportunity. And, as you know, we recently made a 
proposal. We're hoping that we can get the Russians moving on 
this. Thank you for your work on this. It's been extremely 
important to our Nation's security, and we're going to try to 
push it forward.
    Senator Domenici. Well, Madam Secretary, I don't want to 
put you on the spot, because, you know, there are all kinds of 
philosophies that ebb and flow in your Department. Sometimes 
it's hard for you to get control over them. Some of them act 
like I do with reference to Russia. Some are neo-conservatives, 
and they don't think you should spend a minute--a penny on 
Russia, because if you do they're going to build nuclear bombs. 
But, in this area, we pay, they pay, we start to make some 
headway--have some success.
    I'm very glad that the person that's held this up, without 
cluttering up the record, is gone. I thank you for pursuing it.
    My last observation is, Do you think there's a chance of 
completing this agreement by the time the President meets with 
Putin here in the next 2 or 3 weeks?
    Secretary Rice. Well, we're trying to work with the 
Russians. I don't know if we'll make it by Bratislava, but it's 
a very high priority for us, Senator.
    Senator Domenici. Thank you very much.
    Chairman Cochran. Thank you, Senator.
    Madam Secretary, we are aware of the fact that you need to 
leave, but we have one more Senator here who is entitled to ask 
a question.
    Secretary Rice. Of course.
    Chairman Cochran. If you can stay and listen to Senator 
Harkin's----
    Secretary Rice. Of course.
    Chairman Cochran [continuing]. Questions and answer him, 
we'd appreciate it very much.
    Secretary Rice. Of course, Mr. Chairman.
    Chairman Cochran. Senator Harkin,
    Senator Harkin. Thank you, Mr. Chairman.
    Thank you, Madam Secretary. You're very patient, and I 
appreciate that.
    Madam Secretary, I've been a long-time advocate for people 
with disabilities, having been one of the main authors, along 
with others, of the Americans with Disabilities Act. It was 
brought to my attention several years ago that U.S. money to 
rebuild schools and other facilities in Kosovo and Bosnia were 
being rebuilt without taking into consideration the needs of 
people with disabilities, many of whom were maimed during the 
war.
    I brought this up with your predecessor, Secretary Powell, 
2 years ago, and he was very sensitive to this, and was very 
helpful. And over the last couple of years, we have developed 
with the State Department some protocols and procedures for 
addressing the needs of people with disabilities. We also work 
very closely with Mr. Natsios at the United States Agency for 
International Development on programatic issues. They requested 
that we put a change in the law, which we did. The fiscal year 
2005 foreign operations appropriations bill states that, ``The 
Secretary of State and USAID Administrator shall designate, 
within their respective agencies, an individual to serve as 
disability advisor or coordinator, whose function it shall be 
to ensure that disability rights are addressed where 
appropriate in United States policies and programs.''
    It's my understanding that that person has not been 
designated yet, and I would hope that you would--in all the 
things you've got to think about, would move ahead aggressively 
on getting that person designated at the State Department.

                                  IRAQ

    Now, USAID has developed accessibility guidelines. I am 
pleased these standards are in place and being used in all of 
the reconstruction activities, I am informed, taking place with 
U.S. funding in Iraq and Afghanistan. This clearly applies to 
facilities such as schools, hospitals, and airports. Again 
these facilities will be built in compliance with these 
standards. So I commend you and the people at USAID for 
implementing these provisions.
    Now, there's another part of this equation. I was visited 
earlier this week by an Iraqi doctor--I just met her for the 
first time--Dr. al Gohbori--and who has recently suffered a 
tragedy. Her 5-year-old child, who was driving with her 
grandmother was injured in a severe car accident with U.S./
Coalition forces. It was an accident. Nothing intentional. The 
grandmother was killed, and the 5-year-old child is now in a 
coma--but in our military hospital, so they're doing everything 
they can. It was just a tragedy. But this doctor was telling me 
how thousands of Iraqis with disabilities are trapped in their 
homes. They have no access to rehabilitation services. 
Unfortunately if they don't receive proper rehabilitation 
services they're going to get further disabled. And so, they're 
not getting any kind of help to get them to stem their 
disabilities and to get them more active, and programs that 
will enable them to live a more full life. She was asking me to 
ask you if there's anything in this supplemental that could 
assist with this vitally important need.
    Now, again, on the one hand, as I am informed, in terms of 
reconstruction, when our money's being used they are designing 
facilities to be accessible. On the other hand, some of the 
young people that have disabilities in Iraq now are just not 
being paid attention to. I don't expect an answer to that, but 
I just hope that you would really again take a look at that and 
see if there's something in the supplemental that we could do 
for that.
    Secretary Rice. Thank you, Senator. I will take a look at 
it. It's obviously a very heart-rending thing to see this sort 
of thing. And I do know that there are a lot of private groups 
that have tried to help with the disabilities that were 
associated with the torture of Saddam Hussein. But I will look 
and see what might be done. I don't know about in the 
supplement, but what we might be able to do.
    Senator Harkin. Well, she mentioned that. She said some of 
the NGOs doing work on disabilities has had to leave because of 
the security situation. Dr. al Gohbori is looking to us to help 
try to help provide assistance to those NGOs doing work in this 
area.
    Secretary Rice. I'll certainly take a look at it, Senator, 
and be in touch with you about it.
    Senator Harkin. I'd appreciate that.

                                FOOD AID

    And one last thing, then, shifting from that to food aid. 
Last December, the United Nations released a report and found 
there were nearly 852 million chronically hungry people in the 
world. On January 13, 43 Senators, Republicans and Democrats, 
wrote a letter to President Bush urging him to seek more funds 
for food aid. Ninety-three Members of the House also wrote a 
similar letter. Nonprofit groups that deliver food aid in 
developing countries, such as Catholic Relief Services, Save 
the Children, Lutheran Church Services, others--all of these 
agree that about $700 million, beyond existing appropriations 
levels, would be needed to provide the typical U.S. share to 
meet the critical food needs that have emerged this year, 
because of all the different calamities that have happened. 
This number is supported by figures provided to our Senate 
Agriculture Committee by USAID in December. It would also 
require about $300 million to fully replenish the food stocks 
of the Bill Emerson Humanitarian Trust. So that's about $1 
billion.
    $700 million to provide the typical U.S. share to meet the 
needs that emerge this year, $300 million to replenish the Bill 
Emerson Trust.
    The President is requesting only about $200 million for 
these purposes, most of which is targeted to reimburse funds 
under the Title II Food for Peace Program already expended this 
year for relief in South Asia and the Darfur province of Sudan.
    Now, my question is, we have a supplemental here, $82 
billion. It's emergency. Madam Secretary, hungry people are an 
emergency. I know you agree with me. I know you're sensitive to 
that. It seems to me that maybe $1 billion of this emergency 
could go for food aid, that it could be put in the 
supplemental, and should be put in the supplemental, at least 
$700 million to meet the existing needs. Maybe we could do--the 
$300 million in the Bill Emerson Trust--maybe we do that under 
regular appropriations. But it seems to me that if we have this 
need for food aid in the world, it seems to me this is part of 
an emergency. And so, I'm asking why you're not asking for that 
in the supplemental.
    Secretary Rice. Senator, I believe that we think we've 
accounted for the food-aid needs as we need them, but I'd like 
to get back to you, because----
    Senator Harkin. I'd appreciate that.
    Secretary Rice [continuing]. This is not an area that I've 
gone into in great depth myself, and I would like to get back 
to you with an answer.
    [The information follows:]

                         United States Department of State,
                                      Washington, DC, May 11, 2005.
The Honorable Senator Tom Harkin,
United States Senate.
    Dear Senator Harkin: This is to follow up on your question posed to 
Secretary Rice during the February 17 Appropriations Committee hearing 
on the fiscal year 2005 supplemental request regarding international 
disabilities issues. Knowing of your leadership in this area, we want 
to update you on our efforts.
    As you noted during your discussion with Secretary Rice, USAID has 
adopted accessibility guidelines, which are being used in Iraq. This is 
vitally important, as USAID has been actively restoring and building 
existing and new schools, medical clinics and other public facilities 
throughout Iraq. These programs are funded through the Iraq Relief and 
Reconstruction Fund (I and II). The attached document outlines USAID 
programmed activities supporting the disabled in Iraq.
    The State Department is also working closely with USAID to utilize 
the $2.5 million in fiscal year 2005 ESF funding appropriated for the 
disabilities issues in Public Law 108-447.
    As you know, the Emergency Supplemental Report language urges the 
Department of State and USAID to place an emphasis on programs that 
address the needs of people with disabilities. We appreciate your 
raising the issue of disabilities in the context of foreign operations. 
We have spent over $10 million through USAID to assist war victims and 
families of war victims, and we recently notified our intent to spend 
an additional $100 million in the Community Action Program, from which 
USAID will program an additional $10 million to assist war victims and 
their families.
    We also note that the Emergency Supplemental provides $5 million to 
USAID for humanitarian, conflict mitigation and relief and recovery 
assistance for needy families and communities in Chechnya, Ingushetia 
and elsewhere in the North Caucasus.
    We have established the Advisory Committee on Persons with 
Disabilities, which includes the Secretary of State, the USAID 
Administrator, the Committee's Executive Director and eight members 
from outside government. We now have eight public members with varied 
expertise, experiences and viewpoints, and plan to host the first 
Committee meeting shortly. We fully expect these committee members to 
share with Secretary Rice and Administrator Natsios their perspectives 
on incorporating disability issues within U.S. foreign policy and 
foreign assistance. The Executive Director for the Advisory Committee 
is Christopher Camponovo in the Democracy, Human Rights and Labor 
Bureau.
    We look forward to working with you to continue to help the 
disabled. Please feel free to let us know if we can be of further 
assistance.
            Sincerely,
                                       Matthew A. Reynolds,
                           Assistant Secretary Legislative Affairs.
           United States Agency for International Development
            Programmatic Activities for the Disabled in Iraq

Local Governance
    Both the Local Governance Program and the Iraq Transition 
Initiative are supporting the development of civil society in Iraq. 
Iraqi citizens are now actively organizing civil society organizations 
(CSO), including civil rights and women's rights organizations, 
business associations, youth groups, sports clubs, disabled veterans 
advocacy groups, and media groups. These organizations are expanding 
civic awareness within Iraqi society and promoting institutional 
advocacy and watchdog capacities to foster local government 
transparency.
Facilities for the Disabled
    USAID has completed two projects to improve facilities for disabled 
individuals in Iraq. People with disabilities in Iraq were often 
marginalized by the former regime. They received few services and their 
needs were not considered by the rest of society. These projects are 
part of a larger USAID effort to ensure that all of its projects 
address the needs of the disabled, as feasible. The new projects 
include:
  --A project to rehabilitate and re-equip a center for the disabled in 
        Baghdad was completed on August 4. The $49,443 project supplied 
        the institute with videos, CDs, toys, water coolers, plastic 
        chairs, plastic tables, and other furniture. This center 
        provides primary education for disabled students ages 6-15, and 
        currently has a capacity for about 280 students. The center 
        also provides early detection services which help with the 
        admission of children into special education programs. 
        Following completion of their studies, the students are 
        automatically transferred to another local center for the 
        disabled, which was also rehabilitated by USAID as part of the 
        Community Action Program.
  --An organization in southern Iraq has completed renovations at a 
        rehabilitation center for the disabled under a $235,699 grant 
        from USAID's Iraq Transition Initiative. The center will 
        provide rehabilitation services to the disabled, offer 
        educational programs, and teach skills which will allow them to 
        be reintegrated into society. The program was launched in 
        response to a government initiative and it will lay the 
        foundation for more collaborative efforts between the 
        government and the private sector. The ITI grant was used to 
        renovate the center's facility and provide necessary equipment, 
        including wheelchairs for handicapped individuals.

Summer Sports for Youth
    Community members in Wasit Governorate organized a sports 
tournament for Iraqi youth during the summer months. This tournament 
provided young Iraqis with a chance to participate in physical 
activities that promote leadership and teamwork. Participants were 
rewarded with prizes ranging from new equipment to new playing 
facilities. Each participant also received donated sports equipment. In 
cooperation with teachers and local youth clubs, the tournament 
included sports for boys and girls as well as for disabled 
participants. Female participants overcame initial objections from 
local officials in order to participate. ``In the beginning, they 
didn't include us in the tournament,'' said one girl, ``but . . . we 
wanted to play a fair game with the other schools and we wanted to 
participate regardless of what the prizes would be.'' After students 
and teachers objected to the omission of girls in the competition, all 
children were allowed to participate. This initiative was supported by 
USAID's Community Action Program.

Home for Iraqi Orphans Renovated
    A home for orphans and handicapped children in northern Iraq has 
been renovated with a $28,000 grant from USAID's Iraq Transition 
Initiative (ITI). Children suffered greatly under the former regime. 
They were often orphaned or left disabled by wars and atrocities 
carried out by the former government. The home provides a place for 
these children to live and programs that help them be reintegrated into 
society with self-confidence and dignity. The home will also receive 
new furniture that will improve the conditions at the facility and 
ensure a healthy living and learning environment.

Civic Dialogue with Disabled Iraqi Veterans
    A branch of the Disabled Veterans Association received assistance 
from USAID's Iraq Transition Initiative (ITI) to present a series of 
Civic Dialogue workshops for their members. The $6,600 grant covered 
the logistical expenses of hosting the workshops, and provided 
wheelchairs and walking sticks to the most needy to aid them in 
attending.
    Through this initiative, the organization has sponsored gatherings 
and discussions to promote an understanding of the political process 
that will transfer sovereignty to the Iraqi people and encourage 
participants to be engaged in the process. The activities educated them 
about the Transitional Administrative Law, increased awareness about 
human rights issues and promoted dialogue among disabled veterans and 
other Iraqi citizens. The project was coordinated with USAID's Local 
Governance Program in support of their Civic Education Campaign to 
educate Iraqis on the transition to a democratic Iraq. The Civic 
Dialogues will improve public understanding of the transition to 
democracy and increase participation in the political process.

Support for Iraq's Mentally and Physically Disabled
    Baghdad community members are working with USAID's Community Action 
Program (CAP) to rehabilitate facilities providing support for Iraq's 
mentally and physically disabled citizens. The communities identified 
facilities which were damaged and looted during and after the 2003 
conflict and CAP is helping prioritize and implement the projects. The 
projects have included:
  --The rehabilitation of Baghdad's only psychiatric hospital will 
        improve care for Iraqis with mental and addiction problems. 
        Much of the center still remains in ruins and nearly all of the 
        center's equipment was stolen, including air conditioners, 
        wires, water heaters, and hospital beds. One nurse stated ``The 
        wards are out of order because of broken glass, broken windows, 
        and there's no electricity network or water supply''. This 
        project will cost approximately $40,000 and benefit more than 
        6,000 people.
  --The rehabilitation of a center which offers workshops and physical 
        therapy for the disabled is complete. This facility was looted 
        of equipment, furnishings, and even things like windows and 
        ceiling material after the conflict. After community members 
        identified the center as a priority project, the building was 
        renovated and re-equipped. The center will now provide training 
        in sewing, woodwork, sports, and computer applications. In 
        addition to the work done by the community and USAID, the 
        Ministry of Labor and Social Affairs contributed stationery and 
        food supplies valued at $5,142. The total project cost was 
        $68,111 with a community contribution of $1,600.

Supporting the Needs of the Disabled
    USAID's Iraq Transition Initiative (ITI) is supporting the needs of 
Iraq's disabled citizens by developing social programs and 
rehabilitating facilities that meet their needs. This initiative is 
part of a larger USAID effort to ensure that all of its assistance 
addresses the disabled, as feasible. Recent initiatives addressing the 
needs of the disabled include:
  --ITI has awarded a $17,000 in-kind grant to an organization that 
        provides services to individuals with physical disabilities in 
        a rural area of northern Iraq. The group is helping to 
        integrate disabled people into society by giving them skills to 
        obtain employment and educating people about the value of all 
        human beings in the community. The grant will allow the NGO to 
        re-equip and supply its vocational education program with 
        sewing machines and computers, as well as provide other 
        materials for the expansion of its English language, music and 
        health awareness programs.
  --Twenty-four physically handicapped individuals are taking part in 
        computer training courses offered with the support of a $14,000 
        grant from ITI. Many Iraqis have been disabled as a result of 
        past violent conflicts, land mines, or from hereditary 
        conditions. These people receive little aid from the government 
        beyond that required for subsistence. Concerned individuals 
        have established a nongovernmental organization in northern 
        Iraq with the goal of providing rehabilitation services and 
        assisting the handicapped to become active members of their 
        communities. The NGO is offering the courses that will teach 
        basic word processing, spreadsheet and database programs, as 
        well as how to use the Internet and email. These are valuable 
        skills in the workplace and will help the disabled obtain 
        employment that will allow them to become self-sufficient.

Disabled Iraqis Benefit from the Experience of NGOs
    In communities in Southeast Iraq, Persons with Disabilities 
advisors will begin to work with USAID's Community Action Program (CAP) 
as mediators between USAID and groups representing disabled persons in 
order to better understand and address the needs of the beneficiaries. 
Group advisors are currently receiving training from a U.S. NGO on 
designing rights-based advocacy projects to benefit disabled 
individuals in their governorates.

Forum for Disabled
    On July 17, a symposium on issues of interest to the disabled 
community was held for more than 120 participants. The participants 
included individuals with disabilities as well as members of Babil 
Governorate. Medical equipment, including 55 wheelchairs, was 
distributed to the disabled participants. This forum was supported by 
USAID's Local Governance Program as well as a local non-governmental 
organization. This initiative is part of a larger USAID effort to 
ensure that its assistance addresses the disabled community, as 
feasible. Currently, areas of particular opportunity include community 
development, health services, and infrastructure.

Civic Dialogue Conferences in Salah ad Din
    Four civic dialogue conferences held over the past two weeks in 
Salah ad Din Governorate are engaging residents of this conflicted area 
in discussions on democracy and the incorporation of democratic ideals 
in Iraqi society. More than 240 Salah ad Din residents participated.
    On June 28, 70 participants came together for a conference on 
minority rights. Among participants' comments were that Turkman and 
Assyrian minorities should receive full rights, that Iraq should remain 
a united country, and that Iraqis denounce terrorist organizations.
    On July 3 and 4, three conferences with more than 270 participants 
were held to discuss Iraq's upcoming elections. Participants concluded 
with the following comments and recommendations:
  --Elections should not be based on ethnic, sectarian, tribal, or any 
        other affiliations.
  --Elected citizens should be competent, honest, and have leadership 
        capability and experience in politics.
  --International organizations such as the United Nations and the Arab 
        League should be in charge of election supervision to ensure 
        fair elections.
  --Security issues during the elections need to be addressed to 
        guarantee a maximum number of voters.
  --Elections should take place at all levels and as soon as possible--
        it is the only way to ensure that the right people are leading 
        communities, governorates, and the nation.
  --There should be more women's representation at all levels of 
        government.
    These civic dialogue conferences are part of a larger effort by 
USAID to educate Iraqis on democracy and engage them in democratic 
debates. USAID conducts Democracy Dialogue Activities throughout Iraq; 
more than 15,000 have been conducted. Finally, USAID is supporting a 
series of ten National Agenda Conferences, targeting special interest 
groups--such as lawyers, the disabled, or academics--and including 
participants from all over Iraq.

Educating Children with Special Needs in Al Basrah
    USAID's Community Action Program is working with an Iraqi NGO to 
establish an institute for the disabled. The institute will teach 
children to read and write and to enable them to better understand and 
communicate with each other as well as with the community. New 
equipment and furniture is helping to improve education for this group.
    Up to now, the disabled children have been taught alongside all of 
the other children with no adjustments made for their special needs. 
This project provided toys and educational equipment as well as 
furniture. This new institute is the first of its kind in Basrah 
governorate.

Communities Helping Neighboring Communities
    Communities in Maysan Governorate are not only supporting 
improvements in their own communities, but are helping to improve 
neighborhoods outside their communities. Under USAID's Community Action 
Program (CAP), three Maysan Governorate technical schools are being re-
equipped with modern tools and technology. To participate in the CAP 
program, communities must contribute money, labor, or other resources 
to the development projects. As part of their contributions, the 
communities around these schools are volunteering time and resources to 
help other local communities.
    Students will contribute to their respective projects by providing 
free technical training in welding, carpentry, and electrical work to 
30-40 local youth; free computer training and electronics training for 
approximately 20 individuals with disabilities; free wheelchair 
maintenance for the disabled; free electric maintenance work in 10 
local schools; and mechanical and carpentry assistance to local 
schools. These contributions, valued at $25,000, have the added benefit 
of providing a training ground for the students of these schools to 
practice the skills they acquire over the course of their studies.
    The CAP program is implemented through five U.S. non-governmental 
organizations (NGO) which are helping to create representative, 
participatory community groups to identify critical needs and 
priorities that are then developed into projects funded by the NGOs. 
The goal is to foster stability and improve lives by meeting citizens' 
basic needs in their communities. USAID has committed over $57 million 
to 1,485 projects. The Iraqi communities have committed more than 25 
percent of total funding to projects in their communities. CAP has 
established over 650 community associations in 17 governorates.

Students Compete in Community Projects
    Students at schools in Wasit Governorate are becoming more involved 
in the development of their communities as a result of a contest called 
``I Love My Town'' implemented by USAID's Community Action Program. 
Students from more than 35 intermediate schools competed in creative 
writing, drawing, and community service activities. The creative 
writing and drawing components allowed students to develop their 
creative skills and encouraged them to generate new ideas. In the third 
component of the contest, students designed and implemented volunteer 
activities to benefit the community. Activities included: cleaning 
schools; visiting poor neighborhoods and hospitals; implementing health 
and hygiene campaigns; planting flowers; and assisting institutions 
such as the Institution of Disabled People, the local orphanage, and 
the Institution for the Deaf and Mute. These projects are engaging 
young people in their communities and increasing their awareness of 
what is going on in their town to emphasize the importance of their 
participation for the future of their community.
    The contest was judged by a panel of representatives from the 
Department of Education, USAID Community Action Program staff, and 
teachers. The school's community projects were judged based on the 
idea, level of organization, participation of students and teachers, 
and project results. The top eight schools were awarded Internet 
centers and basic school furniture for their efforts. For the writing 
and drawing components, individual students won prizes such as drawing 
kits, CD players, books, and cameras.
    This activity received a great deal of positive feedback and, as a 
result, another program for youth is currently being developed. The new 
program will include 24 local high schools who will participate in a 
football tournament. The winner of the tournament will be awarded with 
a gym and football field.

Assistance for the Disabled
    USAID's Iraq Transition Initiative (ITI) is supporting the needs of 
Iraq's disabled citizens by developing social programs and 
rehabilitating facilities that meet their needs. This initiative is 
part of a larger USAID effort to ensure that all of its assistance 
addresses the disabled, as feasible. The areas of particular 
opportunity include community development, health services, and 
infrastructure. A recent initiative addressing the needs of the 
disabled includes:
  --People with disabilities in several northern Iraqi cities will 
        learn computer skills with the aid of a grant from ITI. The 
        award, valued at $14,000 is being made to a local NGO that will 
        offer computer training courses to their members. These courses 
        will provide a chance for people with disabilities to learn 
        marketable skills and build their self-confidence in order to 
        have an active and productive role in Iraqi society. The ITI 
        grant will supply computers and furniture to support the course 
        and enhance the capacity of the NGO.

New Community Programs to Assist Iraqis Affected by Conflict
    Four new projects have been developed benefiting people and 
families injured as a result of U.S. military operations in Iraq. These 
projects are being implemented through USAID's Community Action Program 
(CAP), which has received $10 million to be distributed among the five 
CAP non-governmental organization implementing partners. The partners 
will be developing a diverse set of projects to assist this group, 
including repairing the social infrastructure that provides services to 
victims; providing medical and health services; addressing special 
needs for orphans, children, and vulnerable peoples; providing support 
for income and employment generation; supporting home repair needs; 
supporting targeted education activities and vocational training; and 
supporting social institutions that provide specific services to 
victims. The most recently identified projects are being implemented in 
south-central Iraq and include:
  --Community members are supporting the construction of an emergency 
        ward in a Karbala' Governorate health clinic. This clinic is 
        the only one in its area, serving approximately 30,000 
        individuals. The large expanse of the clinic's coverage area 
        prevented adequate care for all residents. In addition to 
        improving health care access for the community, the new 
        emergency ward will treat victims of the war. The clinic will 
        also provide medical care and services to 67 victims of 
        military action at no cost.
  --Two projects will provide sewing machines as well as training in 
        business marketing for women who lost their husbands during the 
        conflict. These activities will enable the women to increase 
        their income and provide for their families. Both projects are 
        being implemented by local NGO partners with the assistance of 
        CHF. The first project, located in Karbala' Governorate, will 
        provide six sewing machines, potentially benefiting 71 people, 
        including the women and their immediate families. The second 
        project, in Babil Governorate, will provide seven sewing 
        machines, potentially benefiting 139 people.
  --A fourth project will rehabilitate a Babil Governorate center that 
        provides vocational training for physically disabled 
        individuals to help them enter the job market. The facility was 
        looted and partially destroyed in April 2003, preventing the 
        center from assisting their patients. The rehabilitation will 
        allow the center to improve trainings to people with special 
        needs; currently, the center is providing vocational training 
        services to 25 victims of the conflict.

Wheelchair Distribution
    More than 900 wheelchairs have been distributed to persons with 
disabilities in Qadisiyah Governorate. This project first began in 
February and the last shipment of 350 wheelchairs was distributed 
through the local councils in 30 communities of Ad Diwaniyah, the 
capital of Qadisiyah, at the end of April. This initiative was a 
collaborative effort between the local councils of Ad Diwaniyah, the 
Red Crescent Society, the Diwaniyah Society for the Disabled, and USAID 
Community Action Program partner Mercy Corps. The Iraqi local 
government officials and NGO partners identified the beneficiaries who 
needed wheelchairs; transported and distributed the chairs; and 
monitored the process to ensure the chairs were received and used 
properly.

Improving Communities through Civil Society
    Iraqi civil society organizations enhance the civic participation 
that is essential to the formation and maintenance of a vibrant 
democracy. Civil society is an important component of the June 
transition to sovereignty.
    The Salah ad Din Women's Committee received office furniture, 
equipment, and supplies from the Iraq Transition Initiative program, 
enabling them to open their office at the Tikrit Teaching Hospital. The 
Committee is made up of 50 professional women from Tikrit and the 
surrounding area who are working together to address women's needs in 
Salah ad Din Governorate. This Committee was formed following a civic 
dialogue event sponsored by USAID's LGP. During planning meetings, 
members identified future priorities, which included driving lessons, 
media projects, work with disabled children, language and computer 
classes, and the establishment of a fitness center for women. The 
equipment and supplies from ITI will allow them to begin their work.
    Computer equipment has been installed at the Arbil Youth 
Development and Activity Center (AYDAC). The AYDAC is a youth 
organization established in 2003 to build the confidence and skills of 
young people. The organization has more than 500 members, most of whom 
are unemployed and disadvantaged youth between 14 and 22 years of age. 
The computer equipment supports training in word processing, Internet 
applications, and English and Arabic language courses. AYDAC also 
assists the youth to express themselves constructively by hosting 
forums and discussions on local issues thus encouraging their 
participation in community activities. The AYDAC received a grant from 
USAID's Local Governance Program.

Over Two-Hundred Wheelchairs for Users in Ad Diwaniyah
    More than two-hundred wheelchairs have been distributed to the 
disabled in the city of Ad Diwaniyah in Al Qadisiyah Governorate 
through USAID's Community Action Program. The initiative began with the 
selection of a Community Action Group by Ad Diwaniyah community members 
who then identified this project as a local priority. The chairs were 
distributed by USAID partner Mercy Corps through local NGO partners who 
were also part of the Community Action Group. Seventy-five chairs were 
distributed by the Disabled Society and another 125 by the Iraqi Red 
Crescent Society with the active participation of the local council 
members.

Rehabilitation of Schools for the Deaf
    Through USAID's Office of Foreign Disaster Assistance, USAID 
partner CARE has rehabilitated 13 schools for the deaf. Work included 
repairs to latrines, piping, sanitation and sewage systems, tiles, 
floors, sinks, lighting, doors and windows. The first set of eight 
schools was completed in November and the second set of five was 
completed in mid-March. As a result of the repairs, more than 1,200 
deaf children will be able to return to school.
    USAID provides assistance to Iraq's disabled citizens by developing 
social programs and rehabilitating facilities that meet their needs. 
USAID also seeks to ensure that all of its assistance addresses the 
disabled, as feasible. With respect to reconstruction efforts in Iraq, 
the areas of particular opportunity include community development, 
health services, and infrastructure.

National Conference for the Disabled
    On March 31 and April 1, more than 185 people attended the National 
Conference for the Disabled in As Sulaymaniyah Governorate, the third 
of ten national Civic Dialogue Program conferences to be held 
throughout Iraq with support from USAID's Local Governance Program 
(LGP). The conference was organized by The Rozh Society, an Iraqi non-
profit organization which has received support from LGP.
    The first day of the conference focused on defining the issues 
important to the participants. A plenary session in the morning covered 
welcome speeches as well as presentations on international legal 
standards for people with disabilities, equal access to public 
facilities and institutions for the disabled, and the special needs of 
people disabled by war and landmines. In the afternoon, participants 
divided into four breakout sessions to engage in an active dialogue on 
the presentation material and what they would like to see in the new 
Iraq. Participants also had the opportunity to view and discuss short 
films about disabled people produced by a local journalist. The second 
day focused on finding solutions, recommending actions, and planning 
for the future. The discussion was lively and the attendees recommended 
that March 31 be declared National Disabled Persons Day in Iraq. The 
conference received excellent press coverage from Arabic, Kurdish, and 
international press. As a next step, the establishment of a National 
Association for Disabled People in Iraq is under consideration.
    These civic dialogues are part of the CPA Civic Education Campaign 
to inform Iraqis about the transition to democracy. USAID has committed 
$2.4 million to implement a nationwide campaign of civic education 
activities including a print and broadcast media campaign and civic 
forums and town meetings.

Improving Health Services and Facilities in Baghdad
    USAID's Community Action Program (CAP) partner International Relief 
and Development (IRD) is working to improve health services and 
facilities in Baghdad. CAP works with community members to develop 
Community Action Groups that identify priorities in their neighborhoods 
and initiate projects to meet community goals. To date, IRD has 
completed 200 projects addressing many diverse needs in the community. 
Recent projects addressing health needs include:

            Baghdad's Center for Rehabilitation and Physiotherapy

    Currently, this center is the only provider of comprehensive 
services in Iraq for the disabled of all ages. The center's services 
include health consultations, a prosthetics center, and physical 
therapy. The center's prosthetics practice, which fits casts, 
artificial limbs, prosthetics, and braces, is the only operational 
practice in Iraq. It currently provides services to approximately 50 to 
80 patients from all over Iraq every day. With the support of the CAP 
program, the center received $118,000 of rehabilitation work and 
$28,000 worth of equipment.
    USAID partner International Medical Corps (IMC) reconstructed the 
center's water system and rehabilitated the hydrotherapy department's 
specialty baths, pools, and lifts in February.

            lbn Al Bettar Hospital
    Plans to rehabilitate and re-equip this Baghdad hospital are 
underway. The facility has a 200-bed capacity and serves approximately 
216,000 people and provides key training and education to healthcare 
students and trainees. Under this $65,440 project, IRD will renovate 
the building and equip the staff with supplies such as tables, chairs, 
fans, and heaters.

            Manar Handicap Center
    The rehabilitation of this center, located in Baghdad's Rashid 
district, is underway and will improve educational opportunities for 
disabled Iraqi citizens. The handicap center accepts male and female 
students aged 15 and older with varying degrees of disabilities and 
provides the students with the same classes as other public schools, 
physical therapy, and vocational training. The $50,000 renovation by 
IRD will renovate bathrooms, fix windows and doors, provide water 
tanks, mend the fence, and paint the building. The community will 
contribute ten volunteers who will assist in cleaning the center and 
unclogging the sewage lines. The community has also contributed funds 
for a monthly payment to the center's guard, who will protect the 
property.

Disability Centers Receiving Assistance
    USAID implementing partner World Vision International is assisting 
disability centers that provide support, education, social activities, 
and vocational training to approximately 8,000 disabled persons in 
Mosul, Iraq's second largest city. World Vision is supporting emergency 
winterization of the disability centers by providing heaters, winter 
clothing, floor rugs, and one daily hot meal for three months. In 
addition, World Vision is providing general disability aids such as 
wheelchairs, crutches, and specialized furniture. This project is being 
implemented in coordination with the Ministry of Health's Society for 
the Disabled, the organization that oversees the disabilities centers.

Assistance for Iraq's Handicapped
    USAID provides assistance to Iraq's disabled citizens by developing 
social programs and rehabilitating facilities to meet the needs of the 
disabled. USAID seeks to ensure that all of its assistance addresses 
the disabled, as feasible. With respect to reconstruction efforts in 
Iraq, the areas of particular opportunity include community 
development, health services and infrastructure.

Social Assistance
    The Community Action Program (CAP) works with communities to 
identify development priorities and support community members in 
executing the projects. In this capacity, CAP is working on 13 projects 
nation-wide through its five U.S. NGO partners to improve the lives of 
Iraq's disabled citizens. These projects have provided assistance to 
associations for the handicapped and blind and physical therapy 
centers.
    Grants from USAID's partner Development Alternatives, Inc. support 
the rehabilitation of facilities serving Iraq's disabled. Such projects 
have provided computers for As Sulaymaniyah Deaf & Mute Institute, 
rehabilitated the Al Amarah Primary School for the Deaf and Mute and 
renovated the Children's Institute for the Blind.

Improving Medical Facilities
    USAID is improving medical facilities and services to better serve 
the unique needs of Iraq's disabled citizens through the Iraq Health 
System Strengthening project. Projects to re-equip and reconstruct 
existing facilities which specialize in assisting the disabled have 
already been completed. Examples include the reconstruction of the 
Medical Rehabilitation and Arthritis Center in northern Baghdad and 
refurbishment of the lbn Al-Qiff Spinal Injury Hospital, also in 
Baghdad.

Accessible Public Facilities
    To date, USAID has focused on meeting the most basic critical 
infrastructure needs in the areas of electricity; airports and seaport; 
telecommunications; bridges, roads and railroads; and water and 
sanitation systems. One major effort to improve access for the disabled 
has included the refurbishment of the Kirkuk Rehabilitation Center, 
which serves Iraqi veterans and others who have lost limbs. Ongoing 
work in Iraq's airports, seaports and other public buildings includes 
ramps and lavatories which will increase access for the disabled.

Al Huda Institute, Vocational Institute for the Handicapped
    The Al Huda Institute in the Masbah area of Karada (Baghdad) is one 
of the centers being rehabilitated through the Community Action Program 
to improve its capacity to serve its handicapped students. The 
Institute provides training to over 350 students in the fields of 
sewing, secretarial services, TV repair, welding, and electrical 
repair. Rehabilitation of the institute will include repairing plaster, 
water damage, and utilities within the Institute. Equipment such as 
sewing machines, typewriters, and electric training boards will also be 
provided.

Reconstructing Physiotherapy and Hydrotherapy Clinic
    The Medical Rehabilitation and Arthritis center in northern Baghdad 
is the only specialized clinic of its kind in Iraq equipped for 
physiotherapy and hydrotherapy. It treated 600 patients a day before 
the conflict, many of whom were disabled in the Iran-Iraq war and the 
first Gulf War.
    USAID partner International Medical Corps (IMC) recently 
reconstructed the center's water system, including building a 300-meter 
water pipe and installing elevated water storage tanks that ensure a 
three-day supply of drinking water for patients. IMC also rehabilitated 
all the hydrotherapy department's specialty baths, pools, and lifts.
    Severely looted after the war, the center now sees only 300 
patients a day. Currently, the center treats 100 patients injured in 
the recent conflict. Patients with cerebral palsy, paralysis, 
arthritis, and other handicaps travel to the center from all over Iraq 
for group therapy, workshops, and amputee rehabilitation therapy. The 
center has no inpatient facilities, creating a serious strain on 
patients living outside Baghdad. ``We are grateful to IMC for the work 
they've done and hope for more cooperation in the future,'' said 
hospital director Dr. Eman Khudair. USAID and IMC have rehabilitated 
water and other facilities at 20 hospitals around Baghdad.

Education
    One of the enduring legacies of Saddam's rule is the rigid mindset 
that was imposed on society, and which Iraqis are beginning to cast 
aside. Originality and innovation led to suspicion under the old 
regime. The Contemporary Visual Arts Society, an Iraqi NGO, is working 
in elementary schools to promote freedom of thought through artistic 
expression. More than 1,200 boys and girls from Baghdad's Sadr City 
district will attend three-day workshops, where they will learn basic 
techniques of painting and collage. The society will extend the series 
to developmentally disabled children in Sadr City and, due to the 
enthusiastic response from educators, begin training teachers to lead 
their own art workshops.
    Future workshops will be conducted in AI Fallujah and Ar Ramadi for 
an additional 1,700 students. The society is using a $37,000 USAID 
grant to obtain equipment and materials for the program.

Local Governance
    The Baghdad Interim City Advisory Council held its weekly meeting 
on October 21. Items on the agenda included:
  --Establishing effective communications between the Council and the 
        Ministries.
  --Payment of the Iraqi security force, the Facility Protection 
        Service (FPS), now that the responsibility has moved from the 
        CPA to the Council.
  --The need to provide pensions to war veterans, the disabled, widows, 
        etc. This subject was referred to the Woman and Childhood 
        Committee for handling.
  --The reorganization of Council committees and the establishment of 
        their roles and processes.
  --The opening of the 14th of July Bridge.
  --The CPA-approved move of U.S. military units out of the student 
        dormitories at Al-Mustansirya University.

Community Action
    Neighborhood committees in Baghdad received approval for eighteen 
new projects last week. Projects were selected based on their 
contribution to bridging divides within the community. The newly 
approved projects include:
  --Twelve schools. Rehabilitating 4 intermediate schools, 7 primary 
        schools, and one technical school in six Baghdad districts--
        Rashid, Ahdamiyah, Karada, Sadr City, Nissan 9, and Mansour.
  --One center for the disabled. Providing tables, chairs, water 
        coolers, air conditioners, and heaters to a center that serves 
        250 deaf and mute students.
  --Baghdad University. Rehabilitating university administration 
        building and fixing windows of 16 other departments.
  --One soccer stadium. Renovating a soccer field used by more than 600 
        local youths in Baghdad's Rissala neighborhood.
  --One fire station. Rehabilitating looted fire engines at the only 
        fire station in the area.
  --Iraqi Tribe Confederation. Provide administrative support to the 
        center, benefiting 1,000 people.

Community Action Program
    A grant provided by Iraq Community Action Program (CAP) implementer 
Mercy Corps International is providing 140 sewing machines to widows of 
the Iran-Iraq War in Wasit Governorate. Wasit Governorate, along the 
Iran-Iraq border, was devastated during the Iran-Iraq war in the 
1980's. Before March 2003, the Women's Cooperative Society (WCS) in Al 
Kut engaged more than 700 women in sewing and textile-related 
activities under the Productive Families Program. In April 2003, the 
WCS compound was attacked by prisoners released by the former regime, 
forcing the women who worked there to flee. Five WCS buildings were 
subsequently looted, and others burned.
    The grant will allow the WCS to resume assistance to the women of 
Al Kut. In addition to providing sewing machines and training, Mercy 
Corps is renovating WCS's main compound building. The WCS women have 
been commissioned to sew linens and garments for Al Kut area hospitals. 
The program will benefit 150 women.
    In Wasit Governorate, Mercy Corps has completed renovation of the 
Center for Disabled and Orphaned Children in Al Kut. Services provided 
include the replacement of vandalized and looted assets, such as 
furniture, air conditioners, toys and special learning aids. The $8,000 
project benefited 160 people.

    Senator Harkin. And I understand, you've got a lot on your 
plate. But have your people look at that, and talk to your 
boss. I mean, it's not too late to maybe ask this to be put in 
the supplemental. You know, there's a lot of things--we can't 
carve it out, but it should be in the supplemental. It is an 
emergency. And I don't think you would find any opposition to 
it on either side of the aisle for this kind of food aid to be 
put in the supplemental appropriations bill.
    Secretary Rice. Thank you, Senator. We'll look at it. I 
know----
    Senator Harkin. Thank you.
    Secretary Rice [continuing]. We have been incredibly 
generous, as a country, as you know----
    Senator Harkin. We have been.
    Secretary Rice [continuing]. In terms of food aid. But I 
will look at it. I----
    Senator Harkin. And if there's one thing we've got, we've 
got food.
    Secretary Rice. I'll take a look.
    Senator Harkin. We've got a lot of it. Thank you, Madam 
Secretary.
    Thank you, Mr. Chairman.
    Chairman Cochran. Thank you, Senator.
    Madam Secretary, the Senator didn't use all his time. I'm 
going to ask you if you could be indulgent for the purpose of 
hearing questions from Senator Bond, as well.
    Secretary Rice. Of course, Senator.
    Chairman Cochran. Senator Bond.
    Senator Bond. Thank you, Mr. Chairman and Senator Byrd.
    Madam Secretary, I apologize for holding you up. I had to 
be on the floor to introduce a bill. But I had two points I 
wanted to bring up.

                               INDONESIA

    Number one, I visited Banda Aceh 2 weeks after the tsunami, 
and I want to commend all the State Department people, who 
responded magnificently. This was a tremendous effort. We've 
got to restore the funds that Ambassador Pascoe moved quickly, 
got the funds out there. USAID people, all the people in the 
State Department and their spouses were out there loading 
planes. Thank you, and thank them for us. I believe they saved 
literally tens of thousands of people by their quick actions.
    But the question I have--over there, I believe that 
Indonesia and Southeast Asia is really the second front in the 
war on terrorism. And yesterday, Director Porter Goss said that 
he is most concerned about the escalating intensity of 
terrorist activities. One of the questions I asked, and your 
State Department INR witness responded, it seems to me that 
times have changed and that congressional restrictions on 
military assistance in cooperation with Indonesia are actually 
hurting us. The TNI, the Indonesian military, is the one that 
gets--that can get out into the 13,000 islands. Admiral Jacoby 
said it was a problem for him, other witnesses said it was a 
problem for them, because they were not trained together. What 
is your view of, now that we have a government, in Susilo 
Bambang Yudhoyono, who is committed to democracy and human 
rights and cleaning up government, should be our position with 
respect to aid to Indonesia?
    Secretary Rice. Well, Senator, there are two different 
things, one on--in terms of potential further legal aid to 
Indonesia, I think there are a set of things that they still 
need to do. But in terms of IMET training, for instance, which 
President Yudhoyono is, himself, a graduate of, the IMET----
    Senator Bond. The last program, yeah.
    Secretary Rice. Right. I was just saying, I am reviewing 
actively now, and in consultations with Congress, the 
certification of the Indonesians for IMET, given their 
cooperation with the FBI in trying to resolve the Timika case. 
And I expect to come to a determination really rather soon on 
that matter.
    Senator Bond. Madam Secretary, if I can help you out, we 
need to work with the Indonesians, and there is beginning to be 
a real resentment in Indonesian parliaments that they are 
trying very hard, and they are sanctioned by the United States. 
I hope you come to the right decision.

                              SAUDI ARABIA

    The second point I want to raise is one which has deeply 
troubled me--I heard about it on the media. I read the Freedom 
House report--on the influence of the Wahabi religion in the 
United States, and the Government of Saudi Arabia continues to 
make available, through mosques and other places, the extreme, 
bigoted, hateful Wahabiist doctrine, telling people that they 
cannot associate with, or deal with, the infidels. They seem to 
be continuing the practice of promoting that religion, which I 
would have to say is the breeding ground for our own indigenous 
terrorist development, something that FBI Director Mueller said 
was his great concern.
    Has the State Department looked into the Saudi Government, 
and the king of Saudi Arabia, funding and supporting this--
these hateful documents? Now, if you haven't seen the report, 
I'll give you a copy of the report. But what the Freedom House 
found is totally unacceptable. Do you have a position on that?
    Secretary Rice. Well, we are working with the Saudi 
Government on activities that may be funded, particularly 
through nongovernmental organizations and so-called charitable 
organizations that have the effect of spreading hateful 
propaganda or training people or even funding terrorism. It's a 
very active program on the financing of terrorism. We've made 
some progress. The Saudis listed, for instance, one of the big 
charitable organizations, al Haramain, which has been active in 
this way. And we're going to continue to work with them on it, 
because there can't be support for radical extremist activities 
in other countries. I think the Saudis understand that, and 
we're working very actively with them.
    Senator Bond. Thank you, Madam Secretary. I'm not sure they 
understand it, because the comments I paraphrased were from 
documents in the King Fahd Mosque, which bore the imprint, 
``Publication of the Embassy of Saudi Arabia Cultural 
Department.'' That isn't a charity. That is government, not an 
NGO.
    Thank you very much, Madam Secretary----
    Secretary Rice. Thank you very much.
    Senator Bond [continuing]. For your indulgence--Mr. 
Chairman, Senator Byrd.
    Chairman Cochran. Thank you, Senator.
    Senator Byrd, for any closing comments you may have, you 
are recognized.
    Senator Byrd. Just briefly, Mr. Chairman.
    May I thank you again for these extraordinarily good 
hearings? I compliment you. I think you're off to an excellent 
start as the new chairman.
    Also, I think our witness today is off to a very excellent 
start in her presence here before this committee. She has done 
a commendable job this morning, and I compliment her for it. 
I'll be happy to work with her in the future in her overall 
effort.
    In closing, may I say that the President's request includes 
$658 million for construction of the U.S. Embassy in Iraq. 
There's already been comments concerning this by other 
Senators. But, if approved, this would be the most expensive 
compound ever built for a U.S. Embassy. The next most expensive 
construction, $450 million for the U.S. Embassy in Beijing, 
which has a staff of 788. China has 1.3 billion people. U.S. 
businesses have $231.4 billion in trade with China. This 
compares to 25 million people in Iraq and trade with the United 
States of $9.3 billion annually. According to your projections, 
the $20 billion in reconstruction contracts started by the CPA 
and continued by State and Defense staff would be obligated 
within the next 2 years, before we even occupy the new Embassy. 
The President hasn't requested one dime of his $81.9 billion 
supplemental for the veterans' healthcare system. He has not 
requested one dime for improving security at our borders. And 
so, I wonder, how is it that we can afford $658 million for a 
huge new Embassy that will not be occupied for years? Doesn't 
this send a signal--and this is just a rhetorical question, I 
understand you have to go, Madam Secretary--but, to me, doesn't 
this send a signal to the Iraqi people and to the American 
people that the United States intends to have a large permanent 
presence there? I'll leave that for the record.
    Thank you, again, Mr. Chairman. And thank you, Madam 
Secretary.
    Secretary Rice. Thank you, Senator.
    Chairman Cochran. Thank you, Senator Byrd.
    I thank all Senators for their cooperation with the 
committee.
    And Madam Secretary, especially, we are very grateful to 
you for making this time available to discuss with us the 
supplemental budget request submitted by the President that 
affects the State Department and its accounts. We wish you 
continued success as you undertake this very important job for 
our country. I think you are off to a great start. You credit 
our country and every individual citizen in the United States 
in the way you are conducting yourself and carrying out your 
responsibilities as Secretary of State. Thank you for your 
service.

                    ADDITIONAL SUBMITTED STATEMENTS

    Senators McConnell and Craig have asked that their 
submitted statements be made a part of the record.
    [The statements follow:]

             Prepared Statement of Senator Mitch McConnell

    Welcome, Secretary Rice. I appreciate your appearing before the 
Committee today as it underscores the importance the Administration 
places on the pending fiscal year 2005 Emergency Supplemental.
    I will keep my remarks short today as the best use of time is 
undoubtedly for questions and answers. Let me make a few, brief 
observations.
    First, the State Department, USAID, and the Department of Defense 
deserve recognition and praise for the immediate and effective response 
to the Asian tsunami last month. America reaffirmed its role as the 
world's sole superpower in responding to a crisis literally half a 
world away in a generous and timely manner. There has been nothing 
cheap about our response--whether from taxpayer funds or the kindness 
of private donations from the American people.
    Second, having returned from a trip to Kabul just last month, I am 
pleased to see proposed funding for a number of important programs in 
Afghanistan, including infrastructure and economic development, 
democracy and governance, counternarcotics, and police training. With 
parliamentary elections on the horizon this spring, it is imperative 
that we assist the Afghan people in solidifying their already notable 
gains. To this end, I encourage the State Department to continue 
funding the important civic education work of Voice for Humanity that 
reaches rural, illiterate Afghan women.
    Of concern is the narcotics trade. President Karzai believes that 
he can get control of poppy growth without aerial eradication, and our 
counterdrug assistance in the Supplemental--and the fiscal year 2006 
budget request--is critical to this end. I note that the combined 
budget request for Afghanistan totals nearly $3 billion: $1.9 billion 
in the supplemental and $920 million in the budget request.
    Finally, I share the view that the United States should help those 
who help us in the Global War on Terror. In Franklin Roosevelt's words, 
America is indeed the ``great arsenal of democracy''. The Supplemental 
request contains $200 million for a new Global War on Terror Partners 
Fund, and I hope you will shed light on how this account will work, and 
which partners will receive funding.
    Again, welcome Secretary Rice.
                                 ______
                                 
               Prepared Statement of Senator Larry Craig

    Mr. Chairman, thank you for holding this hearing and thank you, 
Madame Secretary, for appearing today to discuss the supplemental 
request and the global war on terror.
    Madame Secretary, as the United States continues to embark on our 
efforts to fight terror, it is no secret that realistically our 
fighting men and women are on the verge of being stretched thin. That 
being said, in regards to our policies toward adversaries like Syria, 
Iran, North Korea and others, I ask you this: what is our overall 
policy of engagement?
    As you know, this country was extremely successful in engaging the 
Soviet Union, China, and recently Libya. Few bullets were ever fired, 
and the result of our active engagement with some of these countries 
has paid off with stronger diplomatic ties and economic exchange.
    My question to you, is our new foreign policy toward adversaries a 
policy of isolation? Have we completely backed off the idea of dialogue 
and engagement? How many, if any, carrot-and-stick approaches do we 
have with these adversaries?
    I ask these questions because I am concerned that we are on the 
brink of solely relying on our military to achieve our end game. This 
country has had a remarkable record of engagement and dialogue. Even 
with an apparent enemy we have sometimes produced unexpected 
achievements.
    It is no secret that I am completely disappointed in our approach 
toward Cuba--a country that could change in due time if we engaged them 
through other means, instead of isolation. We did engage with the 
Soviet Union and are engaging with China. As a matter of fact, I 
probably agree wholeheartedly with Larry Wilkerson, Colin Powell's 
former Chief of Staff when he said recently that our policy toward Cuba 
is the, ``Dumbest policy on the face of the earth. It's crazy.'' Our 
isolationist policy of over 45 years has not produced any of its goals, 
and that dictator remains.
    I fear that if we take the same approach toward Syria, Iran, and 
North Korea as we have with Cuba, realistically the only option we have 
left, if we want change, is a military option. I say this because our 
military is stretched thin and not in a position to effectively engage 
in some new areas. If we don't actively engage specific countries 
through other means, those terrible dictators and governments will 
remain.
    I am reminded of a quote by President Bush a couple years ago 
regarding economic engagement. He said:

    ``Open trade is not just an economic opportunity, it is a moral 
imperative. When we negotiate for open markets, we are providing new 
hope for the world's poor. And when we promote open trade, we are 
promoting political freedom. Societies that open to commerce across 
their borders will open to democracy within their borders, not always 
immediately, and not always smoothly, but in good time.''

    Now, I am not saying that we economically engage all of these 
countries in question; what I am getting at is the fact that we cannot 
continue to rely on our military for every engagement and achievement.
    With that, it is my hope that U.S. Foreign Policy doesn't diverge 
from all foreign policy options to produce intended results. I can 
honestly tell you that the people of this country, and my state, will 
hesitate to support future military engagements with other countries if 
the tools and means were there to do otherwise and achieve similar 
results.
    I look forward to hearing from you about U.S. foreign policy and 
engagement as we proceed in this war on terror.
    Thank you.

                     ADDITIONAL COMMITTEE QUESTIONS

    Chairman Cochran. If there are any additional questions 
from members, they will be submitted to you for your response.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

            Questions Submitted by Senator Pete V. Domenici

    Question. Please update the Committee on the status of the 
negotiations and whether or not you are optimistic regarding the 
outcome of these discussions?
    Answer. On January 27, the United States provided the Russian 
Federation a new proposal to resolve the liability issue for 
cooperation on Russia's plutonium disposition program. The proposal 
addresses some key Russian concerns. A constructive round of experts 
talks began on February 17, the first opportunity the Russian side 
could meet, and the U.S. side anticipates holding the following round 
in mid-March. We will continue to pursue an intensive schedule of talks 
to clarify and resolve remaining issues before the Presidents meet 
again in May in Moscow. In order to reach a solution, the Russian 
Government will also, for its part, need to find flexibility in areas 
of concern to the United States. I am confident that if the Russian 
Government wants to resolve the liability issue and to pursue the 
cooperative program for converting surplus weapon-grade plutonium into 
forms unusable for weapons, a solution acceptable to both sides can be 
found.
    Question. Will you guarantee that we have seen the last of the 
interagency fights that have delayed this program and that you will 
work with Secretary Bodman to implement this program as soon as 
possible?
    Answer. The Department of State and the Department of Energy will 
continue to work very closely to bring to fruition the U.S.-Russian 
cooperation on plutonium disposition in the earliest possible time 
frame. We have found ways to move forward with Russia on design and 
licensing to avoid unnecessary delays in the program, while working in 
parallel on funding, management, and liability protection. The 
interagency--including other interested agencies such as the Department 
of Defense and the Office of Management and Budget--has worked hard 
this last year to develop a sound proposal for resolving the liability 
issue, and the U.S. experts team has authority to negotiate on that 
proposal. Not every issue can be anticipated in such negotiations, and 
Russia will need to find some flexibility in its previous positions 
just as we have demonstrated flexibility in ours. I am confident that 
the involved agencies have worked and will work constructively to bring 
these negotiations promptly to successful conclusion.
    Question. Do you believe the Russian Federation has done enough to 
secure their own nuclear materials and do you believe the Russians have 
an accurate inventory of their own nuclear material and where it is 
located today?
    Answer. To date, Russian security measures for their fissile 
material are limited compared to the challenges they face, and we are 
working closely with Moscow to make further improvements. Our joint 
work is increasing both the physical protection measures against armed 
attack, as well as the controls and accounting needed to prevent 
illicit diversion of fissile material by insiders.
    The Russian system for accounting for their fissile material is of 
uneven quality. Some of the control system still in use was inherited 
from the Soviets and features a paper-based system that lacks the 
careful accounting for fissile material needed to prevent illicit 
diversion by insiders. We are working with the Russians to promptly 
deploy a more advanced system of fissile material accounting at all 
their fissile material facilities. Recent agreement at the Bratislava 
summit to develop a plan for such security upgrades is designed to 
further accelerate progress in this important area.
    Question. If not, what do you propose to improve this relationship 
so that we might be able to ensure that it is no longer a proliferation 
threat?
    Answer. We have been working jointly with Moscow to improve nuclear 
security in Russian for over a decade. Both countries share the 
objective of ensuring that fissile material and WMD is secured against 
terrorists and the states that support them. We believe we are 
continuing to make progress on improving nuclear security but if we 
encounter challenges we will work closely with senior Russian officials 
to address them.
    At the recent Bratislava summit the Presidents agreed to continue 
to work closely to improve nuclear security and their experts will 
report back to them on these efforts before the Presidents meet again 
in July.
    Question. Can you please update the committee on the status of the 
nuclear programs of Iran and North Korea and what is being done to 
address this threat?
    Answer. We believe that Iran is continuing its program to develop 
nuclear weapons. Its nuclear fuel cycle programs are applicable to 
producing fissile material for nuclear weapons and, as currently 
configured, are not consistent with the scale of Iran's planned nuclear 
energy production program. Our current activities are focussed on 
achieving a permanent cessation of those fuel cycle activities that 
would provide Iran with a fissile material production capability. 
Russia has agreed to supply low enriched uranium fuel for the Bushehr 
nuclear power plant it has built in Iran with the stipulation that 
Russia will take back the spent fuel from the reactor. The United 
States has urged Russia not to supply such fuel until the questions 
that have been raised about Iran's nuclear program have been resolved.
    International Atomic Energy Agency (IAEA) Director General 
ElBaradei has issued numerous written reports that document Iran's 
covert nuclear activities over a period of at least 18 years. There is 
no evidence that Iran has yet succeeded in operating enrichment 
facilities. Nonetheless, the infrastructure that Iran is establishing--
particularly in its gas centrifuge enrichment program--could, once 
fully operational, produce significant amounts of weapons-grade fissile 
material.
    In October 2003, Iran reached agreement with the United Kingdom, 
France and Germany (the EU3) to suspend its enrichment-related and 
reprocessing activities in exchange for expanded cooperation in a 
variety of areas, to include the peaceful uses of nuclear energy. Iran 
never fully implemented this suspension, but in the ensuing months the 
EU3 pressed for a more detailed agreement on activities covered under 
the suspension. That agreement was reached on November 14, 2004, and 
specifies, inter alia, the following activities: centrifuge 
manufacture, assembly, installation, testing and operation, as well as 
any ``tests and production for conversion at any uranium conversion 
installation.''
    The IAEA is continuing to monitor and verify Iran's adherence to 
its November 14 commitment to suspend all enrichment and reprocessing-
related activities. We are deeply concerned by reports that Iran is 
pressing the limits of its suspension promise and expect the IAEA to 
report to the Board of Governors any Iranian violations of that pledge.
    Other actions by Iran also are cause for concern. For example, Iran 
has defied repeated calls by the Board of Governors to reconsider its 
decision to start construction of a heavy water research reactor. Iran 
continues to refuse full access to IAEA inspectors visiting certain 
nuclear sites. Iran has announced it intends to open a uranium ore 
concentrate production plant near Bandar Abbas within a year. Iran 
continues to prolong conversion activities at the Esfahan uranium 
conversion facility (UCF) and failed to notify the IAEA in a timely 
fashion that it was constructing tunnels at that facility.
    These and other activities suggest that Iran has no intention of 
abandoning its pursuit of fissile material production capability. Given 
Iran's history of clandestine nuclear activities, grudging cooperation 
with the IAEA, and documented efforts to deceive the IAEA and the 
international community, only the full cessation and dismantling of 
Iran's fissile material production efforts can give us any confidence 
that Iran is no longer pursuing a nuclear weapons capability.
    The United States has long stated that the IAEA Board of Governors 
must report Iran's documented noncompliance with its Safeguards 
Agreement to the United Nations Security Council. The Board has a 
statutory obligation to do so, but has thus far failed to take that 
step. While the IAEA must continue to have a role in investigating 
Iran's past and ongoing nuclear activities and in monitoring its 
suspension pledge, the Security Council has the international legal and 
political authority that we believe will be required to bring this 
issue to a successful and peaceful resolution. The Council has the 
authority to require that Iran take all necessary corrective measures, 
including those steps called for by the Board that Iran has failed to 
take. The Security Council has the authority to require and enforce a 
suspension of Iran's enrichment-related and reprocessing activities. In 
each of these areas, the Security Council can support and reinforce the 
IAEA's ability to pursue its investigations in Iran until the Agency 
can provide this Board with all necessary assurances.
    On February 10, the North Korean Foreign Ministry issued a lengthy 
statement, including the assertion that the North has ``manufactured 
nuclear weapons for self-defense . . .'' The statement also said that 
the DPRK ``will inevitably suspend participation in the Six-Party Talks 
for an indefinite period . . .'' but added ``there is no change in the 
[DPRK's] principled stance of resolving the issue through dialogue and 
negotiations and in the ultimate goal of denuclearizing the Korean 
Peninsula.''
    The United States publicly assessed in the mid 1990s that North 
Korea had produced one, or possibly two, nuclear weapons. Since that 
assessment, North Korea has engaged in further nuclear weapons 
activities.
    The recent North Korean statement highlights our long-standing 
concerns and reflects a history of the DPRK not respecting its 
international commitments and obligations, including the 1992 North-
South Joint Declaration on Denuclearization of the Korean Peninsula, 
the 1994 Agreed Framework, the Nuclear Non-Proliferation Treaty (NPT), 
and its NPT Safeguards Agreement with the IAEA. The United States 
continues to call for the permanent, thorough and transparent 
dismantlement of North Korea's nuclear programs, subject to effective 
verification. Dismantlement would have to include the DPRK's uranium 
enrichment program, the existence of which the DPRK continues to deny, 
despite its earlier admission of such a program in October 2002 and 
reports of A.Q. Khan's activities.
    The United States continues to believe that the Six-Party Talks are 
the best opportunity for North Korea to chart a new course with the 
international community. In June 2004, we tabled a fair and reasonable 
proposal that the North has not answered. At that meeting, we told 
North Korea that if it made the strategic decision to give up its 
nuclear weapons and nuclear program, including both its plutonium and 
uranium enrichment activities, and agreed to dismantle their nuclear 
program and weapons completely, verifiably and irreversibly, our 
proposal would provide for corresponding steps, including multilateral 
security assurances and progress toward a new political and economic 
relationship with the United States, the other members of the Six-Party 
Talks, and the entire international community.
    There is unanimous agreement among five members of the Six-Party 
process that North Korea should immediately re-engage in Six-Party 
Talks and commit to ending its nuclear ambitions permanently. For our 
part, we are ready to return to the Six Party Talks at an early date 
without preconditions.
    Three rounds of Six-Party Talks (August 2003, February 2004, and 
June 2004) have been aimed at ending North Korea's pursuit of nuclear 
weapons. Although all parties agreed to reconvene by the end of 
September 2004, the DPRK has so far refused to do so, offering a 
variety of pretexts--including what it calls ``U.S. hostile policy'' 
and the recently passed North Korean Human Rights Act. We have 
repeatedly explained to North Korea, including in meetings with the 
DPRK U.N. Ambassador in New York in November and December, that the 
United States does not have a hostile policy and has no intention of 
invading or attacking North Korea. We have also explained to them the 
purpose of the North Korean Human Rights Act.
    We have been consulting with our Six-Party partners on next steps. 
The Secretary met with ROK Foreign Minister Ban on February 14. In 
addition, we announced on February 14 that Ambassador Christopher Hill 
will take over as head of the U.S. delegation to the Six-Party Talks. 
We continue consultations at all levels with each of the four Six-Party 
partners.
    Question. Are there any other opportunities you believe the United 
States could pursue that might help break the current stalemate?
    Answer. The United States has pursued vigorously a diplomatic 
solution to address the threats posed by Iranian and North Korean 
nuclear weapons programs.
    While the Administration cannot take any option permanently off the 
table, we have consistently stated that we believe both these issues 
can be resolved diplomatically and peacefully. We will continue to work 
toward that end in close cooperation with our friends and allies.
    Question. As the Secretary of State, will you commit to using your 
considerable influence to move more aggressively to secure agreements 
with the countries that have yet to repatriate their Russian or U.S.-
origin fuel?
    Answer. The Department of State has been working closely with the 
Department of Energy to create and implement the new Global Threat 
Reduction Initiative (GTRI) announced by Secretary Abraham last May. 
The primary focus of that program is to expand and accelerate U.S. 
efforts to secure dangerous nuclear and radiological materials 
worldwide. State's role in GTRI is to use whatever diplomatic tools are 
available to educate and persuade countries holding such materials of 
the importance of improving their security and converting them to less 
threatening forms as soon as possible. I and the State Department are 
fully committed to making this effort succeed.
                                 ______
                                 
           Questions Submitted by Senator Christopher S. Bond

    Question. Yesterday at the intelligence hearing I discussed the 
threat of terrorism and the second front of the war on terrorism in 
Southeast Asia with Director Goss. I am greatly concerned with the 
Jema'ah Islamiyah (JI) which has put Indonesia on the front line of the 
global war against terror. We know the JI is aligned with al Qaeda in 
Indonesia and the Philippines and actively working to expand their 
influence in the region. This is why I applauded Chairman McConnell in 
providing $1 million in FMF funds to the Government of Indonesia for 
maritime security. As you know, the Strait of Malacca is a vital choke 
point for international shipping and potentially vulnerable to 
terrorist activity if we do not take the initiative with the Government 
of Indonesia in building its maritime security forces.
    What is the impact on our ability to support the Government of 
Indonesia if the Congress maintains sanctions on the Government of 
Indonesia?
    Answer. Current sanctions apply to providing equipment to the 
Indonesian Armed Forces. The United States provides training and 
education to the Armed Forces through the Defense Department's Regional 
Defense CT Fellowship (RDCTF) program and the International Military 
Education and Training (IMET) program. The United States also provides 
assistance for reform and counterterrorism purposes to the Indonesian 
National Police (INP), which has the lead role in domestic security 
functions.
    Legislative sanctions on Indonesia in section 572(a) of the 2005 
Foreign Operations Appropriations Act restrict the export of lethal 
defense articles and use of FMF funds for the Indonesian Armed Forces 
(TNI) until the Secretary of State certifies that certain conditions 
are met, including countering international terrorism in a manner 
consistent with democratic principles and the rule of law, prosecuting 
and punishing members of the Armed Forces guilty of gross human rights 
violations, cooperating with civilian judicial authorities and with 
international efforts to resolve cases of gross violations of human 
rights in East Timor and elsewhere, and greater transparency and 
accountability in military finances. (The only exception, in section 
590(a) of the FOAA, is the ability to provide $1 million in FMF for the 
Indonesian Navy, if the Secretary of State certifies that the 
Indonesian Navy is not violating human rights and is cooperating with 
investigations into alleged violations of human rights.) Concrete steps 
must be taken by Indonesia to address the requirements of section 
572(a), before any further FMF assistance is provided.
    Through IMET, we seek to begin to incrementally improve TNI's 
capability to fulfill its legitimate role in Indonesia's emerging 
democracy, in coordination with demonstrated and concrete improvements 
in their respect for human rights and accountability to the civilian 
government. The RDCTF program also builds capacity for TNI's legitimate 
security role. This balanced approach is necessary so that our support 
for the Government of Indonesia engenders sustainable results and 
remains consistent with democratic principles.
    The equipment restrictions have the greatest impact in areas where 
there is limited or no civilian law enforcement capability, or where 
the military plays a significant collaborative role. Currently the 
Indonesian Armed Forces have significant roles in fields such as 
maritime security, intelligence, mobility, logistics, border security 
and communications, which are hampered by inadequate government 
budgets. They are also responsible for providing assistance to the INP 
in any situations exceeding police capabilities.
    Question. I understand the Department of State has not yet provided 
the certification necessary to release the $1 million in FMF for the 
Government of Indonesia. Can you tell us the status of the 
certification process?
    Answer. Section 590(a) of the Foreign Operations, Export Financing, 
and Related Programs Appropriations Act, 2005, authorizes $1 million in 
FMF assistance for the Indonesian Navy if the Secretary of State 
certifies to Congress that the Indonesian Navy is not violating human 
rights and is cooperating with investigations into alleged violations 
of human rights.
    Consistent with this requirement, the Department is investigating 
reports of potential human rights violations by the Indonesian Navy. 
Indonesian democracy has advanced significantly since former President 
Suharto stepped down, but its democratic institutions and civil-
military relations are still developing. We hope to provide the 
certification as soon as we can determine it is warranted.
                                 ______
                                 
             Questions Submitted by Senator Mitch McConnell

    Question. The assassination of former Lebanese Prime Minister 
Hariri is deeply troubling, particularly as there appears to be much 
finger-pointing in Beirut towards Syria. What actions do you anticipate 
taking should Syria's complicity--directly or indirectly--be determined 
in this murder?
    Answer. At this point we do not know who is responsible for the 
brutal murder of former Prime Minister Hariri and 18 others on February 
14, 2005. Those responsible for this heinous attack must be brought to 
justice as soon as possible.
    We support the United Nations Secretary General's appointment of 
Mr. Peter Fitzgerald to head an independent U.N. commission of inquiry 
to examine the causes, circumstances, and consequences of the Hariri 
murder.
    We expect cooperation without reservations from both the Lebanese 
and Syrian authorities with the Fitzgerald team. We look forward to the 
report to the U.N. Secretariat on the results of the inquiry.
    Question. What programs or activities is State doing to bolster 
democracy and the rule of law in Lebanon?
    Answer. We support several programs which bolster Lebanese 
democracy and reform. Through our AID programs and MEPI grants, we are 
strengthening the foundation for good governance and civil society in 
Lebanon, including improving municipal governance, media training, 
supporting civic education, and increasing Parliament's responsiveness. 
IMET funding reinforces the democratic principle of civilian control of 
the military as well as reduces sectarianism in one of the country's 
major institutions.
    However, progress is hampered by the legacy of the civil war, the 
presence of Syrian forces and continued Syrian interference in Lebanese 
politics. We will therefore continue calling for the implementation of 
U.N. Security Council Resolution 1559, including the full and immediate 
withdrawal of all Syrian military and intelligence forces. We will also 
continue to insist that Lebanon's forthcoming parliamentary elections 
must be verifiably free, fair, and competitive, conducted without 
outside interference, and guaranteed by international observers.
    Question. The supplemental request contains $240 million for 
democracy and governance activities in Afghanistan. How will these 
funds support parliamentary elections this spring?
    Answer. Of the allotted $240 million in the supplemental request, 
$60 million has been set aside for elections and democracy programs. 
The United States will use these funds to make a contribution to cover 
some of the operational and logistical activities of the United Nations 
Assistance Mission in Afghanistan (UNAMA)--the primary organization 
responsible for the conduct of the elections. We expect other donors 
also to contribute funding for the costs of U.N. support of the 
elections.
    The democracy and elections funding will also cover the activities 
of other international organizations and non-governmental organizations 
(NGOs) in support of the elections. These organizations will implement 
programs to register voters, provide logistical and other operational 
support for the elections, conduct voter and civic education, and 
provide elections observers. In addition, the funding will cover 
programs to train parliamentarians, provincial and district council 
members.
    As in the October 2004 presidential election, the media will play 
an essential role in providing civic education and critical coverage of 
and information about the upcoming elections. Therefore the United 
States will also support independent media through funding for radio 
broadcasting and professional training for journalists for the 
elections.

                            UKRAINE/BELARUS

    Question. The supplemental request contains $60 million to further 
democratic gains in Ukraine.
    Are any funds intended to support the Chernobyl sarcophagus?
    Answer. No. The Administration has not asked for any funds to 
support the Chernobyl sarcophagus as part of the fiscal year 2005 
supplemental request. Since 1997, the USG has committed $158 million of 
the $717 million pledged by 26 countries and the European Commission to 
safely confine the aging sarcophagus. The EBRD now estimates that the 
total cost of the project will reach $1.091 billion. It is unclear if 
the international community will be able to fund the shortfall.
    Question. Are the Russians paying their fair share of the Chernobyl 
sarcophagus?
    Answer. The Chernobyl decommissioning and the shelter 
implementation project are being paid for by a consortium of 26 
international donors. The Russian Federation has not contributed to 
this effort. Russia takes the view that it was not part of the G7 
agreement on this with the government of Ukraine, but now that Russia 
is within the G8, we have the prospect of persuading them. We have 
pressed them on this issue and we expect to continue to do so.
    Question. Given the success of elections in Ukraine in advancing 
democracy in the region, why were no funds requested to promote freedom 
in Belarus?
    Answer. While we agree that promoting democracy and freedom in 
Belarus are worthy goals, and we will devote virtually all of the $6.5 
million in fiscal year 2005 Freedom Support Act funding for Belarus to 
that effort, we also recognize that promoting freedom in Belarus is an 
ongoing and long-term effort. Therefore the judgment was made that this 
was not appropriate for an emergency supplemental request. 
Nevertheless, we have asked for additional money for fiscal year 2006 
to work for freedom in Belarus.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Question. What programs or material support is contemplated through 
the $50 million to improve the flow of Palestinian goods and services?
    Answer. The USG supports establishing a World Bank-recommended 
pilot program to upgrade and improve the passages through which 
Palestinian goods and people transit to Israel and the rest of the 
world. This project will help ensure that Israeli security needs are 
met as disengagement goes forward, and will respond to Israel's 
continuing effort to find the appropriate balance between the 
imperative need to respond to terrorism and the humanitarian interests 
of the Palestinian people.
    This is urgently needed in order to help the Palestinian economy 
recover and become less dependent on outside assistance, something in 
the mutual interest of the USG, Palestinians, Israelis and the donor 
community. Such a pilot program would focus on a total management 
approach to improving the crossings. The project could include the 
provision of the latest generation of cargo scanners and other 
technology to ensure that freedom of movement and security concerns are 
addressed. It would also lower the cost of doing business by improving 
the infrastructure, technology, efficiency, and professionalism of the 
crossings.
    To this end, we would use $50 million of the supplemental to 
contribute to such a project. We anticipate underwriting mutually 
agreed-upon programs through U.S. direct procurement of goods and 
services or other mechanisms as appropriate. We would implement the 
project in coordination and cooperation with the Palestinian Authority, 
the Israeli government, the World Bank, and the broader donor 
community.
    Question. Is Israel the intended recipient of this assistance?
    Answer. The main goal of the supplemental assistance is to help 
both Palestinians and Israelis move forward together on key economic 
issues that must be addressed in order seize the opportunity for peace.
    Chief among these economic issues is improving the flow of 
Palestinian goods and people. Accordingly, the USG supports 
establishing a World Bank-recommended pilot program to upgrade and 
improve the passages through which Palestinian goods and people transit 
to Israel and the rest of the world. This project will help ensure that 
Israeli security needs are met as disengagement goes forward, and will 
respond to Israel's continuing effort to find the appropriate balance 
between the imperative need to respond to terrorism and the 
humanitarian interests of the Palestinian people.
    This project is urgently needed in order to help the Palestinian 
economy recover and become less dependent on outside assistance, 
something in the mutual interest of the USG, Palestinians, Israelis and 
the donor community. Such a pilot program would focus on a total 
management approach to improving the crossings. The project could 
include the provision of the latest generation of cargo scanners and 
other technology to ensure that freedom of movement and security 
concerns are addressed. It would also lower the cost of doing business 
by improving the infrastructure, technology, efficiency, and 
professionalism of the crossings.
    To this end, we would use $50 million of the supplemental to 
contribute to such a project. We anticipate underwriting mutually 
agreed-upon programs through U.S. direct procurement of goods and 
services or other mechanisms as appropriate. We would implement the 
project in coordination and cooperation with the Palestinian Authority, 
the Israeli government, the World Bank, and the broader donor 
community.
    Question. Why does the $200 million supplemental request exclude 
funding for the West Bank and Gaza from restrictions contained in 
current law-specifically, restrictions on funding for the Palestinian 
Authority?
    Answer. The President requested the notwithstanding authority to 
allow us maximum flexibility to implement assistance quickly for 
Palestinians. We will, of course, keep the Hill fully informed of our 
proposed programs.
    Question. Will assistance be provided directly to the PA, and if 
so, for what purpose?
    Answer. We do not have any plans to provide direct budget support 
to the Palestinian Authority at this time, but would like to keep the 
option available, particularly in light of the PA's estimated $500 
million budget gap for 2005. We are encouraging others, including Arab 
states, to contribute to the PA in order to mitigate this budgetary 
shortfall. In December 2004 the President utilized the waiver authority 
provided in section 552(b) of the Consolidated Appropriations Act, 2004 
to provide $20 million in budget support to the PA Finance Ministry to 
pay utility bills in arrears to Israel; we also provided $20 million in 
budget support to the PA in June 2003 for payment of utility bills and 
badly needed infrastructure improvements. USAID has maintained a 
complete accounting of these funds.
    Question. How will State and USAID ensure that assistance for the 
West Bank/Gaza will not benefit--directly or indirectly--terrorists or 
terrorist organizations, including Hamas?
    Answer. This is an issue we take most seriously. The U.S. 
Government, working through USAID, maintains close accounting of all 
USG funds. Working with the full range of agencies and resources 
available at Embassy Tel Aviv and Consulate General Jerusalem, USAID 
carries out background checks on all Palestinian NGOs that are 
recipients of funds to ensure there are no links to terrorist 
organizations or to organizations that advocate or practice violence. 
We have confidence in the fiscal accountability and transparency 
established by the PA through the efforts of PA Finance Minister 
Fayyad.
    USG assistance is not provided directly to the PA but is channeled 
primarily through existing mechanisms, including United States, 
Palestinian, and international NGOs. Since 1995, the GAO has conducted 
five separate program reviews, one each in 1995, 1996, 1997, 1998, and 
2003. None of these reviews has reported any irregularities in the 
management or controls of ESF funds by USAID or its contractors and 
grantees. Since then, the USAID Mission has developed a comprehensive 
risk assessment strategy. All Mission institutional contracts and 
grants--of which there are approximately 100--are audited on an annual 
basis by local accounting firms under the guidance and direction of 
USAID's Inspector General.
    The United States also funds a program in the West Bank and Gaza to 
help ensure UNRWA's facilities are not being misused for political 
purposes or militant activity. Operation Support Officers (OSO's) 
regularly visit and inspect UNRWA facilities. We also receive a report 
every six months from UNRWA noting any abuse, or attempted abuse, of 
its facilities. In this regard, UNRWA has an excellent record.
    Question. How much have Arab states pledged to the Palestinians, 
and how many of these pledges remain unmet? Have there been any 
additional pledges since the election of Abu Mazen?
    Answer. The IMF provides the USG with updates on contributions to 
the Palestinian Authority. Major contributors since 2002 include: Saudi 
Arabia, which has provided bi-monthly budgetary support in the amount 
of approximately $15 million; Libya (contributed $11 million in 2004); 
and Tunisia (contributed $2 million in 2004). Several other Arab states 
made pledges to the Palestinian Authority in 2002, which currently 
remain unmet. We are encouraging them, and others, to recognize the 
opportunity that now exists and do what they can to help the PA close 
its budget gap and support the new PA leadership as it moves forward 
with reforms and a renewed dialogue for peace.
    Question. Is the United States satisfied with the amount pledged by 
Arab states? What more could they be doing to help further prospects 
for peace?
    Answer. The Administration recognizes that this is the most 
promising moment for progress between Israelis and Palestinians in 
recent years and we will do all we can to take advantage of this moment 
of opportunity in the weeks and months ahead. This includes encouraging 
the international community to play a key role in supporting Israeli 
and Palestinian efforts. We want to work with others, in particular 
Gulf Arab states that have made financial commitments to the 
Palestinians to do more to provide much needed financial support. We 
are urging them to help strengthen the Palestinian Authority at this 
crucial point by providing additional financial assistance.
    Other nations in the region have a wider responsibility to support 
peace and reconciliation, as well as following through or increasing 
their financial assistance to the Palestinians. Securing additional 
assistance in the near term can reinforce to Palestinians the 
international community's commitment to support and strengthen the PA.
    Recently, Egypt and Jordan reaffirmed their critical roles in 
supporting the peace process: Egypt hosted the February 8 summit at 
Sharm El Sheikh where the basis for a cease fire was agreed upon by the 
Israelis and the Palestinians, and Jordan has agreed to reinstate 
formal diplomatic relations. These are important steps in bringing 
stability to the region and in helping to resolve future disagreements.
    Question. What safeguards do State and USAID contemplate to ensure 
that tsunami assistance does not fall victim to corruption?
    Answer. The Administration takes very seriously our duty to the 
American taxpayers to ensure all U.S. assistance is used effectively 
and for its intended purpose. All USAID grants and contracts are 
subject to strict monitoring and financial audits, which require 
implementing partners to establish financial and accounting practices 
that safeguard U.S. Government funds. USAID will be working with its 
Office of Inspector General (OIG) to ensure the required financial and 
performance audits are conducted. The OIG participates directly with 
USAID's Tsunami Relief and Reconstruction Task Force in Washington, and 
the OIG's regional office in Manila is coordinating with Missions in 
the affected countries.
    Question. How does State intend to pursue opportunities for 
engagement with Indonesia on Aceh, specifically, and in overall 
relations with Indonesia, generally?
    Answer. The successful cooperation between the United States and 
Indonesian governments in responding to the December 26 tsunami with 
almost immediate relief and recovery efforts offers an excellent 
opportunity to build on that momentum in order to strengthen relations 
with Indonesia. In order to help resolve the separatist conflict in 
Aceh, we will continue our support of the Yudhoyono administration's 
efforts to engage the Free Aceh Movement (GAM) in peace talks. We have 
communicated our belief that the conflict in Aceh cannot be resolved 
through military means and that any negotiations must include Acehenese 
civil society. In this way, those who have paid the highest cost of 
both the conflict and the devastating tsunami will have a voice in how 
rehabilitation and reconstruction efforts move forward. In the wake of 
the tsunami, we have seen both overall violence and human rights abuses 
committed by the Indonesian military (TNI) and GAM decrease. Acehenese 
civil society has responded to this opening of social and political 
space by becoming a more visible and active force. We have encouraged 
the GOI to use this momentum to find a peaceful solution that will not 
only end the conflict in Aceh, but also result in the overall 
strengthening of Indonesia's democracy. In addition, the certification 
of full International Military Education and Training (IMET) programs 
will help to raise the professional standards of TNI, offering training 
in respect for democratic institutions and human rights. Military 
reforms are essential in completing Indonesia's democratic transition, 
and to improving Indonesia's human rights record. We will also continue 
to pursue justice on the Timika investigation, an issue of utmost 
importance to our bilateral relationship. We support President 
Yudhoyono's efforts to fight corruption and improve Indonesia's economy 
and investment climate. To that end, Aceh could serve as a model for 
increased political decentralization and decision-making, improved 
transparency, and best practices for preventing corruption in the 
distribution of financial aid and other resources. As the Indonesian 
government transitions from relief to reconstruction activities in 
Aceh, the United States will be deeply engaged in long-term 
infrastructure development projects both inside and also outside Aceh. 
This poses an excellent opportunity to engage in a new dialogue on 
business climate reform and foreign investment, key issues in President 
Yudhoyono's electoral campaign. Our exchange and training programs that 
are part of the President's Education Initiative in Indonesia also 
present a new avenue of engagement that will strengthen cultural 
exchange, improve the quality of teaching and learning, and help 
Indonesia prepare its youth to be effective participants in a 
democratic society that works to reduce intolerance.
    Question. Do you see a requirement for additional tsunami-related 
assistance in the future?
    Answer. The international outpouring of assistance to tsunami 
victims has been truly remarkable. USAID reports that, as of February 
8, just over $7.8 billion has been pledged in bilateral aid, as well as 
from the multilateral development banks. In addition, corporations and 
private citizens around the world have donated extremely generously. 
Drawing from publicly available sources, USAID reports that over $2.9 
billion has been raised from private sources world-wide.
    Early damage assessments indicate reconstruction costs will be 
between $1.5-$2 billion in Sri Lanka, between $3.5-$4.5 billion in 
Indonesia and $304 million for the Maldives. India has announced plans 
for a $2.3 billion reconstruction program and expressed interest in 
World Bank support. Thailand has not requested international financial 
assistance, but has asked for U.S. technical assistance. While there 
may be some upward revision of these figures as full needs assessments 
are finalized, we do not anticipate significant changes. Given the 
resources already pledged, we do not anticipate any further U.S. 
funding beyond the President's $950 million request.

                                  IRAQ

    Question. Given the success of Voice for Humanity's (VFH) pilot 
project in Iraq in support of parliamentary elections, what plans does 
the State Department have for expanding these activities to support 
future polls?
    Answer. The U.S. Department of State's Bureau for Democracy, Human 
Rights, and Labor (DRL) seeks to support innovative, cutting-edge 
democracy programs with its Human Rights and Democracy Fund, and is 
proud to have provided the initial funding for the Voice for Humanity's 
(VFH) first Afghanistan project, in partnership with the International 
Republican Institute (IRI). USAID then funded a second project to 
support the October 9, 2004, presidential election. USAID funded the 
third project, undertaken in Iraq, which helped build support for 
national unity and the January 30, 2005, national elections among the 
rival tribal and religious groups.
    VFH specializes in using technology to deliver information and 
training in the context of indigenous social networks. In Afghanistan 
and Iraq, VFH has implemented civic education projects to reach people 
in remote areas who were the most resistant to the messages of 
democracy and human rights. In Iraq, those who listened to the VFH 
programs reported that listening helped them decide to vote.
    The Department of State and USAID are currently in discussion with 
VFH on a variety of projects worldwide, including support for future 
polls in Iraq, and will notify Congress of any projects we seek to 
fund.
    Question. Given the portability of VFH's devices, is the State 
Department willing to find VFH programs targeted toward Iran and North 
Korea?
    Answer. VFH has developed a solar powered, handheld digital audio 
player to convey in-depth and consistent information that respects the 
known and trusted relational networks relied upon by oral 
communicators. VFH's simple to use device, called a Voice player, is 
capable of playing over 80 hours of indexed content, depending on the 
size of the memory chip. Modular ``plug and play'' chips make it a 
potential oral library of valuable information and educational 
materials. Among its features, the Voice player can provide reference 
and educational information in a format that can be replayed, 
discussed, and shared with others.
    The portability of VFH's devices make them a useful way to 
communicate information and education about democracy, human rights, 
and political freedom at the grassroots level. While the results are 
still being evaluated, we recognize the potential applicability of 
these devices to closed societies, such as Iran and North Korea.
    With respect to Iran, the fiscal year 2005 appropriation for 
democracy programs includes not less than $3 million in Economic 
Support Fund assistance to make grants to educational, humanitarian and 
non-governmental organizations, and individuals to support the 
advancement of democracy and human rights inside Iran. DRL is 
implementing this program, and announced an open competition for 
assistance awards for projects pertaining to Iran. The competition 
closed in late May, and DRL is highly pleased by the large number of 
proposals received. The Voice for Humanity project falls within the 
scope of the official Request for Proposals for Iran. However, the 
Bureau has not yet identified any group for funding, and will only do 
so after conducting an open, fair, and competitive review of all 
proposals received. The Department will notify Congress of which Iran 
projects it hopes to fund this summer, prior to obligating funds.
    The Department of State is currently exploring means to improve the 
abysmal human rights conditions in North Korea and to support the 
democratic aspirations of the North Korean people. As we work to 
implement the North Korea Human Rights Act of 2004 and build on the 
North Korea programs already supported by the Department, we are 
considering a variety of means to improve North Koreans' access to 
information.
    Question. Please explain why police training activities in Iraq are 
included under DOD authorities, rather than the State Department's 
INCLE account.
    Answer. In order to consolidate the leadership of Coalition efforts 
to quickly establish robust Iraqi security forces, President Bush 
issued National Security Presidential Directive 36 (NSPD-36) on May 10, 
2004. This Directive states that USCENTCOM shall be responsible for 
U.S. efforts with respect to security and military operations in Iraq. 
The Commander, USCENTCOM, along with policy guidance from the Chief of 
Mission, directs all U.S. Government efforts and coordinates 
international efforts in support of organizing, equipping, and training 
of all Iraqi security forces, including the Iraqi Police Service. 
Consequently, by Presidential directive, police training is under DOD 
authority and therefore does not fall under State Department's INCLE 
account. The State Department Bureau for International Narcotics and 
Law Enforcement Affairs supports DOD's efforts in this regard by 
managing the Jordan International Police Training Center; furnishing 
civilian International Police Liaison Officers through its contractor, 
DynCorp and supplying Police Trainers through an interagency agreement 
with the Department of Justice, International Criminal Investigative 
Training Assistance Program (ICITAP). DOD receives and distributes all 
funding for police training.
                                 ______
                                 
            Questions Submitted by Senator Richard C. Shelby

    Question. Could you please describe the process that you will go 
through to decide which of our allies in the War on Iraq will receive 
economic aid or security assistance? Specifically, what are your 
criteria?
    Answer. Funds will be allocated to countries based on a 
determination by the President that a timely infusion of economic 
assistance will support the Global War on Terror. These funds will help 
strengthen the capabilities of our partners to advance democracy and 
stability around the world.
    Question. While I support the need for additional funds for drug 
eradication--which is a vital component to ensuring security--are you 
providing viable options for alternative sources of income? 
Specifically, have you worked with USDA or USAID to provide assistance 
or education in other agricultural endeavors?
    Answer. The USG's five-part plan for providing counternarcotics 
assistance to Afghanistan covers eradication, law enforcement, 
interdiction, public information, and, just as vitally, development of 
alternative livelihoods. The U.S. interagency, including USAID, is 
working closely together and with officials from the United Kingdom and 
Afghan governments, to ensure that a coordinated alternative livelihood 
effort will cushion the economic effects of poppy eradication for small 
farmers in Afghanistan.
    We recently notified Congress of $70 million in fiscal year 2005 
and prior-year DA and ESF reprogramming for alternative livelihoods in 
Afghanistan. Current USAID programs are focused on making a quick 
impact, including cash-for-work projects that build farm-to-market 
roads and clean out irrigation ditches, among other infrastructure. In 
2005, as part of our overall counternarcotics strategy, we will 
undertake regional economic growth initiatives focusing on planting 
high-value crops, utilizing new agriculture technologies, and 
developing credit, financial, and business-development services.
    This year alternative livelihood programs will focus on up to seven 
provinces with the most extensive poppy cultivation. Other donor 
nations, including the United Kingdom as the lead nation on 
counternarcotics assistance to Afghanistan, will focus on additional 
poppy-growing provinces.
    On the ground in Afghanistan, representatives from USAID and the 
Department of State work within many Provincial Reconstruction Teams 
(PRTs) in Afghanistan. USDA representatives are also on hand at several 
of the PRTs, providing their agricultural expertise as alternative 
livelihood programs are implemented.
    The United States is not the only government involved in funding 
alternative livelihood programs in Afghanistan. The United Kingdom 
government, for example, recently announced that it will double its 
Afghanistan counternarcotics contribution this year to $100 million, 
with fully half going toward alternative livelihood programs. Also, 
several nations, including Finland, Australia, Austria, Ireland, the 
Netherlands, Norway, Belgium, Germany, France, Italy, and the United 
Kingdom have pledged a total of $20 million to U.N. Office on Drugs and 
Crime (UNODC) programs in Afghanistan, which include alternative 
development projects.
    Question. The Supplemental includes $200 million to provide 
critical economic assistance to U.S. allies in the Global War on 
Terror. What constitutes ``critical economic assistance?''
    Answer. While many of our coalition partners have the ability to 
shoulder the costs of troop contributions and other support 
requirements, many other of our partners in freedom have limited 
national budgets to offset these costs. In many cases, these willing 
allies are faced with constrained budget resources while at the same 
time facing a growing demand from their citizens for increased social 
spending. Thus, this Fund reflects the principle that an investment in 
a partner in freedom today will help ensure that America will stand 
united with stronger partners in the future. The criticality of these 
funds is to ensure that we:
  --Support the broader strategy against terrorism.
  --Prevent/diminish economic and political dislocation that threatens 
        security of key friends and allies.
  --Promote economic growth, good governance and democracy; mitigating 
        root cause of terrorism.
  --Offset budget costs associated with troop contributions that would 
        otherwise support increasing civil demands for social programs.
  --Programs may include:
    --Enhanced support for border security units and improving 
            interdiction and enforcement infrastructure of 
            counternarcotics units
    --Accelerate training and equipping border personnel to prevent 
            illegal migration, smuggling of goods, narcotics 
            trafficking and transiting of terrorists.
    Without the immediate influx of assistance supporting these 
objectives and our partners, our ability to conduct the Global War on 
Terror could easily be reversed.
    Question. How will these funds help strengthen the capabilities of 
our partners to advance democracy and stability around the world?
    Answer. Economic dislocation and political strife continue to place 
great strains on many of our coalition partners. In such circumstances, 
bilateral economic assistance can help to prevent or diminish economic 
and political dislocation that may threaten the security of these key 
friends and allies.
    By promoting economic growth, good governance, and strong 
democratic institutions, U.S. assistance can ease the economic and 
political disparity that often underlies social tension and can lead to 
radical, violent reactions against government institutions. To this 
end, economic assistance programs can assist in mitigating the root 
causes of terrorism.
    There are currently 49 countries and NATO contributing forces to 
operations in Iraq and Afghanistan as well as a number of other 
coalition partners providing support to these operations through base 
access, over-flight rights, and intelligence support. Further, there 
are a number of other partners fighting terrorism to promote freedom in 
other parts of the world.
    While many of our coalition partners have the ability to shoulder 
the costs of troop contributions and other support requirements, many 
other of our partners in freedom have limited national budgets to 
offset these costs. In many cases, these willing allies are faced with 
constrained budget resources while at the same time facing a growing 
demand from their citizens for increased social spending. Thus, this 
Fund reflects the principle that an investment in a partner in freedom 
today will help ensure that America will stand united with stronger 
partners in the future.
                                 ______
                                 
            Question Submitted by Senator Robert F. Bennett

    Question. Can you tell me what role microcredit will play in 
Tsunami relief and reconstruction efforts of USAID?
    Answer. Microcredit can jump-start economic activities for 
individuals and markets by helping affected households rebuild assets 
and income-generating activities. USAID partners such as microcredit 
organizations are important actors in the relief and reconstruction 
effort. They can offer financial services to rehabilitate small 
businesses and finance other household needs.
    Like thousands of households across the Indian Ocean, microcredit 
organizations have suffered losses due to the tsunami. For example, Sri 
Lanka's Women's Development Federation lost five full-time staff and 13 
volunteers. Among its 32,000 borrowers, approximately 1,000 are dead or 
missing. As a result, affected households are having difficulty 
accessing savings and new loans as microcredit organizations are not 
fully operational. In Sri Lanka, USAID is enabling microcredit 
organizations to restart operations, thereby helping people and 
businesses get back on their feet.
    USAID recognizes that microcredit is not for every affected 
household. Targeted grants and business support services are also 
essential to USAID plan for reconstruction in tsunami-affected areas.
                                 ______
                                 
              Questions Submitted by Senator Sam Brownback

    Question. The President's request calls for $780 million for 
general peacekeeping activities worldwide, of which up to $55 million 
can be used for U.S. contributions to a Sudan War Crimes Tribunal. What 
are the Administration's concerns with referring this to the 
International Criminal Court (ICC) as a recipient of this funding? I 
think building regional capacity is increasingly important in Africa. 
How does the Administration's plan for a hybrid court promote this 
idea?
    Answer. Our overall ICC policy is consistent with the American 
Servicemembers' Protection Act, passed by the Congress with strong 
bipartisan support, which prohibits assistance and support for the ICC. 
We believe the Rome Statute establishing the ICC is fundamentally 
flawed and cannot support it. It creates a prosecutorial system that is 
an unchecked power and is open for exploitation and politically 
motivated prosecutions. A referral by the UNSC would not address these 
fundamental ongoing concerns we have with the ICC, and our concerns 
about the exposure of U.S. servicemembers, officials, aid workers, and 
other citizens to unwarranted investigation and prosecution by the ICC.
    At the same time, we strongly support a call for accountability for 
the on-going human rights violations and atrocities in Darfur, and 
believe that a ``Sudan Tribunal''--created and mandated by a UNSC 
resolution and administered by the African Union (AU) and the United 
Nations--is the best means of providing this accountability.
    This approach would respect the AU role in building institutions 
and solving problems in Africa. It also would ensure African ownership 
in securing justice and accountability on the continent, while giving 
it strong support and expertise from the United Nations and the 
international community. The AU has played a critical leadership role 
in international efforts to resolve the conflict in Darfur; this type 
of court would allow the AU to continue that leadership role as 
accountability is pursued and would also contribute to development of 
the AU's overall judicial capacity on the continent.
    Question. What portion of the funding for peacekeeping activities 
will go for troops on the ground in Darfur and how many troops will 
that provide? Will these forces be provided by the African Union?
    Answer. The U.N. peace monitoring operation in Sudan is to support 
implementation of the Comprehensive Peace Agreement. The Bureau of 
African Affairs is providing support to the African Union Mission in 
Sudan, whose authorized troop strength is 3,320. The United States has 
committed about $95 million to the African Union mission to date. The 
proposed U.N. mission, estimated to cost $1.009 billion for the first 
twelve months, will involve phased deployment of up to 10,130 military 
personnel, 755 civilian police officers, 1,018 international staff, 
2,263 Sudanese staff and 214 U.N. volunteers. The United Nations has 
initiated contingency planning for Darfur to assist the African Union 
mission and to support implementation of a future agreement in Darfur 
in cooperation with the African Union. The United Nations also plans to 
deploy human rights monitors to Darfur. The Security Council resolution 
that the United States has circulated requests the United Nations to 
complete a full assessment for its engagement in Darfur within 30 days.
    Question. On an additional note, many of my colleagues and I remain 
very concerned about the emerging scandal involving U.N. peacekeeping 
operations in the Congo and the reported sexual exploitation and severe 
misconduct against civilians. I am interested to know what is being 
done to ensure that U.S. dollars are not being funneled to operations 
where troops are engaging in severe exploitation of civilians. Is this 
misconduct being addressed on a bilateral level with host or 
contributing troop countries?
    Answer. The United States circulated a draft U.N. Security Council 
Resolution that would require the U.N. Secretariat to take concrete 
measures to effectively combat sexual exploitation and abuse. The 
resolution specifically addresses the requirement of pre-deployment 
training, rapid and thorough investigations, commitment by troop 
contributors to undertake disciplinary measures against perpetrators 
and their commanders. We anticipate that the draft resolution will be 
considered after the U.N. General Assembly Special Committee on 
Peacekeeping (C-34) completes its review of a proposed strategy to 
eliminate future sexual exploitation and abuse in U.N. peacekeeping 
missions.
    On the diplomatic front, we are demarching troop contributing 
countries to take swift action to investigate and punish those troops 
who committed sexual abuse while serving as U.N. peacekeepers. 
Additionally, the United States and Japan, as chair of the Committee on 
Peacekeeping, sent a joint letter to SYG Annan, encouraging the United 
Nations to adopt effective preventive measures, as well as procedures 
to ensure that perpetrators are disciplined and if necessary, 
prosecuted.
    Also, with a State Department grant of US$200,000, the U.N. 
Department of Peacekeeping Operations (DPKO) has produced: (i) 
awareness-raising posters and brochures on sexual exploitation and 
abuse, which are being distributed in all missions; and (ii) a DPKO 
Human Trafficking Resource Package, which provides practical guidance 
for peacekeeping operations on how best to combat human trafficking.
    Question. This request would provide $63 million for rehabilitation 
and reconstruction of Sudan to support the good-faith implementation of 
the Comprehensive Peace Agreement between north and south Sudan. The 
President's request reads, ``these funds will be used primarily to 
support activities in south Sudan, such as building infrastructure, 
health, governance, education, capacity-building, and the local 
purchase of food.'' What is meant by ``primarily used''--does this mean 
that these funds may be used elsewhere? Where else would the President 
use this funding?
    Answer. It is USAID's intention to use the bulk of the funding for 
assistance to southern Sudan. However, within the appropriate 
legislative parameters, our plan for funding includes activities in the 
transition zone between North and South, which is part of northern 
Sudan. These areas act like a fault zone of an earthquake where 
radicals on each side live side by side and where conflict could easily 
erupt. The importance of the three areas (Abyei, Nuba Mountains and 
Southern Blue Nile) in the transition zone was highlighted in the 
Comprehensive Peace Agreement due to their particular importance during 
the interim period. Thus, USAID requests flexibility to use the 
supplemental funds strategically in northern Sudan in areas that may be 
susceptible to conflict, inundated with returnees, or newly accessible 
for humanitarian and reconstruction assistance.
    Question. The President has requested $150 million to reimburse 
accounts for funds used to address ``emergency food needs for the 
growing population of individuals in need of humanitarian assistance in 
the Darfur region of Sudan and would allow additional U.S. 
contributions to this and other critical food situations.'' What other 
critical food situations do you anticipate? In addition, how much of 
that $150 million is expected to reimburse accounts?
    Answer. In addition to the burgeoning food crisis in Darfur and 
Sudan's transition areas, rapidly deteriorating food situations in 
Ethiopia and Eritrea will quickly overwhelm existing donor resources. 
This year it is anticipated that beneficiary numbers could surpass 13 
million in these two countries alone, generating emergency food 
requirements approaching $750 million. USAID has already re-prioritized 
and reallocated its Title II funding to provide $220 million for 
Ethiopia and Eritrea; however these supplemental funds will be required 
to assist in the prevention of famine. If supplemental funding becomes 
available, USAID prioritizes Sudan, but requests flexibility to program 
some funding to meet urgent emergency needs in these two countries. 
Given the critical nature of these needs, supplemental funding will 
primarily be used to meet ongoing needs rather than reimburse accounts. 
These supplemental resources will help meet immediate shortfalls in 
Sudan and the Horn, and help address anticipated severe food pipeline 
breaks in these and other food assistance programs in Africa during the 
last months of the fiscal year.
    Question. What specific measure of funding will be provided to 
ensure the safety of vulnerable children in tsunami affected areas? In 
particular, what needs to be done to ensure that all children separated 
from family or orphaned are documented properly to avoid the risk of 
exploitation or trafficking?
    Answer. The USG contributed $62 million to the distribution of aid 
to areas devastated by the tsunami. The Department plans to provide 
approximately $1 million on two specific anti-trafficking in persons 
programs to support prevention activities in India, Sri Lanka, and 
Indonesia.
  --One project in India provides assistance to Catholic Relief 
        Services and a network of Indian anti-trafficking in persons 
        NGOs for rehabilitation assistance to children in the tsunami 
        affected areas of Tamil Nadu and Andhra Pradesh.
  --One project in Sri Lanka provides assistance to the American Center 
        for International Labor Solidarity (ACILS) for $350,000 to 
        raise awareness about the risk of trafficking among vulnerable 
        groups, mainly women and children. It will also help tsunami-
        displaced persons obtain legal services needed to document land 
        claims and file missing persons reports.
  --One project in Indonesia provides assistance to the International 
        Organization for Migration (IOM) to use up to $200,000 for 
        immediate protection of unaccompanied children.
    Funding will also be made available for the International 
Organization for Migration (IOM) to conduct a public awareness campaign 
in the tsunami-affected areas of Indonesia, Sri Lanka, and India.
  --IOM will work in camps and in damaged towns to raise awareness 
        about trafficking and the dangers of trafficking schemes so 
        neither children nor adults fall victim.
    The vast majority of orphaned children throughout the tsunami-
affected region have found homes with extended families or others in 
their local community. In order to ensure that children orphaned or 
separated from their parents are not trafficked or exploited, officials 
from the government and/or international organizations must register 
all children in camps.
  --In Indonesia, UNICEF and IOM are registering all children and 
        providing secure areas within camps for those orphaned or 
        separated.
  --In India, Sri Lanka, and Thailand, the governments have registered 
        separated or orphaned children while working closely with non-
        governmental organizations to find extended family members.
    Question. The President has requested ``$200 million for assistance 
to help Palestinians build democratic institutions, develop 
infrastructure, and support critical sectors such as education, home 
construction, and basic social services. Of these funds, up to $50 
million will also be used on programs to help Israelis and Palestinians 
work together on economic and social matters, including movement of 
people and goods in and out of Israel.'' Does the Administration have 
any plans to attach specific requirements to this funding?
    Answer. The $200 million in supplemental assistance for the West 
Bank and Gaza project assistance is intended to support reform and 
expand economic opportunities for the Palestinian people, including job 
creation. The assistance will help the Palestinians to address key 
economic and technical issues as they coordinate with Israel to ensure 
successful Gaza disengagement. It will also assist Palestinians with 
institution building, civil society strengthening and infrastructure 
development--necessary foundations for democracy and revitalizing the 
economy. Much of the assistance is targeted to help the PA provide 
basic social services that Hamas currently provides, particularly in 
Gaza. Finally, this assistance will strengthen our arguments to 
regional states that they need to do more in the way of monetary 
assistance to the Palestinians and the PA.
    Question. Last year, we spent $84.8 million on direct USAID grants 
to NGOs working in the West Bank and Gaza. Additionally, we gave $40 
million to the United Nation's Relief and Works Agency's Emergency 
Appeal for the West Bank and Gaza and another $87.4 million to UNRWA's 
general account, much of which is spent in the West Bank and Gaza. The 
UNRWA's Commissioner-General (who steps down at the end of March) Peter 
Hansen has openly admitted that his agency hired known members of 
Hamas. Do we have plans in place to ensure that no U.S. dollars, 
whether from this supplemental or other funding streams, end up in the 
hands of terrorists?
    Answer. This is an issue we take most seriously. The U.S 
Government, working through USAID, maintains close accounting of all 
USG funds. Working with the full range of agencies and resources 
available at Embassy Tel Aviv and Consulate General Jerusalem, USAID 
carries out background checks on all Palestinian NGOs that are 
recipients of funds to ensure there are no links to terrorist 
organizations or to organizations that advocate or practice violence.
    Since 1995, the GAO has conducted four separate program reviews, 
one each in 1995, 1996, 1997 and 1998. None of these reviews has 
reported any irregularities in the management or controls of ESF funds 
by USAID or its contractors and grantees. Since then, the USAID Mission 
has developed a comprehensive risk assessment strategy. All Mission 
institutional contacts and grants--of which there are approximately 
100--are audited on an annual basis by local accounting firms under the 
guidance and direction of USAID's Inspector General.
    The United States also funds a program in the West Bank and Gaza to 
help ensure UNRWA's facilities are not being misused for political 
purposes or militant activity. Operation Support Officers (OSO's) 
regularly visit and inspect UNRWA facilities. We also receive a report 
every six months from UNRWA noting any abuse, or attempted abuse, of 
its facilities. In this regard, UNRWA has an excellent record.
    Question. The President has requested $150 million in military 
financing for Pakistan in the Supplemental. He has also requested $150 
million in military financing for Pakistan in his fiscal year 2006 
Budget. What is the reason as to why this funding is being parceled out 
in two separate requests instead of being sent to Congress in the 
regular cycle as one request?
    Answer. The President's fiscal year 2005 request for Pakistan was 
$300 million in ESF and $300 million in FMF. Congress provided $300 
million in ESF, but only authorized $150 million in FMF for Pakistan, 
directing the Administration to take the remaining $150 million from 
unobligated, prior-year ESF and FMF balances. Because FMF is 
``obligated upon apportionment'' and pursuant to the transfer statute 
in the fiscal year 2005 Appropriations Act, there are no unobligated 
FMF funds. Reprogramming unobligated ESF funds for military purposes 
runs counter to the traditional view of the Foreign Operations 
Subcommittees that funds provided for economic purposes should not be 
transferred for military purposes. This is further codified in 
permanent legislation in section 610 of the Foreign Assistance Act, 
which prohibits the transfer of ESF into FMF. Furthermore, tapping $150 
million in unobligated ESF would cause us to cut significantly ongoing 
programs supported by the Committees.
    De-obligating and reprogramming prior-year FMF funds to make up for 
the shortfall would be a strategic mistake. In fiscal year 2004, 87 
percent of discretionary FMF went to Coalition partners with troops in 
Iraq or Afghanistan, countries providing critical support to military 
operations associated with OIF or OEF, and front-line states in the 
Global War on Terrorism. Taking funds already committed to these 
countries would be inconsistent with national priorities, would send a 
mixed message to our key partners, and thwart capabilities needed to 
fight the Global War on Terrorism. Of the remaining 13 percent, and 
excluding FMF for Colombia, only $48.5 million in FMF is left for all 
of the remaining countries in the world. Totally eliminating every 
other existing FMF program is not a viable option nor would it approach 
the funding needed to make up the Pakistan shortfall. This limited 
amount of FMF provides modest amounts to dozens of countries primarily 
in East Asia, Latin America, and Africa, and supports basic goals that 
the FMF program was designed to accomplish.
    If the Supplemental does not contain the $150 million requested, 
there is a risk the United States will fail to deliver fully the first 
tranche of its five-year pledge and that there will not be significant 
near-term improvements in Pakistani military capabilities essential to 
the war on terrorism. We have strongly supported Pakistan's 
improvements in border security and control as a tool to win the war on 
terrorism. The Administration request encourages and allows Pakistan to 
continue to improve its capabilities, which are essential in the war on 
terrorism.
    In fiscal year 2006, the request for $300 million in FMF is part of 
the regular budget and represents the second year of the Presidential 
commitment.
    Question. We were very generous to Pakistan last year, 
appropriating a total of $450 million to them for military and economic 
aid in various accounts. Do you have concerns that Pakistan is 
leveraging some of this direct aid against India by investing it in 
weaponry that could be used in Kashmir or other border conflicts? Do we 
have the mechanisms in place that allow us to oversee how they are 
spending American taxpayer dollars?
    Answer. If the Pakistanis are to make the hard choices needed to 
support us in the war on terror, they must be confident of our support, 
and the United States must be prepared to make the long-term commitment 
to Pakistan called for in the 9/11 Commission Report. The President has 
made a commitment to Pakistan of an aid package totaling $3 billion 
over five years, starting with fiscal year 2005.
    There are manifold mechanisms in place to monitor all tax monies 
spent in Pakistan and elsewhere. Of the $300 million appropriated in 
fiscal year 2005 in Economic Support Fund (ESF) resources, $200 million 
will be provided to the Government of Pakistan as budget support and 
will be spent in accordance with a set of ``Shared Objectives'' worked 
out between the two governments. The remaining funds in ESF, or around 
$100 million, and an additional $49 million in Development Assistance, 
will be spent by USAID on education reform, democracy and governance, 
basic health services, and economic growth. USAID, of course, has a 
long record of oversight for monies they expend.
    FMF funds will provide the Pakistani military with capabilities 
that contribute to counter-terrorism operations, enhance border 
security, and meet Pakistan's legitimate defense needs without 
upsetting the military balance between India and Pakistan. FMF monies 
are monitored throughout the process through the arms transfers 
decision-making process. Congress maintains oversight through 
notifications as required by the Arms Export Control Act. Letters of 
Offer and Acceptance (LOA) include appropriate language regarding the 
recipient government's commitment to provide adequate protection to 
defense articles procured from the USG. The country team monitors these 
sales, regardless of dollar amount.
    Question. The President has requested $299 million be directed to 
the government of Jordan for various anti-terror and military uses. 
Could you expound upon what the Jordanian government will use this 
funding for?
    Answer. The President's request of $299 million in supplemental 
funds for Jordan, includes $100 million in Foreign Military Funds, $100 
million in Economic Support Funds and $99 million for the King Abdullah 
Special Operations Training Center.
    The $100 million in Foreign Military Funds will meet an urgent need 
to significantly improve Jordan's border security capabilities in the 
near-term. Funding requested will address the regional security 
environment and the border security and control threat faced by Jordan. 
Within the amount requested, $60 million will be used for border 
security equipment and infrastructure, including aerostats, sensors, 
night-vision goggles and ground surveillance radars. The remaining $40 
million will help fund the next phase of Jordan's existing Command, 
Control, Communications, Computers, Intelligence, Surveillance and 
Reconnaissance (C\4\ISR) program.
    The $100 million in Economic Support Funds will go to support 
poverty alleviation and job creation to mitigate unemployment and 
relieve economic dislocation. Reaching these objectives will help King 
Abdullah and the Government of Jordan stay the course on economic and 
political reform necessary for the long-term stability of the region.
    The Department of Defense has requested $99 million to assist 
Jordan in the development of the King Abdullah Special Operations 
Training Center which will significantly improve Jordan's counter-
terrorism capabilities and potentially those of our regional allies. 
Jordan is a key partner in the training Iraqi security forces.
                                 ______
                                 
             Questions Submitted by Senator Robert C. Byrd

    Question. Secretary Rice, since you are asking the American 
taxpayer to send additional billions of dollars to Iraq, how much more 
do you expect the 48 countries that make up the ``Coalition of the 
Willing'' to contribute--not just pledge, but actually contribute--to 
Iraqi reconstruction?
    Answer. The international community, coalition and non-coalition 
countries alike, has been very engaged in efforts to rebuild Iraq. Of 
the $32 billion in pledges for 2004-2007 at the Madrid Donors' 
Conference, $13.584 billion was from non-U.S. sources. Since the Madrid 
Conference, additional pledges have been announced--most notably the 
European Commission's recent pledge of an additional 200 million Euros. 
Disbursement of these pledges is intended to occur over a four-year 
period, and while we welcome additional pledges, our current focus is 
on encouraging donors to accelerate implementation of their planned 
reconstruction efforts. It is important to note that these figures do 
not include the significant amounts of humanitarian assistance that 
many donors have contributed, nor do they reflect the costs of their 
military contributions.
    The security situation represents the largest obstacle to the 
success of our common reconstruction effort. As the Iraqi political 
process moves forward and builds upon the January 30 elections, we 
expect greater engagement by bilateral donors and international 
institutions such as the World Bank and the United Nations.
    Question. I understand that a new donors conference for Iraqi 
reconstruction is supposed to take place in Jordan in the coming 
months. Has the President established any goals for how many billions 
of dollars in contributions he expects this conference to raise? Or 
would you advise Congress lower its expectations on this conference 
raising a substantial amount of new funds for Iraqi reconstruction?
    Answer. The fourth meeting of the Donors' Committee of the 
International Reconstruction Fund Facility for Iraq (IRFFI)--the United 
Nations and World Bank trust funds--will be held in Amman later this 
Spring at the invitation of Jordan as host and Canada as chair of the 
Facility's Donors' Committee. These IRFFI Donors' Committee meetings 
have not been pledging conferences; rather they have focused on 
disbursement, implementation, and coordination issues. Of course, any 
announcements of new assistance would be welcome, but that is not the 
focus of this meeting. The EU, for example, used the last meeting of 
the Committee in Tokyo to make an additional pledge of 200 million 
Euros.
    Our key objectives for the meeting are to provide the newly-elected 
Iraqi Transitional Government the opportunity to articulate Iraq's 
reconstruction priorities, and to review the progress to date on 
disbursements and project implementation by donors and by the United 
Nations and World Bank trust funds that comprise the IRFFI. At the end 
of 2004, the U.N. trust fund had about $630 million in deposits and had 
disbursed about $115 million on projects. The World Bank trust fund had 
about $390 million in deposits and had disbursed about $11 million.

                              NORTH KOREA

    Question. Secretary Rice, why has the Administration flat-out 
refused any bilateral talks with North Korea? What is wrong with 
holding bilateral talks in parallel with multilateral negotiations?
    Answer. While we have had bilateral contact with the North Koreans, 
we feel this is a multlilateral problem. We tried the bilateral 
approach with the Agreed Framework and the North Koreans violated it. 
We are prepared to speak directly with all the parties, including North 
Korea, at the Six-Party Talks. Indeed, at the last round of talks in 
June 2004, the U.S. delegation met directly with the North Korean 
delegation during the course of the plenary session, and we would be 
prepared to do so in the context of the Six-Party Talks. However, 
because North Korea's nuclear program threatens the international 
community and the integrity of the global non-proliferation regime, it 
requires a multilateral response and a multilateral solution.
    The practical and symbolic effect of the six parties at one table 
at the same time gives weight to the proceedings, solidarity to the 
cause, and notice to North Korea that their actions affect the entire 
region's security and stability.
    Question. Where is the balance between carrots and sticks in our 
approach to North Korea? We have heard the talk about ratcheting up 
even more sanctions on North Korea, and there has even been loose talk 
about an increased chance of war. But what are the carrots? What has 
the United States put on the table to entice the North Koreans to end 
their nuclear weapons programs?
    Answer. While no President would take any option off the table when 
dealing with matters of national security, we are working with our 
partners in the Six-Party Talks to resolve this issue through 
diplomatic means.
    The United States tabled a comprehensive proposal at the Third 
Round of Six-Party Talks, in June 2004, to dismantle the North's 
nuclear programs irreversibly and verifiably, including its plutonium 
and uranium programs, and to end the North's international isolation.
    Under the U.S. proposal, the DPRK would, as a first step, commit to 
dismantle all of its nuclear programs in a permanent, thorough, 
transparent and effectively verifiable manner. The parties would then 
reach agreement on a detailed implementation plan requiring, at a 
minimum, supervised disabling, dismantlement and elimination of all 
nuclear-related facilities and materials; removal of all nuclear 
weapons and weapons components, centrifuge and other nuclear parts, 
fissile material and fuel rods; and a long-term monitoring program.
    We envisage a short initial preparatory period, of perhaps three 
months' duration, to prepare for the dismantlement and removal of the 
DPRK's nuclear programs.
    During that initial period, the DPRK would: provide a complete 
listing of all nuclear programs, materials and facilities, including 
all uranium enrichment activities; cease operations of all of nuclear 
programs and activities, seal all materials and facilities, and put 
them under effective monitoring; permit the securing of all fissile 
material and monitoring of all fuel rods; and permit the publicly 
disclosed and observable disablement of all nuclear weapons/weapons 
components and key centrifuge parts.
    Under our proposal, as the DPRK carried out its commitments, other 
parties would take some corresponding steps. Upon acceptance of the 
overall approach, non-U.S. parties would provide heavy fuel oil (HFO) 
to the DPRK.
    Upon acceptance of the DPRK's declaration, and as required DPRK 
actions called for above were being verifiably accomplished, the 
parties would also: provide a provisional multilateral security 
assurance; begin a study to determine the energy requirements of the 
DPRK and how to meet them by non-nuclear energy programs; begin 
discussion of steps necessary to lift the remaining economic sanctions 
on the DPRK, and on steps necessary for the removal of the DPRK from 
the List of State Sponsors of Terrorism; and provide technical and 
financial assistance with the disablement and dismantlement process, 
including retraining for DPRK scientists and engineers.
    Following the initial preparatory period, the parties would 
complete the remaining steps to accomplish full elimination and removal 
of all DPRK nuclear programs. The parties would also address the 
remaining issues that are obstacles to normalization of relations and 
to economic cooperation.
    We remain ready to return to the table at an early date without 
preconditions. We are prepared to discuss our proposal, and respond to 
any questions the DPRK may have about it, at the next round of Six-
Party Talks.
    Diplomatic contacts among all parties are continuing through the 
Six-Party process. We have made clear to North Korea, both publicly and 
privately, that we have no intention of invading or attacking. We have 
also made clear that the Six-Party Talks are the best way for the North 
to respond to the concerns of the international community by 
dismantling its nuclear programs irreversibly and verifiably, including 
its plutonium and uranium programs, and to end its international 
isolation and reap the benefits of trade, aid and investment.
    The other parties--Japan, the ROK, China and Russia--have joined us 
to urge the North to return to the table and stay there for serious 
negotiation. While we deplore the DPRK Foreign Ministry Statement of 
February 10, 2005, in which Pyongyang asserted it had manufactured 
nuclear weapons, we note that in that and other public statements, the 
North has left itself room to return to the table.
    Question. Secretary Rice, why is the electrical reconstruction 
project in such a dismal state? How many Iraqi hearts and minds do you 
think this project has won over, and how many hearts and minds might we 
have lost for the failure to follow through on Administration promises 
to keep the lights on in Iraq?
    Answer. To give an overview of reconstruction progress in Iraqi's 
electricity sector: as February 27, 2005, there are 80 USG-funded 
electricity projects in progress and 33 completed. Electricity 
reconstruction projects span generation, transmission, distribution, 
control systems and security. To date, USG-funded projects have added 
over 1,971 MW to Iraq's grid, a 20 percent increase to Iraq's pre-war 
rated capacity. Of the $4,369 million designated to the electricity 
sector designated in the Section 2207 quarterly report, submitted to 
Congress on January 5, $4,077 million has been apportioned, $2,756 
million has been obligated to projects and $830 million has been 
disbursed on the ground (as of March 2, 2005).
    Despite the 1,971 MW added capacity through our projects, 
electricity supply to Iraqis is stagnant at present owing to two 
factors: inadequate fuel supplies and insufficient operations and 
maintenance programs (O&M) for sector assets. Insurgent attacks on 
pipelines have interrupted the supply of fuels to power plants creating 
the shortage. Equipment breakdown as a result of insufficient O&M is 
symptomatic of the great need for capacity building within the Iraqi 
Ministry of Electricity. The Embassy is working with the Ministries of 
Oil, Electricity, Defense and Interior to address these issues before 
the expected record-level demands in Summer 2005, including:
  --An MNF-I-chaired infrastructure security cell to coordinate between 
        the military and the Iraqi Ministries of Oil and Electricity.
  --The USG's provision of reconstruction funds to maintain two 
        Emergency Rapid Pipeline Repair teams.
  --Hosting weekly meetings with the highest levels of the Iraqi 
        government to devise and implement strategies to respond to an 
        ever-changing insurgent campaign to disrupt fuel and power 
        supplies.
  --Support for the creation of a unified Iraqi infrastructure security 
        force, which will be responsible for both mobile and static 
        protection of pipelines and transmission wires.
  --An ongoing multi-tier capacity building program with 239 Ministry 
        of Electricity employees through USAID to upgrade skills and 
        enable more reliable and efficient power generation.
    Power outages and rationing is no doubt difficult, frustrating and 
costly to Iraqis. Hours of available power average approximately eight 
hours in Baghdad and nationwide, and range from three hours in the 
south-central governorates to over 16 hours in some of the northern 
governorates. While we are unable to estimate the specific impacts of 
insufficient electricity on the Iraqi population, we know from opinion 
polls that electricity is Iraqis' second greatest priority after 
improved security and despite poor electricity service, most feel 
optimistic about improved economic conditions in the country as a 
whole. Because the insurgency plays a large role in the availability of 
electricity, the United States and its Coalition partners are working 
publicly and diligently to ensure that the Iraqi population that 
protection and the provision of essential services remain the highest 
of priorities.
    Question. Right now, British forces are in charge of counter-drug 
operations in Afghanistan. Since the Administration is asking the U.S. 
taxpayer for $773 million for this new program, how much money will 
Britain, NATO, and other countries contribute for these expanded 
counter-drug programs.
    Answer. While the United Kingdom government is playing the lead 
international role in delivering and coordinating counternarcotics 
assistance to Afghanistan, it is in fact the Afghan government that is 
in charge of the overall effort. All actions are taken in close 
consultation with Afghan officials, who are ultimately responsible for 
counternarcotics operations in their country.
    Regarding international donations, the United Kingdom recently 
announced that it will double its contribution this year to $100 
million, with half of the contribution funding alternative livelihood 
programs. The United Kingdom has also announced plans to assist the 
Afghans in establishing a counternarcotics trust fund into which other 
nations will be able to make contributions, and hopes to raise $300 
million through the fund this year. The trust fund will support the 
Government of Afghanistan's Counter Narcotics Implementation Plan, 
which comprehensively addresses the cultivation, production, and 
trafficking of illicit narcotics in Afghanistan.
    The United States has led discussions on this issue in the North 
Atlantic Council, the NATO-Russia Council, in NATO's Economic 
Committee, at the NATO Parliamentary Assembly, and in informal 
interactions with diplomats around the world. We have also raised the 
Afghan narcotics issue in multilateral settings, such as the G-8, the 
Paris Pact, the International Conference on Afghanistan, and the U.N. 
Office on Drugs and Crime (UNODC) Major Donors Meeting.
    These efforts have shown some success; a number of donors, 
including NATO allies, have contributed to alternative-development and 
demand-reduction programs, as well as to broader programs in law 
enforcement and the criminal justice sector. Among G-8 nations, Canada 
has pledged $84 million, France $32.5 million, Germany $37.6 million, 
Italy $36.8 million, and Japan $70.7 million. Additionally, Russia says 
it has or will provide about $92.5 million in assistance for programs 
related to counternarcotics in Afghanistan, including donations to the 
Afghan National Army.
    Also, nations including Finland, Australia, Austria, Ireland, the 
Netherlands, Norway, Belgium, Germany, France, Italy, and the United 
Kingdom have pledged a total of $20 million to UNODC projects in 
Afghanistan that provide for alternative development, monitoring of 
opium production, drug demand reduction, eradication verification, drug 
control, interdiction, and counternarcotics enforcement. It is 
important to note that the Administration's proposed budget request 
takes into account these contributions.
    Question. Why not work to increase British and other foreign 
military contributions to attack the drug problem? Shouldn't we be 
seeking to share the burden in Afghanistan? Or is this another case of 
``when the going gets tough, the Americans take over?''
    Answer. As described in the answer to question 6 above, the United 
States and the United Kingdom are actively seeking contributions from 
other countries to fund and provide counternarcotics assistance to 
Afghanistan. We agree that the international community should share the 
burden. The United States has thus raised the issue of counternarcotics 
assistance for Afghanistan during discussions in the North Atlantic 
Council, the NATO-Russia Council, the NATO Economic Committee, at the 
NATO Parliamentary Assembly, and in informal interactions with 
diplomats from allied nations. We have also sought assistance in multi-
lateral settings, such as the G-8, the Paris Pact, the International 
Conference on Afghanistan, and the U.N. Office on Drugs and Crime Major 
Donors Meeting. The United States will continue to engage other 
nations, stressing the need to increase and accelerate efforts to 
support the Afghan government in its counternarcotics fight. The United 
Kingdom is also engaged in an effort to press other nations, in 
coordination with our own lobbying efforts.
    We believe it is important that the United Kingdom maintain its 
lead role in providing and coordinating counternarcotics assistance to 
Afghanistan. While the United States should not be taking over, we also 
must not minimize the effect of Afghanistan's narcotics problem on our 
own national interests. With record-setting poppy crops in 2004, and 
indications that the 2005 crop will also be large, the narcotics 
problem threatens to create a narco-state in Afghanistan, reversing the 
considerable progress the United States and its allies have made in all 
sectors of Afghan society over the past three and a half years and 
jeopardizing the Global War on Terror. The United States must be 
willing to commit the resources needed to ensure that that does not 
occur.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy

    Question. Madame Secretary, my understanding is that there is a 
burgeoning food crisis in Ethiopia. Is there any estimate of how much 
U.S. food aid is needed in the short term to prevent starvation there?
    Answer. For 2005, an estimated 7.3 million people in Ethiopia face 
food insecurity. The United States will provide $205 million in food 
aid. The Government of Ethiopia will utilize two mechanisms to 
coordinate donor efforts to meet their needs.
  --The 2005 Joint Humanitarian Appeal for Ethiopia. The appeal 
        requested 387,482 tons of food valued at $159 million and will 
        feed an estimated 2.2 million people if fully subscribed by 
        donors. The United States will provide $65 million in emergency 
        food aid. However, current donor pledges fall short of the 
        overall request. Moreover, it is widely believed that the 
        appeal underestimates needs and that the GOE will increase the 
        appeal level in July.
  --The GOE's Productive Safety Net Program (PSNP). This program seeks 
        to prevent asset depletion at the household level and create 
        assets at the community level through transfers to 5.1 million 
        people. The United States will provide $140 million to support 
        the PNSP. Without the PNSP, the emergency appeal for 2005 would 
        have been for over 7 million Ethiopians.
    All signs indicate that 2005 will be a bad drought year for eastern 
Ethiopia, with the most critical food problems being experienced in the 
pastoralist or agro-pastoralist areas. Harvests traditionally run short 
in March through May, depending on the rains, but we are already seeing 
signs of distress. In the Afar and Somali Regions, large numbers of 
out-migrations (families are already moving towards water, food and 
health care) have already been reported by USAID/Ethiopia.
  --In the Afar Region, half of the 1.2 million residents require food 
        aid. There are visible cases of severe malnutrition, high 
        livestock mortality, and early movement of herds from the zone.
  --In the Somali Region, there is an immediate nutritional crisis--20 
        percent global acute malnutrition and an under-five mortality 
        rate of 4.8/10,000 per day.
    Question. The legislation that Senator Gregg and I included in the 
Foreign Operations bill contains a waiver, which allows assistance to 
go forward to Nigeria if the State Department submits a strategy to 
Congress outlining how Taylor will be brought to justice. I want to be 
consulted about this waiver. More importantly, if the waiver is used--
and I hope it is not--I want to see a serious plan, with timetables and 
benchmarks--and not just rhetoric. Otherwise, we will not include a 
waiver in next year's bill. Could you please describe what progress the 
State Department has made in developing a strategy for bringing Charles 
Taylor to justice?
    Answer. The Administration and the Congress share a common goal of 
seeing former Liberian President Charles Taylor appear before the 
Special Court for Sierra Leone (SCSL). The Administration's strategy 
for realizing that result is to engage with Nigeria, Liberia, the 
United Nations, the SCSL, the Economic Community of West African States 
and other regional organizations, and others to seek the best means of 
effecting Taylor's transfer to the SCSL sooner rather than later. The 
United States is in frequent contact with Nigerian President Obasanjo 
on this issue, including in meetings with President Bush and former 
Secretary Powell, and we have made clear that our mutual goal must be 
for Taylor to be answerable to the SCSL's charges.
    In the event that the Administration pursues a waiver to allow 
security assistance to Nigeria, we will consult with you and other 
Congressional leaders. In the meantime, we continue to remain alert to 
threats to Liberia's hard-won stability and that of its neighbors, and 
are keeping a close watch on Taylor's activities so that he can neither 
subvert that stability nor return to Liberia. We have encouraged 
Nigeria to do the same, and have received assurances that they will do 
so.

                        COLOMBIA DEMOBILIZATION

    Question. We want to support this process, but we need to be 
confident that it is based on a legal framework that will result in the 
dismantlement of these groups, and accountability for those who 
perpetrated atrocities. I hope our Ambassador in Bogot will reinforce 
this message.
    Answer. The United States supports a demobilization that serves the 
goal of ensuring peace with justice in Colombia. A credible peace 
process can help end the violence in Colombia and achieve an enduring 
peace. We continue to work with and assist the Government of Colombia 
to ensure that its process includes the rapid disarmament and 
demobilization of illegal armed groups, justice and reparation for 
victims, and legal accountability for the perpetrators of atrocities, 
narcotics trafficking, and other major crimes.
    The Colombian government knows that the United States places great 
importance on a legal framework that provides peace with justice and 
mechanisms to effectively dismantle the paramilitaries, and eventually 
other illegal armed groups. Former Under Secretary Grossman, Assistant 
Secretary Noriega, and Ambassador Wood, among other senior State 
Department officials, have consistently emphasized this message to the 
Colombian government. We will continue to stress the U.S. position.
    The Colombian government recognizes the need to establish a 
credible legal framework to hold accountable former AUC members guilty 
of major crimes and settle questions about disclosure of information, 
return of illegal assets, and reparations. Currently, the Colombian 
government and Colombian congress are vigorously considering drafts of 
legislation to provide a legal framework that, for the first time, 
would require that demobilized members of illegal armed groups who have 
committed serious crimes, especially crimes of violence against 
civilians, be punished for their crimes, including by mandatory 
incarceration. All current drafts mandate that the demobilized must 
acknowledge responsibility for their crimes and offer reparations.
    While peace in Colombia is ultimately up to the Colombians, the 
United States and other nations' support to the process will be 
critical to Colombia's continued success against terrorism. We are 
studying the possibility of providing U.S. support to the reintegration 
phase and are reviewing this possibility in close consultations with 
the Congress. Any U.S. support would only be provided consistent with 
U.S. law and policy. The United States will not drop its requests for 
the extradition of any Colombians, including United Self-Defense Forces 
of Colombia leaders, who have been indicted in the United States or may 
be indicted in the future.
    Question. There is no indication that the Lavalas party will 
participate in elections scheduled for later this year, and I don't see 
how you can have a successful election without them. I share Senator 
DeWine's disappointment that there is nothing in this supplemental for 
the Haitian elections. Do you have a plan to avoid a train wreck down 
there?
    Answer. Successful elections will allow the Haitian people to 
democratically select officials who represent the Haitian people. The 
Organization of American States (OAS) and the United Nations (U.N.) are 
working with Haiti's Provisional Electoral Council to organize local, 
parliamentary, and presidential elections in October and November, with 
a presidential runoff possible in December. We have already provided 
significant support to the OAS voter registration effort as well as 
other election-related activities.
    Although the Interim Government of Haiti (IGOH), United Nations and 
OAS have the lead role in administering the elections, we are closely 
involved. We meet regularly with the parties to monitor progress and 
assist. We plan to allocate over $14 million of our fiscal year 2005 
ESF to provide additional support for the registration and voting 
process, assistance for the logistical preparations, support for 
political party development, voter education, and elections monitoring, 
and funding for an elections awareness campaign. We have also taken an 
active role encouraging other donors to come forward with additional 
funds to support elections.
    With the encouragement of the United Nations and the international 
community, the IGOH is launching a national dialogue to promote unity 
and build support for elections. We believe this dialogue is crucial to 
establishing an open and inclusive campaign atmosphere. We have made 
clear to the IGOH that both the campaign and the dialogue must be open 
to all those who reject violence and adhere to democratic norms.
    Ex-President Aristide's failure as a leader and subsequent 
departure from power left a void that remains unfilled; his refusal to 
anoint a successor in his political party, Lavalas, has left it adrift. 
Key members of Lavalas have told us that they do plan to participate in 
the election, but the party remains divided on that point. We continue 
to work with and provide training to those members of the Lavalas party 
that have rejected violence to encourage their full participation in 
the upcoming elections.
    Democratic elections have taught us to expect the unexpected. 
Though we cannot foresee the results of the election, our programs aim 
to create an environment of security and stability in which all 
Haitians have the opportunity to choose their leaders. Our goal is that 
the elections will result in an elected government that can work with 
the international community to consolidate democracy in Haiti and 
continue to provide security, stability, protection and economic 
opportunity to the people of Haiti.
    Question. I am told that not all of what was agreed to between 
Israel and Jordan in 1996 has been implemented. With the new sense of 
optimism in the Middle East, do you agree that the United States should 
nurture some of these things along? I am particularly thinking about 
the Aqaba-Eilat Airport that not only would signal an important change 
in the region but it would also have real environmental and economic 
benefits.
    Answer. We agree that it is important to move forward with 
initiatives that will provide tangible benefits and help to catalyze 
the peace process. As the prospects for peace increase, and as 
confidence-building measures begin to take hold, we expect initiatives 
with real economic and environmental benefits will multiply. We were 
pleased to see the Jordanian Ambassador recently returned to Israel, a 
positive sign in relations between those two neighbors.
    Question. I understand that this request contains $780 million for 
assessed contributions for U.N. peacekeeping missions?
    Answer. Yes, that is correct. The full $780 million requested in 
the fiscal year 2005 CIPA Supplemental request is needed to pay: (a) 
the increased costs for new missions in Liberia, Cote d'Ivoire, Haiti 
and Burundi, and (b) the initial costs of a new peacekeeping mission 
for Sudan.
    The Administration has been at the forefront of efforts to resolve 
the unfolding tragedies in Africa, particularly for the Sudan. If the 
United States is unable to pay U.N. assessments for these peacekeeping 
missions, our credibility in the Council related to future peacekeeping 
operations could be severely undercut.
    Question. Does the Administration support conditioning or 
withholding a portion of these or any other U.S. contributions to the 
United Nations in response to the report on the Oil for Food scandal?
    Answer. We take the Oil for Food problem very seriously and have 
been at the forefront of calling for increased U.N. accountability and 
transparency in its programs. The report will be helpful in generating 
momentum for such increased accountability and transparency. It already 
has prompted the United Nations to take certain disciplinary actions. 
We do not believe, however, that withholding U.S. payments of U.N. 
assessments would be a useful way forward.
    Question. Secretary Rice, what programs are in place to train 
officials in Iraq's ministries and directorates on corruption 
prevention methods and mechanisms, including modern bidding procedures, 
accounting methods, independent audits, and the establishment of 
watchdog agencies? How much does the United States Government spend 
annually on these programs? Are there any programs currently operating 
to train Iraqi nongovernmental organizations in techniques to monitor 
and address corrupt practices? If so, how much does the United States 
Government spend annually on these programs?
    Answer. The United States has been and remains committed to 
supporting public integrity and anti-corruption efforts at all levels 
in Iraq. We have worked closely with Iraqis to support good government 
during the Coalition Provisional Authority (CPA) period, through the 
current Iraqi Interim Government and will do so with the upcoming Iraqi 
Transitional Government.
    In January 2004, the Governing Council, exercising authority 
delegated to it by the Coalition Provisional Authority, established the 
Commission on Pubic Integrity (CPI) to help the Iraqi people by being 
able to investigate cases of corruption and to promote good government 
practices by Iraqi government officials. The CPI is an independent 
office of the Iraqi Government and as such was set up to, among other 
things, receive allegations of corruption from citizens, investigate 
such allegations of corruption, refer violations of the law to criminal 
courts, and propose legislation to strengthen standards of ethical 
conduct for public employees. The Commission would further require that 
public officials file a statement in which they disclose personal 
financial information, and require all government employees to sign a 
written pledge promising to adhere to Iraq's public employee Code of 
Conduct.
    $5 million of the Iraq Relief and Reconstruction Fund (IRRF) was 
allocated for the CPI to use advanced accounting techniques to detect, 
deter, identify, and investigate illegal activities and organizations. 
U.S. law enforcement personnel continue to train Iraqi investigators 
while plans for a tracking system to manage the investigative caseload 
are underway. CPI has expanded to over 200 employees, of which 27 are 
full-time investigators, and is expected to grow to approximately 800 
employees and open 6 provincial branch offices. Ethics training is 
ongoing and a location has been identified for a training institute, 
which will concentrate on transparency, investigation, forensic 
accounting, internal audit procedures, human rights, legal reform, 
capacity building, management, public relations and public education as 
a means of combating corruption. Since its establishment in October 
2004, the CPI hotline has generated over 300 phone calls, which have 
resulted in over 150 active cases--including allegations surrounding 
suspects held in police custody, paybacks, and solicitation of bribes.
    In addition to the CPI, CPA Orders No. 57 and No. 87 established 
independent Offices of Inspector General within each ministry and a 
government contract policy, respectively; Order No. 77 reestablished 
the Board of Supreme Audit--providing accurate information about 
government operations and financial conditions and carrying out a broad 
range of financial and performance audits and program evaluations. 
Principles of public procurement and government public contract policy, 
among other things, were outlined in CPA Order No. 87. CPA set up 
Inspectors General in each ministry to ``establish an effective program 
of audit, investigation, and performance review to provide increased 
accountability, integrity and oversight of the ministries and to 
prevent, deter and identify waste, fraud, abuse of authority and 
illegal acts''. These Inspectors General are tasked with ``conducting 
investigations, audits, evaluations, inspections and other reviews in 
accordance with generally accepted professional standards.''
    One of the primary objectives of USAID's local governance program 
is improving the delivery of basic essential services. This includes 
training on competitive bid and internal audit procedures. As this 
activity is embedded in the larger $256 million program of supporting 
local governance, it is not possible to specify exactly how much is 
dedicated to anti-corruption efforts. USAID's program to strengthen 
civil society and the media specifically includes $15 million for 
technical assistance to civil society nongovernmental organizations 
engaged in watchdog activities and to the independent media to enable 
it to report on corruption in a professional manner. Part of the 
strategy includes the awarding of small grants, of which $2.15 million 
will be made available for anti-corruption efforts. Under its economic 
governance program, USAID has worked to install a financial management 
information system in approximately 50 Iraqi government institutions. 
This automated networked accounting and budget execution system is 
enabling stronger fiscal controls through the recording of payment and 
revenue transactions and ultimately transparency on the use of public 
funds.
    More still needs to be done to combat corruption among Iraqi 
government officials. Inconsistencies exist among ministries and 
directorates as to the competency of inspectors and investigators, 
while more needs to be done on enforcement and compliance. We will 
continue to work with the newly elected officials of the upcoming Iraqi 
Transitional Government to support the establishment of laws and 
processes that promote transparency and accountability.
    Question. Madame Secretary, I recently heard from a high-ranking 
official of a friendly Arab government about what the United States 
could do to help move the Middle East peace process forward. He asked 
only that the United States adhere to 3 principles: (1) be honest; (2) 
be fair; (3) be engaged. Candidly, and I suspect you disagree with me, 
I don't think the Bush Administration has always adhered to these 
principles, at least not until recently. Do you agree with his advice, 
and, if so, can you assure me that the Administration will follow these 
three basic principles?
    Answer. President Bush has spoken clearly about his vision of two 
states living side-by-side in peace and security, and he has 
articulated the steps that both sides need to take in order to get 
there. The roadmap spells out those steps in greater detail, and, 
fairly, puts meaningful obligations on both sides. And the 
Administration has been engaged at the highest levels, whether through 
our diplomatic representatives in the region, through the office of the 
Assistant Secretary for Near Eastern Affairs, and through the office of 
the Secretary of State, working bilaterally and through the 
multilateral fora in which we are active, including the Quartet. The 
latest signs of that engagement are our $350 million assistance package 
to help Palestinians and Israelis move forward together on key economic 
issues that must be addressed in order to seize the opportunity for 
peace, and the appointment of General Ward as security coordinator to 
help the Palestinians reform their security apparatus and fight terror.
     The United States recognizes that this is the best opportunity 
that we have had for peace in many years, and continues to support the 
Roadmap as the best way to move towards the goal of a safe and secure 
Israel coexisting peacefully with a viable, democratic Palestinian 
state. Much work lies ahead, but America is determined to do its utmost 
to help achieve that goal.
    Question. If you are following these principles, will you, here 
today, re-commit to following them?
    Answer. The United States recognizes that this is the best 
opportunity that we have had for peace in many years, and continues to 
support the Roadmap as the best way to move towards the goal of a safe 
and secure Israel coexisting peacefully with and viable, democratic 
Palestinian state. Recent events in the Israeli-Palestinian 
relationship are very encouraging; the Palestinian Presidential 
elections on January 9 and the February 8 summit at Sharm El Sheikh are 
positive steps that can lead both sides back on the path towards 
realization of the President's two-state vision. Much work lies ahead, 
but America will continue to engage--honestly and fairly--to help 
achieve that goal.
                                 ______
                                 
               Questions Submitted by Senator Tom Harkin

    Question. My question deals with the tsunami situation. As we move 
from relief efforts to reconstruction planning efforts, I believe that 
it is essential that the U.S. government coordinate with other 
bilateral and multilateral donors to ensure accessibility in all new 
construction activities. Furthermore, as you know Madam Secretary 
natural disasters hurt people and damage economies. They maim and they 
kill and they disrupt critical systems of medical and social support 
that people with disabilities rely on. In January, the Washington Post 
told the story of Sri Lanka only having only one psychiatrist for 1.3 
million people and his other job was coordinating relief efforts to 
ensure that all areas were covered. It is my hope that these systems 
are not overlooked.
    Can you tell me how much funding the Administration has allocated 
in this supplemental to ensure that the mental and physical 
rehabilitation needs of people with disabilities will be adequately 
addressed?
    Answer. USAID is responding to the mental and physical 
rehabilitation needs of people affected by the tsunami including those 
who are disabled. The Indonesia Mission's recently issued Annual 
Program Statement (APS) solicits proposals that consider vulnerable 
populations including: community based psychosocial support programs 
for children and adults; anti-trafficking in persons activities; and 
children with special needs, orphans and disabilities. The USAID Sri 
Lanka Mission has also submitted a request for $1 million to support 
rehabilitation and integration of people with special mobility needs. 
The U.S. government reconstruction plan includes considerable 
infrastructure construction and rehabilitation projects. It is agency 
policy that all new or renovation construction projects funded by USAID 
address access issues for people with disabilities. The use of these 
types of standards is required in all USAID acquisition and assistance 
for construction.
    Question. Can you tell me your views on ensuring coordination 
between bilateral and multilateral donors on accessibility standards?
    Answer. USAID has formally shared and disseminated copies of its 
Accessibility Standards within our own Office of Foreign Disaster 
Assistance as well as other USAID management units that are engaged in 
implementing tsunami emergency response and reconstruction efforts. We 
have also met with, discussed and disseminated the standards with the 
World Bank, and through a very wide network of members of the Bank's 
``Global Partnership for Disability and Development'' (GPDD), which 
includes bi-lateral and multi-lateral representatives, as well as 
faith-based and other private, civil society organizations.
                                 ______
                                 
                Questions Submitted by Senator Herb Kohl

    Question. Do you expect to fully reimburse all (including Public 
Law 480 and Food for Progress) food aid programs from which funds have 
been diverted in fiscal year 2005 for response to the tsunami disaster?
    Answer. With respect to Public Law 480 Title II programs, 
approximately $23 million worth of assistance is being provided to 
assist victims of the Tsunami. This assistance is being distributed 
through the World Food Program (WFP) and non-governmental organization 
(NGO) implementing partners. The resources were made available both 
from existing resources already committed to WFP programs in Indonesia 
as well as Title II commodities programmed for NGO development 
activities. We intend to reimburse fully the amount diverted to meet 
Tsunami-related emergency needs from the existing WFP and NGO programs 
within Title II. The Administration request does not envision or 
include a reimbursement to USDA food aid programs.
    Question. Do you expect to fully reimburse Public Law 480 Title II 
non-emergency programs from which funds have been withheld in order to 
meet other emergency needs?
    Answer. Given current resource constraints, and increasing 
emergency needs in the Greater Horn of Africa, we do not expect to be 
able to restore all of these programs to fully funded levels.
    Question. Don't you think canceling our agreements in those 
developing countries sends a wrong message? Don't you think that it is 
now more important than ever for the United States to assist those 
countries in ways that, in the long term, can help provide prosperity 
and reduce the chance they will adopt policies and practices harmful to 
U.S. interests?
    Answer. Given the number and size of current and projected 
emergencies, USAID's Office of Food for Peace carefully analyzed its 
fiscal year 2005 non-emergency portfolio and made the difficult 
decision to reduce resources for some ongoing development programs. We 
would prefer not to cut Title II development program budgets, because 
these programs are geared toward reducing chronic food insecurity among 
vulnerable populations and preventing future emergencies from 
occurring. However, as you know, our first objective must be to save 
lives in emergency situations, such as in Ethiopia and Darfur, Sudan. 
Second is the need to reduce the number of undernourished people in the 
developing world so that they can become economically productive.
    Question. For those accounts, other than Public Law 480, can you 
identify the amounts within the supplemental request that relates to 
food aid?
    Answer. An amount of $7.7 million was requested under the 
International Disaster and Famine Assistance (IDFA) account to support 
emergency food security interventions including the procurement and 
distribution of seeds and tools and emergency restocking. IDFA funds 
have also been used for the local procurement of food commodities when 
necessary to prevent life-threatening pipeline breaks in WFP and NGO 
food assistance programming.
    Question. It is our understanding that early fiscal year 2005 
estimates showed a need for U.S. contributions of $1.3 billion to meet 
food emergencies worldwide. As you know, the Congress appropriated 
nearly the full amount requested by the President for the current year 
for both emergency and non-emergency food aid programs. Not counting 
relief related to the South Asia Tsunami, can you describe the level of 
emergency food aid that will be provided in fiscal year 2005 and where 
you expect that assistance will be provided?
    Answer. USAID has budgeted $850 million out of a total Title II 
appropriation of $1.173 billion to meet acute and protracted emergency 
food needs in fiscal year 2005. An estimated $23 million of this amount 
is being used for the Tsunami response. In addition to appropriated 
Title II resources, wheat valued at $172 million was released from the 
Bill Emerson trust in response to the Darfur, Sudan, crisis. Barring 
any adjustments or increases to the Title II operating budget, and 
including Emerson trust resources, USAID anticipates programming $839.1 
million of emergency food assistance in Africa, $124.7 million in Asia 
and the Near East (including response to the Tsunami), $9 million in 
Eastern Europe/Caucasus, and $12.7 million in Latin America and the 
Caribbean. The balance, approximately $37 million, maintains 
prepositioned stocks and USAID's new International Food Relief 
Partnership programs.
    Question. Can you identify areas that will receive reduced or no 
emergency U.S. food aid assistance this fiscal year, but for which the 
need does exist?
    Answer. Thus far in the fiscal year, USAID has been able to respond 
to all verified emergency needs for which an in-kind, Title II response 
was found to be appropriate. USAID is currently in the process of 
determining how to meet increasing requirements projected in the third 
and fourth quarters of the fiscal year.
    Question. Do you think you will request additional draw downs from 
the Bill Emerson Humanitarian Trust this year?
    Answer. USAID anticipates that current U.N. projections of needs in 
the Greater Horn of Africa will be revised significantly upwards in the 
third quarter of the fiscal year. The Agency is working with USDA, NSC, 
and OMB to ensure that the United States is able to respond in the 
timeframe that life-threatening hunger demands. There are no immediate 
plans for a second draw-down from the Emerson Trust.
    Question. I understand that Title II non-emergency programs have 
been cutback to set aside funds for emergencies. Please tell us the 
originally approved amount for Title II non-emergency programs for 
fiscal year 2005 and the amount you now plan to provide to these 
programs.
    Answer. The originally approved budget for Title II non-emergency 
programs for fiscal year 2005 was $432 million. It was reduced to $317 
million to meet food emergency needs in Darfur (Sudan), Southern Sudan, 
Afghanistan and Ethiopia.
    Question. Which regions or countries which were part of the 
original plan will now receive reduced or no assistance?
    Answer. While no Title II non-emergency programs were terminated or 
closed as a result of this reduced budget, start-up of 18 planned, new 
fiscal year 2005 programs was slowed or delayed. In addition, the 
following countries will receive reduced funding, as compared with the 
original plan for fiscal year 2005:
  --Africa--Burkina-Faso, Cape Verde, Ghana, Guinea, Kenya, Madagascar, 
        Malawi, Rwanda, Senegal, Sierra Leone, Uganda.
  --Asia/Eurasia--Bangladesh, India, Tajikistan.
  -- Latin America/Caribbean--Bolivia, Guatemala, Honduras, Nicaragua, 
        Peru.
    Question. The supplemental request provides $150 million for the 
Public Law 480 Title II program. Can you explain how the figure of $150 
million was derived for unmet emergency needs relating to Title II?
    Answer. USAID has estimated that in fiscal year 2005, emergency 
food needs in Sudan alone could exceed 1 million metric tons (MT): 
750,000 MT in Darfur and a further 300,000 MT in the south. Added to 
currently programmed Title II and Emerson resources, $150 million 
(150,000-175,000 MT) will enable USAID to meet approximately half the 
projected needs in Sudan. Further, we have a growing concern about 
Ethiopia, where yet another failed set of rains is once again raising 
the specter of famine.
    Question. What level of food aid is being directed for assistance 
in Afghanistan this year?
    Answer. A total of $58.5 million in Title II resources has been 
allocated to meet emergency requirements in Afghanistan.
    Question. World response to the Tsunami disaster was impressive, 
and other nation as are contributing to a proportionately higher level 
to the WFP appeal for food aid in this instance than they are for other 
recent emergencies, even in areas of highly publicized need such as 
Darfur, Ethiopia, Bangladesh, and other regions. As Secretary of State, 
what role do you intend to play to convince those nations to continue 
the levels of contribution they have provided to Tsunami victims to 
other regions of the world?
    Answer. We are pursuing an initiative within the G8 to increase 
donor food aid levels and agricultural productivity in food insecure 
countries through improved policies, open markets, and use of science 
and technology. For example, the G8 has made significant progress in 
meeting emergency food needs in Ethiopia and other countries in the 
Horn of Africa. Working closely with the Ethiopian Government, the 
World Bank, and other donors, we have agreed on a policy and assistance 
framework that offers a chance to break the cycle of famine. We have 
agreed on a joint response to the crucial problem of raising 
agricultural productivity by increasing the policy-making capacity of 
governments, improving rural infrastructure, harnessing agricultural 
science and technology, and unleashing the power of markets for rural 
producers. We have cooperated closely with the World Food Program (WFP) 
and Food and Agriculture Organization (FAO) to improve global food 
emergency assessment and response systems, ensuring that future food 
aid will flow to the areas that need it most. However, in a climate of 
tighter food aid budgets, regardless of the public outreach and 
diplomatic strategy to gain further support in response to humanitarian 
food aid crises, pipeline breaks will continue. In this regard, the 
United States has been working closely with the WFP to broaden its 
donor base.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein

    Question. This past week I met with (1) Palestinians serving as 
part of the Aspen Institute's Middle East Strategy Group, (2) in my 
office with Palestinian businessmen that have formed a group called the 
Palestinian Business Committee for Peace and Reform and (3) Egyptian 
Foreign Minister Aboulgeit. It is clear to me that we need to deliver 
real economic benefits to the maximum number of Palestinian individuals 
and families as quickly as possible. For these purposes, though, the 
Administration's $200 million aid request for the Palestinians is short 
on specifics. How exactly will these funds be divvied up among ongoing 
USAID and State Department programs such as:
  --USAID's Palestinian Enterprise Revitalization Program aimed at 
        economic growth/job creation in Gaza and the West Bank;
  --State Department's Middle East Partnership Initiative focused on 
        education reform in the Middle East;
  --And others?
    Answer. This $200 million in supplemental assistance for the West 
Bank and Gaza is intended to support reform and expand economic 
opportunities for the Palestinian people. It is urgently necessary 
because the next six months--well before fiscal year 2006 resources 
would be available--will see opportunities for progress unprecedented 
in recent years as regards the peace process: intensified USG 
involvement in strengthening the PA security services, i.e. General 
Ward's mission; completion of Israel's disengagement from Gaza and 
parts of the West Bank (July-September); Palestinian legislative 
elections (mid-July); continuing Palestinian municipal elections (April 
and August); and, ideally, an accelerating process of confidence-
building and improvements on the ground that will strengthen Abu Mazen 
and Palestinian moderates.
    The assistance detailed below will help the Palestinians to address 
key economic and technical issues as they coordinate with Israel to 
ensure successful Gaza disengagement. It will also assist Palestinians 
with institution building, civil society strengthening and 
infrastructure development--necessary foundations for emerging 
democracy. Finally, this assistance will strengthen our arguments to 
regional states that they need to do more in the way of monetary 
assistance to the Palestinians and the PA.
    Question. Might these funds be used to contribute to short and 
long-term U.S. private investment projects (such as the possibility of 
an ``OPIC-Palestinian Investment Fund Trust'' that could help 
microfinance specific projects and increase lending for economic and 
infrastructure development into Gaza and the West Bank)? Please find 
attached a brief description of this idea which I've discussed with 
fellow participants in the Aspen Institute's Middle East Strategy 
Group.
    Answer. Tapping Palestinian diaspora money and international 
private investment will be crucial in revitalizing the Palestinian 
economy. The timing and effectiveness of such assistance is related to 
the pace of progress on Palestinian reforms and the peace process.
    The private sector has an important role to play in Palestinian 
economic revitalization. The private sector has an important role to 
play in Palestinian economic revitalization. We are in interagency 
consultations, including with OPIC, on determining the best vehicle for 
increasing our credit and lending assistance to the Palestinian people 
and ensuring this effort is coordinated in the context of our overall 
policy on assisting Palestinian economic recovery.
    Question. Will funds be distributed only through U.S. 
Nongovernmental Organizations? Or will Palestinian NGOs receive funds 
(such as the Welfare Association, for example, which helps Palestinian 
families pay educational fees for their children and contributes 
funding to improving Palestinian economic and civil society)?
    Answer. Assistance will not be provided directly to the PA but will 
be channeled primarily through existing mechanisms, including United 
States, Palestinian, and international NGOs.
    Question. On a larger policy question, will the State Department 
and FBI step up efforts to investigate the deaths of the three USAID 
contractors in Gaza? Specifically, can the FBI send representatives to 
meet with Muhammad Dahlan to highlight the importance of these 
unresolved cases? Apparently Abu Mazen raised this directly with you 
during your recent visit to the region, in recognition of the fact that 
some sort of resolution of the case is necessary so that the suspension 
on USAID activities can be lifted.
    Answer. We are very encouraged by the initial steps that the 
Palestinian leadership has taken on security, toward the restoration of 
law and order, and in establishing the basis for a cease-fire. 
Nevertheless, we have made clear to President Abbas the need for the 
Palestinian Authority to bring to justice those who murdered three 
American Personnel in Gaza in 2003. President Abbas has affirmed to us 
the PA's commitment to follow through on this issue, and we are 
continuing to emphasize its importance in our meetings with the 
Palestinian Authority.
    Question. The Administration has requested $200 million for a 
Global War on Terror Partners Fund. The funds will be allocated by the 
President ``to countries in need of a timely infusion of economic 
assistance for their support for the Global War on Terror.'' It seems 
to me, that Congress will have no role to play in determining how the 
funds will be spent and, once again, the Administration is asking the 
elected representatives of the American people to ``just trust us.''
    Will the President have the sole authority to determine which 
countries receive funding and how much? Why does the money not go 
through the State Department?
    Answer. Funds may be used for countries with respect to which the 
President has determined that furnishing economic assistance to these 
partners support the Global War on Terror. These funds will help 
strengthen the capabilities of our partners to advance democracy and 
stability around the world. These funds shall be considered to be 
economic assistance under the Foreign Assistance Act and as 
contemplated in the provision will be administered by the Secretary of 
State.
    Question. What is the request being made now? Why not go through 
the regular appropriations process?
    Answer. While many of our coalition partners have the ability to 
shoulder the costs of troop contributions and other support 
requirements, many other of our partners in freedom have limited 
national budgets to offset these costs. In many cases, these willing 
allies are faced with constrained budget resources while at the same 
time facing a growing demand from their citizens for increased social 
spending. Thus, this Fund reflects the principle that an investment in 
a partner in freedom today will help ensure that America will stand 
united with stronger partners in the future. The criticality of these 
funds is to ensure that we:
  --Support the broader strategy against terrorism.
  --Prevent/diminish economic and political dislocation that threatens 
        security of key friends and allies.
  --Promote economic growth, good governance and democracy; mitigating 
        root cause of terrorism.
  --Offset budget costs associated with troop contributions that would 
        otherwise support increasing civil demands for social programs.
  --Programs may include:
    --Enhanced support for border security units and improving 
            interdiction and enforcement infrastructure of 
            counternarcotics units
    --Accelerate training and equipping border personnel to prevent 
            illegal migration, smuggling of goods, narcotics 
            trafficking and transiting of terrorists.
    Foreign assistance is in important ways the flip side of the 
national security coin. What we do now hastens the day our troops can 
depart Afghanistan and Iraq. It supports the involvement of other 
nation's troops in crises so that ours don't need to be there, and 
helps consolidate opportunities for reform and democratization to 
prevent future crises.
    Question. How will the funds be spent? Which countries will be 
selected and what are the ``priority'' projects?
    Answer. Funds will be allocated to countries based on a 
determination by the President that a timely infusion of economic 
assistance for such countries will support the Global War on Terror. 
Please see question 6 above the types of projects anticipated to be 
implemented with these funds.
    Question. What criteria will the President use? What assurances 
will he seek to ensure that the funds are spent wisely and effectively?
    Answer. Many of our coalition partners have the ability to shoulder 
the costs of troop contributions and other support requirements, 
however, many other of them have limited national budgets to offset 
these costs. In many cases, these willing allies are faced with 
constrained budget resources while at the same time facing a growing 
demand from their citizens for increased social spending. The criteria 
will be based on need. For example, coalition partners that require 
assistance to address domestic shortfalls such as those noted above, 
which are all key elements of our partners' abilities to conduct the 
Global War on Terror.
    Question. Will he ensure that funds are not allocated to countries 
with questionable human rights records? Again, what criteria will he 
use?
    Answer. We carefully consider beneficiary countries human rights 
conduct in shaping our policy, conducting diplomacy and specifically, 
making assistance decisions. This same process and careful policy 
considerations will be used in developing assistance recommendations.
    Question. What role is there for Congress to provide meaningful 
oversight? Will congress be notified when funds are distributed?
    Answer. These funds shall be considered to be economic assistance 
under the Foreign Assistance Act and as such, and as contemplated in 
the provision will be administered by the Secretary of State. Since 
these funds would not have been justified in our annual Foreign 
Operations Congressional Budget Justification, funds would then be 
subject to Section 634A--Notification of Program Changes--of the 
Foreign Assistance Act requiring a 15-day notification prior to 
obligation.
    Question. Will assistance be provided directly to the Palestinian 
Authority? How will USAID or international Non-governmental 
organizations (NGOs) be involved?
    Answer. We do not have any plans to provide direct budgetary 
support to the PA at this time, and assistance will be channeled 
through NGOs using existing mechanisms. While we do not have plans to 
provide direct budgetary support, we would like to keep the option 
available, particularly in light of the PA's estimated $500 million 
budget gap for 2005. We are encouraging others, including Arab states, 
to contribute to the PA in order to mitigate this budgetary shortfall.
    Question. What conditions, if any, will the Administration set for 
distributing the funds? What steps will the Administration take to 
ensure that the funds are spent wisely and effectively and that they go 
to the people who need it?
    Answer. USG assistance is not provided directly to the PA but is 
channeled primarily through existing mechanisms, including United 
States, Palestinian, and international NGOs. Since 1995, the GAO has 
conducted five separate program reviews, one each in 1995, 1996, 1997, 
1998, and 2003. None of these reviews has reported any irregularities 
in the management or controls of ESF funds by USAID or its contractors 
and grantees. Since then, the USAID Mission has developed a 
comprehensive risk assessment strategy. All Mission institutional 
contracts and grants--of which there are approximately 100--are audited 
on an annual basis by local accounting firms under the guidance and 
direction of USAID's Inspector General.
    This package of aid is designed to make an impact, both immediately 
and in the long-term, on the lives of Palestinians, and to support the 
PA as it continues its reform efforts. The $200 million in supplemental 
assistance for the West Bank and Gaza is intended to support reform and 
expand economic opportunities for the Palestinian people. It is 
urgently necessary because the next six months--well before fiscal year 
2006 resources would be available--will see opportunities for progress 
unprecedented in recent years as regards the peace process: intensified 
USG involvement in strengthening the PA security services, i.e. General 
Ward's mission; completion of Israel's disengagement from Gaza and 
parts of the West Bank (July-September); Palestinian legislative 
elections (mid-July); continuing Palestinian municipal elections (April 
and August); and, ideally, an accelerating process of confidence-
building and improvements on the ground that will strengthen Abu Mazen 
and Palestinian moderates.
    The assistance will help the Palestinians to address key economic 
and technical issues as they coordinate with Israel to ensure 
successful Gaza disengagement. It will also assist Palestinians with 
institution building, civil society strengthening and infrastructure 
development--necessary foundations for emerging democracy. Much of the 
assistance is targeted to help the PA provide services that Hamas 
currently provides, particularly in Gaza. Finally, this assistance will 
strengthen our arguments to regional states that they need to do more 
in the way of monetary assistance to the Palestinians and the PA.
    The U.S. Government, working through USAID, maintains close 
accounting of all USG funds, and we have confidence in the fiscal 
accountability and transparency established by the PA. Working with the 
full range of agencies and resources available at Embassy Tel Aviv and 
Consulate General Jerusalem, USAID carries out background checks on all 
Palestinian NGOs that are recipients of funds to ensure there are no 
links to terrorist organizations or to organizations that advocate or 
practice violence.
    Question. What are the priorities? What areas require immediate 
attention and resources? How will the funds bring Palestinian and 
Israeli businessmen together?
    Answer. The Administration will seek $200 million in program 
assistance via the fiscal year 2005 Supplemental Appropriation to 
support reform and expand economic opportunities for the Palestinian 
people. Over the next six months--well before fiscal year 2006 
resources would be available--we will see opportunities for progress in 
the peace process that are unprecedented in recent years: intensified 
USG involvement in strengthening the PA security services (i.e., 
General Ward's mission); completion of Israel's disengagement from Gaza 
and parts of the West Bank (July-September); Palestinian legislative 
elections (mid-July); continuing Palestinian municipal elections (April 
and August); and, ideally, an accelerating process of confidence-
building and improvements on the ground that will strengthen Abu Mazen 
and the Palestinian Authority. Key priorities include: addressing the 
economic and technical issues identified by the World Bank as the 
Palestinians coordinate with Israel to ensure successful Gaza 
disengagement; assisting Palestinians to build institutions, strengthen 
civil society, and develop infrastructure--necessary foundations for 
emerging democracy; and strengthening the rule of law so as to help 
create an investment-friendly economic environment.
    In order to assist the Palestinian private sector generally, 
including increasing its capacity to do business with Israeli 
counterparts, we will work with other donors and the World Bank to 
encourage increased international private-sector investment and support 
efforts to hold a private sector business and investment event by the 
summer of 2005. At the same time, we will look for ways to assist the 
Palestinian private sector as the PA moves forward with reform and 
Israel proceeds with disengagement.
    Among the anticipated uses of the supplemental are: $50 million to 
improve the flow of people and goods into and out of the West Bank and 
Gaza; $15 million to support Palestinian agriculture/agribusiness; and 
$23 million for trade promotion and capacity building to enable access 
to international markets.
    Question. In your view, is the Palestinian Authority prepared to 
reform its educational curricula to eliminate extremist religious 
messages and end incitement and hatred of Israel?
    Answer. The Administration has been very clear that all Arab states 
must work to end incitement in their media and stop their support for 
extremist education. To date, the Palestinian Authority has made a 
significant effort to revise textbooks used by Palestinian students, 
but more needs to be done. Since 2002, we have provided grant aid to 
The Israel-Palestine Center for Research and Information (IPCRI) to 
evaluate the content of new textbooks and develop materials for use in 
teaching peace and tolerance. IPCRI's reports indicate the areas in 
which PA curriculum needs to improve, and we will continue to monitor 
and raise this issue with the PA.
    In the broader context of combating incitement, we are witnessing 
efforts by the Palestinian Authority that were previously unseen, 
including the reforming of their security forces, efforts to get people 
off the streets with weapons, and the approval of a new Palestinian 
cabinet. President Abbas's strong condemnation of the February 25 
terrorist attack in Tel Aviv and the efforts of the Palestinian people 
to create democratic institutions--evident from their strong turnout in 
the January 9 Palestinian Presidential elections--are positive steps 
that indicate a willingness to turn away from violence and embrace 
liberty and peace.
    Question. How much do our coalition partners spend on their own 
participation in Iraq and Afghanistan? What is the U.S. contribution 
and percentage of overall costs?
    Answer. Our coalition partners from affluent countries pay all the 
costs associated with their participation in Iraq and Afghanistan. The 
United States only provides assistance to countries for which such 
assistance is an absolute financial necessity. For those nations, the 
United States often provides strategic lift (i.e., transportation to 
and from the region), sustainment (i.e., consumables such as food, 
water, fuel and ammunition), and certain items of individual soldier 
equipment (e.g., desert pattern uniforms, flack jackets, helmets, 
boots, etc.). This assistance still leaves every coalition partner 
responsible for a significant set of financial obligations, including 
soldier salaries, benefits and insurance and the depreciation and 
recapitalization of all nationally owned equipment such as weapons, 
vehicles, communications gear, etc. As a result, a significant share of 
the financial burden remains with our coalition partners. As a concrete 
example, the Polish government estimates it has spent over $409 million 
in support of its operations in Iraq thus far, in addition to other 
bilateral contributions and assistance they have provided to the Iraqi 
government and people. All of our coalition partners sustain 
significant expenses to stand with us in Iraq and Afghanistan, 
relieving the U.S. taxpayer of those financial burdens.
    Question. If the United States did not subsidize the costs of our 
partners' participation, would they withdraw their troops? Who would 
stay and who would go?
    Answer. The United States provides assistance only to countries for 
which such assistance is a financial necessity. This support enables 
participation in Iraq or Afghanistan by nations that possess the 
political will, but lack the financial means. Based on the conditions 
under which this support is provided, it is logical to assume that some 
recipient countries would be forced to significantly reduce or 
completely withdraw their forces if U.S. assistance were not 
forthcoming.
    Question. Do we really have coalitions of the willing in Iraq and 
Afghanistan if the American taxpayer is paying the bill for the 
participation of our allies?
    Answer. While the United States assists some of our coalition 
partners with a portion of their deployment costs, to characterize 
their participation as anything other than ``willing'' would demean 
their contributions and sacrifices. The lift and sustainment support 
that the United States provides to less-wealthy coalition partners 
still leaves them with significant financial burdens. Moreover, their 
soldiers assume many of the same physical risks run by American service 
personnel. To date, coalition partners have suffered 136 KIAs, and 389 
WIAs. U.S. assistance enables the participation of countries that would 
not otherwise have the financial means equal to their political will.
    The United States has a proud tradition, reaching back to WWII and 
beyond, of using our status as one of the world's largest industrial 
economies to help supply our allies when needed. Many of our coalition 
partners have only in recent memory won their own struggles against 
dictatorship and tyranny, and want very much to help the people of Iraq 
and Afghanistan secure the same freedoms. Many of them are also still 
working to achieve economic prosperity for their own citizens, making 
their financial sacrifices all the more significant, despite U.S. 
assistance. The United States can be proud to have partners who share 
our vision of a secure and democratic future for Iraq and Afghanistan.
    Question. What steps has the Administration taken and plan to take 
to ensure that members of the coalition will assume a greater financial 
burden for their own troops?
    Answer. Every time a new troop contributor comes forward, or when a 
current coalition partner decides to deploy additional troops, 
military-to-military discussions take place to work out such details as 
timing and location of the deployment, equipment requirements, 
logistical support, financial costs, etc. The United States does not 
offer assistance to Coalition partners that do not require it. When 
offered, this support does not come close to covering all of our 
partners' deployment costs. However, it is often the key enabler that 
allows a country to contribute forces, or more forces than it could 
otherwise afford to deploy. While we believe that the amount of 
assistance given to a country is, in all cases, the required amount 
that will enable that nation to deploy its troops, we have sought to 
alleviate even this minimum financial burden on the U.S. taxpayer. We 
have worked with our European allies to establish a U.N. Trust Fund to 
pay the salaries of nations contributing to the tough task of 
protecting the United Nations in Iraq. We have worked with our NATO 
allies to provide all finances required to resource the NATO Training 
Mission. And we will continue to work with the international community 
to appropriately share future costs.
    Question. Does the Administration anticipate assistance from 
outside the coalition?
    Answer. We are already seeing significant financial contributions 
from our wealthier coalition partners, as well as countries that are 
not currently troop contributors. For example, in addition to troops, 
14 countries have pledged over $20 million thus far to fund ``middle 
ring'' security for the United Nations in Iraq; half of the 
contributions are from non-troop contributing countries. The NATO 
Training Mission--Iraq (NTM-I) is also benefiting from financial as 
well as troop contributions. To date over $6 million has been pledged 
to a recently established NATO trust fund in support of training for 
Iraqi Security Forces. All 26 NATO members have now pledged personnel, 
equipment, financial assistance or some combination of these to NTM-I.
    In addition to contributions that relate directly to Iraq's 
security needs, international donor governments (not including the 
United States) have pledged a total of $8 billion for Iraq's 
reconstruction requirements over the four years of 2004-2007, of which 
$2.2 billion have already been disbursed. For Afghanistan, $13 billion 
has been pledged to aid reconstruction. Finally, in support of Iraq's 
long-term economic well-being, 17 countries have agreed to provide 
approximately $27 billion in debt relief through the Paris Club, again 
including many non-troop contributors. These contributions directly 
impact expenses incurred by the United States as we seek to establish a 
secure, democratic and prosperous future for the Afghan and Iraqi 
people.
    Question. What steps is the Administration taking to ensure 
adequate Sunni representation in the new government and the drafting of 
a new constitution?
    Answer. Most of the major Iraqi political parties that will be 
represented in the Transitional National Assembly have publicly 
signaled their intention to include Arab Sunnis in the Iraqi 
Transitional Government and ensure that the views of all Iraq's 
communities are reflected in the drafting of Iraq's permanent 
constitution. The United States supports these efforts at outreach, and 
we continue to underscore our commitment to a pluralist Iraq with broad 
and inclusive political participation in our regular dialogue with 
Iraqi leaders. The USG has also provided training opportunities to all 
Iraqi political parties, representing all ethnicities and sects, 
through the National Democratic Institute and the International 
Republic Institute.
    We are encouraged that prominent Arab Sunnis such as Muhsin Abdul 
Hamid of the Iraqi Islamic Party and Adnan Pachachi of the Iraqi 
Democratic Gathering have declared their intent to remain involved in 
Iraq's political process and the drafting of a permanent constitution. 
We believe this trend towards broader participation in the political 
process will continue as the Transitional National Assembly convenes 
and the drafting of a permanent constitution begins.
    It is also important to note that Iraqis will go to the polls twice 
more in 2005, first to participate in the constitutional referendum and 
then to elect a constitutionally-based government. Iraq's continuing 
political process represents an opportunity for all groups within Iraq 
to help shape their country's future. The United States will continue 
to work with the Iraqi Government to ensure that as many Iraqis as 
possible seize this opportunity.
    Question. How concerned are you about the level of Iranian 
influence in a Shia dominated National Assembly and Government? Will 
Iraq become another Islamic Republic? How will the constitution handle 
the role of Islam in Iraqi society and government?
    Answer. Iraqis--of all religious identities and ethnicities--are a 
proud and an independent people; I believe it is unlikely that the 
Iranian government would be able to dominate an Iraqi government. The 
United States supports Prime Minister Allawi's call to respect Iraq's 
sovereignty and urges all states, particularly those neighboring Iraq, 
to cease interference in Iraq's internal politics and support the 
development of democratic norms and institutions.
    Iraqis alone will determine the contents of their constitution, and 
it is too early to tell now exactly how they will deal with the role of 
religion. I am pleased, though, that diverse Iraqi leaders, including 
those that fared well in the elections, have made statements calling 
for an inclusive government and society.
    I assure you that the United States will continue to support in 
Iraq--as it does throughout the world--democracy and strong legal and 
institutional protections for the rule of law and human rights, 
including the rights of women, due process, religious freedom, and 
other fundamental freedoms. The language that Iraqi leaders included in 
the Transitional Administrative Law in this regard was excellent, and I 
am confident that the TNA will conclude that it is in the interest of 
the Iraqi nation to include similar strong protections in the 
constitution.
    Question. What are the most urgent and pressing needs related to 
tsunami relief?
    Answer. Coordinating reconstruction efforts is a high priority as 
there are so many different organizations already involved or who want 
to be involved. Minimizing duplication of efforts and matching donors 
with projects is a challenge as so much should be done simultaneously. 
As governments and the donors want to integrate reconstruction with 
longer-term development and poverty reduction, reconstruction then 
means tackling difficult questions such as land use in coastal zones 
and property ownership.
    Ensuring accountability and transparency for how funds are spent is 
essential. The donor community will want to see that funds reach those 
in need in an expeditious fashion but that they are carefully spent. 
Having mechanisms in place to monitor how funds are spent will be 
important.
    Question. What are the long-term goals? Do you anticipate 
requesting additional assistance in future years?
    Answer. The long-term goals are to assist the tsunami-affected 
countries in rebuilding infrastructure and damaged economies in a 
manner that advances longer-term development, poverty reduction, and 
strengthens U.S. relations with the affected countries.
    The international outpouring of assistance to tsunami victims has 
been truly remarkable. As of February 8, USAID reports that over $7.8 
billion has been pledged in bilateral aid, as well as from multilateral 
development banks. Private sector fundraising continues and recent 
reports indicate over $2.9 billion has been raised from those sources.
    Early damage assessments indicate reconstruction costs will be 
between $1.5-$2 billion in Sri Lanka, between $3.5-$4.5 billion in 
Indonesia and over $300 million for the Maldives. India has announced 
plans for a $2.3 billion reconstruction program and expressed interest 
in World Bank support. Thailand has not requested international 
financial assistance, but has asked for U.S. technical assistance. 
While there may be some upward revision of these figures as full needs 
assessments are finalized, we do not anticipate significant changes. 
Given the resources already pledged, we do not anticipate any further 
U.S. funding beyond the President's $950 million request.
    Question. How will the Administration coordinate relief efforts 
with our friends and allies in the international community, the United 
Nations, and groups such as the Red Cross?
    Answer. The outpouring of donor assistance to tsunami victims has 
been truly remarkable. Donor and recipient governments all recognize 
that all must coordinate efforts in order to ensure assistance is used 
effectively. Such coordination includes working with the World Bank, 
Asian Development Bank, and the United Nations to develop coordinated 
needs assessments, communicating among donors about our plans and 
resources, and working with recipients to respond to their needs and 
priorities. Given the substantial role of corporate donations and non-
governmental organizations in tsunami relief and reconstruction, these 
groups should be incorporated early in all aspects of coordination.
    The State Department, working closely with USAID, has the lead to 
work with affected countries and the international community to 
coordinate U.S. assistance. We are also working to insure that key 
NGO's and private sector donors are included in this process. 
Ambassador Douglas A. Hartwick has been designated as the Senior 
Coordinator for Tsunami Reconstruction, and is leading this effort. We 
are reaching out to recipient countries and our international partners 
to make sure that the resources the United States and others are 
providing will reach tsunami victims swiftly and effectively.
    Question. Have you considered possible tariff relief for affected 
countries to allow greater access to the U.S. market for selected 
exports?
    Answer. We have been in active consultations with affected 
countries' trade ministries to discuss ways to help facilitate 
reconstruction efforts, and will be consulting with domestic 
stakeholders and with the Congress as this process continues. We have 
stressed in discussions that possible tariff relief measures other than 
adjustments under the U.S. Generalized System of Preferences require 
legislation.
    Question. How did the Administration arrive at such a figure? What 
are the most expensive components of the new embassy?
    Answer. The cost of the New Embassy Compound (NEC) ($658 million) 
is derived from projected staffing and unique building conditions in 
Baghdad. The cost is in line with other OBO construction when the 
unique circumstances of Baghdad are removed. The total cost of the NEC 
reflects the size of the mission population, special security features, 
e.g. pre-detonation roofs on the office buildings and housing, upgrades 
to the windows on the housing units, blast protection, and some 
additional costs due to the risks involved with construction in Iraq.
    The NEC cost estimates are based on a requirement to construct a 
Chancery, Public Annex, multi-purpose swing space, and a Support Annex 
for 767 desk positions, 343 housing units, support facilities and 
utility systems, with the appropriate compound perimeter security 
necessary for a 104-acre site. A typical NEC does not include on-site 
employee housing or a utility plant, and is constructed on a site of 
approximately 10-acres. However, this large site, acquired at no cost, 
allows for more security setback, simultaneous construction on a fast 
track, and greater flexibility for this mission in the future (i.e., 
scalability).
    Question. Will there be open and public bidding for the contracts?
    Answer. Yes, full and open competition will be used in the 
selection of the design/build construction contractor, subject to the 
preference for U.S. firms required by the Foreign Service Buildings Act 
and the Diplomatic Security Act.
                                 ______
                                 
            Questions Submitted by Senator Mary L. Landrieu

    Question. Can you tell me, what is the U.S. policy on re-unifying 
children with their families and on adoption?
    Answer. U.S. policy, and the international standard in a crisis, is 
to keep children as close to their surviving parents and family members 
as possible. It can be extremely difficult to determine whether 
children whose parents are missing are truly orphans while efforts to 
locate missing persons are still underway. This was especially true in 
the aftermath of the tsunami, as many children were separated from one 
or both of their parents. Even when children are indeed orphaned, they 
are often taken in by other relatives. Staying with relatives in 
extended family units is recognized as a generally better solution than 
uprooting the child completely.
    We believe that permanent family placement through intercountry 
adoption is in the best interests of a child when domestic adoption is 
not possible. Consistent with international treaties, we view 
intercountry adoption as a far better solution for children than long-
term institutionalization. Unfortunately, it may be many months before 
the situation in those countries affected by the tsunami stabilizes to 
the point where it will be possible to identify children who are 
legitimate orphans in need of intercountry adoption. If and when these 
countries decide that these orphans are in need of a permanent 
placement through international adoption, the Department will work 
promptly to assist American citizens that may wish to pursue adoption 
proceedings for these children. None of the countries affected by the 
tsunami prohibit intercountry adoptions to the United States.
    Question. And, if that is the case, what are you doing to ensure 
that these policies are being reflected in the field?
    Answer. The United States, as part of the international community 
responding to the tragedy of the tsunami, works closely with the 
governments of the affected countries; with other donor countries; and 
with the various relief agencies involved to ensure that all adhere to 
international standards on the protection of children and their 
reunification, if possible, with family members.
    Soon after the tsunami struck, the Department of State issued a 
notice in response to the many calls we received from compassionate 
Americans wanting to adopt children from tsunami-stricken regions. The 
notice advised concerned American citizens of the critical importance 
of reunifying children with their families, even as we help these 
families rebuild their communities.
     The emphasis of efforts by the U.S. government and our NGO 
partners is to provide relief assistance and protection to victims of 
the tsunami, including children, in their home countries. Our concern 
must be to address the immediate needs of tsunami victims, including 
their need for food, shelter, clothing, counseling, and medical care, 
and their reunification with family members. We believe our 
international efforts must remain focused on these and other recovery 
efforts. We note that other donor governments have the same policy.
    Question. We have seen some encouraging stories on children being 
reunited with their parents in the aftermath of the tsunami. What 
support is our government giving to work with the organizations that 
are coordinating these tracing and reunification efforts? Are you 
working with the governments of these countries to build their capacity 
to do this sort of work?
    As a result of the Asian tsunami, children have not only been 
exposed to a lack of basic necessities such as food, clothing, and 
shelter, they also face a disruption of their social structures. Many 
children are separated from their families. Many can't go to school as 
they normally would. Children may not even have a safe place to play. 
To help children recover from the deep psychological and social trauma 
caused by the tsunami, we must provide them with the interventions 
necessary to regain normalcy in their lives. I am aware that some 
international NGO's are working to provide interventions to address 
these needs through programs that offer children protection from 
psychosocial distress, family separation, and the denial of access to 
education.
    Answer. The United States is working closely with governments of 
the affected countries, as well as with the various relief 
organizations and NGOs, to provide relief assistance and protection to 
victims of the tsunami, including children. We strongly believe that 
reunification with family members is a high priority and are working to 
ensure that all adhere to international standards on the protection of 
children. Various NGOs, including the American Red Cross, have been 
taking the lead in helping tsunami-affected governments in terms of 
restoring family links and fostering reunification. We have supported 
governments' efforts to prevent trafficking in persons in the tsunami-
affected region. We will certainly give serious consideration to any 
request for capacity building, as the governments identify their future 
needs, as well as reinforcing our ongoing programs already at work in 
the region.
    Question. What type of assistance is our government providing to 
carry out these child protection programs? Is there funding 
specifically dedicated to these purposes? How many of the DART 
(Disaster Assistance Response Teams) have qualifications and ``know 
how'' in child protection?
    Answer. USAID is supporting child protection programs in several 
areas, including reunification, creation of ``safe spaces'' for 
children, and support for rapid resumption of education. The Tsunami 
DART has identified needs, and recommended non-governmental 
organization (NGO) and international organization (IO) activities for 
funding, based on review by USAID protection officers. Two DART team 
members have protection experience, with children and other vulnerable 
groups. In addition, USAID maintains at least two additional dedicated 
human rights/protection officers available to review proposals and to 
provide guidance to the DART. Given the enormity of protection issues 
in the context of the tsunami and other global disasters, USAID is 
expanding its protection capabilities, including implementation of a 
course on internally displaced persons (IDPs) and protection to provide 
training for all personnel involved in disaster relief.
    USAID is giving support to the work of NGOs and IOs to register, 
trace, and reunify affected children in the tsunami-affected countries. 
In Indonesia, USAID has provided support to UNICEF, the International 
Rescue Committee (IRC) and the Christian Children's Fund (CCF), who are 
all involved in the tracing and reunification effort in Aceh province. 
Similar support is being provided to UNICEF in Sri Lanka.
    USAID is also supporting the work of organizations that are 
carrying out interventions to mitigate the psychological trauma of the 
tsunami, including education programs and the creation of ``safe 
spaces'' for children. USAID has provided over $5 million in funding to 
support the work of organizations that provide psychological and social 
support interventions for survivors of the tsunami in India, Sri Lanka, 
and Indonesia. We have given particular attention to the needs of 
children and are supporting several organizations that are facilitating 
structured activities for children and adolescents, often through 
child-centered ``safe spaces''. Such activities help large numbers of 
children assert control over their environment, build emotional and 
social skills that are critical to recovery, and regain a sense of 
normalcy. These approaches also allow trained adults to identify 
children who may be in more severe distress and in need of additional 
forms of support. These activities are being implemented in IDP 
settlements and tsunami-affected communities alike. Additionally, child 
protection committees have been formed. These committees oversee the 
activities in child centered spaces and are a mechanism for monitoring 
the status of children in the future.
    In both Sri Lanka and Indonesia, USAID support has been provided 
for the rapid resumption of education including funding for ``school-
in-a-box'' kits. NGO partners will soon be commencing training with and 
support for teachers. The purpose of this training is two-fold: (1) to 
help them manage their distress so that they are ready to resume their 
important role in the classroom; and (2) to educate them on common 
responses that children may be experiencing so that they are better 
prepared to manage children in the classroom. Resumption of normal 
activities is vital to psychological and social recovery. To this end, 
USAID is also funding cash-for-work and livelihood support programs, 
which have critical secondary benefits in mitigating the psychological 
and social consequences of the tsunami on children.
    Question. Can you explain to me why there is such a significant 
delay in getting the necessary funding to these international NGO's and 
what you plan to do to address this in future disasters?
    Answer. Given the magnitude of the tragedy, the U.S. government has 
moved quickly to work with tsunami-affected governments, NGOs and the 
private sector to speed assistance to those in need. Within the first 
week after the tsunami struck, USAID had programmed $30 million in 
immediate relief assistance to non-governmental organizations (NGOs) 
and international organizations (IOs) including the United Nations 
Children's Fund (UNICEF), the World Food Program (WFP), the 
International Organization for Migration (IOM), the International 
Federation of the Red Cross (IFRC), and local Red Cross and Red 
Crescent societies in the region. As of the end of February 2005, USAID 
has programmed over $110 million in emergency humanitarian assistance. 
The focus in the immediate relief phase was on providing support to 
NGOs and IOs for programs in health care, water and sanitation, 
shelter, rehabilitation, and provision of emergency relief supplies.
    As we await final action on the fiscal year 2005 supplemental bill, 
our Embassies in tsunami-affected countries are coordinating with NGOs 
on preparing tsunami reconstruction project plans so that as soon as 
funds become available, we can speed disbursement.
    Question. Recent reports from the disaster-affected areas of South 
Asia have highlighted reports of rape and potential exploitation of 
children. In many crises across the globe, women and children are 
disproportionately affected by gender-based violence and exploitation. 
What steps or specific measures has your agency taken to document 
reports of physical harm including abduction, abuse, rape, 
exploitation, trafficking, recruitment into armed conflict, or any 
other violation of human rights? How does your agency plan to use this 
information?
    Answer. The Department of State has taken the following steps to 
document reports of trafficking, reports of abduction, rape, and 
exploitation:
  --Sent a cable to our embassies and USAID missions in the region 
        urging engagement with governments and NGOs and requesting 
        feedback on the veracity of reports of trafficking, abduction, 
        abuse, etc. following the tsunami.
  --Transmitted a mass-email to NGOs and other anti-trafficking 
        partners around the world requesting safety precautions such as 
        warning vulnerable people of trafficking schemes; training and 
        monitoring of temporary relief workers; and registration of and 
        security for people most vulnerable to trafficking and 
        exploitation.
  --Contacted NGOs on the ground such as UNICEF, World Vision, and IOM 
        to get solid information on trafficking in the affected 
        countries, to confirm any cases, and to determine whether 
        trafficking-related projects are needed.

                         CONCLUSION OF HEARINGS

    Secretary Rice. Thank you very much. And thank you to 
members of the committee. I look forward to working with you.
    Chairman Cochran. The hearing is recessed.
    [Whereupon, at 12:29 p.m., Thursday, February 17, the 
hearings were concluded, and the committee was recessed, to 
reconvene subject to the call of the Chair.]

                                   - 

</pre></body></html>
